<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2018 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 115-448, Part 7]
[From the U.S. Government Publishing Office]


                         



                                                 S. Hrg. 115-448, Pt. 7
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1519

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2018 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 7

                            STRATEGIC FORCES

                               __________

                        MAY 17, 24; JUNE 7, 2017

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         



       Available via the World Wide Web: http://www.govinfo.gov/
       
       
                              _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
35-942 PDF                WASHINGTON : 2019             




                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman       JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma              BILL NELSON, Florida
ROGER F. WICKER, Mississippi           CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska                  JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                   KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota              RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                       JOE DONNELLY, Indiana
THOM TILLIS, North Carolina            MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                   TIM KAINE, Virginia
DAVID PERDUE, Georgia                  ANGUS S. KING, JR., Maine
TED CRUZ, Texas                        MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina         ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska                    GARY C. PETERS, Michigan
LUTHER STRANGE, Alabama              
                             
                                     
                      Christian D. Brose, Staff Director
                   Elizabeth L. King, Minority Staff Director            



                    Subcommittee on Strategic Forces

 DEB FISCHER, Nebraska, Chairman      JOE DONNELLY, Indiana
JAMES M. INHOFE, Oklahoma             MARTIN HEINRICH, New Mexico
TOM COTTON, Arkansas                  ELIZABETH WARREN, Massachusetts
DAN SULLIVAN, Alaska                  GARY C. PETERS, Michigan
TED CRUZ, Texas
LINDSEY GRAHAM, South Carolina       
                                     
                                     
                                     

                                  (ii)


                           C O N T E N T S

                               ________

                              May 17, 2017

                                                                   Page

Military Space Organization, Policy, and Programs................     1

Wilson, Honorable Heather A., Secretary of the Air Force,             3
  Accompanied by General David L. Goldfein, USAF, Chief of Staff 
  of the Air Force; General John W. Raymond, USAF, Commander, Air 
  Force Space Command;
  Lieutenant General Samuel A. Greaves, USAF, Commander, Space 
  and Missile Systems Center, Air Force Space Command; Cristina 
  T. Chaplain, Director of Acquisition and Sourcing Management, 
  Government Accountability Office.
Goldfein, General David L., USAF, Chief of Staff of the Air Force     4

Questions for the Record.........................................    32

                              May 24, 2017

The Department of Energy's Atomic Energy Defense Activities and      45
  Programs.

Klotz, Honorable Frank G., Under Secretary for Nuclear Security,     47
  Department of Energy.
Cange, Susan M., Acting Assistant Secretary of Energy for            55
  Environmental Management, Department of Energy.
Caldwell, Admiral James F., Jr., USN, Deputy Administrator for       61
  Naval Reactors, National Nuclear Security Administration.
Trimble, David C., Director, Natural Resources and Environment,      65
  Government Accountability Office.

Questions for the Record.........................................   115

                              June 7, 2017

Nuclear Acquisition Programs and the Nuclear Doctrine............   127

Rand, General Robin, USAF, Commander, Air Force Global Strike       129
  Command.
MacStravic, James A., Performing the Duties of Under Secretary of   136
  Defense for Acquisition, Technology and Logistics.
Soofer, Robert M., Ph.D., Deputy Assistant Secretary of Defense     141
  for Nuclear and Missile Defense Policy.
Benedict, Vice Admiral Terry J., USN, Director, Strategic Systems   145
  Programs.

Questions for the Record.........................................   171

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        WEDNESDAY, MAY 17, 2017

                           U.S. Senate,    
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

           MILITARY SPACE ORGANIZATION, POLICY, AND PROGRAMS

    The subcommittee met, pursuant to notice, at 2:00 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Deb 
Fischer (chairman of the subcommittee) presiding.
    Present: Senators Fischer, Cotton, Sullivan, Cruz, Rounds, 
Donnelly, Heinrich, Warren, and Peters.

            OPENING STATEMENT OF SENATOR DEB FISCHER

    Senator Fischer. Good afternoon and welcome. The hearing 
will come to order.
    The committee meets today to receive testimony on space 
organization, policy, and programs. I would like to thank the 
very distinguished panel of witnesses for agreeing to testify 
before us today.
    Space-based capabilities are integral to the way our 
military operates and our society functions. As previous 
hearings in this subcommittee have documented, our adversaries 
are developing increasingly sophisticated ways to attack U.S. 
space assets and exploit the domain for their own purposes.
    General Hyten, General Raymond's predecessor and the 
current STRATCOM [Strategic Command] commander, told us just 
last month that space is a warfighting domain just like air, 
ground, maritime, and cyber, and we must normalize how we plan 
and operate in space.
    This new environment requires a flexible and an innovative 
military space enterprise capable of overcoming an ever-
changing threat picture and rapidly delivering capabilities to 
the warfighter. However, the work of numerous reviews and 
commissions suggests there is a deep gap between the space 
enterprise that we need and the one that we have.
    For example, the Rumsfeld Commission concluded in 2001 that 
the Department of Defense is not yet arranged or focused to 
meet the national security space needs of the 21st Century. 
More recently, a study by the GAO [Government Accountability 
Office] directed by this subcommittee in 2015 concluded that 
DOD [Department of Defense] space leadership responsibilities 
are fragmented and spread across approximately 60 stakeholder 
organizations from DOD to the Executive Office of the President 
to the intelligence community and civilian agencies. Eight of 
the 60 stakeholders have acquisition responsibilities, 11 are 
responsible for oversight, and 6 are involved in setting 
requirements for defense space programs.
    I question whether such an arrangement can meet the 
Nation's needs in space, and I look forward to hearing our 
witnesses' views on how the current architecture can be 
improved.
    As we examine the organizational structure of the space 
enterprise, it is equally important that we ensure it receives 
the necessary personnel and resources. A recent study by the 
Department of Defense Office of Cost Assessment and Program 
Evaluation, or CAPE, noted that funding for space procurement 
and research and development are both at or near 30-year lows.
    Additionally, my colleague on the House Armed Services 
Committee, Congressman Rogers, has noted that out of the 37 
nominees in March on the Air Force promotion list, from 
colonels to one-star generals, none of the nominees were career 
space professionals, like General Hyten, General Raymond, and 
Lieutenant General Greaves were at that point in their career. 
Both of these statements call into question whether the 
Department is appropriately prioritizing space.
    Let me again thank the witnesses for their service and for 
testifying today.
    I now recognize the ranking member, Senator Donnelly, for 
any opening remarks he would like to make.
    Senator Donnelly?

               STATEMENT OF SENATOR JOE DONNELLY

    Senator Donnelly. Thank you, Madam Chair.
    I want to start by thanking all of our witnesses for being 
here today, and thanking you for calling this hearing on such 
an important subject.
    Secretary Wilson and General Goldfein, your presence here 
today sends a powerful message on the importance of these 
issues to our national security. Thanks for joining us and for 
your leadership on defense space issues.
    General Raymond, this is your first time before the 
committee, and I welcome and look forward to your input.
    General Greaves, I understand that this will be your last 
appearance as director of the Space and Missile System Center. 
Let me thank you for your service and leadership. I know you 
will miss us immensely over here at the hearing rooms. You will 
soon lead the Missile Defense Agency, so we will be seeing more 
of you before the subcommittee.
    Ms. Chaplain, as always, you and your team are critical to 
the work of the subcommittee. We rely heavily on you, and we 
are thankful for the advice you give us on space issues. It is 
critically important.
    Today's hearing will focus on two issues. How can the Air 
Force and the Department improve the way we conduct space 
missions? How can we acquire space systems rapidly to meet 
mission requirements?
    Freedom of navigation in space cannot be taken for granted 
these days. Any conflict on the ground will quickly spread to 
space, and today's space systems are fragile.
    Prior thinking on how we perform our space mission needs to 
change and quickly, as General Hyten noted. Our disconnected 
operations, acquisition efforts, and resourcing hamper us today 
both in Air Force and DOD as a whole. I hope we can change that 
sooner rather than later.
    I look forward to your views today in helping this 
subcommittee address these pressing issues.
    Thank you.
    Senator Fischer. Thank you, Senator Donnelly.
    We will now turn to our witnesses for their opening 
statements, and your full remarks will be put into the record.
    I would like to welcome Secretary Wilson. This is your 
first official hearing, and we appreciate you being here today. 
Welcome.

STATEMENT OF HONORABLE HEATHER A. WILSON, SECRETARY OF THE AIR 
FORCE, ACCOMPANIED BY GENERAL DAVID L. GOLDFEIN, USAF, CHIEF OF 
    STAFF OF THE AIR FORCE; GENERAL JOHN W. RAYMOND, USAF, 
 COMMANDER, AIR FORCE SPACE COMMAND; LIEUTENANT GENERAL SAMUEL 
A. GREAVES, USAF, COMMANDER, SPACE AND MISSILE SYSTEMS CENTER, 
                    AIR FORCE SPACE COMMAND

    Secretary Wilson. Thank you, Madam Chairman, and thank you 
for putting our statement in the record. General Goldfein and I 
will highlight a few key points, and then we look forward to 
taking your questions.
    It is obvious but it is probably worth repeating that the 
U.S. is heavily dependent upon space, and our adversaries know 
it, and they know it is a vulnerability. In any conflict, space 
will be contested.
    We have not always assumed that in the past, and so there 
is really underway, and has been for some time now, certainly 
since 2007, a change in culture, a change in planning and 
training going on in the United States military because we 
cannot take space dominance for granted.
    The second major thing is that since this is now less than 
24 hours since I was sworn into office, but over the last week 
since the United States Senate voted on my confirmation, I have 
been rolling up my sleeves pretty seriously every day and 
getting reacquainted with the space programs, which I had not 
been read into since serving on the Intelligence Committee in 
the House.
    While there is a lot more to do, I will tell you that I 
have been initially pleased by some of the things I see on what 
the Air Force is doing to improve training, to identify gaps, 
to experiment with new concepts of operations, particularly in 
the last 18 to 24 months. There is a great deal that is going 
on with respect to addressing the needs of the Nation to be 
able to prevail in space. I think you should know that from me, 
coming back into the national security business.
    With respect to acquisition, we also have a lot of 
equipment and services that are going to be bought for space in 
the next few years. It is a very heavy agenda, a very heavy 
menu that we are going to have to go through.
    I wanted to personally thank you for giving authority back 
to the Air Force for acquisition, because we do need to clean 
these things up. I think it is going to help, and we are 
working in the Department of Defense to implement the changes 
which you authorized, so we can get the capabilities that we 
need on time and on budget.
    Those changes are not yet fully implemented, and it is one 
of the priorities with respect to organizing the mission in the 
Air Force and getting those things done.
    Finally, timing is not exactly ideal for this hearing in 
the sense that the full budget rollout will be next week, but I 
expect an increase in space expenditure from fiscal year 2017, 
and what we cannot accommodate will, of course, appear on the 
unfunded priorities list.
    One of the great things about being a new Secretary with an 
interest in space is that it is a team that gets things done. I 
am pleased to be here today with an exceptional team of leaders 
in space, and that starts out with an exceptional chief of 
staff, and I turn it over to General Goldfein.
    Senator Fischer. Thank you, Madam Secretary.
    General?

STATEMENT OF GENERAL DAVID L. GOLDFEIN, USAF, CHIEF OF STAFF OF 
                         THE AIR FORCE

    General Goldfein. Thanks, Chairwoman Fischer and Ranking 
Member Donnelly. Thanks for holding this important and timely 
hearing.
    I cannot tell you what an honor it is to sit here with Dr. 
Wilson, our 24th Secretary of the Air Force, 24 hours after she 
was sworn in. I will just tell you that she gives new meaning 
to one of my favorite quotes: The fight is on.
    Along with General Raymond and Lieutenant General Greaves, 
we really appreciate you holding this hearing.
    As the air component commander in Central Command some 
years ago, one of my assigned missions from the combatant 
commander, who at the time was General Jim Mattis, was to be 
his space coordinating authority.
    It was my responsibility to first understand his space 
requirements and those of my fellow component commanders from 
the Navy, the Army, the Marines, the SOF [Special Operations 
Forces], the Coast Guard, and our interagency and allied 
partners across the region and to ensure their mission needs 
were being covered by capabilities provided by 14th Air Force 
and U.S. Strategic Command. It was a natural fit because I had 
the only headquarters in the region with the ability to 
coordinate space activity in support of combatant command and 
commander operations.
    Today's air component commanders in all of our COCOMs 
[Combatant Command] are performing this space coordinating 
authority duty from their air and space operations centers. It 
is this experience employing space capabilities in combat that 
frames how I see my responsibilities today first as a member of 
the Joint Chiefs and also as a Service Chief.
    As a Joint Chief, I have a responsibility to work with the 
chairman, my fellow Joint Chiefs, and our interagency partners 
to understand their requirements and ensure they are 
appropriately represented in all space activities. As the 
Service Chief with responsibility for over 90 percent of the 
space enterprise, I have an obligation to work with Secretary 
Wilson to organize, train, equip, and present ready forces to 
the combatant commander, General John Hyten, so he can fight 
should a war either start or extend into space.
    Space superiority, like air superiority, is not an American 
birthright. It requires vigilance and action. We have many more 
steps ahead of us, but America's airmen remain committed to 
evolving our space organization, strategy, requirements, 
architecture, and forces to adapt to the new reality that you 
laid out and ensure we gain and maintain air and space 
superiority.
    As Secretary Wilson has stated, we have accomplished a 
great deal in the last few years. The Air Force has streamlined 
decision-making for the space enterprise. We are normalizing, 
integrating, and elevating space, building on over 60 years of 
space operations experience. However, there is much more work 
to be done, and we look forward to working with this committee 
and our interagency partners to strengthen our competitive 
advantage in this critical domain.
    Our legacy includes Benny Schriever, the father of Air 
Force Space; Thomas White, our fourth Chief of Staff; Jerome 
O'Malley, the leader most responsible for Space Command; Tom 
Moorman; Kevin Chilton; Bob Kehler; Susan Helms; John Hyten--
all space giants. This has been our business since 1954. We 
will own the high ground.
    Thank you again for holding this hearing, and I look 
forward to your questions.
    [The joint prepared statement of The Honorable Heather A. 
Wilson, General David L. Goldfein, General John W. Raymond, and 
Lieutenant General Samuel A. Greaves follows:]

 Joint Prepared Statement of The Honorable Heather A. Wilson, General 
  David L. Goldfein, General John W. Raymond, and Lieutenant General 
                           Samuel A. Greaves
                              introduction
    Chairwoman Fischer, Ranking Member Donnelly, and distinguished 
Members of the Strategic Forces Subcommittee, thank you for the 
opportunity to discuss the challenges America faces in space and how 
the United States Air Force (USAF) will meet those challenges.
       space will be contested . . . it is now warfighting domain
    For decades the United States has enjoyed unimpeded freedom of 
action in space. This benign environment allowed us to operate 
satellites for intelligence collection, missile warning, weather 
monitoring, communications, and precision positioning, navigation, and 
timing in support of all military operations for all of the services, 
without thinking about how to protect these systems. That environment 
no longer exists. Space will be contested in any conflict. Our 
potential adversaries understand the advantage we derive from space and 
view our reliance on space as a vulnerability they can exploit. Near-
peer competitors will offset any U.S. military advantage derived from 
our space systems and continue to pursue capabilities to degrade or 
destroy them.
    Clearly, freedom to operate in space is not guaranteed. In fact, 
space is now a warfighting domain, similar to the more familiar air, 
land, and maritime domains our men and women are fighting in today. We 
must ensure the reliability of our current systems and we must 
modernize. Our modernization will focus on our ability to deter 
potential adversaries, and to fight in a contested, degraded, and 
operationally limited environment should deterrence fail.
                           space superiority
    Maintaining Space Superiority (freedom from attack and the freedom 
to maneuver and attack) is a core USAF mission. It is not just 
operationally important, it is also a strategic imperative for 
protecting U.S. and allied capabilities throughout a crisis or 
conflict.
    The Air Force is the lead service for space. Our space systems, 
including our ground elements, could be the first system attacked in a 
high-end fight. We are committed to gaining a full understanding of 
space operations in a contested environment. We have dedicated time and 
resources to ensure our satellites have the proper mission assurance in 
order to survive and be available for any operational mission conducted 
by the Department of Defense or the Intelligence Community. Our 
adversaries understand that orbits can be changed, sensors can be 
blinded, and data can be corrupted. Space systems allow U.S. global 
operations to be executed with precision on a daily, worldwide basis, 
with reduced resources for our joint partners, allowing them to deploy 
fewer troops, lower casualties on the battle front, and decrease 
collateral damage. Space Superiority empowers both our forces and those 
of our allies to win faster.
        u.s. government accountability office (gao) 2016 report
    In July of 2016, the U.S. GAO released a report, ``DEFENSE SPACE 
ACQUISITIONS: Too Early to Determine If Recent Changes Will Resolve 
Persistent Fragmentation in Management and Oversight'' (GAO Code 
100289). In response, the Fiscal Year 2017 National Defense 
Authorization Act (FY17 NDAA) directed the Secretary of Defense and the 
Office of Management and Budget to provide recommendations by June 23, 
2017 on how to strengthen space organization and management.
    To accomplish this, the Department of Defense (DOD) initiated a 
review of governance, strategy, budgeting, organization, concepts of 
operation (CONOPS) and acquisitions for space. The results of Air Force 
efforts thus far, as well as DOD-wide governance recommendations, will 
be reported to Congress later this summer.
                usaf organization, policy, and strategy
1. Sharpen Warfighting Strategy and Policy Development.
    The space enterprise is no longer simply an ``enabler and force 
enhancer'' . . . it is an essential military capability and a key 
component of joint warfare. When coupled with the rapidity and 
seriousness of the threat, we're faced with gaps in U.S. space 
capabilities, as well as gaps in strategy and space policy.
    While the Air Force has made progress on mission assurance and 
resilient capabilities in operations, current policy does not fully 
address deterrence and requirements for action in the 21st Century. The 
DOD must also continue to develop a 21st Century deterrence strategy 
which clearly addresses the recklessness of a war extending to space, 
while ensuring our space enterprise is postured to successfully fight 
and win, should deterrence fail. Space strategy and policy must be 
agile, able to establish and foster a joint, combined, and multi-domain 
warfighting construct, and adapt to meet Combatant Commander integrated 
priorities.
    The Air Force must be able to pursue, adapt, and evolve strategy 
and policy to ensure unique technologies, innovative exploitation 
techniques, and diverse applications afford a strategic advantage in 
space. The proper authorities must be appropriately placed in the hands 
of space enterprise commanders and officials. Those authorities must be 
pushed as far down as possible to ensure timely execution aligned with 
commander's intent. In the face of continuously adapting adversaries, 
evolving threats, and increased requirements for operational agility, 
space strategy and policy must guide decisive action to preserve the 
operational environment, and promote the responsible and safe use of 
space.
2. Strengthen CONOPS and Requirements Development.
    Space is no longer a sanctuary. Most on-orbit capabilities are now 
vulnerable to our most challenging potential adversaries. The Air Force 
must prepare to survive and fight in space so that other joint forces 
can deploy and achieve their objectives within a complex and dynamic 
battlespace.
    A contested space domain is a relatively new and dynamic problem 
set, and the USAF is updating its warfighting construct for the space 
joint warfighting domain to ensure freedom of action, and freedom from 
attack, against the spectrum of threats that range from near-peer 
adversaries to individual actors. The space mission force, who operate 
space systems 24/7/365, are training with a warfighting mindset to 
effectively ``fight'' against threats to their systems in a conflict 
that extends to space. This enhanced space warfighting syllabus 
strengthens CONOPs that define how the space enterprise will operate 
through all phases of conflict. It also identifies and prioritizes 
needs and capabilities required by joint commanders,
    While there are obvious differences due to the physics of the 
domain, space warfighting is consistent with operations in the air--for 
which the Air Force has well-developed command and control and 
operational doctrine. Like other warfighting domains, space effects 
span the globe and require centralized control and decentralized 
execution. Thwarting the enemy's objectives is best accomplished if 
actions are taken well in advance of the end-game, elevating the need 
for integrated courses of action in all domains. Accordingly, the Air 
Force is moving towards a Multi-Domain Command and Control approach 
that accelerates decision-making across all warfighting domains in ways 
that will overwhelm the adversary.
    The DOD, in concert with the joint community, is also strengthening 
concepts of operation by developing Joint Counter-Space doctrine and 
publishing guidance in Joint Publications, such as Joint Pub 3-14 Space 
Operations. In addition, these CONOPS will drive future systems 
requirements. The Joint Staff has agreed with the Air Force's proposal 
to improve development of joint space requirements by adding full time 
USAF manpower to the Joint Staff dedicated to developing joint space 
requirements in coordination with U.S. Strategic Command (USSTRATCOM) 
and Air Force Space Command (AFSPC). The Space Requirements Integration 
Initiative (SRII), under the Joint Staff Deputy Director of 
Requirements (JS/DDR), will provide early insight into Air Force space 
requirements development and Air Force and Joint staffing processes. 
The effort will achieve Initial Operating Capability this month. In 
doing so, the joint space community will assist in developing and 
streamlining space requirements and reduce overall management time. 
This will ensure the DOD is able to: coordinate and integrate all 
space-related capability requirements; ensure requirements are 
identified and documented properly and to avoid the ``re-litigation'' 
of previously validated requirements; and institute the interactions 
with other portfolio management processes, such as the Capability Gap 
Assessment, Program and Budget Review, and Capability Portfolio 
Management Review.
3. Accelerate Acquisition to Stay Ahead of Adversaries.
    In order to align space acquisition authorities with Department 
roles and responsibilities, the Air Force is, first and foremost, 
taking action to regain Milestone Decision Authority (MDA) on multiple 
major space acquisition programs. These actions include the February 
27, 2017 MDA reversion request and the MDA delegation requests to the 
Office of the Secretary of Defense. The intent is to implement and 
comply with section 825 of the Fiscal Year 2016 National Defense 
Authorization Act (FY16 NDAA).
    Most authorities essential to space acquisition improvement and 
success exist today, and the Air Force need only use these authorities 
to streamline current acquisition execution. For instance, the rapid 
acquisition authorities granted to the Operationally Responsive Space 
(ORS) program and the Air Force Rapid Capabilities Office (AFRCO) 
already allow execution of rapid prototyping and fielding of residual 
operational capability. Those authorities are supported by DOD 
instructions and overarching acquisition regulations that provide clear 
direction on alternative acquisition models, tailoring, and how to 
leverage rapid acquisition approaches. The USAF will exercise these 
authorities to the fullest extent possible, create strategies that 
remove potential obstacles and adapt current practices, while crafting 
new and improved approaches within these authorities. We must take 
immediate action to change the culture in our acquisition organizations 
to focus on speed, innovation, and risk acceptance.
4. Strengthen Joint Warfighting Organizations.
    Today, every joint operation is enhanced with the integration of 
space capabilities. To succeed in the maritime, ground, and air domains 
to the degree warfighters have become accustomed, the DOD must be able 
to leverage the space domain similarly, which means effectively 
protecting and defending space capabilities for the joint fight. While 
current and potential enemies continue to develop space capabilities of 
their own, as well as systems to attack, degrade, and defeat allied 
space systems, the DOD must ensure our space systems and space forces 
are prepared to preserve the enormous investment in the space domain. 
Therefore, the DOD must begin shifting its organizational and training 
structures to normalize warfighting concepts for the space domain.
    In alignment with Congressional direction to have a senior space 
coordination official, in accordance with H.R. 1745, section 1602, the 
Secretary of Defense designated the Secretary of the Air Force to serve 
as Principal DOD Space Advisor (PDSA). The PDSA provides oversight of 
policy, resources, personnel and acquisitions and technology related to 
the DOD space enterprise. The PDSA also integrates the space control 
expertise and perspectives of appropriate organizational entities of 
the Office of the Secretary of Defense, the Joint Staff, the military 
Departments, the Defense Agencies, and the Combatant Commands. The PDSA 
is also responsible for recommendations to the Secretary of Defense and 
Deputy Secretary of Defense to monitor and oversee the performance of 
the entire DOD space portfolio and provides cogent and analytically 
supported programmatic recommendations to DOD leadership. Finally, the 
PDSA advises on space issues including policy and strategy formulation, 
international engagement, industrial base support and commercial 
partnerships. The PDSA construct is under review as part of the DOD 
response to the fiscal year 2017 NDAA language on space governance. To 
better mitigate the threat to our space enterprise, the USAF is 
evolving the processes used to program, budget, develop, acquire, and 
field space systems in order to organize, train, and equip our forces 
to be successful in a contested domain, defend systems from adversary 
action, and to ensure space missions throughout the spectrum of 
conflict.
    Another key aspect of this normalization of the space domain is the 
requirement to institutionalize the mechanisms for training and 
equipping a combat capable force. USAF best practices learned from 
operating in the air domain can serve as a basis for developing 
corresponding mechanisms for addressing threats in space. These include 
understanding the capabilities, limitations, and vulnerabilities of 
effective weapon systems, operational testing and tactics development 
for those systems, basic qualification training, and advanced training 
for space crews. The, Space Mission Force (SMF) construct, recently 
implemented by AFSPC, affords space operators the opportunity to 
receive advanced training. It establishes a deployment period for space 
crews to perform Combatant Command missions, followed by a 
reconstitution period to focus on advanced training requirements.
    Expert training must be conducted at the unit level and also at the 
aggregate space domain level to ensure the force is prepared to fight 
their weapon systems in a threat environment. To date, by design, space 
operators have been trained primarily in the basic operation of space 
systems for the purpose of delivering space effects to warfighters from 
a benign space environment. As a result, AFSPC has begun focusing on 
the threats in order to develop better understanding of how an 
adversary will operate to employ those capabilities. Leveraging the 
best practices of the air domain, space training must evolve to include 
robust development of tactics, techniques, and procedures (TTPs) for 
overcoming space threats, and include the entire joint team. The 
development of these TTPs will require the fielding of an Operational 
Training Infrastructure (OTI) for space systems.
    hq usaf deputy chief of staff, space operations (af/a11) & afspc
    The Air Force Chief of Staff is the Joint Chief responsible for 
presenting space capabilities for the Joint Force and maintaining 
control of operational requirements. A key initiative in our efforts to 
strengthen our space organization is the stand up of a 3-star Deputy 
Chief of Staff for Space Operations position (AF/A11), who is directly 
accountable to the Secretary and Chief of Staff of the Air force. AF/
A11 will actively posture our senior USAF leaders with the appropriate 
expertise to treat space as a warfighting domain and increase the speed 
of headquarters' decision-making. AF/A11 will also streamline 
operations and requirements decision making through the CSAF and the 
Joint Staff (vice OSD) to meet the demands of a warfighting domain.
    Furthermore, as a service component to USSTRATCOM, AFSPC provides 
the Combatant Commander with the preponderance of its space power. In 
light of this, and in parallel with the stand-up of AF/A11, AFSPC/CC 
has been elevated to the Joint Force Component Commander for Space 
(JFCC Space) . . . in essence a 4-star Air Force commander focused on 
the joint fight. Additionally, the Joint Interagency Space Operations 
Center (JICSpOC) has transitioned to a National Space Defense Center 
(NSDC), effectively transforming the focus, resources, and energy from 
one of experimentation to warfighting operations.
                near term joint warfighting imperatives
    The National Space Defense Center was placed under USSTRATCOM to 
better reflect its purpose, which is to defend and secure the space 
domain. Responsibility for the NSDC officially transferred from AFSPC 
and the Space Security and Defense Program (SSDP) to Joint Functional 
Component Command for Space under USSTRATCOM in fiscal year 2016. 
Funding through fiscal year 2016 was accomplished using the unfunded 
requirements process, and in fiscal year 2017 the NSDC was included in 
the fiscal year 2017's President's Budget. This organization entered 
its initial phase of operations in November 2016 following a series of 
experiments and exercises designed to explore, develop, and refine 
operational concepts and tactics, techniques, and procedures. In strong 
partnership with the Intelligence Community, the team has made great 
strides for the nation. The USAF has shouldered the preponderance of 
the resource responsibility in establishing the NSDC by freeing up 
facility space at Schriever Air Force Base, using USAF dollars and 
manpower to outfit those spaces, and providing the leadership that 
allowed for the execution of the experimentation phase. Furthering our 
commitment, we are now expanding the existing NSDC floor space, 
upgrading the underlying infrastructure, outfitting the information 
systems, providing a large portion of the manpower to establish an 
around-the-clock operational capability that will play a key role in 
deterring any adversary that might consider extending a conflict to 
space, and to ensure critical space capabilities for our forces should 
deterrence fail.
                               conclusion
    Space is no longer the sole province of world powers or a sanctuary 
for the U.S. It is a domain where barriers to access are rapidly 
disappearing. In the last decade, space has become more competitive, 
more congested and more contested, with potential adversary 
capabilities growing in number and sophistication.
    In response to increasing challenges in the space domain, the Air 
Force is fully committed to increasing resilience and deterrence as we 
retain our competitive advantage over our strategic competitors. We 
have made tremendous advancements towards unifying efforts for 
efficiency as a resilient and responsive leader in the space domain--
but admittedly, much work remains. In 2017, your Air Force will 
finalize our family of space warfighting Concepts of Operations, 
identify our capability gaps, continue our posture transition to 
increase deterrence, and ensure our force can fight and win a conflict 
that either starts or extends into space, and strengthen our support to 
Combatant Commanders. We are cognizant that the decisive advantage that 
space brings to military operations has been the deciding factor in 
every military operation conducted in recent years. Your Air Force 
remains committed to leading the space enterprise to ensure our joint 
warfighters can fight and win in every domain.
    We thank the Subcommittee members for their support and look 
forward to our continued partnership to provide resilient, capable, and 
affordable space capabilities for the joint force and the nation.

    Senator Fischer. Before we begin, General, I would like to 
thank you for your recent column on our nuclear modernization. 
It was needed, and it is something that Senator Donnelly and I 
believe is very, very important. Thank you for putting that 
out.
    We will begin the first round of questioning, please. I 
would address this to the entire panel.
    How do each of you characterize the problems that we face 
with the organization of the national security space 
enterprise?
    Madam Secretary, why don't you begin?
    Secretary Wilson. Madam Chairman, as the Secretary of the 
Air Force, I am the principal adviser to the Secretary of 
Defense with respect with respect to space. I take that 
obligation very seriously.
    There are some recommendations that the staff has been 
working on with respect to how to organize within the Air Force 
on space. There actually has been quite a bit of staff work 
done to make sure we are structured properly. I want to make 
sure that I review that well and get this right without signing 
something on day one. But I think there is a review underway of 
organization.
    In general, I think the Air Force has been doing this for 
60 years, and that 80 percent of what the Defense Department 
does in space is the United States Air Force. So we take the 
mission as a core mission.
    Senator Fischer. Thank you.
    General?
    General Goldfein. Ma'am, I would say that, right now, we 
are in a strategic shift from treating space as a benign domain 
from which we monitor, sense, and report into a warfighting 
domain from which we fight should a war start in space or 
extend into space.
    Where we are focused as a service and as the Department is 
in four key areas that we are looking at. All of them are 
linked when you look at the enterprise as we go forward.
    The first element we are focused on is how we ensure that 
we have good, solid strategy and policy that we get that we 
then as a service can act upon and we as Joint Chiefs can act 
upon. From good strategy and policy, how does that actually 
then derive into a concept of operations a warfighting ConOps, 
if you will, that is written in the business of joint 
warfighting that is not unique and different because it is 
space, but it is actually integrated and normalized because we 
actually know how to fight in all of these domains.
    From that ConOps derives solid requirements. With those 
requirements, we then have to acquire a pace that will allow us 
to be faster than our adversaries who are all investing in ways 
of taking away our advantage.
    The final element that we are focused on is how we 
organize, train, equip, and present ready forces to the 
combatant commander so that that combatant commander, General 
John Hyten in this case, can fight should a war extend into 
space.
    This is about looking at each of those elements, looking at 
the entire space enterprise, and looking at how we move it 
forward in an integrated way as we shift to a warfighting 
domain.
    Senator Fischer. Thank you.
    General Raymond?
    General Raymond. Thank you. I would just add that I agree 
with the framework that General Goldfein laid out.
    I think, operationally, we are very sound. We are the best 
space force, and that should not be lost on anybody. I do 
think, though, with what we see with the domain becoming a 
contested domain, we have to have the ability to move fast. 
That is where my focus has been, to make sure that we have both 
the operational policies, processes, and procedures and the 
acquisition capabilities to move fast.
    Senator Fischer. Thank you.
    Ms. Chaplain?
    Ms. Chaplain. Yes, as you know, I look at things from an 
acquisition perspective, so I might have a different point of 
view. But for acquisition, that is all about staying ahead of 
the curve, being agile, and being as fast as you can to 
delivery.
    In that regard, we do see a lot of organizational 
challenges that need to be addressed. There is fragmentation in 
leadership for space acquisitions, no clear point of 
accountability or authority when it comes to very complex 
efforts like the GPS [Global Positioning System] system. You 
have the military services involved. You have the Air Force 
involved in delivering a satellite. You have ground systems.
    It is an extremely complex situation where you need a clear 
line of authority to prioritize systems, lay out clear plans, 
and we do not have that yet. As a result, you have pretty big 
gaps between the delivery of satellites and the delivery to 
ground. You essentially waste capability in space when you do 
that, so the fragmentation is a big issue in terms of our 
ability to stay ahead of the curve.
    Within that structure, we often hear that there are too 
many people down the acquisition line who can say no and that 
the process is not streamlined enough. Some of those issues are 
common to all weapons systems, but they are very particularly 
evident in space because you actually have more players 
involved in a space system and more players involved in the 
acquisition process.
    Senator Fischer. Thank you.
    General Greaves?
    Lt. Gen. Greaves. Madam Chairwoman, in addition to what 
Secretary Wilson and Chief of Staff Goldfein and General 
Raymond commented on, I would only like to add that our 
decision-making process is what we are currently addressing to 
ensure that we can streamline it and make decisions affecting 
the acquisition timeline in a quicker manner.
    Thank you.
    Senator Fischer. I would put this question out to any of 
you who would like to respond. Do you feel that there are 
criticisms that are being made on the structure that you think 
are unjustified?
    General Goldfein?
    General Goldfein. Ma'am, I would not say that they are 
unjustified. I will tell you this, that right now, as we make 
this transition from a benign to a warfighting environment, I 
would just offer to you that any move that actually ends up 
separating space as opposed to integrating space I would argue 
is a move in the wrong direction, because if I was the Chief of 
Naval Operations, the Chief of Staff of the Army and my fellow 
Joint Chiefs and I were sitting here, I would tell you for all 
of the missions that we as Joint Chiefs do in the business of 
combined arms against an enemy, space is absolutely essential 
to every one of our missions.
    The last thing we want to do is actually separate space 
into something unique and different with its own unique 
lexicon. Right now, where we are focused is how you further 
integrate it and how you take the tried-and-true methods of 
joint warfighting, apply them to the space domain, and ensure 
that it is normalized across all of these mission sets.
    So it is not really that it is an unjustified criticism. I 
just want to make sure that we are moving the Nation in the 
right direction, which is to integrate space.
    Senator Fischer. Do any of you feel that there have been 
any issues in prior studies, like the Rumsfeld Commission, that 
may have been missed, overlooked, left out?
    Madam Secretary?
    Secretary Wilson. Madam Chairman, some of the 
recommendations for action in these different reports are 
actually contrary to each other. The structure of acquisition 
and operations that currently exist with space was a 
recommendation of the Rumsfeld Commission, which was then 
implemented. Some of the other recommendations are not 
consensus recommendations.
    So these are controversial and difficult issues. I do not 
think we should shy away from that. We should analyze them 
clearly and try to look at what the enterprise needs now and 
structure in order to achieve that.
    I think General Goldfein is right. We need to make sure 
that space is fully integrated and rapidly available.
    Think about this, what happened last weekend. This country 
had between 5 minutes and 8 minutes to identify and 
characterize a launch from North Korea and then decide what to 
do about it. That has to be integrated, and we have to do this 
along the lines we have done joint warfighting since Goldwater-
Nichols.
    Senator Fischer. Thank you very much.
    Senator Donnelly?
    Senator Donnelly. Thank you, Madam Chair.
    Secretary Wilson, Air Force Space Command is responsible 
for training and equipping our airmen to perform the Air 
Force's space mission, but the command does not have authority 
for setting requirements and overseeing acquisition related to 
their mission. Is that a problem?
    Secretary Wilson. Senator, I do not think the current 
structure is a problem. It is a result of one of the 
recommendations of the Rumsfeld Commission that was implemented 
in the Air Force.
    That said, you constantly review organizational structures 
based on the needs at the time. Perhaps General Greaves or 
General Raymond might have something to add to that.
    Senator Donnelly. Great.
    Lt. Gen. Greaves. Senator, I would add that having the 
acquisition element within Air Force Space Command is a great 
advantage, and having my position report directly to the four-
star Air Force Space Command is a great advantage, because by 
working for him, the requirements that are generated at Air 
Force Space Command immediately flow down to the Space and 
Missile Systems Center, which we then work with the Command to 
turn into contracts to produce capability while working with 
Headquarters Air Force, so I see that as an advantage.
    Senator Donnelly. Okay.
    General Raymond. I would pile on. I do have requirements, 
responsibility on the requirements officer, if you will, for 
Air Force Space Command, and working through the Chief is the 
Air Force requirements officer. I provide General Greaves with 
those requirements. I provide him with resources. I provide him 
with manpower. I have a pretty strong voice in that chain.
    Although I am not in the acquisition chain or machine, if 
you will, I influence that pretty significantly and have been 
able to do so on several big programs over the first 7 months 
of my time in command.
    Senator Donnelly. Okay. Thank you.
    General Goldfein, some space advocates these days are 
calling for space corps, something like the structure of the 
Marines within the Navy. Do you support that or do you think we 
should take a pass?
    General Goldfein. Sir, I do not support it at this time in 
our history based on where we are in this transition from a 
benign environment to a warfighting domain.
    I will tell you that my sense is that we have an 
opportunity being placed in front of us right now to take a 
look at what is the way we fight in the air, on land, at sea, 
and we know how to do this business, and how we take those 
processes, procedures, tactics, techniques, and actually apply 
them across the space domain. Right now, to get focused on a 
large organizational change would actually slow us down right 
now.
    Whether there is a time in our future when we want to take 
a look at this again, I would say that we probably ought to 
keep that dialogue open. But right now, I think it would 
actually move us in the wrong direction and slow us down from 
where we need to go.
    Senator Donnelly. General Greaves, one of the lesser-known 
space missions for the Air Force is providing unique weather 
data for military needs. For the past several years, this 
committee has expressed concerns about the Air Force's 
impending gaps in EO/IR [electro optical and infrared] sensing 
data for cloud cover and theater weather imagery, particularly 
over the CENTCOM [Central Command] area of responsibility in 
the Indian Ocean.
    The plan seems to change every year. What is it currently?
    Lt. Gen. Greaves. Thank you, Senator. As part of the 
acquisition responsibilities at SMC, we have a range of 
authorities that we can draw on. We have listened to the 
feedback from the Congress. Working with General Hyten at 
STRATCOM [Strategic Command], we have developed a plan to use 
one of the authorities that fall under SMC [Space and Missiles 
Center], operationally responsive space, ORS [Operationally 
Responsive Space], to use those authorities to speed the 
delivery of an interim capability to address gaps one and two, 
theater weather imagery and cloud cover. That is in the works 
as we speak.
    Senator Donnelly. It is my understanding that the available 
GOES [Geostationary Operational Environmental Satellite] assets 
are aging, and that they will provide a short-term solution 
right now to the problem. Do Air Force acquisition plans 
include a longer term solution to meet CENTCOM's needs, 
something along the lines of 10 to 15 years or more?
    Lt. Gen. Greaves. That is correct.
    Senator Donnelly. Okay. Thank you.
    Ms. Chaplain, what have your findings been on the Air 
Force's long-term weather acquisition plan?
    Ms. Chaplain. Weather is actually a good illustration of 
some of these problems we talk about with fragmentation. They 
have been very slow to actually study what is ahead for 
weather. Some of that study process was hampered by the lack of 
coordination with agencies, principally NOAA [National Oceanic 
and Atmospheric Administration]. That led to an incorrect 
assumption about the availability of European satellites. It 
slowed the study process down further. We have 2 to 3 years of 
study before we can even start a new program. There is still a 
lot of uncertainty ahead.
    That is where we are at. We are just waiting to see what 
they do. The decision-making process has been very slow.
    Senator Donnelly. General Raymond, do you believe Space 
Command should become a functional component of the U.S. 
Strategic Command so that the Air Force Space mission is part 
of the warfighting responsibility of STRATCOM?
    General Raymond. I absolutely do. That is part of a larger 
command and control restructure at STRATCOM.
    I served previously at STRATCOM. General Hyten is the 
STRATCOM commander. Today, he has about 18 different component 
commands, ranging from an O-6 to a four-star general. This is 
going to streamline that. It is going to elevate the 
operational commander from a three-star for space, from a 
three-star to four-star, align that with me, align the service 
component responsibilities with the forces component 
responsibilities, strengthens my voice in joint requirements, 
and I am fully supportive.
    Senator Donnelly. Thank you.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator.
    Senator Rounds?
    Senator Rounds. Thank you, Madam Chair.
    First of all, thank you all for your service to our 
country.
    Secretary Wilson, welcome aboard. It is great to see you at 
our first hearing. This is special.
    I have a couple questions. First of all, I agree, General 
Goldfein, that, clearly, we will have basically a contested 
domain in space. I am just curious, the GPS, Next Generation 
Operational Control System is an item I think--or at least the 
GPS system we have today is clearly at risk and would be an 
item to be targeted by any of our adversaries.
    Thinking of GPS and other data-gathering or transmission 
systems that are in space today, we use them almost like 
infrastructure today. If someone attacks or could attack, and 
we talk about this being basically an area where we could fight 
a war, clearly, we have individual nations in mind. Who are our 
closest adversaries with regard to having a battleground in 
space?
    General Goldfein. Right now, in terms of who we are 
watching and what their investment is, clearly, those who are 
furthest ahead are China and Russia. So they have been watching 
since Desert Storm. They have seen how we use capabilities from 
space. They have studied our reliance on space. They are 
clearly investing in ways to take away that advantage.
    Beyond that, Senator, I would love to get on your schedule 
to give you a classified briefing on a little bit more detail 
of what we are seeing.
    Senator Rounds. I think why I ask it now is because it has 
to be made very clear that we have resources in space that what 
they would try to deny us. One of the reasons we have talked 
about it is that we are in the process, in fact, in a very 
challenging process, with the GPS Next Generation Operational 
Control System. It is probably, as suggested by GAO, perhaps 
the most problematic Air Force program that we have.
    A little over a year ago, General Greaves called it the 
number one troubled program within the Department of Defense. 
The program is nearly $2 billion over budget, and at least 4 
years behind schedule. In October 2016, the Department 
completed a Nunn-McCurdy review and certified to Congress that 
the OCX [Operational Control System] was essential to national 
security, which I think you are reinforcing here today, no 
alternative would provide acceptable capability at less cost, 
and that program's revised cost estimates were reasonable.
    I understand that the assessment from the most recent 
government review is that the program is making acceptable 
progress, but it is by no means out of the woods.
    Is the OCX program too big to fail?
    General Goldfein. Sir, if I could, because you have raised 
some great issues here about space resiliency, if I could take 
a minute and talk about just basic defense of our systems, and 
then turn it over to General Raymond and General Greaves on the 
specifics associated with GPS and OCX.
    We actually as a service know how to do layered defense of 
critical infrastructure. If you were to walk to Bagram Air 
Force Base today, you would see a commander who can walk into a 
headquarters and have situational awareness on things that are 
going on out to 100 miles from that base and various layered 
defenses that we put in place all the way up to, at the wire, 
and inside the wire.
    That is the same mindset that we have to apply toward 
layered defense of our critical space systems. That is where we 
are moving now, to look at not only that layering but at also 
how we build resiliency and, perhaps as important, how we 
ensure that we train this force so that if a portion of that 
enterprise is denied or taken away, we can still fight and 
operate, and we do that every day. So this is about resiliency 
in the overall space architecture.
    Finally, I would say that you captured this right, in that 
as you look at any space constellation, there are three 
elements that we have to look at how we defend in a layered 
way. First of all is what is actually in space and what orbit 
we have to defend. Then you have to look at what has been 
integrated on various platforms that use that information--some 
that fly, some that run, some that steam, some that submerge. 
Then you have to look at the ground control stations that 
receive that data, and all of those have vulnerabilities that 
we have to protect.
    Senator Rounds. So it is fair to say that it is too big to 
fail?
    General Raymond. I would say no program is too big to fail. 
I would tell you the mission is too big to fail. The importance 
of being able to access GPS III, and the resiliency that that 
provides, is too big to fail.
    We have programmatically built off-ramps to be able to go a 
different direction, if this were not to continue to progress. 
I will not be comfortable until that capability is operational 
on an operations floor. But it is a very important mission, and 
I will tell you we are laser-focused on it to make sure that it 
materializes and then have alternative paths if not. General 
Greaves can talk to you more about those alternative paths.
    Lt. Gen. Greaves. Yes, Senator, this program is absolutely 
not too big to fail. In fact, when we looked at it as a 
Department within the Department of Defense late 2014, early 
2015, we understood that this GPS III operational control 
ground segment was the first information assured, really 
hardened capability that we were going to deploy to protect 
against both the outside and inside threats. So we knew that.
    We also knew that as we looked at the criticality of this 
system, we needed to build off-ramps. General Raymond mentioned 
some of those. We had milestone-driven off-ramps. So we looked 
at whether or not, if the system was delayed or we had to 
cancel the program, whether or not we would have control over 
the new GPS satellites. We entered into a contract with 
industry to develop a contingency operations capability, which 
will allow us to fly the GPS III satellites as legacy 
satellites. That was one milestone that we made a decision on.
    We also had a decision to make on whether or not the block 
zero of OCX, which is used to launch and check out the 
satellites initially, whether or not that would remain on 
track. That has remained on track. It is going through final 
testing now, and it is going to be ready to support the first 
launch next year.
    We also looked at our military code, whether or not the 
delays in OCX would impact the deployment of M-code. We also 
let a contract to start that effort to ensure that would be in 
place.
    Senator Rounds. If I could, I do not mean to cut you off, I 
am going to run out of time and I want to be careful of that.
    I think the critical part here is that we have a GPS 
system, which we rely on today, which I believe you would say 
is at risk. What we are trying to do is find a way to protect 
it. This is one of those tools that is necessary in order to 
create our ability to respond and fight the war that we have 
become used to over the last 25 to 30 years. Fair enough?
    Lt. Gen. Greaves. Yes, sir.
    Secretary Wilson. Senator, fair enough. We are not out of 
the woods on OCX yet, which is one of the reasons why there is 
a quarterly review at the Secretary of Air Force level to make 
sure that this program stays back on track, so it has a very 
high level of visibility of oversight within the Air Force to 
get it to his operations floor.
    Senator Rounds. Thank you.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator.
    Senator Peters?
    Senator Peters. Thank you, Madam Chair.
    Thank you to each of our panelists for being here today.
    I will join my colleagues in congratulating Secretary 
Wilson on her appointment. We look forward to working with you. 
It is great to have you here. I will extend once again the 
invitation that I extended to you when I had the opportunity to 
meet with you in my office, to come to Michigan to Selfridge 
Air National Guard Base, in particular, given the fact your 
father served at Selfridge. We would love to have you back.
    Just to put it out there, they are celebrating their 100th 
anniversary this August, so we will talk to your scheduler 
about a visit, which would be really wonderful. I am proud to 
say the Air Force Thunderbirds will be performing that day as 
well. Hopefully, you can be there.
    I want to talk a little bit about some other threats that 
we face from space, in addition to some of the military threats 
we have talked about. That deals with space weather. We have 
heard about weather forecasting on Earth, but threats that come 
from space, from the sun particularly, solar flares and 
potentially mass coronal ejections that can have a devastating 
impact on the Earth.
    The Senate unanimously passed legislation that I worked on 
with my colleague Senator Gardner in a bipartisan way to 
coordinate the various agencies that have oversight of this 
potential problem from NOAA [National Oceanic and Atmospheric 
Administration] to NASA [National Aeronautics and Space 
Administration], to the Science Foundation, the Department of 
Defense, and FAA [Federal Aviation Administration]. This has a 
big impact from the Department of Defense perspective for 
situational awareness as well as mission planning. We know that 
it is just a matter of time before a very big storm occurs. I 
am happy to say the University of Michigan is one of the 
leading institutions studying heliophysics and the potential 
threat that this has.
    Whoever would like to comment about the importance to the 
Air Force of having some accurate space weather forecast, where 
do you see us in that regard? Are you concerned?
    I have been told that our space weather forecasting ability 
is equivalent to our hurricane forecasting ability in the 
1930s, which was not that good in 1930. If it is that way for 
us here today, particularly given the interconnectedness that 
we have and the fact that the electrical grid could be wiped 
out through a large part of the United States should the storm 
hit, what should we be thinking about? Does the Air Force have 
the resources that you need? Should we be thinking about adding 
to those, if not?
    General Raymond. First of all, I would just say thanks for 
the question.
    Space weather is very important to our operations, both in 
space and in the air and all the domains. We take this very 
seriously.
    I would have a slightly different characterization of where 
we are in relation to hurricanes in 1930s. We have space 
weather experts in our Air Force that sit right on the 
operations floor that we operate. They provide us very timely 
information on space. We provide that warning across our 
forces.
    When I was deployed, and General Goldfein talked about when 
he was at SEAFAC [Southeast Alaska Acoustic Measurement 
Facility], when I was deployed as the director of Space Forces, 
we had space weather folks there as well that could help us 
shape operations to be able to operate and continue operations 
in that environment.
    As you know, space weather goes through cyclical periods. 
The current period that we are in now is not all that high. But 
as you said, there will be periods where we will get increased 
solar activity.
    Lt. Gen. Greaves. Senator, let me add that the Air Force is 
very serious about this. We have been directed, for every new 
space system that we are deploying, to have energized charged 
particle sensors on board to help characterize the environment 
that those spacecraft will fly, which will then help with the 
modeling that we have to do on the ground to do predictions.
    Senator Peters. Thank you. I will look forward to 
continuing to work with you. I think the forecasting, the 
analogy to hurricane forecast is a very large impact like we 
had back in 1859. Folks at the University of Michigan and 
others have talked about that catastrophic impact.
    Lloyd's of London has made a risk assessment that, if a 
storm of that magnitude hits, it would be over a $2 trillion 
impact to the United States economy. Apparently, we missed one 
by just a few days just a few years ago. That is the area where 
we are concerned about and why this legislation has been moving 
forward, to work with you on that.
    General Raymond. I totally agree with the criticality of 
being able to do that right.
    Senator Peters. Thank you.
    The other thing, and, General Goldfein, you talked about 
how the domain that we are dealing with now is different from 
what we thought about it in the past. This is a contested 
domain that we have to harden our satellites. We have to harden 
our assets that the Air Force has.
    The question came up from Senator Rounds and others about 
the GPS system. But that leads to a broader question. We have 
an awful lot of commercial satellites in space as well that are 
critical infrastructure. Those would be considered particularly 
soft targets, I would expect, that an adversary could target.
    How do you think about hardening our space systems, not 
just from the DOD assets but understanding that significant 
civilian assets also could potentially pose a real threat to 
our country, if they are targeted?
    General Goldfein. Yes, sir. I think the first important 
step is to make sure that we acknowledge that this is truly a 
partnership and that there are those who are operating in space 
beyond the traditional state actors that we were growing up 
with perhaps earlier in our careers, and especially as 
commercial gets more and more interest in space and is 
launching more of the smaller satellites. When we talk about it 
being more of a contested and congested place, that is probably 
what contributes as much as anything to it being more congested 
as we operate.
    There is a question of whether it is more challenge or 
opportunity. I would offer to you that as we see space, as we 
see commercial entities getting more and more in the space 
business, there are probably more opportunities than challenges 
as we work with them in public-private partnerships looking at 
potential for other launch capabilities, looking for the 
smaller digitization of satellites that allow us to actually 
get capability, actually leveraging what they are doing 
commercially that could actually contribute to military 
operations.
    All of those things are ongoing. As the Chief of Staff of 
the Air Force, and as a Joint Chief, I look at the public-
private partnership opportunities ahead as we go forward, in 
terms of continuing to normalize how we operate.
    Senator Peters. If I may pick up on the comment that you 
made regarding crowded space, the crowded place up there with 
all the satellites, my understanding is that India recently 
launched 104 satellites from 1 rocket--101 of them were smaller 
nanosatellites, including 96 from various United States 
companies and commercial enterprises.
    I understand it took a significant amount of time to track 
and find these objects, to keep track of them. That leaves the 
question of space debris, all sorts of things that are 
happening.
    Could you give me a sense of where we are in dealing with 
that issue? The Air Force I know has taken primary 
responsibility in tracking a lot of these objects. Should we 
continue to do that? Is there something else we should be 
thinking about? Because this will likely accelerate in the 
years ahead.
    General Raymond. That is another great question.
    Space is clearly a congested domain. We track about 23,000 
objects each and every day, 24/7. We take about 400,000 
observations a day to keep track of that. About 1,400 of those 
objects are satellites. About 75 percent of those are 
maneuverable.
    This is a CubeSat. You talked about the 109 that were 
launched on the one rocket from India. We are seeing trends of 
smaller satellites. This satellite goes 17,500 miles an hour in 
orbit.
    We work very hard to be that space traffic control, if you 
will, to keep the domain safe for all.
    On average, about once every 3 days, a satellite 
repositions to keep from hitting either a piece of debris or 
another satellite. On average, about three times a year, the 
International Space Station maneuvers to keep from hitting a 
piece of debris. It is something we take very, very seriously.
    I will tell you the airmen and joint forces that are 
assigned to the Joint Space Operations Center out at Vandenberg 
do that work each and every day and keep the domain safe for 
the world.
    Senator Peters. Thank you.
    Senator Fischer. Senator Peters, did you return that 
satellite?
    Senator Peters. Yes, I did.
    Senator Fischer. We do not need another one, right?
    Senator Sullivan?
    Senator Sullivan. Thank you, Madam Chair.
    I want to thank the panel. It is a very impressive group of 
public servants and military officers.
    Secretary Wilson, welcome. We are all glad to see you here 
in your position. I think you always hear this from different 
Senators, like Senator Peters. I look forward to you coming up 
to Alaska. You will see that we are the hub of air combat power 
for the Asia-Pacific and the Arctic and training with JPARC 
[Joint Pacific Alaska Range Complex].
    The young men and women in the Air Force in my state, as 
you know, have been very busy with five F-22 intercepts of 
Russian Bear bombers just within the last month. They are doing 
a good job protecting American sovereignty and airspace.
    Thank you for the great leadership all of you are doing 
with regard to the young men and women who are doing such a 
great job.
    We are also a cornerstone of our Nation's missile defense 
up in Alaska. I want to talk a little bit about missile defense 
and what we can be doing better on that.
    It has become very clear, and you were talking about the 
test by North Korea this past weekend, but all the public 
testimony is it is not a matter of if but when Kim Jong-un is 
going to be able to range the United States, and it is not just 
Alaska and Hawaii but the lower 48, with an intercontinental 
ballistic nuclear missile. That is going to happen at some 
point. He is going to have that capability.
    I think that we need to do more to be able to protect the 
Homeland, to be able to say that, if you lunch 1, or 2, or 3 of 
these missiles, that we will have a 99 percent chance of 
shooting them down, and then we will massively retaliate 
against you, which I think will keep even a crazy guy even a 
little bit more sane, in terms of trying to do something like 
that.
    But I do not think we are there yet, so I think we need to 
do more, and I am going to be introducing a bill that we have 
been working on for months with some of the experts in 
Washington and other places on increasing our missile defense 
capability. I am certainly going to look to make that a strong 
bipartisan bill.
    One element, actually a key element of that bill, relates 
to the topic we are talking about here, and that is space and 
space sensors with regard to our missile defense.
    General Goldfein, you articulated well the idea of an 
integrated and layered defense. But, as you know, it is not 
just Bagram Air Base. It is also our missile defense that we 
need to do that.
    General Hyten has stated in testimony that, ``The 
deployment of a global space-based sensor system with 
discrimination capability will be a critical component to 
improving the effectiveness of our deployed missile defense 
interceptors.'' That is his testimony.
    Admiral Syring similarly stated, ``From a missile defense 
perspective, we have to develop a future operational space 
layer. Given where the threat is going with hypersonics and 
more ICBMs [Intercontinental Ballistic Missiles], this 
persistent tracking and discrimination capability from space is 
a must for our missile defense.''
    I would like to ask the whole panel--maybe, General 
Raymond, starting with you--how would space-based sensors 
benefit our missile defense system, help with a layered and 
integrated defense, whether it is GBIs [Ground-based 
Interceptor] in Alaska or THAAD [Terminal High Altitude Area 
Defense] throughout the world, South Korea, or Aegis Ashore, 
Patriot? How is that important?
    Would that give us the persistent, unblinking eye and a 
stronger ability to have layered missile defense, which in my 
view we need today? We need it today, and we do not have it. 
How critical are space sensors in that regard?
    General Raymond. I think it is very critical. I would agree 
with the previous testimony that you cited. I think space, if 
you look at the little handout that we provided and you look at 
the orbits, space provides persistence. Space provides that 
unblinking eye. Space provides the ability to discriminate, 
especially for maneuvering targets.
    We have a great partnership with MDA [Missile Defense 
Agency]. In your State, Senator, we have a missile warning 
radar. We are in partnership as we speak with MDA to modify 
that to be a more capable missile defense capability, so we 
have a long partnership both on the ground. We have 
capabilities in space today with our space-based infrared 
satellites and with our defense support program satellites, DSP 
[Defense Support Program] and SBIRS [Space-Based Infrared 
System], that provide utility to the Missile Defense Agency.
    But the layer that you talked about I think would be 
important. It would give you persistence, field-of-view, and 
the ability to discriminate.
    Senator Sullivan. Anyone else want to comment?
    General Greaves?
    Lt. Gen. Greaves. Senator, I will agree entirely with 
General Raymond. Space and Missile Systems Center has been in 
very close contact with the Missile Defense Agency over the 
past few years, understanding where we can partner and where 
space can benefit.
    Space offers the opportunity from its vantage point for the 
promise of birth-to-death tracking, which aids in the 
discrimination problem that is at the central core of the 
efficient use of our interceptors. We have been working, some 
of it is classified, with MDA to hopefully jointly determine 
what would benefit the missile defense mission as well as the 
space surveillance mission within the Air Force, so that work 
is ongoing.
    Senator Sullivan. Great. I think you will like--I am not 
going to presume that you will support this bill, but from the 
testimony, I think you will appreciate what we are trying to do 
here in the Senate.
    Ms. Chaplain?
    Ms. Chaplain. Yes, I also oversee our missile defense work. 
The capability that you are talking about, there has been a 
requirement for that since the 1990s. There have been several 
attempts to actually build that constellation. One issue is it 
is very expensive to get that capability because it is usually 
in low-Earth orbit and you have to put up more satellites.
    One issue that has sort of been recurring----
    Senator Sullivan. Just to make a point on that, we have 
been looking at some of the costs, and my view is, buying 
insurance with regard to a nutcase who wants to try to nuke 
Chicago at some point, or threaten to do it, the expense should 
not be our first priority. Defending the Nation should be our 
first priority.
    I understand we have the capability to do it, and I think, 
as you have been talking about, we have been talking about it 
since the 1990s. This bill is meant to say let's do it. Enough 
talk. We have a threat. We have a threat, a real threat right 
now, a madman possibly could be threatening 300 million people 
in the next year or 2 with an intercontinental nuclear 
ballistic missile.
    I just get a little tired of the discussion of, ``Well, it 
is going to cost a little bit more.'' I think the average 
American would take that insurance policy in a heartbeat to say 
we have a 99 percent chance of shooting down a missile when 
right now we do not.
    I do not know exactly what you believe the number is in 
terms of our chances, but we need to up the chances and the 
probability of being ready to take out any threat that this guy 
daily--daily--threatens our country with. We should not take 
those threats
lightly.
    Ms. Chaplain. I think, given the expense, though, you can 
maximize that satellite's use by bringing in other 
requirements. One up for discussion is base situational 
awareness. The same satellite can serve different communities. 
It helps you be able to pay for that mission even more.
    General Raymond. We are working very closely with Missile 
Defense Agency toward that end.
    Senator Sullivan. Madam Secretary, any comments?
    Secretary Wilson. Senator, I would just say one thing. You 
have highlighted the need to do more. All of these things and 
other missions for the Air Force, we are not going to meet the 
needs of the Nation unless we figure out a way to get beyond 
the Budget Control Act. That is going to require a lot of work 
between the Congress and the Administration to figure that out.
    Senator Sullivan. Thank you.
    Senator Fischer. Thank you, Senator.
    Senator Heinrich?
    Senator Heinrich. Thank you, Madam Chair.
    Secretary Wilson, General Goldfein, in your testimonies, 
you state that current policy does not fully address space 
deterrence requirements for action in the 21st Century. Given 
the reliance we have today, and it has been discussed by a 
number of you, for space, for secure communications, 
intelligence collection, missile defense, GPS, and many other 
missions, what are your thoughts on whether it is time for the 
United States to engage in an international conversation about 
an international space code of conduct and whether we should be 
negotiating with other nation-states on such a thing?
    Secretary?
    Secretary Wilson. Senator, that is probably a policy issue 
far beyond the Air Force. The Air Force's role will be to be 
ready to defend what we believe will be a contested environment 
irrespective of any international norms of behavior. I think 
the Air Force intends to and does comply with national norms of 
behavior and, in fact, enables a lot of those norms by 
providing information on where debris is and so on and so 
forth. But we must----
    Senator Heinrich. Do you have thoughts on potential 
pitfalls or potential advantages of having such a code of 
conduct in place?
    Secretary Wilson. Senator, I have to say that from an Air 
Force perspective, I think what we have to do is to be able to 
prevail in what will inevitably be a contested environment 
irrespective of consensus on international norms, because there 
will be players who do not abide by those norms.
    Senator Heinrich. Yes. It is about risk mitigation more 
than anything else. That is why I asked the question.
    General?
    General Goldfein. Thanks, Senator. In some ways, the intent 
of the National Space Defense Center when it began was to 
actually take a look at how we coordinate our activity beyond 
just the Department of Defense for other operations that are 
taking place in space.
    Right now, it is centered on defense and intelligence and 
taking a look at not so much who commands and who controls but 
actually at how we coordinate our activity. An international 
set of norms relative to how we coordinate activity beyond 
defense and intelligence is probably a reasonable dialogue to 
have.
    But I am with the Secretary here. That is probably a 
policy-level discussion.
    Senator Heinrich. One of the GAO's recommendations is to 
delegate decision-making to the lowest level practical. Do each 
of you agree with that recommendation? Do you think that this 
extends to the hiring of qualified individuals and the issuance 
of contracts?
    I will give you a little background. The reason why I am 
bringing this up is that in addition to the delays in issuing 
contracts, I have heard a lot from recent graduates about 
significant delays, sometimes over a year, in terms of 
extending a job offer.
    Just last week, a number of my colleagues and I sent a 
letter to Secretary Mattis about direct hire authorities, 
urging that each of you help implement those authorities 
across-the-board within the Air Force but particularly 
concerned about AFRL [Air Force Research Laboratory].
    I just wanted to get your sense for how you view that 
recommendation and how far you think it extends.
    Secretary Wilson. Senator, in general, yes. The decision-
making should be at the lowest practical level. In that regard, 
I would highlight the acquisition authority that was just 
recently returned to the Air Force. We are working that through 
with the Department of Defense now.
    With respect to hiring, I am not sure what the cause was 
behind what you identify. But remember we also just went 
through a hiring freeze and also an uncertain budget situation. 
Sometimes those decisions are based on the fact that we just 
have no certainty with respect to the budget, and budget 
certainty does affect managers' decisions.
    Senator Heinrich. Absolutely. My understanding is that was 
not the case, but we will get you those details, so you fully 
understand the situation.
    General Goldfein. Sir, I will let General Greaves and 
General Raymond talk to the specifics on acquisition and 
decision speed and decision authority.
    What I would like to highlight for you is the importance of 
looking at this from both requirements and acquisition, because 
to acquire, you have to start with a very firm set of 
requirements. Here is where I think we have to get to. The 
analogy that I would offer you is that today we are building a 
tanker called the KC-46. We are not building that for the 
United States Air Force. We are building that for the joint 
force because anybody who needs airborne refueling is going to 
use the KC-46, to include our allies and partners.
    The chief requirements officer for the KC-46 is the Chief 
of Staff of the Air Force. If anybody wants to change the 
requirements, they have to come to me to change those 
requirements.
    We have to get to the same level of decision authority and 
deliberate oversight of requirements in the space business the 
same way that we acquire others. As we work our way through 
decision authority in acquisition, there is an equivalent 
discussion we need to have about decision authority for holding 
requirements firm.
    General Raymond. I would pile onto that. I think 
strengthening requirements at all levels is important. I think 
the other piece of this that is important is making sure that 
we have the analytical rigor to inform those requirements. When 
we have that analytical rigor, we have been able to move pretty 
rapidly. Then I would also add that we are also focused on 
using rapid acquisition authorities more broadly than what we 
have done in the past.
    Senator, in your State, we have the Operationally 
Responsive Space Office, and we are working hard to use those 
authorities more broadly.
    Senator Heinrich. Great.
    Lt. Gen. Greaves. Senator, as the Commander of SMC, I think 
the single biggest improvement we can make you have already 
provided language for. But as Secretary Wilson said, moving the 
milestone decision authority back to the services, and as the 
Secretary said, we are working within the Department to execute 
that.
    As far as contracts, I know specifically with our advisory 
and assistance contracts, our support contracts, 3 or 4 years 
ago, there was a problem with those contracts. Within the last 
3 years, we optimized and consolidated the requirements process 
that generates those contract awards. We have seen a drastic 
reduction in the time needed to award those contracts, so we 
are addressing those.
    Thank you.
    Senator Heinrich. Thank you, General.
    Senator Fischer. Thank you, Senator.
    Senator Warren?
    Senator Warren. Thank you very much, Madam Chair.
    Thank you all for being here.
    Secretary Wilson, it is good to see you here. I hope we are 
going to get to see you in Massachusetts as well. You have a 
standing invitation to come visit our bases. I want to make 
sure we get our plug in too for Massachusetts.
    I want to talk about where we are right now with the 
commercial sector. The commercial sector seems to be charging 
ahead in space. One area where commercial advances have been 
astounding has been in imagery. Today's commercial satellite 
imagery is often very high quality. They are even taking HD 
[high definition] video from space.
    Meanwhile, our intelligence surveillance and reconnaissance 
is what I understand the Pentagon calls a high-demand, low-
density asset, which means everybody wants it and there is not 
enough to go around.
    So let me start, General Goldfein, if I could, how is the 
Department incorporating commercial imagery as a service into 
its approach? Conversely, how do you think about the risks that 
the wide availability of imagery pose for the United States?
    General Goldfein. Yes, ma'am. The reality is we sense the 
globe in domains: air, land, sea, space, cyber. Then someone 
has to take all those ones and zeros and turn it into decision 
quality information to allow us to achieve decision speed. Much 
of that falls on the Air Force. We are continually looking at 
ways to integrate nontraditional means of intelligence into 
that sensing so that we can fuse that into this common 
operational picture.
    I will tell you that we are using commercial imagery. We 
are using other sources that can bring--we are using social 
media in ways that we have not before, so this is a broader 
discussion about how you leverage public-private partnerships 
and the commercial industry to be able to increase your 
decision speed and your ability to get that common operational 
picture.
    Senator Warren. Let me then just follow up on that a little 
bit, General. Our satellite programs are incredibly complex. 
They are also incredibly expensive. Oftentimes, a single 
satellite can cost billions of dollars. Meanwhile, the advances 
in technology on the commercial side are making sophisticated 
technology smaller, lighter, cheaper, every day.
    A little startup company in Massachusetts can buy a small, 
lightweight CubeSat--I think you said you have one of those 
here--for less than $10,000, and it does not cost much more 
than that to launch it into space.
    I get it, that a CubeSat obviously does not have the same 
capabilities as the next generation GPS, but it seems like 
there are some missions that a smaller or less technically 
sophisticated satellite would do just as well.
    Maybe I could include you in this, General Greaves. How do 
you assess the tradeoffs between large, technically 
sophisticated satellites and smaller but potentially less 
powerful constellations? How do you think about that?
    Lt. Gen. Greaves. Senator, we actually think about that 
daily, and it is part of our acquisition strategies that we 
develop.
    Just one example, one vignette, for the space-based 
infrared system that flies out of Colorado, we are setting up a 
data framework consortium to essentially go after commercial 
capability to integrate into our tools, applications, and 
processing lab to essentially ingest commercial data, whether 
it is imagery or OPIR [Overhead Persistent InfraRed] or other 
sensors, and combine that with what SBIRS produces, as an 
example, and exploit that and fuse it and send it out to users. 
That is just one example.
    Senator Warren. I have to say, I am really glad that you 
are thinking about this and you think about the ways that you 
can integrate.
    It seems to me that a high-low mix of advanced and more 
basic capabilities in our satellite inventory would be a good 
way to think about it, kind of the same way we think about 
aircraft in this area. Capitalizing in advances, though, in 
technology is possible only if we can afford to do it.
    But, Ms. Chaplain, a lot of our space acquisitions seem to 
remain bogged down. Last year, the GAO reported that several of 
the Department's most critical space programs remain overbudget 
and behind schedule. Ms. Chaplain, could you say a word about 
how the Department, what it should be doing to stay on schedule 
and to rein in costs in this area?
    Ms. Chaplain. I think a two-pronged approach is needed.
    One, you really need to focus on the acquisition 
fundamentals. In recent reports, we are hearing issues about 
systems engineering, contractor performance, lots of management 
and oversight issues that seem to persist. Those really need to 
be addressed.
    Then on the second-pronged approach, really looking at the 
fragmentation and leadership so that we can speed up decision-
making, be more agile, get agreements early on. That does not 
really happen as much as it should on space.
    I agree with you about the commercial suppliers, and can 
they be brought in to offer a mix of approaches? For years, 
commercial suppliers have always felt like it is ``talk to the 
hand'' when it comes time to deal with the Department of 
Defense. Maybe you have heard of that. There is also a lack of 
contracting mechanisms to help them engage with defense, 
especially when it comes to things like buying bandwidth or 
something like that.
    DOD has been trying some prototype efforts to be able to 
buy services better, but I think a lot more can be done to 
bring in that kind of innovation.
    Senator Warren. Good. I am very glad to hear this. 
Obviously, the cost growth in the satellites is limiting our 
capacity to buy what it is that we need to buy. We owe it to 
the taxpayer, we owe it to our national security, to get these 
costs down to a place that we can get the full range of 
response that we need.
    Thank you all very much. I appreciate it.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator Warren.
    I believe we have some time left in the hearing. There 
might be other Senators who are going to be coming to ask 
questions, so we will begin just a short second round, if 
Senators have a follow-up question.
    I would recognize Senator Sullivan.
    Senator Sullivan. Thank you, Madam Chair.
    General Goldfein, I just want to follow real quick on a 
statement you made about the KC-46 and your authority on the 
requirements change.
    Was that as a result of the NDAA [National Defense 
Authorization Act] amendments just 2 years ago on acquisition 
reform to give the Service Chiefs more authority on 
acquisition?
    General Goldfein. Actually, it did strengthen the authority 
of the chiefs. Actually, I would argue, it also strengthened 
the accountability of the chiefs for having responsibility for 
assigning milestone decision authorities.
    However, the responsibility of the chief of staff of a 
service to hold requirements firm actually did not change 
with----
    Senator Sullivan. That had previously existed?
    General Goldfein. Yes, sir.
    Senator Sullivan. Okay. Thank you.
    I want to go back to the missile defense discussion we were 
having. General Raymond, I was talking a lot about space-based 
sensors, but given your experience--and again, I would open us 
up to the panel--and given the threat that is heightened that 
we are all acknowledging, particularly from North Korea, can 
you talk about why some of the ground-based radars like Cobra 
Dane and the upgraded early warning radar and the LRDR [Long 
Range Discrimination Radar] radar that we are implementing now 
are also very important with regard to our layered, integrated, 
and strategic missile defense?
    General Raymond. I think as you just ended the question, 
layered defense, that is really what this is. This is a network 
or a system of systems. Every piece of that architecture 
provides advantages. From the space capabilities, as we talked 
about, you get the persistence, you get the field of view. From 
the ground-based radars, you get discrimination, better 
discrimination capabilities.
    There are a host of sensors that are positioned around the 
globe to be able to do that. They come together as a network to 
be able to fuse that information into a timely decision and be 
able to respond as a Nation in order to do so.
    But it is not just one capability. It is the mixture of 
those capabilities that provides the national missile defense 
capability that we need.
    Senator Sullivan. Cobra Dane, is that in good shape? How 
important is that to tracking North Korean missiles right now?
    General Raymond. Cobra Dane, let me just say, I am not 
responsible for missile defense mission. However, I will say 
that it is a very important missile defense capability. I would 
also tell you that we use that capability pretty significantly 
to do space situational awareness as well. I talked about 
earlier the thousands of objects that we are tracking. We use 
that capability for that mission as well.
    Senator Sullivan. Anyone else want to comment on this 
ground-based--General Greaves?
    Lt. Gen. Greaves. Senator, I would offer that the 
discriminating radar that is going into Clear, Alaska, is key 
to the future of effective missile defense. I believe that is 
why Admiral Syring proposed that it be positioned there, 
because it is a mix of, if you add the SPX [Semi-Based X-Band] 
floating, X-Band Radar, mix of phenomenology that is used to 
characterize the threat versus decoys, and radars are critical 
to that.
    Senator Sullivan. Thank you.
    General Raymond. The other piece of this is that you also 
need, as we talked about earlier, when there is a launch, you 
have to determine really quickly, is it a regional threat? Is 
it a threat to our Homeland? Or is it a threat to space? Or is 
it a space launch?
    Those capabilities, wherever they are around the world, 
help us discriminate against that and then provide us the--help 
support the supporting relationships to handle those.
    Senator Sullivan. Did you have a comment, General Goldfein?
    General Goldfein. Sir, I was just going to say, in my role 
as the air defense commander in Central Command and responsible 
for defending the Arabian Gulf from potential Iranian missiles, 
one of the things that we have not talked about in this 
discussion is the importance of attribution and ensuring that 
not only do we characterize the missile very quickly so we can 
defend, but also so we can have irrefutable evidence that we 
can present that said it came from this country.
    Senator Sullivan. Right.
    Let me just ask one final question, Madam Secretary, if I 
may, just since the two leaders of the Air Force are here. How 
is morale with our young men and women in the Air Force, for 
both Madam Secretary and General Goldfein?
    Secretary Wilson. Senator, I am probably not able to 
comment on that yet in any detail, because I have not been out 
in the field. But I have a rule that any day out of the office 
and in the field is a good day, and I hope to be out doing 
things and spending time with airmen.
    I think my first opportunity to do that will be next week, 
and I have a number of engagements in Colorado next week.
    Senator Sullivan. Great.
    General Goldfein. Senator, I will tell you my belief is 
that readiness and morale are inextricably linked. Where we 
have high readiness, we have high morale. If you walk the line 
today at Bagram and if you walk the line today at Kunshan in 
Korea, you are going to find high morale, because they have 
people, they have parts, they have what they need. They are 
flying at a high rate, and we keep them at a very high level of 
readiness. So their morale is very high.
    There is a bill payer to get that level of readiness, and 
that is against all the bases now who have to contribute 
forces--personnel, supplies, equipment, and often aircraft--to 
be able to get that high level of readiness forward to fight 
tonight. Their readiness is at a lower level. That concerns me 
because that is the force we are going to rely on if a 
contingency kicks off.
    So where you have lower levels of readiness, you are going 
to find low morale, because a pilot who does not fly, and air 
traffic controller who does not control, a maintainer who does 
not maintain, is not going to stay in this business, because we 
are not giving them the opportunity to be the best they can be 
in their business.
    Senator Sullivan. Thank you.
    Senator Fischer. Thank you, Senator.
    Senator Heinrich?
    Senator Heinrich. General Greaves, back to the issue of 
contracts for just a minute, I have spoken quite a bit in 
recent years about the significant amount of time that it takes 
to award contracts to small satellite businesses. In New 
Mexico, the delays have sometimes extended to one or more years 
before receiving approval. You and your team at SMC recently 
announced a space enterprise consortium that would use other 
transaction authorities to will help speed up that process.
    How would you describe the industry response so far to the 
consortium RFI [Request for Information] ? How will the 
consortium accelerate the solicitation-to-award timeline?
    Finally, I just want to say thank you to you and Colonel 
Anttonen for your leadership on this issue.
    Lt. Gen. Greaves. Thank you, Senator.
    The response of industry has been enthusiastic. By using 
the other transaction authority as we have done recently with 
our rocket propulsion system work, industry sees, as you 
mentioned, reduced timeline, increased responsiveness, and 
ability to execute their business case.
    As far as timelines, the final coordination on the 
consortium direction is going through headquarters Air Force 
today. We expect to release it in 30 days and, by the end of 
July, to reward our first contract. That contract will be 
supporting development of tactics, techniques, and procedures 
in support of the space warfighting construct.
    Senator Heinrich. Thank you.
    Senator Fischer. Thank you, Senator.
    Senator Cotton?
    Senator Cotton. Thank you, Madam Chair. I apologize for my 
tardiness. I had presiding officer duty. It is very much a 
duty, not an honor, which blue suiters know, it is like staff 
duty when you are a lieutenant.
    I understand, General Goldfein, that, in your opening 
statement, you spoke about the space corps, which is one of the 
approaches the GAO reported could resolve the fragmentation 
within the DOD, the separate space force. You said you do not 
support it at this time.
    Could you elaborate a little bit on the reasons for that?
    General Goldfein. Yes, sir, because, right now, we are at 
this point in our history relative to the criticality of space 
that we are evolving from treating space as a domain that is 
relatively benign from which we report, sense, and monitor, to 
a domain that we have to fight in should a war extend or 
start--extend into space or start in space.
    As we make this transition right now and we look at our 
operating construct and normalize joint warfighting, I would 
not recommend to this committee that we would go to a corps 
right now, because anything that separates space and makes it 
unique and different relative to all of the warfighting 
missions that we perform that are reliant on space, I do not 
believe that will move us in the right direction at this time.
    Senator Cotton. Ms. Chaplain, would you care to provide any 
thoughts?
    Ms. Chaplain. Yes, I understand that point of view. In our 
report, we laid out options. We did not make a particular 
recommendation, because we think how it affects operations 
needs to be taken into account.
    But I will say that the solutions tried to date that do not 
separate space as people think it should be separated have not 
worked very well. The reasons that people in these prior 
studies and even today believe that there needs to be some kind 
of segmentation is to protect the space budget, is to leverage 
expertise for the work force, and is to really clearly 
designate who is in charge. If it is not going to be that, it 
needs to be some kind of solution that does those things.
    Senator Cotton. Thank you.
    General Goldfein, you mentioned the difference between the 
benign environment that we are used to and increasing in a 
warfighting environment, which your joint statement from all 
the witnesses says right there on page 2.
    What exactly is the risk that we face in space now, in 
layman's terms, so the ordinary American can understand it? 
Because I think most ordinary Americans do believe that space 
is a benign environment.
    General Goldfein. Well, again, to the average American who 
goes to an ATM [automated teller machine] and pulls money out 
of that ATM, the timing signal that ATM relies on comes from 
GPS satellites that are flown and managed by the United States 
Air Force. You want to take a look at not only how many 
activities are dependent--you can look at the transportation 
industry, whether you want to talk airlines or trains, it is 
dependent on that signal.
    Just from a GPS constellation standpoint, I would argue 
that, globally, this is a constellation that we have to ensure 
that we are monitoring and protecting.
    When we call it a joint warfighting domain, the idea here 
is that we actually now how to fight on land, at sea, in the 
air, and we have tried and true tactics, techniques, and 
procedures. Now is the time for us to apply those to the space 
domain so it becomes further integrated and normalized across 
how we fight.
    That is why anything that actually talks about the business 
of separating and space in the same sentence I submit to you is 
moving us in the wrong direction. Anything that talks about 
integrating and normalizing space is moving us in the right 
direction.
    Senator Cotton. The threat to normal Americans about their 
ATM machine sounds pretty dangerous. Who would do such a thing? 
What countries or what adversaries would be able to disable 
satellite constellations?
    General Goldfein. Without going into--I can get on your 
schedule for more of a classified----
    Senator Cotton. No, no, I know who they are. I was just 
wondering if you wanted to say who they are.
    General Goldfein. Right now, in terms of who we are 
watching that is investing most in taking away our advantages 
in space, the two countries that are making the most investment 
in this area are China and Russia.
    Senator Cotton. The asymmetry that we face is just inherent 
in our geopolitical situation? We sit here in the new world and 
we try to project power in the old world across the vast 
domains, and, therefore, we are inherently going to rely more 
on the space constellation than any old world power like Russia 
or China will?
    Secretary Wilson, you look like you want to respond.
    Secretary Wilson. Senator, let me take that one. It is not 
just our role in the world. It is that we are really good at 
it, and, hence, we have become heavily dependent on upon it. 
When it was uncontested, that was a nice place to be, but our 
adversaries know it, that we are heavily dependent upon it and 
very good at it, and, hence, they see the vulnerability.
    In any conflict, space is going to be contested. We see the 
capabilities, and the folks can come up and brief you in a 
classified way, but it is also their declaratory policy. The 
Russians have publicly stated that this is part of their 
declaratory policy, to develop capabilities to deny us the use 
of space in any conflict.
    Senator Cotton. Thank you all.
    Senator Fischer. Thank you, Senator.
    Senator Cruz?
    Senator Cruz. Thank you, Madam Chairman.
    Welcome, everyone. Thank you for being here testifying.
    Secretary Wilson, congratulations on your confirmation and 
being sworn in. Thank you for your service once again.
    Just a minute ago, you were visiting with Senator Cotton 
about the threats from Russia and China in space and, indeed, a 
couple of instances of potential conflict.
    Russia's Kosmos-2499, a kamikaze satellite fashioned to 
destroy American satellites, and China's Shiyan, a grappling 
arm-equipped satellite that could remove United States assets 
from their orbit, how serious do you estimate this threat is? 
What can be done to protect our assets from potential hostile 
activity in space?
    General Goldfein. Sir, I will tell you that we as the 
service responsible for flying all 12 constellations and 90 
percent of the architecture, we take this very seriously. 
Without going into any kind of a classified discussion, I will 
just tell you that layering our defenses and ensuring that we 
truly understand and can characterize the threat, and then 
perhaps just as importantly as the constellations themselves, 
the command and control architecture that we are building in to 
first characterize and then be able to get the decision speed 
we need to respond quickly are all part of the space operating 
construct that we are working toward.
    Then I would like to turn it over to General Raymond as 
well who is really the operational warfighter in this business, 
because a significant portion of our effort is actually also 
transitioning the space mission force into a force that has 
been focused primarily on monitoring and reporting and actually 
focused on fighting.
    Senator Cruz. General Raymond?
    General Raymond. Thank you, Senator.
    As I look at it, I have four imperatives, and in any 
warfighting domain, and I would characterize space as a 
warfighting domains just like air, land, and sea, in any of 
those warfighting domains, you have to have the ability to 
command and control forces in that domain. You have to have the 
ability to have space situational awareness or situational 
awareness in that domain. You have to have an architecture that 
is defendable. You have to have, as the chief just mentioned, 
professionally developed airmen that can fight and be joint 
warfighters.
    Those four areas are where I am focused. We have made some 
pretty significant strides in battle management command-and-
control. We are working hard in partnership with the National 
Reconnaissance Office in space situational awareness, and with 
other partners, including commercial space in developing ConOps 
on how we go about disaggregating that architecture and coming 
up with architecture. We work that very closely with national 
reconnaissance as well.
    Then on the space professional development piece, we are 
making sure that our airmen have the ability to participate in 
exercises, wargames, go to the right training, the right 
schools, to be joined warfighters.
    Senator Cruz. What vulnerability would we have to a nuclear 
device in a satellite? What could be the potential harms to the 
Homeland if a nuclear device were detonated in orbit?
    General Raymond. Senator, I would say that there is a 
spectrum of threats that we would be concerned about. They 
would go from anything from the low end of reversible jamming 
of communication satellites and GPS satellites, for example, up 
through directed energy, up through what we saw demonstrated in 
2007 by the Chinese with the direct-ascent ASAT. Then I would 
put at the far end of that spectrum nuclear devices detonated 
in space, which would have very significant impacts across our 
constellations.
    Lt. Gen. Greaves. Senator, I would add that our most 
critical satellites with those capabilities, they have been 
designed to operate through the environment you just mentioned. 
In this forum, that is all I can say.
    Senator Cruz. What would the risks be of an EMP from a 
nuclear device detonated in orbit?
    Lt. Gen. Greaves. Senator, again, it would depend on the 
type of satellite systems. Our big data pipe, wide-band global 
satcom would be less protected than our most critical--
satellites that are in the nuclear chain of command, those 
would be able to fight through that sort of environment.
    Senator Cruz. But we do have--it is correct that North 
Korea has satellites orbiting right now?
    General Raymond. They have one satellite. I call it a piece 
of debris. It is not very useful. It is more of a statement 
that they have been able to put something in orbit, which is 
concerning. But I do not consider it a capability that provides 
them benefit.
    Senator Cruz. What are the most vital steps necessary to 
protect our assets in space, to prevent the space architecture 
from being taken down?
    General Raymond. I think there are a couple things you have 
to do.
    First of all, our plans are to make the capabilities that 
we have today more defensible. One thing you might do is add 
some maneuverability capability to allow it to be more agile. 
The other thing that we are working through is looking at an 
architecture perspective.
    How might you disaggregate, diversify? We had good 
conversations earlier about the role of commercial space, the 
role of our allies. How do you build that architecture that 
puts you in a position day-to-day to be more defendable?
    Senator Cruz. Thank you.
    Senator Fischer. Thank you, Senator Cruz.
    I thank you all for coming today and being able to present 
and discuss this very important topic with us.
    Thank you all for your service to this country.
    With that, we are adjourned.
    [Whereupon, at 3:25 p.m., the subcommittee was adjourned.]

    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator James M. Inhofe
    1. Senator Inhofe. Lt. Gen. Greaves, the Air Force's Evolved 
Expendable Launch Vehicle (EELV) program is the primary provider of 
launches for critical military and intelligence satellites. The Air 
Force has started introducing competition into the program, which for 
almost 10 years had only one company capable of providing launches. Has 
the Air Force determined whether the commercial and government launch 
markets can support at least two U.S. launch providers?
    Lt. Gen. Greaves. Yes, there is a stable enough commercial, 
National Security Space (NSS), and civil demand for launch services 
that the market will be capable of supporting more than one U.S. launch 
service provider. The Air Force has conducted research on various 
commercial launch market forecasts, including analyzing the Federal 
Aviation Administration (FAA) Commercial Space Transportation Committee 
(COMSTAC) forecasts and Year in Review reports. Our research indicates 
a stable competitive commercial market, with an average of 20-30 
launches worldwide each year expected to be captured by U.S. launch 
providers. The forecast through 2023 shows an increase in the number of 
launches attributed to both NASA International Space Station re-supply 
missions and commercial telecommunications constellation replenishment. 
The Air Force is taking a conservative view on all launch forecasts 
since, historically, launch vehicle and satellite program schedules are 
uncertain.

    2. Senator Inhofe. Lt. Gen. Greaves, the EELV RFP requests Other 
Transactional Authority, or OTA, which is not traditionally used for 
multi-year billion dollar procurement contracts due to the lack of 
transparency and congressional oversight.
    a) Lt. Gen. Greaves, who authorized this Other Transactional 
Authority?
    b) Lt. Gen. Greaves, why was it needed?
    c) Lt. Gen. Greaves, how does it ensure transparency with congress 
and specifically this committee?
    Lt. Gen. Greaves. Per 10 U.S.C. Sec.  2371b(a)(2)(B)(1), Other 
Transaction Authority (OTA) for agreements over $250 million must be 
approved by USD(AT&L) with a 30-day period to provide notification to 
Congress. There were four OTA agreements awarded for Rocket Propulsion 
Systems (RPS). Mr. Frank Kendall approved the use of OTA for one of the 
RPS OTA agreements that was over $250 million on 11 January 2016. Per 
10 U.S.C. Sec.  2371b(a)(2)(A), the remaining OTA agreements were 
approved by SAF/AQ. The Air Force will pursue similar written 
determinations prior to the award of Launch Service Agreements.
    Based on market research, the Air Force is implementing an 
acquisition strategy that invests in U.S. industry's launch system 
developments as the best way to be sure they not only meet commercial 
launch needs but also the stringent needs of National Security Space 
systems. This not only ends the use of the Atlas V launch vehicle, 
powered by the Russian RD-180 engine, but will lower the overall cost 
of launch and provide more innovation by leveraging competition. To 
implement this strategy, the Air Force carefully considered Federal 
Acquisition Regulation (FAR) type contracts, grants, and cooperative 
agreements, but these instruments were found not to be suitable. The 
use of OTA is appropriate because the Air Force, by investing in 
industry's commercial launch system solutions, can make sure that 
future launch services will meet National Security Space needs. The Air 
Force benefits by being able to procure launch services without having 
to pay the full cost of developing launch systems. The launch service 
providers benefit from the Air Force sharing the cost of developing 
systems that meet NSS requirements.
    OTA agreements enable the Government to leverage industry 
investments. Industry will invest over $650 million in the existing RPS 
OTA agreements if all options are exercised, and significantly more 
industry investment is anticipated for the launch system prototype 
development efforts. In addition, the OTA agreements provide 
flexibility to execute varying deliverables and payment plans depending 
on each company's business structure and development maturity levels.
    OTA agreements and the NASA equivalent, Commercial Space Act 
Agreements, were used to successfully develop all of the current EELV-
class launch vehicles, including the Atlas V, Delta IV (EELV 
Development and Initial Launch Service Program), and Falcon 9 
(Commercial model for NASA Public-Private Partnerships) launch 
vehicles.
    The Air Force complied with the provision to notify Congress 30 
days prior to the approval to use OTA for agreements over $250 million, 
per 10 U.S.C. Sec.  2371b(a)(2)(B)(1). In addition, 10 U.S.C. Sec.  
2371b(c) requires that the Government Accountability Office have access 
to information under the Other Transaction Authority agreement.
    The agreements require industry to provide data and completion 
evidence throughout development of the launch system so the Air Force 
has the insight into the development of the prototype and the data 
necessary to assure mission success in the future. The Air Force has 
provided and will continue to provide regular updates on the existing 
RPS OTA agreements to the relevant congressional authorization and 
appropriations committees since the RPS OTA agreements were awarded in 
January and February 2016.

                        assured access to space
    3. Senator Inhofe. Secretary Wilson, are the Falcon Heavy and 
Vulcan the only potential replacements for the Atlas V or are there 
other alternatives such as replacing the Atlas V engine?
    Secretary Wilson. Industry is developing at least three alternative 
launch systems that will be able to replace the capability of the Delta 
IV and Atlas V. These are the SpaceX Falcon 9 and Falcon Heavy launch 
vehicles; the United Launch Alliance (ULA) Vulcan Launch System; and 
the Orbital ATK Next Generation Launcher (NGL). There could be others 
that eventually compete to meet Air Force launch service needs. The Air 
Force's strategy is to invest in commercial launch systems so they meet 
National Security Space requirements to provide the Nation with assured 
access to space while transitioning off the Russian-built RD-180 engine 
and enabling a sustainable domestic launch industry. Shared investment 
with launch service providers is the best approach to building a 
domestic rocket propulsion system that is integrated into launch 
systems and can provide National Security Space launch services.

    4. Senator Inhofe. Secretary Wilson, what is the impact on U.S. 
assured access to space if there are extensive delays with the 
development of the Falcon Heavy and/or Vulcan rockets?
    Secretary Wilson. The Air Force needs assured access to space, and 
having at least two space launch vehicles (or families of space launch 
vehicles) capable of delivering National Security Space payloads, opens 
competition and options. As such, the Air Force plans to award up to 
three Launch Service Agreements (LSAs) to invest in industry's new and/
or upgraded launch systems. Having three potential providers reduces 
the risk of a gap in assured access to space in case one company 
experiences development delays. To ensure access to Delta IV launch 
vehicle during development of a new launch system, the Air Force is 
procuring three additional sole-source Delta IV Heavy launch vehicles. 
These procurements, coupled with the ability to use up to eighteen 
additional RD-180 engines on Atlas V launch vehicles, are sufficient to 
provide assured access to space through the transition to new launch 
vehicles.

    5. Senator Inhofe. Secretary Wilson, are there unique missions that 
only the Delta IV can perform? Is there another existing or planned 
platform that can do those missions when Delta IV is retired?
    Secretary Wilson. The Delta IV has certified launch vehicle 
configurations capable of launching all three categories of missions; 
medium, intermediate, and heavy. Currently other certified launch 
vehicle options are only able to complete medium and intermediate 
missions. There are a few critical reconnaissance missions that 
currently require the Delta IV Heavy launch vehicle. The Air Force is 
procuring three additional Delta IV Heavy launch vehicles, all of which 
will launch by FY23. Industry is developing at least three alternative 
launch systems that will be able to replace the capability of the Delta 
IV and Atlas V. These are the SpaceX Falcon 9 and Falcon Heavy launch 
vehicles; the United Launch Alliance Vulcan Launch System; and the 
Orbital ATK Next Generation Launcher.

    6. Senator Inhofe. Secretary Wilson, what is the full cost of each 
of the RD-180 replacement options and what is the cost to the 
government for each option?
    Secretary Wilson. The full cost of RD-180 engine replacement 
options won't be known until launch service providers submit their 
launch service agreement proposals in the fourth quarter of 2017. In 
the meantime, the Air Force is investing in ongoing industry engine 
development via Rocket Propulsion System Other Transaction Authority 
agreements which were awarded in January-February 2016. The Air Force 
awarded: $536 million to Aerojet Rocketdyne for the development of the 
AR1 main stage engine; $176.9 million to Orbital ATK for development of 
the Common Boost Segment main stage, the Graphite Epoxy Motor 63XL 
strap-on booster, and an extendable nozzle for Blue Origin's BE-3U/EN 
upper stage engine; $61.4 million to SpaceX for development testing of 
the Raptor upper stage engine; and $201.6 million to United Launch 
Alliance for the development of the Vulcan/BE-4 main stage engine and 
the Advanced Cryogenic Evolved upper stage engine.
      robotic servicing of geostationary satellites (rsgs) program
    7. Senator Inhofe. Secretary Wilson and General Goldfein, under 
DARPA's Robotic Servicing of Geostationary Satellites (RSGS) program, 
it is developing a spacecraft that will service satellites in the 
geosynchronous orbit.
    a) Secretary Wilson and General Goldfein, what are the DOD 
requirements for servicing satellites in orbit?
    b) Secretary Wilson and General Goldfein, if the RSGS capabilities 
are critical to national security, why would DARPA then hand the RSGS 
asset off to a sole commercial operator to contract with both the U.S. 
Government and the commercial marketplace vice providing the strategic 
asset to the Air Force, the intelligence community, or NASA to serve a 
national security purpose?
    c) Secretary Wilson and General Goldfein, if the RSGS capabilities 
are critical to national security, why would DARPA then hand the RSGS 
asset off to a sole commercial operator to contract with both the U.S. 
Government and the commercial marketplace vice providing the strategic 
asset to the Air Force, the intelligence community, or NASA to serve a 
national security purpose?
    Secretary Wilson and General Goldfein. DOD is examining technology 
approaches and concepts for future spacecraft that might benefit from 
on-orbit servicing. Currently, there are no validated requirements for 
servicing satellites in orbit but we anticipate that the RSGS 
technology demonstration will provide information needed to formulate 
approaches and support requirements. The experimental RSGS should 
provide data on the utility of on-orbit servicing that could be used to 
develop concepts for the future.
    Future DOD needs for on-orbit servicing capabilities are highly 
speculative at present. RSGS will provide lessons learned on concepts 
of operations and acquisition strategy approaches that will be useful 
in determining an approach to fielding such a capability as warranted. 
DARPA can provide additional information on the appropriateness of 
their acquisition strategy for RSGS.
                             space threats
    8. Senator Inhofe. Secretary Wilson, there has been a tangible 
increase of threats to our space enterprise--vis-a-vis China, Russia, 
low-cost jamming and lasers that can disable our systems--that will 
also effect the warfighter that depends on these assets. Given the 
burgeoning investment in commercial capabilities, do you feel the Air 
Force and DOD is properly organized and equipped to counter these new 
threats with innovative technologies?
    Secretary Wilson. As our potential adversaries recognize our 
dependence on space and the asymmetric advantage it provides, the space 
domain will become increasingly contested and must be viewed as a 
warfighting domain. The Air Force is engaged in a variety of 
initiatives to deal with this challenge. One of these is the 
establishment of a new Deputy Chief of Staff for Space Operations (AF/
A11) and supporting staff. This new organization will ensure a 
dedicated focus of a Lieutenant General-led organization to concentrate 
on space operations, policy, guidance, requirements, integration and 
the synchronization required to strengthen the advocacy for and 
stewardship of Air Force missions and capabilities. The Air Force is 
also aggressively pursuing partnerships with the commercial space 
sector as well as interagency partners such as the NRO to take full 
advantage of synergies and interdependencies for operations and 
defense--a truly enterprise approach. Additionally, at the operational 
level units, we have evolved our space force posture and advanced our 
training to increase readiness though the implementation of the Space 
Mission Force. The Space Mission Force was specifically designed to 
improve our crewmembers' ability to recognize and react to adversary 
threats. While these are important steps, we must continue to adjust 
our posture to meet an increasingly contested space domain through 
additional investment in resilient systems, operations training, and 
organizational design.
                              space launch
    9. Senator Inhofe. Secretary Wilson and General Raymond, legacy 
launch providers operate under different FAR requirements than 
commercial entrants. What criteria is the Air Force is awarding 
launches and if there is more than one criterion, how are they weighted 
(such as price, reliability, schedule certainty and past performance)?
    Secretary Wilson. Under EELV Phase 1A, all the providers must 
compete under the same criteria (same FAR requirements). The launch 
service competitions are a best value source selection. The EELV 
program office developed a baseline source selection approach where 
certification informs a rigorous responsibility determination prior to 
award. Certification status is a key consideration for the procuring 
contracting officer to determine a launch service provider as 
responsible/awardable.
    In the construct of the launch service development Other 
Transaction Authority agreements, which will lead into Phase 2 
procurement, the evaluation criteria will not be weighted but will be 
described with factors in an order of importance. Specific technical 
acceptance criteria based on mission-unique areas are used as 
discriminators. Schedule confidence is evaluated using schedule risk 
assessments as well as evaluating risk mitigation and open work closure 
plans. Past performance is an evaluation criteria for Phase 1A, but it 
will not be a criteria for Phase 2. Some critical missions have a low 
risk tolerance posture, which must be evaluated in source selection to 
obtain best value for the Government. Mission attributes justify 
additional risk evaluation (national importance, high dollar value, 
small constellations).
    General Raymond. Under EELV Phase 1A, all the providers must 
compete under the same criteria (same FAR requirements). The launch 
service competitions are a best value source selection. The EELV 
program office developed a baseline source selection approach where 
certification informs a rigorous responsibility determination prior to 
award. Certification status is a key consideration for the procuring 
contracting officer to determine a launch service provider as 
responsible/awardable.
    In the construct of the launch service development Other 
Transaction Authority agreements, which will lead into Phase 2 
procurement, the evaluation criteria will not be weighted but will be 
described with factors in an order of importance. Specific technical 
acceptance criteria based on mission-unique areas are used as 
discriminators. Schedule confidence is evaluated using schedule risk 
assessments as well as evaluating risk mitigation and open work closure 
plans. Past performance is an evaluation criteria for Phase 1A, but it 
will not be a criteria for Phase 2. Some critical missions have a low 
risk tolerance posture, which must be evaluated in source selection to 
obtain best value for the Government. Mission attributes justify 
additional risk evaluation (national importance, high dollar value, 
small constellations).
                               __________
               Questions Submitted by Senator Deb Fischer
    10. Senator Fischer. General Raymond and Lt. Gen. Greaves, as you 
are aware, the Air Force awarded several GPS III feasibility assessment 
contracts last year. Can you provide an update on these contracts? Do 
the results of the Phase 1 assessment contracts help inform the GPS III 
acquisition strategy and requirements?
    General Raymond. The GPS III Space Vehicles (SVs) 11+ Follow-on 
Program awarded Phase 1 in May 2016 and is nearing conclusion. Phase 1 
was intended to verify whether viable GPS III follow-on production 
designs exist and to decrease technical risk for a Phase 2 follow-on 
production by allowing the Government to gain insight into contractors' 
production designs, navigation payload demonstration models, and 
manufacturing plans. Phase 1 results to-date indicate that competition 
may be viable. The results of Phase 1 will help inform the acquisition 
strategy and lower risk moving forward into Phase 2 of the Follow-On 
Production strategy.
    Lt. Gen. Greaves. The GPS III Space Vehicles (SVs) 11+ Follow-on 
Program awarded Phase 1 in May 2016 and is nearing conclusion. Phase 1 
was intended to verify whether viable GPS III follow-on production 
designs exist and to decrease technical risk for a Phase 2 follow-on 
production by allowing the Government to gain insight into contractors' 
production designs, navigation payload demonstration models, and 
manufacturing plans. Phase 1 results to-date indicate that competition 
may be viable. The results of Phase 1 will help inform the acquisition 
strategy and lower risk moving forward into Phase 2 of the Follow-On 
Production strategy.

    11. Senator Fischer. General Goldfein and General Raymond, in 
general, what are your plans to address the growing threat to GPS from 
denial of service attacks?
    General Goldfein. Three forms of denial of service are an ongoing 
concern to GPS users: jamming, spoofing, and cyberattack. The first two 
are effects local to a theater of operations while the last has global 
reach. To address jamming and spoofing, the Air Force is introducing 
the new Military Code signal (M-Code) and modernized GPS user 
equipment, providing users with additional resiliency in GPS contested 
and denied environments. M-Code provides advanced signal design, 
processing and encryption techniques to defeat both jamming and 
spoofing. GPS satellite operators are also able to adapt the transmit 
power levels for M-code and legacy military signals to match threats, 
providing additional signal strength to overcome theater jamming 
effects.
    To address cyberattack, the Air Force has completed a comprehensive 
evaluation on the cybersecurity posture of the existing GPS command and 
control system, Operational Control Segment (OCS). The Air Force is 
upgrading OCS to include network monitoring and intrusion detection to 
defend against denial of service and other cyber-attacks. OCS has 
built-in redundancy in its architecture at the system, subsystem, and 
component level, to include an entire alternate command and control 
ground station geographically separated from the primary command and 
control ground station. The follow-on Next Generation Operational 
Control System (OCX) is designed to operate in the modern threat 
environment and brings advanced cyber defense capabilities to the GPS 
enterprise. OCX will incorporate network monitoring and intrusion 
detection capability, in addition to a much more modern, robust 
security architecture.
    General Raymond. Three forms of denial of service are an ongoing 
concern to GPS users: jamming, spoofing, and cyberattack. The first two 
are effects local to a theater of operations while the last has global 
reach. To address jamming and spoofing, the Air Force is introducing 
the new Military Code signal (M-Code) and modernized GPS user 
equipment, providing users with additional resiliency in GPS contested 
and denied environments. M-Code provides advanced signal design, 
processing and encryption techniques to defeat both jamming and 
spoofing. GPS satellite operators are also able to adapt the transmit 
power levels for M-code and legacy military signals to match threats, 
providing additional signal strength to overcome theater jamming 
effects.
    To address cyberattack, the Air Force has completed a comprehensive 
evaluation on the cybersecurity posture of the existing GPS command and 
control system, Operational Control Segment (OCS). The Air Force is 
upgrading OCS to include network monitoring and intrusion detection to 
defend against denial of service and other cyber-attacks. OCS has 
built-in redundancy in its architecture at the system, subsystem, and 
component level, to include an entire alternate command and control 
ground station geographically separated from the primary command and 
control ground station. The follow-on Next Generation Operational 
Control System (OCX) is designed to operate in the modern threat 
environment and brings advanced cyber defense capabilities to the GPS 
enterprise. OCX will incorporate network monitoring and intrusion 
detection capability, in addition to a much more modern, robust 
security architecture.
                     space modernization initiative
    12. Senator Fischer. Lt. Gen. Greaves, as you know, the Space 
Modernization Initiative (SMI) is intended to affordably evolve space-
related technologies, concepts, and capabilities. Do you believe SMI 
funding should be used to support the insertion of new technologies 
into space systems, including those already under block-buy contracts, 
as a means to increase capabilities?
    Lt. Gen. Greaves. Yes and we are leveraging SMI funding to enhance 
the capabilities of the current space and ground systems. To the extent 
feasible, within cost and schedule targets, we will continue to invest 
in opportunities to insert new technologies to evolve the current 
program of record constellations and improve space segment performance, 
while reducing production timelines and associated production costs. 
SMI is also a key enabler to developing enhanced ground processing 
algorithms and data distribution capabilities to improve the quality 
and timeliness of the information we can provide the warfighter from 
on-orbit space assets. Furthermore, SMI funding is critical to maturing 
our abilities to deliver resilient, persistent capabilities in the face 
of attack across the space and ground segments.
                               __________
               Questions Submitted by Senator Bill Nelson
                defense space stakeholder organizations
    13. Senator Nelson. Secretary Wilson and Ms. Chaplin, in your 
testimony you refer to the GAO's identification of approximately 60 DOD 
space stakeholder organizations across DOD, the Executive Office of the 
President, the Intelligence Community, and civilian agencies, with 8 
having acquisition management responsibilities, 11 having oversight 
responsibilities, and 6 involved in setting requirements. Secretary 
Wilson and Ms. Chaplin, how do you think we can effectively consolidate 
these stakeholders and make space acquisition more effective?
    Secretary Wilson. There are a number of steps underway to 
consolidate stakeholder responsibility and improve the effectiveness of 
the space acquisition community. The White House is standing up a 
National Space Council led by the Vice President to give focus and 
attention to space matters across the government. USD/AT&L has returned 
Milestone Decision Authority for many key space programs back to the 
Services, as directed by the NDAA to reduce the number of people 
charged with acquisition oversight and empower the Service Acquisition 
Executives to make smart, timely decisions. The Air Force and Joint 
Staff are instituting a dedicated team to review and expedite space 
requirements. The Deputy Secretary of Defense recently approved the 
Policy Directive for the Principal Deputy Space Advisor, allowing me to 
lead collaboration across the National Security Space Community.
    Ms. Chaplin. We have not recommended a particular solution but we 
have identified several options for consolidating stakeholders. These 
include combining military space functions into one agency; combining 
Air Force and NRO space acquisition functions into a space acquisition 
agency; and creating a new military department for the space domain--a 
Space Force. A fourth option, creating a Space Corps within the Air 
Force, has also been recently proposed. All of these options align with 
recommendations made by prior congressionally chartered commissions. 
For example, the Rumsfeld Commission in 2001 envisioned gradual changes 
starting in the short term with some realignments and dual hatting the 
Under Secretary of the Air Force as the Director of the NRO, then 
creating a Space Corps in the mid-term, and ultimately creating a 
military department for space. A second commission in 2008, the Allard 
Commission, recommended establishing a single National Security Space 
Authority and National Security Space Organization which would pull in 
the National Reconnaissance Office, the Space and Missile Systems 
Center, Air Force Space Command space operations, as well as Army and 
Navy space organizations. The Allard Commission noted that such a 
structure would provide a foundation for growth and evolution of the 
organization into a corps or independent service as necessary to adapt 
to future events. All of these changes would likely involve significant 
short-term disruption to DOD's space organizational structure, roles, 
and responsibilities. Moreover, their consequences would extend far 
beyond the acquisition arena--the focus of our work with regard to 
space leadership. Careful consideration of any such changes is 
therefore essential for helping to ensure a better track record of 
providing warfighters with the capabilities they need on time and 
within costs. Experts we spoke with strongly suggested ensuring any 
change helps to (1) streamline reviews, (2) delegate more decision-
making to lower levels, (3) increase unity of national security space 
decisions between DOD and the NRO, (4) achieve lasting change that 
cannot be quickly undone and to allow time for changes to work, and (5) 
provide sufficient acquisition, execution, and budget authority.
                         national space council
    14. Senator Nelson. Secretary Wilson and General Goldfein, to what 
extent might a revived National Space Council with authority for 
setting priorities for individual departments and agencies and with 
responsibility for strategic planning of space capabilities and 
operations be a positive change to help ensure effective interagency 
coordination of space efforts?
    Secretary Wilson and General Goldfein. A National Space Council 
provides an apex to the whole of government approach and can act as the 
focal point for national level space-related equities across the 
national security, civil, commercial and international portfolio. 
Elevating this function back into the White House also signifies its 
importance to the Nation.
                       defense space organization
    15. Senator Nelson. Last month, Air Force announced the 
establishment of a new three-star position of Air Force Deputy Chief of 
Staff for Space. General Goldfein and General Raymond, how will 
seemingly adding yet another layer of responsibility within the Air 
Force help to address the fragmented space leadership that already 
exists in the Department?
    General Goldfein. Last month, Air Force announced the establishment 
of a new three-star position of Air Force Deputy Chief of Staff for 
Space. General Goldfein and General Raymond, how will seemingly adding 
yet another layer of responsibility within the Air Force help to 
address the fragmented space leadership that already exists in the 
Department?
    General Raymond. The A11 Deputy Chief of the Air Force for Space 
will not add another layer of responsibility within the Air Force. 
Rather, it will synchronize Air Force headquarters space activity as 
well as amplify and focus needed attention on national security space 
issues. The A11 will coordinate, synergize, and directly support space 
warfighting CONOPS development, exercise participation, wargaming, 
strategy development and planning in support of the combatant commands. 
A11 normalizes warfighting under the CSAF. It will also oversee force 
development for our enlisted, officer and civilian space professionals. 
And the A11 will champion for the requirements and resources necessary 
to field resilient capabilities to deter and prevail in any fight that 
extends to space.

    16. Senator Nelson. Past studies such as the 2001 Space Commission 
and the 2008 Allard Commission have recommended far-reaching 
organizational changes to DOD's space enterprise, including 
centralizing space management. However, DOD has generally not made 
major changes. General Goldfein and General Raymond, what, if any, 
barriers do you see to making changes in DOD space and how can they be 
overcome?
    General Goldfein. The studies you reference recommended 
organizational change to fundamentally improve and assure space 
capabilities for the nation. DOD space has undergone significant change 
over the last several years, many due to recommendations from studies 
such as the Rumsfeld and Allard Commissions. For example, the 
department implemented the following from the 2001 Space Commission:

    <bullet>  Assigned command of AFSPC to 4-star other than CINCSPACE/
CINCNORAD (end of tri-hatting AFSPC/NORAD/USSPACECOM)
    <bullet>  Ended the practice of assigning only flight rated 
officers to CINCSPACE/CINCNORAD
    <bullet>  Re-aligned headquarters to more efficiently organize, 
train and equip space operations and assign AFSPC responsibility for 
providing resources for acquisitions (Aligning SMC under AFSPC)
    <bullet>  Established the Air Force as Executive Agent for Space 
within DOD (later transitioned to PDSA role)

    As we continue to normalize, integrate and elevate space as a 
warfighting domain, extraordinary organizational change--such as 
standing up of a Space Corps--is not warranted, and could be 
counterproductive. Rather, we must build on and accelerate ongoing 
efforts to fundamentally improve and assure space capabilities. These 
include streamlining acquisition and reducing bureaucratic oversight, 
empowering program managers, expediting requirements, exercising and 
war-gaming for a contested environment, synchronizing disparate voices 
and efforts and increasing collaboration across the national security 
space community. We should avoid efforts which create barriers to space 
integration into joint warfighting. Moving forward to normalize space 
for joint warfare is the direction I'd like to see for DOD space.

    General Raymond. The studies you reference recommended 
organizational change to fundamentally improve and assure space 
capabilities for the nation. DOD space has undergone significant change 
over the last several years, many due to recommendations from studies 
such as the Rumsfeld and Allard Commissions. For example, the 
department implemented the following from the 2001 Space Commission:

    <bullet>  Assigned command of AFSPC to 4-star other than CINCSPACE/
CINCNORAD (end of tri-hatting AFSPC/NORAD/USSPACECOM)
    <bullet>  Ended the practice of assigning only flight rated 
officers to CINCSPACE/CINCNORAD
    <bullet>  Re-aligned headquarters to more efficiently organize, 
train and equip space operations and assign AFSPC responsibility for 
providing resources for acquisitions (Aligning SMC under AFSPC)
    <bullet>  Established the Air Force as Executive Agent for Space 
within DOD (later transitioned to PDSA role)

    As we continue to normalize, integrate and elevate space as a 
warfighting domain, extraordinary organizational change--such as 
standing up of a Space Corps--is not warranted, and could be 
counterproductive. Rather, we must build on and accelerate ongoing 
efforts to fundamentally improve and assure space capabilities. These 
include streamlining acquisition and reducing bureaucratic oversight, 
empowering program managers, expediting requirements, exercising and 
war-gaming for a contested environment, synchronizing disparate voices 
and efforts and increasing collaboration across the national security 
space community. We should avoid efforts which create barriers to space 
integration into joint warfighting. Moving forward to normalize space 
for joint warfare is the direction I'd like to see for DOD space.
                           space acquisition
    17. Senator Nelson. In regard to space acquisitions, the DOD and 
NRO acquisition structures are different and we have heard praises of 
the NRO's structure. General Raymond and Lieutenant General Greaves, 
how can DOD adopt some elements of the NRO acquisition structure into 
its own structure?
    General Raymond. Within the Air Force, the Program Manager reports 
to the Air Force Program Executive Officer for Space (AFPEO/SP), who in 
turn reports to the Air Force Service Acquisition Executive, who 
reports to the Milestone Decision Authority (MDA), the Under Secretary 
of Defense for Acquisition, Technology, and Logistics (USD (AT&L)) at 
perhaps a Defense Acquisition Board (DAB) for Space Major Defense 
Acquisition Programs (MDAPs). The Air Force has two levels of oversight 
between the PM and the MDA. Within the NRO, the Director of the NRO 
(DNRO) serves as both the NRO Acquisition Executive (NAE) [similar to 
the SAE] and the Program Executive Officer (PEO). The Program Manager 
reports to the DNRO as the Agency Acquisition Executive, through the 
NRO established internal PEO structure. The DNRO, as the acquisition 
executive, then reports to the co-MDAs (Assistant Director of National 
Intelligence, Acquisition, Technology and Facilities (DNI(ATF)) and 
USD(AT&L)), for Major Systems Acquisition (MSA) wholly or majority 
funded by the National Intelligence Program at a National Intelligence 
Acquisition Board (NIAB) [similar to a DAB] for critical MSA 
acquisition decisions. Unlike the Air Force, NRO acquisitions, as in 
all IC (title 50) acquisitions, are governed by ICD 801, a tailored 
guidance patterned after DOD 5000. The NRO also establishes long term 
prime system integration relationships with their space vehicle and 
payload providers. This reduces the number of contract actions, 
especially for non-competitive upgrades. The Air Force is exploring 
long-term relationships with prime contract providers with the 
expertise to quickly on-ramp capabilities in response to threats and 
mission capabilities. At the manpower level, the entire NRO is 
selectively manned. This is not the case for the Air Force space 
acquisition programs. Only a small portion is selectively manned. The 
Air Force is exploring opportunities to increase the space acquisition 
cadre in accordance with Air Force priorities and the space warfighting 
construct.''
    Lt. Gen. Greaves. Within the Air Force, the Program Manager reports 
to the Air Force Program Executive Officer for Space (AFPEO/SP), who in 
turn reports to the Air Force Service Acquisition Executive, who 
reports to the Milestone Decision Authority (MDA), the Under Secretary 
of Defense for Acquisition, Technology, and Logistics (USD (AT&L)) at 
perhaps a Defense Acquisition Board (DAB) for Space Major Defense 
Acquisition Programs (MDAPs). The Air Force has two levels of oversight 
between the PM and the MDA. Within the NRO, the Director of the NRO 
(DNRO) serves as both the NRO Acquisition Executive (NAE) [similar to 
the SAE] and the Program Executive Officer (PEO). The Program Manager 
reports to the DNRO as the Agency Acquisition Executive, through the 
NRO established internal PEO structure. The DNRO, as the acquisition 
executive, then reports to the co-MDAs ( Assistant Director of National 
Intelligence, Acquisition, Technology and Facilities (DNI(ATF)) and 
USD(AT&L)), for Major Systems Acquisition (MSA) wholly or majority 
funded by the National Intelligence Program at a National Intelligence 
Acquisition Board (NIAB) [similar to a DAB] for critical MSA 
acquisition decisions. Unlike the Air Force, NRO acquisitions, as in 
all IC (title 50) acquisitions, are governed by ICD 801, a tailored 
guidance patterned after DOD 5000. The NRO also establishes long term 
prime system integration relationships with their space vehicle and 
payload providers. This reduces the number of contract actions, 
especially for non-competitive upgrades. The Air Force is exploring 
long-term relationships with prime contract providers with the 
expertise to quickly on-ramp capabilities in response to threats and 
mission capabilities. At the manpower level, the entire NRO is 
selectively manned. This is not the case for the Air Force space 
acquisition programs. Only a small portion is selectively manned. The 
Air Force is exploring opportunities to increase the space acquisition 
cadre in accordance with Air Force priorities and the space warfighting 
construct.''
                               __________
             Questions Submitted by Senator Martin Heinrich
                      commercial satellite imagery
    18. Senator Heinrich. General Raymond and Lt. Gen. Greaves, in the 
full committee we hear regularly from military leaders about the need 
for more ISR. In the past few years there has been a growth in U.S.-
based commercial remote sensing satellite providers. These companies 
offer new capabilities for breadth of coverage and revisit rates for 
overhead satellite imagery, with new companies projected to 
significantly increase the total number of satellites operating in 
orbit providing persistent coverage. How can the Air Force benefit from 
access to this new imagery, and do you have any plans to leverage more 
commercial solutions to meet ISR requirements?
    General Raymond and Lt. Gen. Greaves. New imagery can be fused with 
existing and planned capabilities to provide warfighters with new or 
improved data to make decisions. For remote sensing capabilities such 
as missile warning and weather, we are looking to ingest multiple data 
sources into the Tools, Applications, and Processing Lab in Boulder, CO 
to support development of opportunities to fuse data and improve 
information available to warfighters; commercial data would be one 
source. We are at the initial stage of developing this architecture 
framework and have not contracted for commercial data sources at this 
time.
    The Air Force is always seeking to leverage commercial capabilities 
to augment National Security Space missions. The Air Force routinely 
reaches out to industry to understand what can be used and purchased 
specifically for environmental monitoring. This is done through Broad 
Agency Announcement (BAA) and Requests for Information (RFI). The 
feedback we have received does indicate a budding market that in many 
cases still requires government subsidization to be financially viable. 
Recently awarded Broad Agency Announcement contracts aim to provide 
industry the opportunity to mature technology and solidify their 
commercial business case while meeting stringent military requirements.
         kirtland: a center of excellence for small satellites
    19. Senator Heinrich. Secretary Wilson and General Goldfein, 
Kirtland Air Force Base in Albuquerque is a Center of Excellence for 
small satellites and hosts critical missions Operationally Responsive 
Space (ORS), the Air Force Research Laboratory Space Vehicles (AFRL/
RV), as well as the Space and Missile Center's Advanced Systems and 
Development Director (SMC/AD), which all contribute to a more 
responsive and resilient space architecture. Given the increased 
competition in space from Russia and China, as well as other threats, 
how would you realistically define a space architecture that is 
responsive and resilient?
    Secretary Wilson and General Goldfein. A space architecture that is 
responsive and resilient requires a number of elements. Fundamentally, 
such an architecture must disincentive adversaries from attacking our 
space capabilities. To do so, we must be able to find, fix, target, 
track, engage against and assess threats. We need to field capabilities 
in a manner that reduces the adversaries' ability to target our space 
capabilities and moves from current constellations of a few precious 
assets to ones that devalue the capabilities of any single satellite or 
ground node. A responsive and resilient space architecture must include 
the ability to quickly regenerate capability and surge capacity in time 
of need. General Hyten, Commander U.S. Strategic Command, introduced 
the Space Enterprise Vision in 2016 when he was the Commander of Air 
Force Space Command. This document lays out an important framework for 
improving the resiliency of space based capabilities operating in a 
contested domain. Ensuring the ability to operate and utilize our 
space-based capabilities in a contested environment is an evolutionary 
process and the U.S. is engaged in a variety of initiatives to this 
end. Using the vital resources of the Operationally Response Space 
Office, Air Force Research Laboratory and Space and Missile Systems 
Center/Advanced Systems and Development Directorate, we are pursuing 
more rapid innovation and prototyping initiatives to ``jump start'' 
traditional acquisition processes by proving advanced technologies 
prior to engaging traditional acquisition processes. This will enable a 
streamlined acquisition approach, putting capability on orbit faster. 
In addition, Gen Raymond is transitioning the Space Enterprise Vision 
into an executable Space Warfighting Construct, driving strategies to 
increase resiliency such as disaggregation, distribution, and 
diversification which will change the satellite and constellation 
architectures to complicate an adversary's efforts to target our space 
capabilities in the future.

    20. Senator Heinrich. Secretary Wilson and General Goldfein, do you 
believe our space architecture is responsive and resilient enough to 
meet the threats we see today and on the horizon?
    Secretary Wilson and General Goldfein. Despite our ongoing 
initiatives to develop a more resilient space architecture for a 
contested domain, much more needs to be accomplished to ensure the 
United States space enterprise remains the strongest in the world. Our 
potential adversary's capabilities are continually evolving and we must 
continue to invest in the technologies and personnel necessary to 
maintain our space superiority in this increasingly contested domain. 
The fiscal year 2018 President's Budget begins to address that reality, 
but more future investment is required in the face of advanced, 
demonstrated, and evolving threats.

    21. Senator Heinrich. Secretary Wilson and General Goldfein, how 
are you leveraging commercial-off-the-shelf technologies and satellites 
for some of our capability gaps in space?
    Secretary Wilson and General Goldfein. Harnessing commercial 
technologies and systems is a key element of our strategy. The strength 
of the commercial space economy allows us to leverage many of their 
capabilities, data and services just like we leverage commercial 
infrastructure in air, land and sea. Our approach includes the already 
widespread use of commercial SATCOM but also commercial space 
situational awareness data, commercial teleports for communicating with 
military satellites, hosting payloads on commercial systems, and a 
myriad of other capabilities.

    22. Senator Heinrich. Secretary Wilson and General Goldfein, what 
is needed from Congress, or do you need from industry, to make our 
space architecture truly responsive and resilient?
    Secretary Wilson and General Goldfein. In order to ensure our space 
architecture is truly responsive and resilient during conflicts that 
extend into space, the U.S. Air Force will require significant future 
investment in the personnel that make up our space forces and the 
advanced technology required of space based capabilities. This 
investment is necessary to ensure operations in a contested environment 
with evolving threats. One key component to ensure our personnel are 
ready to operate in a contested space domain is providing them the 
training infrastructure, to include training ranges, that provide 
realistic training and development of TTPs to counter the evolving 
threat. We also count on our industry partners to develop and 
manufacture much of the technology we rely on for our space based 
capabilities. However, we can only fund our industry partners within 
budgetary constraints.
                     operationally responsive space
    23. Senator Heinrich. Secretary Wilson and General Goldfein, the 
Department initiated the ORS office to take a new approach toward risk 
and mission assurance for rapidly deploying capabilities that are good 
enough to satisfy warfighter needs across the entire spectrum of 
operations, from peacetime through conflict. What plans does the Air 
Force have for the ORS office and what assurances can the Air Force 
provide for its support of the program in the future?
    Secretary Wilson and General Goldfein. The Air Force plans to use 
the rapid acquisition authorities granted to the Operationally 
Responsive Space (ORS) program for rapid prototyping and fielding of 
residual operational capability. The USAF will exercise these 
authorities to the fullest extent possible, creating strategies that 
remove potential obstacles and adapt current practices while crafting 
new and improved approaches within these authorities. We must take 
immediate action to change the culture in our acquisition organizations 
to focus on speed, innovation, and risk acceptance.
                      small satellite capabilities
    24. Senator Heinrich. General Raymond and Lt. Gen. Greaves, we are 
seeing a revolution in the use of small satellites, particularly for 
remote sensing but for other needs as well. Soon we are going to see a 
similar revolution in small satellite launch. How is the Air Force 
positioning itself to take advantage of these capabilities?
    General Raymond. The revolution in small satellite development and 
application is being driven by technology academia and the commercial 
sector. The Air Force is not the change agent, merely the benefactor. 
Similar to advancements in personal cell phones, the Air Force must 
adapt to new capabilities, paradigms, processes and vulnerabilities. 
Originally, cell phone cameras were primitive fixed focal length 
devices, and have evolved to higher resolutions, flash-equipped, zoom 
capable, still-image and video recording devices. Small satellites, by 
their sheer nature, have limitations in range, power and computing 
capability, but their sheer numbers can create redundancy and 
resiliency. Integrated architectures, data fusion and synthesis will be 
the enablers that unlock the power of smaller space sensors, 
transmitters and points of presence. Air Force Space Command in concert 
with Air Force Research Laboratory are looking to further take 
advantage of commercial and Government investments in these technology 
areas. Additionally, the shorter development and acquisition cycles of 
small satellites (and non-traditional mission partners) provides the 
ability to rapidly prototype and deploy future on-orbit capabilities to 
counter emerging threats. Finally, streamlining acquisition processes 
and timelines will enable quicker capability into operations. To that 
end, SMC is currently organizing a Space Consortium and to attract New 
Space and non-traditional mission partners.
    Lt. Gen. Greaves. The revolution in small satellite development and 
application is being driven by technology, academia and the commercial 
sector. The Air Force is not the change agent, merely the benefactor. 
Similar to advancements in personal cell phones, the Air Force must 
adapt to new capabilities, paradigms, processes and vulnerabilities. 
Originally, cell phone cameras were primitive fixed focal length 
devices, and have evolved to higher resolutions, flash-equipped, zoom-
capable, still-image and video recording devices. Small satellites, by 
their very nature, have limitations in range, power and computing 
capability, but their sheer numbers can create redundancy and 
resiliency. Integrated architectures, data fusion and synthesis will be 
the enablers that unlock the power of smaller space sensors, 
transmitters and points of presence. Air Force Space Command in concert 
with Air Force Research Laboratory are looking to further take 
advantage of commercial and Government investments in these technology 
areas. Additionally, the shorter development and acquisition cycles of 
small satellites (and non-traditional mission partners) provides the 
ability to rapidly prototype and deploy future on-orbit capabilities to 
counter emerging threats. Finally, streamlining acquisition processes 
and timelines will enable quicker capability into operations. To that 
end, SMC is currently organizing a Space Consortium using Other 
Transaction Authorities to utilize some of these authorities for 
prototyping activities and to attract New Space and non-traditional 
mission partners.
    25. Senator Heinrich. General Raymond and Lt. Gen. Greaves, can you 
explain how they fit into the Air Force's needs for responsiveness and 
resiliency?
    General Raymond. The revolution in small satellite development and 
application is being driven by technology, academia and the commercial 
sector. The Air Force is not the change agent, merely the benefactor. 
Similar to advancements in personal cell phones, the Air Force must 
adapt to new capabilities, paradigms, processes and vulnerabilities. 
Originally, cell phone cameras were primitive fixed focal length 
devices, and have evolved to higher resolutions, flash-equipped, zoom-
capable, still-image and video recording devices. Small satellites, by 
their very nature, have limitations in range, power and computing 
capability, but their sheer numbers can create redundancy and 
resiliency. Integrated architectures, data fusion and synthesis will be 
the enablers that unlock the power of smaller space sensors, 
transmitters and points of presence. Air Force Space Command in concert 
with Air Force Research Laboratory are looking to further take 
advantage of commercial and Government investments in these technology 
areas. Additionally, the shorter development and acquisition cycles of 
small satellites (and non-traditional mission partners) provides the 
ability to rapidly prototype and deploy future on-orbit capabilities to 
counter emerging threats. Finally, streamlining acquisition processes 
and timelines will enable quicker capability into operations. To that 
end, SMC is currently organizing a Space Consortium using Other 
Transaction Authorities to utilize some of these authorities for 
prototyping activities and to attract New Space and non-traditional 
mission partners.
    Lt. Gen. Greaves. The Foundation of our current space capabilities 
has been a small portfolio of highly capable, exquisite, high-value 
platforms. Space is no longer the benign environment of just a decade 
ago and we must be prepared to operate through this contested and 
congested environment. Resilient and alternative space capabilities are 
no longer a luxury, but a necessity. By utilizing small satellites for 
selective missions, they can play a significant role in maintaining our 
space capabilities. These can be launched quickly to enhance our 
resiliency posture and benefit our primary mission areas. Small 
satellites used in crowded, networked constellations with numerous 
ground entry points present a highly resilient and difficult target 
set. Air Force Space Command is evaluating all of these opportunities 
to ensure capabilities to the warfighter.
                        space enterprise vision
    26. Senator Heinrich. General Raymond and Secretary Wilson, the 
Space Enterprise Vision identifies the need to transform our nation's 
approach to space over the course of more than a decade. But, what are 
we doing in the short term?
    General Raymond. The Air Force has embarked on the Space 
Warfighting Construct to provide ``meat on the bones'' of the Space 
Enterprise Vision as rapidly as possible. Based on the Space Enterprise 
Vision, the Space Warfighting Construct includes a set of Concepts of 
Operations, normalizing how we operate using proven methods of joint 
warfighting. The Space Mission Force is the human capital portion of 
the Space Warfighting Construct and shifts the way we train space 
forces enabling their ability to operate in a contested space 
environment--much the same way we train our other combat forces. The 
Space Warfighting Construct also includes efforts toward developing a 
more resilient space and ground system architecture as well as 
demanding enterprise agility in order to ensure we remain responsive to 
changing threats. We have improved our space situational awareness 
capabilities to find, fix, target, and track. Finally, the Construct 
seeks to expand DOD, Intelligence Community and Civil partnerships in 
order to achieve our national security objectives. Our strong 
partnership with the NRO is a case in point.
    Secretary Wilson. The Air Force has embarked on the Space 
Warfighting Construct to provide ``meat on the bones'' of the Space 
Enterprise Vision as rapidly as possible. Based on the Space Enterprise 
Vision, the Space Warfighting Construct includes a set of Concepts of 
Operations, normalizing how we operate using proven methods of joint 
warfighting. The Space Mission Force is the human capital portion of 
the Space Warfighting Construct and shifts the way we train space 
forces enabling their ability to operate in a contested space 
environment--much the same way we train our other combat forces. The 
Space Warfighting Construct also includes efforts toward developing a 
more resilient space and ground system architecture as well as 
demanding enterprise agility in order to ensure we remain responsive to 
changing threats. We have improved our space situational awareness 
capabilities to find, fix, target, track. Finally, the Construct seeks 
to expand DOD, Intelligence Community and Civil partnerships in order 
to achieve our national security objectives. Our strong partnership 
with the NRO is a case in point.

    27. Senator Heinrich. General Raymond and Secretary Wilson, what 
can we do right now to start that transformation?
    General Raymond. We are already moving out on our transformation 
strategy. We've stood up the National Space Defense Center where we are 
working with the NRO to develop the Concepts of Operations that inform 
the changes we need to make to be successful against any potential 
adversary. We have added and continue to add significant new ground and 
space-based Space Situational Awareness capabilities. We have already 
agreed to collaborate on a program with the NRO that further enhances 
our space situational awareness. We are combining the expertise and 
authorities of Air Force Research Laboratory, the Rapid Capabilities 
Office and Space and Missile Systems Center to put in place the command 
and control we will need to orchestrate multi-domain operations. As 
part of the FY19 budget planning process we are defining the future 
state for our missile warning and protected SATCOM capabilities. We are 
also putting in place the ability for more robust prototyping to test 
new concepts and new capabilities and to give our Airmen the 
opportunity to train like we need them to fight. We're fielding new GPS 
satellites that will provide a more powerful and jam resistant signal 
and are developing the modernized GPS receivers for our warfighters.
    Secretary Wilson. We are already moving out on our transformation 
strategy. We've stood up the National Space Defense Center where we are 
working with the NRO to develop the Concepts of Operations that inform 
the changes we need to make to be successful against any potential 
adversary. We have added and continue to add significant new ground and 
space-based Space Situational Awareness capabilities. We have already 
agreed to collaborate on a program with the NRO that further enhances 
our space situational awareness. We are combining the expertise and 
authorities of Air Force Research Laboratory, the Rapid Capabilities 
Office and Space and Missile Systems Center to put in place the command 
and control we will need to orchestrate multi-domain operations. As 
part of the FY19 budget planning process we are defining the future 
state for our missile warning and protected SATCOM capabilities. We are 
also putting in place the ability for more robust prototyping to test 
new concepts and new capabilities and to give our Airmen the 
opportunity to train like we need them to fight. We're fielding new GPS 
satellites that will provide a more powerful and jam resistant signal 
and are developing the modernized GPS receivers for our warfighters.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        WEDNESDAY, MAY 24, 2017

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

    THE DEPARTMENT OF ENERGY'S ATOMIC ENERGY DEFENSE ACTIVITIES AND 
                                PROGRAMS

    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
Room SD-G50, Dirksen Senate Office Building, Senator Deb 
Fischer (chairman) presiding.
    Committee members present: Senators Fischer, Inhofe, 
Sullivan, Donnelly, Heinrich, Warren, and Peters.

            OPENING STATEMENT OF SENATOR DEB FISCHER

    Senator Fischer. Good afternoon, everyone. The hearing will 
come to order.
    The subcommittee meets today to receive testimony on the 
Department of Energy's atomic energy defense activities, and I 
thank our distinguished panel before us for their service and 
for agreeing to appear before us.
    Of the missions represented here today, there is no higher 
priority than maintaining the safety and the reliability of our 
nuclear stockpile.
    General Klotz, we look forward to hearing an update from 
you on the life extension programs and major alterations that 
NNSA [National Nuclear Security Administration] is currently 
performing, in particular the B61-12, which will be carried by 
our nuclear-certified aircraft, and the W80-4, which will be 
the warhead for the long-range standoff weapon, another system 
that we need in order to maintain our deterrence.
    Modernizing the infrastructure and scientific capabilities 
that make up NNSA's nuclear complex is also vitally important. 
As General Hyten testified earlier this year, in concert with 
our delivery platforms, our nuclear weapons stockpile and the 
unique facilities that sustain the stockpile must be modernized 
to ensure our deterrent remains effective and credible.
    I remain concerned that we are not making enough progress 
in this area. Warheads continue to age, the geo-political 
landscape continues to change, and we must ensure that progress 
toward a responsive nuclear enterprise is keeping pace.
    Admiral Caldwell and Ms. Cange, we will also be interested 
in hearing updates from each of you on the programs within your 
purview. Additionally, we would appreciate your assessment on 
whether the newly-released budget adequately meets the needs of 
your missions and where it accepts risk.
    With that, I recognize the ranking member, Senator 
Donnelly, for any opening remarks he'd like to make.
    Senator Donnelly?

               STATEMENT OF SENATOR JOE DONNELLY

    Senator Donnelly. Thank you, Madam Chair.
    This subcommittee has a strong history of bipartisan 
support for modernization of our nuclear deterrent in which the 
National Nuclear Security Administration plays a central role. 
I want to thank today's witnesses for joining us to testify on 
the fiscal year 2018 budget request for defense programs at the 
Department of Energy.
    Administrator Klotz, I am glad you have stayed on at the 
Department of Energy through this transition. With so many 
important modernization activities underway, it's essential 
these operations move forward with minimal disruption.
    I want to hear from you what the National Nuclear Security 
Administration is doing to ensure our warhead life extension 
programs stay on track and that your organization is heeding 
lessons learned and best practices gathered from the many 
reports on your operations over the past several years.
    Admiral Caldwell, it's good to see you again. Thanks for 
making the time to come down to Newport News last month for the 
christening of the future USS Indiana, a submarine that is 
close to the heart of every Hoosier. It was good to have you 
there. I look forward to hearing from you about progress on the 
Columbia-class submarine and the ongoing infrastructure 
modernization across the naval reactors complex.
    Ms. Cange, welcome. The Environmental Management Program 
undertakes some of the Energy Department's most complex work. 
We'll want to hear about the status of operations at the Waste 
Isolation Pilot Plant and the storage tunnel collapse at 
Hanford, among other things.
    Mr. Trimble, as always, we're grateful to you and your 
staff for the excellent work you do in support of this 
subcommittee. I look forward to your testimony.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator.
    Before we begin with our statements from the panel, I would 
like to announce that we have two votes today at 3:00. When 
there's about two minutes left in the first vote, the committee 
will recess until after we take our second vote, and then we 
will be back.
    With that, I would ask for our panelists to give us their 
opening statements, knowing that your full statement will be 
included in the record.
    General Klotz, welcome.

          STATEMENT OF HONORABLE FRANK G. KLOTZ, UNDER
         SECRETARY FOR NUCLEAR SECURITY, DEPARTMENT OF
                             ENERGY

    Secretary Klotz. Thank you, Chairwoman Fischer, Ranking 
Member Donnelly, and Senator Inhofe, and other members of the 
subcommittee who will show up. Thank you for the opportunity to 
present the President's fiscal year 2018 budget request for the 
Department of Energy's National Nuclear Security 
Administration.
    We value this committee's strong support for the nuclear 
security mission and for the people and the organizations that 
are responsible for executing it.
    Our budget request, which comprises approximately half of 
DOE's [Department of Energy] budget, is $13.9 billion. This 
represents an increase of $1 billion, or 7.8 percent, over the 
fiscal year 2017 omnibus level.
    This budget request demonstrates the administration's 
strong support of NNSA's diverse missions. As you will recall, 
those are maintaining the safety, security, reliability, and 
effectiveness of the nuclear weapons stockpile; reducing the 
threat of nuclear proliferation and nuclear terrorism at home 
and around the world; and providing naval nuclear propulsion to 
the U.S. Navy's fleet of aircraft carriers and submarines.
    The budget materials we have provided describe NNSA's major 
accomplishments in fiscal year 2016, as well as the underlying 
rationale for our budget proposal for the coming fiscal year. 
Let me just briefly highlight a few of the points that are 
explained in greater detail in our written submission.
    This budget request is vital to ensuring that U.S. nuclear 
forces are modern, robust, flexible, resilient, ready, and 
appropriately tailored to 21st Century threats and to reassure 
our allies. NNSA's fiscal year 2018 budget request for the 
weapons activity appropriation is $10.2 billion, an increase of 
nearly $1 billion, or 10.8 percent over the fiscal year 2017 
omnibus level. This increase is needed to both meet our current 
life extension program commitments and to modernize our 
research and production infrastructure so we are positioned to 
address future requirements and future challenges.
    The budget request will enable NNSA to meet its program 
objectives, including beginning construction of the main 
process building and the salvage and accountability building at 
the Y-12 uranium processing facility in Oak Ridge, Tennessee; 
and restoring the Nation's capability to manufacture plutonium 
pits on the timeline required to meet future stockpile needs.
    The fiscal year 2018 budget request also includes $1.8 
billion for the Defense Nuclear Non-Proliferation Account, 
which is consistent with the enacted funding level for fiscal 
year 2017. This appropriation continues NNSA's critical and 
far-reaching mission to prevent, counter, and respond to 
nuclear threats.
    The request for our third appropriation, the Naval Reactors 
Program, is $1.48 billion; and, of course, it's a delight to be 
here with Admiral Caldwell, who can discuss the details of that 
appropriation account. It represents an increase of $60 
million, or 4.2 percent above the fiscal year 2017 omnibus 
level. Not only does the requested funding support today's 
operational fleet, it also enables Naval Reactors to deliver 
tomorrow's fleet by funding three national priority projects: 
developing the Columbia-class reactor plant, as you indicated; 
refueling a research and training reactor in New York; and 
building a new spent fuel handling facility in Idaho.
    As NNSA executes our three vital missions, we are mindful 
of our obligation to continually improve our business practices 
and to be responsible stewards of the resources that Congress 
and the American people have entrusted to us. NNSA is committed 
to encouraging competition and streamlining its major 
acquisition processes. Recent competitions for management and 
operations contracts have generated extraordinary interest from 
industry and academic institutions, validating the acquisition 
and program management improvements that we have instituted 
over the last five years.
    Finally, our budget request for Federal salaries and 
expenses is $418 million, an increase of $31 million, or 8.1 
percent over the fiscal year 2017 omnibus level. This request 
supports recruiting, training, and retaining the highly skilled 
Federal workforce essential to achieving success in technically 
complex, 21st Century national security missions.
    Since 2010, NNSA's program funding has increased 28 
percent. However, at the same time, our staffing has decreased 
17 percent. The fiscal year 2018 budget request supports a 
modest increase of 25 full-time equivalent employees over the 
current cap of 1,690 full-time equivalent employees. Phase I of 
a study by the Office of Personnel Management confirms that 
NNSA needs additional Federal staff.
    In closing, our fiscal year 2018 budget request reflects 
our motto: ``Mission first, people always.'' It accounts for 
the significant tempo of operations at NNSA, which in many ways 
has reached a level unseen since the end of the Cold War. It 
includes long overdue investments to repair and replace aging 
infrastructure at our national laboratories and our production 
plants, and it provides modern and more efficient workspace for 
our highly trained scientific, engineering, and professional 
workforce.
    Again, thank you for the opportunity to appear before this 
subcommittee today.
    [The prepared statement of Secretary Klotz follows:]

             Prepared Statement by Secretary Frank G. Klotz
    Chairwoman Fischer, Ranking Member Donnelly, and Members of the 
Subcommittee, thank you for the opportunity to present the President's 
fiscal year (FY) 2018 budget request for the Department of Energy's 
(DOE) National Nuclear Security Administration (NNSA). The Committee's 
strong support for the nuclear security mission and for the people and 
organizations that are responsible for executing it is deeply 
appreciated.
    The President's fiscal year 2018 budget request for NNSA is $13.9 
billion, an increase of $1.0 billion, or 7.8 percent over the fiscal 
year 2017 Omnibus level. The request represents approximately 50 
percent of DOE's total budget and 68 percent of DOE's 050 budget.
    NNSA's diverse missions are critical to the national security of 
the United States: maintaining the safety, security, reliability, and 
effectiveness of the nuclear weapons stockpile; reducing the threat of 
nuclear proliferation and nuclear terrorism around the world; and 
providing nuclear propulsion for the U.S. Navy's fleet of aircraft 
carriers and submarines. This budget request demonstrates the 
Administration's strong support for NNSA and is vital to ensuring that 
U.S. nuclear forces are modern, robust, flexible, resilient, ready, and 
appropriately tailored to deter 21st Century threats and reassure 
America's allies.
    NNSA's activities are accomplished through the expertise, 
innovative spirit, and hard work of both its federal and its Management 
and Operating (M&O) contractor employees. NNSA must continue to support 
these highly-talented, dedicated men and women as they carry out 
complex and challenging responsibilities. In particular, it is 
imperative that NNSA modernize its scientific, technical, and 
engineering capabilities, as well as its infrastructure, in order to 
provide a safe, modern, and more efficient workspace for its workforce. 
In doing so, NNSA is mindful of its obligation to continually improve 
its business practices and to be responsible stewards of the resources 
that Congress and the American people have entrusted to the agency.
    The fiscal year 2018 budget request also reflects the close working 
partnership between NNSA, the Department of Defense (DOD), the 
Department of Homeland Security (DHS), the State Department, the 
Intelligence Community, and other federal departments and agencies. 
NNSA works closely with DOD to meet military requirements, support the 
Nation's nuclear deterrent, and modernize the nuclear security 
enterprise. NNSA also collaborates with a range of federal agencies to 
prevent, counter, and respond to nuclear proliferation and nuclear 
terrorism.
                    weapons activities appropriation
    For the Weapons Activities account, the fiscal year 2018 budget 
request is $10.2 billion, an increase of nearly $1 billion, or 10.8 
percent over the fiscal year 2017 Omnibus level. Programs funded in 
this account support the Nation's current and future defense posture 
and its attendant nationwide infrastructure of science, technology, and 
engineering capabilities. Weapons Activities provide for the 
maintenance and refurbishment of nuclear weapons to maintain their 
safety, security, and reliability; investments in scientific, 
engineering, and manufacturing capabilities to certify the enduring 
nuclear weapons stockpile; and the fabrication of nuclear weapon 
components. Weapons Activities also includes investments to make the 
NNSA nuclear complex more cost effective and more responsive to 
unanticipated challenges or emerging threats.
Maintaining the Stockpile
    This year, the work of the science-based Stockpile Stewardship 
Program (SSP) allowed the Secretaries of Energy and Defense to certify 
to the President for the 21st consecutive year that the U.S. nuclear 
weapons stockpile remains safe, secure, and reliable without the need 
for nuclear explosive testing. This remarkable scientific achievement 
is made possible each year by investments in state-of-the-art 
diagnostic tools, high performance computing platforms, modern 
facilities, and most importantly by NNSA's world-class scientists, 
engineers, and technicians.
    For Directed Stockpile Work (DSW), the fiscal year 2018 budget 
request is $4.0 billion, an increase of $669 million, or 20.2 percent 
over the fiscal year 2017 Omnibus level.
    The major warhead Life Extension Programs (LEPs) are a fundamental 
part of this account:

    <bullet>  W76-1 LEP: The $224 million requested for the W76-1 LEP 
directly supports the sea-based leg of the nuclear triad and will keep 
the LEP on schedule and on budget to complete production in fiscal year 
2019.

    <bullet>  B61-12 LEP: NNSA continues to make progress on the B61-12 
LEP, which will consolidate four variants of the B61 gravity bomb and 
improve the safety and security of the oldest weapon system in the U.S. 
nuclear arsenal. In June 2016, NNSA authorized the program to 
transition into the Production Engineering Phase (Phase 6.4). With the 
$788.6 million requested, NNSA will remain on schedule to deliver the 
First Production Unit (FPU) of the B61-12 in fiscal year 2020. NNSA is 
responsible for refurbishing the nuclear explosives package and 
updating the electronics for this weapon, while the Air Force will 
provide the tail kit assembly under a separate acquisition program. 
When fielded, the B61-12 gravity bomb will support both Air Force long-
range nuclear-capable bombers and dual-capable fighter aircraft, 
bolstering central deterrence for the United States while also 
providing extended deterrence to America's allies and partners.

    <bullet>  W88 Alteration (Alt) 370 Program: In February 2017, NNSA 
began the Production Engineering Phase (Phase 6.4) for the W88 Alt 370 
Program, including conventional high explosives refresh activities. The 
budget request for this program, which also supports the sea-based leg 
of the nuclear triad, includes $332 million in fiscal year 2018, an 
increase of $51 million, or 18.2 percent over the fiscal year 2017 
Omnibus level, to support the scheduled FPU in fiscal year 2020.

    <bullet>  W80-4 LEP: The fiscal year 2018 budget request is $399 
million, an increase of $179 million, or 81.2 percent over the fiscal 
year 2017 Omnibus level. This funding supports a significant increase 
in program activity through the Design Definition and Cost Study Phase 
(Phase 6.2A), driving toward a fiscal year 2025 FPU in support of the 
Air Force's Long Range Stand-Off (LRSO) cruise missile program.

    Also within DSW, the fiscal year 2018 budget request includes $1.5 
billion for Stockpile Systems and Stockpile Services. These programs 
sustain the stockpile in accordance with the Nuclear Weapon Stockpile 
Plan by producing and replacing limited-life components such as neutron 
generators and gas transfer systems; conducting maintenance, 
surveillance, and evaluations to assess weapon reliability; detecting 
and anticipating potential weapon issues; and compiling and analyzing 
information during the Annual Assessment process.
    NNSA continues to make progress on the Joint Technology 
Demonstrator (JTD) program, a strategic collaboration between the 
United States and the United Kingdom under the Mutual Defense 
Agreement. This program is intended to reduce technological risk and 
provide relevant data for future program activities. JTD's focus is on 
technologies and process improvements that can improve weapon 
affordability and enhance weapon safety and security.
    Within DSW, the fiscal year 2018 budget request also includes $695 
million for Strategic Materials. This funding is necessary to maintain 
NNSA's ability to produce the nuclear and other strategic materials 
associated with nuclear weapons as well as refurbish and manufacture 
components made from these materials. The program includes Uranium 
Sustainment, Plutonium Sustainment, Tritium Sustainment, Domestic 
Uranium Enrichment (DUE), and other strategic materials, such as 
lithium.
    Funding for Uranium Sustainment will permit operations with 
enriched uranium in Building 9212, a Manhattan Project-era production 
facility at the Y-12 National Security Complex in Oak Ridge, Tennessee, 
to end in fiscal year 2025, and allow the bulk of this obsolete 
building to shut down.
    Plutonium Sustainment funds the replacement and refurbishment of 
equipment and critical skills needed to meet the pit production 
requirements. Increases are included to fabricate several W87 
developmental pits. Investments to replace pit production equipment 
which has reached the end of its useful life and install equipment to 
increase production capacity are also continued.
    Tritium Sustainment ensures the Nation's capacity to provide the 
tritium for national security requirements by irradiating Tritium 
Producing Burnable Absorber Rods in designated Tennessee Valley 
Authority nuclear power plants and by recovering and recycling tritium 
from gas transfer systems returned from the stockpile.
    The DUE program continues its efforts to ensure that NNSA has the 
necessary supplies of enriched uranium for a variety of national 
security needs. Funding increases are included in this year's request 
to begin down-blending available stocks of unobligated highly enriched 
uranium (HEU) for use in tritium production, which delays the need date 
for a DUE capability until at least 2038-2041.
    The fiscal year 2018 budget request also includes $52 million for 
Weapons Dismantlement and Disposition to allow NNSA to remain on track 
with the goal of dismantling all weapons retired prior to fiscal year 
2009 by the end of fiscal year 2022.
    For Research, Development, Test, and Evaluation (RDT&E), the fiscal 
year 2018 budget request is $2 billion, an increase of $186 million or 
10.1 percent over the fiscal year 2017 Omnibus level.
    Increases for the Science Program ($487.5 million, an increase of 
$51 million) provide additional funding for the Advanced Sources and 
Detectors Major Item of Equipment in support of the Enhanced 
Capabilities for Subcritical Experiments (ECSE) effort.
    The Engineering Program ($193.1 million, an increase of $61 
million) sustains NNSA's trusted microsystems capability and further 
develops the Stockpile Responsiveness Program (SRP). NNSA is requesting 
$40 million in fiscal year 2018 for SRP to identify, sustain, enhance, 
integrate, and continually exercise the capabilities required to 
conceptualize, study, design, develop, engineer, certify, produce, and 
deploy nuclear weapons. These activities are necessary to ensure the 
U.S. nuclear deterrent remains safe, secure, reliable, credible, and 
responsive. The funding will support the creation of design study teams 
to explore responsiveness concepts as well as development of 
capabilities for accelerating the qualification and production cycle.
    The Inertial Confinement Fusion Ignition and High Yield Program has 
spearheaded ongoing improvements in management and operational 
efficiencies at NNSA's major high energy density (HED) facilities, 
including the National Ignition Facility (NIF) at LLNL in California, 
the Z-Machine at Sandia National Laboratories in New Mexico, and the 
OMEGA laser facility at the University of Rochester in New York. In 
fiscal year 2016, NIF exceeded the goal of 400 data-acquiring shots 
(417), more than double the number of shots executed in fiscal year 
2014 (191) in support of the SSP. The improved shot rates have 
accelerated progress towards the achievement and application of multi-
megajoule fusion yields, investigating material behaviors in conditions 
presently inaccessible via other experimental techniques, and improving 
the predictive capability of NNSA's science and engineering models in 
high-pressure, high-energy, high-density regimes.
    The RDT&E request for fiscal year 2018 includes $734 million for 
the Advanced Simulation and Computing (ASC) Program. NNSA is taking 
major steps in high performance computing (HPC) to deliver on its 
missions by deploying increasingly powerful computational capabilities 
to both Los Alamos National Laboratory (LANL) and Lawrence Livermore 
National Laboratory (LLNL). In the summer of 2017--Trinity--NNSA's next 
generation high performance computer, will become fully available for 
classified use at LANL. This computer will be about 30 times more 
powerful than the Cielo super computer it is replacing. The Sierra HPC 
system will be deployed at LLNL starting this year; it is projected to 
provide four to six times the sustained performance of LLNL's current 
HPC system, Sequoia.
    The RDT&E request also increases NNSA's contribution to the 
Exascale Computing Initiative (ECI) from $95 million in fiscal year 
2017 to $161 million in the fiscal year 2018 request. The ECI is a 
collaboration with DOE's Office of Science to develop the technology 
needed for exascale-class high performance computing. The increased 
funding will provide for NNSA-specific application development, and 
improve software and hardware technologies for exascale computing in 
order to meet NNSA's needs for future assessments, LEPs, and stockpile 
stewardship. Specifically, exascale computing will provide capabilities 
to improve weapon performance simulation tools and techniques; evaluate 
the safety, security, and effectiveness of the current stockpile; and 
provide support to certify potential advanced surety features for the 
future stockpile.
    NNSA's Secure Transportation Asset (STA) program provides safe, 
secure movement of nuclear weapons, special nuclear material (SNM), and 
weapon components to meet projected DOE, DOD, and other customer 
requirements. The Office of Secure Transportation (OST) has an elite 
workforce performing sensitive and demanding work; OST agents are among 
the most highly trained national security personnel operating within 
the United States. Since fiscal year 2012, STA has repeatedly been 
funded below the Administration's budget requests. This trend increases 
risks and possible production delays to the Mobile Guardian Transporter 
(MGT) and adversely affects OST's ability to recruit and retain agents. 
The fiscal year 2018 budget request of $325.1 million includes an 
increase of $76 million or 30.6 percent over the fiscal year 2017 
Omnibus level to continue asset modernization and workforce capability 
initiatives. These initiatives include: (1) restoration of federal 
agent strength levels to meet the goal of 370 agents; (2) the 
Safeguards Transporter (SGT) Risk Reduction Initiatives to manage the 
SGT beyond its design life; (3) procurement of long-lead parts and 
materials for the two full scale MGT prototype systems; and (4) 
deferred facilities maintenance and minor construction projects at 
multiple sites.
Improving Safety, Operations, and Infrastructure
    NNSA's ability to achieve its vital national security missions is 
dependent upon safe and reliable infrastructure. If not appropriately 
addressed, the age and condition of NNSA's infrastructure will put 
NNSA's missions, the safety of its workers, the public, and the 
environment at risk. More than half of NNSA's facilities are over 40 
years old, and roughly 30 percent date back to the Manhattan Project 
era. The fiscal year 2018 budget request for Infrastructure and 
Operations is $2.8 billion, a decrease of $5 million, or 0.2 percent 
below the fiscal year 2017 Omnibus level. The request actually 
represents an increase of $195 million (7.5 percent) after adjusting 
for the one-time $200 million Bannister Federal Complex project funded 
in fiscal year 2017. This funding will help modernize and upgrade 
antiquated infrastructure and address safety and program risks through 
strategic investments in general purpose infrastructure and 
capabilities that directly support NNSA's nuclear weapons and 
nonproliferation programs.
    In August 2016, NNSA broke ground on the Administrative Support 
Complex at the Pantex nuclear weapons assembly and dismantlement 
facility in Amarillo, Texas. The site's M&O contractor entered into a 
lease agreement for a new office building that a private developer is 
building using third-party financing. This project will allow roughly 
1,000 employees to move out of dilapidated, 1950s-era buildings into a 
modern, energy efficient workspace. It will also eliminate 
approximately $20 million in deferred maintenance at the Pantex site 
and enhance recruitment and retention by improving the quality of the 
work environment. The project will be completed and staff will move 
into the new facility, by spring 2018.
    The fiscal year 2018 budget request further reduces deferred 
maintenance and supports the execution of new recapitalization projects 
to improve the condition and extend the design life of structures, 
capabilities, and systems to meet program demands; decrease overall 
operating costs; and reduce safety, security, environmental, and 
program risk. The request also supports general purpose infrastructure 
and program-specific capabilities through Line Item Construction 
projects. These projects include the Uranium Processing Facility (UPF) 
at Y-12, the Chemistry and Metallurgy Research Replacement (CMRR) 
project at LANL, and the Albuquerque Complex Project.
    One of the most worrisome of the NNSA infrastructure challenges is 
the excess facilities that pose risks to NNSA's workers, the 
environment, and the nuclear security mission. As of the end of fiscal 
year 2016, NNSA had 417 excess facilities, 79 of which were identified 
as high-risk excess facilities, including 58 at the Kansas City 
Bannister Federal Complex. Many of these facilities will ultimately be 
transferred to the DOE Office of Environmental Management (EM) for 
disposition, and the EM fiscal year 2018 budget requests $225 million 
to address high-risk excess facilities at Y-12 and LLNL. In the 
interim, NNSA is focusing on reducing the risk where it can. The fiscal 
year 2018 budget request supports a number of activities related to 
excess facilities. NNSA benefitted enormously from funding provided by 
Congress in fiscal year 2017 for the disposition of the Bannister 
Federal Complex in Kansas City. The disposition project is on track, 
with final pre-transfer activities occurring now.
    The Office of Defense Nuclear Security (DNS) develops and 
implements security programs to protect sensitive nuclear material 
(SNM), people, information, and facilities throughout the nuclear 
security enterprise. The fiscal year 2018 budget request is $687.0 
million, an increase of $1.5 million, or 0.2 percent over the fiscal 
year 2017 Omnibus level that included funding to address immediate 
infrastructure needs at Pantex and Y-12. The request manages risk among 
important competing demands as NNSA continues to face the challenges 
associated with physical security infrastructure that must be 
effectively addressed in the coming years. NNSA is finalizing a 10-Year 
Plan to Recapitalize Physical Security Systems Infrastructure, also 
known as the 10-Year Plan, which identifies and prioritizes the 
replacement and refresh of physical security infrastructure across the 
nuclear security enterprise. Of note, the request includes preliminary 
planning and conceptual design funds for future projects, as outlined 
in the 10-Year Plan, to sustain and recapitalize the Perimeter 
Intrusion Detection and Assessment System (PIDAS) at the Pantex Plant 
and Y-12.
    Information Technology and Cybersecurity enable every facet of the 
NNSA mission. The fiscal year 2018 budget request is $186.7 million, an 
increase of $10 million, or 5.7 percent over the fiscal year 2017 
Omnibus level. This increase will fund much needed improvement to the 
Information Technology and Cybersecurity program, including Continuous 
Diagnostic and Mitigation, Telecommunications Security, infrastructure 
upgrades for the Enterprise Secure Computing Network (ESN), Public Key 
Infrastructure (PKI), Energy Sciences Network program, and an increased 
information technology budget. The cybersecurity program continuously 
monitors enterprise wireless and security technologies to meet a wide 
range of security challenges. In fiscal year 2018, NNSA plans to 
continue the recapitalization of the ESN, modernize the cybersecurity 
infrastructure, implement the Identity Control and Access Management 
project at NNSA Headquarters and site elements, and implement all 
Committee on National Security Systems and PKI capabilities. The 
requested funding increase will allow NNSA to continue working toward a 
comprehensive information technology and cybersecurity program to 
deliver critical information assets securely.
             defense nuclear nonproliferation appropriation
    The fiscal year 2018 budget request for the Defense Nuclear 
Nonproliferation (DNN) account is $1.8 billion, a level consistent with 
the fiscal year 2017 Omnibus level. This appropriation covers NNSA's 
critical and far-reaching nuclear threat reduction activities. DNN 
addresses the entire nuclear threat spectrum by helping to prevent the 
acquisition of nuclear weapons or weapon-usable materials, 
technologies, and expertise; countering efforts to acquire them; and 
responding to possible nuclear and radiological incidents. The fiscal 
year 2018 budget request funds two program mission areas under the DNN 
account: the Defense Nuclear Nonproliferation Program and the Nuclear 
Counterterrorism and Incident Response (NCTIR) Program.
Nonproliferation Efforts
    Working with international partners, the Office of Defense Nuclear 
Nonproliferation removes or eliminates vulnerable nuclear material; 
improves global nuclear security through multilateral and bilateral 
technical exchanges and training workshops; helps prevent the illicit 
trafficking of nuclear and radiological materials; secures domestic and 
international civilian buildings containing high-priority radiological 
material; provides technical reviews of U.S. export license 
applications; conducts export control training sessions for U.S. 
enforcement agencies and international partners; strengthens the IAEA's 
ability to detect and deter nuclear proliferation; advances U.S. 
capabilities to monitor arms control treaties and detect foreign 
nuclear programs; and maintains organizational readiness to respond to 
and mitigate radiological or nuclear incidents worldwide.
    The Material Management and Minimization (M3) program provides an 
integrated approach to addressing the risk posed by nuclear materials. 
The fiscal year 2018 budget request is $332.1 million, an increase of 
$44 million or, 15.2 percent over the fiscal year 2017 Omnibus level. 
The request supports the conversion or shut-down of research reactors 
and isotope production facilities that use HEU; acceleration of new, 
non-HEU-based molybdenum-99 production facilities in the United States; 
the removal and disposal of WUNM; and the completion of the lifecycle 
cost estimate and schedule for the dilute and dispose option for 
plutonium disposition.
    The Global Material Security (GMS) program works with partner 
Nations to increase the security of vulnerable nuclear and radiological 
materials and improve their ability to detect, interdict, and 
investigate illicit trafficking of these materials. The fiscal year 
2018 budget request for this program is $337.1 million, a decrease of 
$30 million, or 8.2 percent below the fiscal year 2017 Omnibus level.
    The Nonproliferation and Arms Control (NPAC) program develops and 
implements programs to strengthen international nuclear safeguards; 
control the spread of nuclear and dual-use material, equipment, 
technology and expertise; verify nuclear reductions and compliance with 
nonproliferation and arms control treaties and agreements; and address 
other challenges. The fiscal year 2018 budget request for this program 
is $129.7 million, an increase of $5 million, or 4.0 percent over the 
fiscal year 2017 Omnibus level. This increase serves to improve the 
deployment readiness of U.S. nuclear disablement and dismantlement 
verification teams and to enhance export control dual-use license and 
interdiction technical reviews.
    The DNN Research and Development (DNN R&D) program supports 
innovative unilateral and multilateral technical capabilities to 
detect, identify, and characterize foreign nuclear weapons programs, 
illicit diversion of SNM, and nuclear detonations worldwide. The fiscal 
year 2018 budget request for this program is $446.1 million, a decrease 
of $23.7 million, or 5.0 percent below the fiscal year 2017 Omnibus 
level. The decrease in funding reflects a shift of $53 million from R&D 
back to M3 for the U.S. High Performance Research Reactors Program and 
is offset by an increase of $29 million for planned R&D activities.
    Nonproliferation Construction consolidates construction costs for 
DNN projects. The fiscal year 2018 budget request is $279 million, a 
decrease of $56 million, or 16.7 percent below the fiscal year 2017 
Omnibus level. The Administration proposes to terminate the Mixed Oxide 
Fuel Fabrication (MFFF) project and to pursue the dilute and dispose 
option to fulfill the United States' commitment to dispose of 34 metric 
tons of plutonium. If supported by Congress, $270 million would be used 
to achieve an orderly and safe closure of the MFFF. The scope and costs 
will be refined in subsequent budget submissions when the termination 
plan for the MFFF project is approved. In addition, $9 million is 
provided for the Surplus Plutonium Disposition project to support the 
dilute and dispose strategy.
Nuclear Counterterrorism and Counterproliferation
    In fiscal year 2016, the NCTIR Program transitioned to the DNN 
account from the Weapons Activities account to align all NNSA funding 
to prevent, counter, and respond to nuclear proliferation and nuclear 
terrorism under the same appropriations account. The fiscal year 2018 
budget request includes $277.4 million to support the NCTIR Program, an 
increase of $5 million, or 2.0 percent over the fiscal year 2017 
Omnibus level. Within NCTIR, NNSA continues to work domestically and 
internationally to prepare for and improve the Nation's ability to 
respond to radiological or nuclear incidents.
    NNSA's counterterrorism and counterproliferation programs are part 
of broader U.S. Government efforts to assess the threat of nuclear 
terrorism and develop technical countermeasures. The scientific 
knowledge generated under this program ensures NNSA's technical 
expertise on potential nuclear threat devices, including improvised 
nuclear devices (INDs), supports and informs U.S. nuclear security 
policy, and guides nuclear counterterrorism and counterproliferation 
efforts, including interagency nuclear forensics and contingency 
planning.
    NNSA emergency response teams' current equipment is aging, 
resulting in increasing maintenance expenses and imposing increased 
risks to NNSA's ability to perform its emergency response mission. The 
Radiological Assistance Program (RAP) remains the Nation's premier 
first-response resource to assess a radiological incident and advise 
decision-makers on the necessary steps to minimize hazards. To ensure 
that NNSA is able to execute its radiological emergency response 
mission, RAP's equipment must be recapitalized regularly. NNSA is 
acquiring state-of-the-art, secure, deployable communications systems 
that are interoperable with Federal Bureau of Investigation and DOD 
mission partners, ensuring that decision makers receive real-time 
technical recommendations to mitigate nuclear terrorist threats.
    NNSA recently concluded an Analysis of Alternatives (AOA) on the 
Aerial Measuring System (AMS) aircraft. The AMS fleet consists of three 
B200 fixed-wing aircraft with an average age of 33 years and two Bell 
412 helicopters with an average age of 24 years. The current aircraft 
are experiencing reduced mission availability due to increasing 
unscheduled downtime and maintenance. The AOA determined that NNSA 
recapitalization of the aging aircraft fleet is necessary in order to 
provide rapid aerial radiological exposure and contamination 
information to Federal, State, and local officials following an 
accident or incident in order to protect the public and first 
responder's health and safety. NNSA anticipates proposing a two-year 
replacement schedule starting in fiscal year 2019.
                      naval reactors appropriation
Advancing Naval Nuclear Propulsion
    NNSA provides nuclear propulsion for the U.S. Navy's nuclear-
powered fleet, which is critical to the security of the United States 
and its allies as well as the security of global sea lanes. The Naval 
Reactors Program remains at the forefront of technological developments 
in naval nuclear propulsion. This preeminence derives from advancing 
new technologies and improvements in naval reactor performance, 
ensuring a commanding edge in war.ghting capabilities.
    The Naval Reactors fiscal year 2018 budget request is $1.48 
billion, an increase of $60 million, or 4.2 percent above the fiscal 
year 2017 Omnibus level. In addition to supporting today's operational 
fleet, the requested funding will enable Naval Reactors to deliver 
tomorrow's fleet by funding three national priority projects and 
recruiting and retaining a highly skilled workforce. The projects 
include: (1) continuing design and development of the reactor plant for 
the Columbia-class submarine, which will feature a life-of-ship core 
and electric drive; (2) refueling a Research and Training Reactor in 
New York to facilitate Columbia-class reactor development efforts and 
provide 20 more years of live reactor-based training for fleet 
operators; and (3) building a new spent fuel handling facility in Idaho 
that will facilitate long term, reliable processing and packaging of 
spent nuclear fuel from aircraft carriers and submarines.
    Naval Reactors has requested funding in fiscal year 2018 to support 
these projects and fund necessary reactor technology development, 
equipment, construction, maintenance, and modernization of critical 
infrastructure and facilities. By employing a small but high-performing 
technical base, the teams at Bettis Atomic Power Laboratory in 
Pittsburgh, Knolls Atomic Power Laboratory and Kesselring Site in 
greater Albany, and the spent nuclear fuel facilities in Idaho can 
perform the research and development, analysis, engineering and testing 
needed to support today's fleet at sea and develop future nuclear-
powered warships. Importantly, the laboratories perform the technical 
evaluations that enable Naval Reactors to thoroughly assess emergent 
issues and deliver timely responses that ensure nuclear safety and 
maximize operational flexibility.
            nnsa federal salaries and expenses appropriation
    The NNSA Federal Salaries and Expenses (FSE) fiscal year 2018 
budget request is $418.6 million, an increase of $31.5 million, or 8.1 
percent over the fiscal year 2017 Omnibus level. The fiscal year 2018 
budget request provides funding for 1,715 full-time equivalents (FTE), 
which includes a 1.9 percent cost of living increase, a 5.5 percent 
increase for benefit escalation, and other support expenses needed to 
meet mission requirements. NNSA is actively engaged in hiring to reach 
that number in a thoughtful and strategic manner. The fiscal year 2018 
budget request for 1,715 FTEs is an increase of 25 above the authorized 
1,690. Since 2010, NNSA's program funding has increased 28 percent, 
while staffing has decreased 17 percent. In fiscal year 2018, NNSA will 
continue efforts to meet current and future workforce needs by 
analyzing job requirements to meet evolving missions, including 
completion of a study by the Office of Personnel Management in support 
of the Reform of Government Initiative. Initial results from four 
program offices and one field office indicate the need for a 20 percent 
increase in federal staff.
                        management & performance
    Since 2011, NNSA has delivered approximately $1.4 billion in 
projects, a significant portion of NNSAs total project portfolio, 8 
percent under original budget. This past February, the High Explosive 
Pressing Facility at Pantex achieved CD-4 and was completed $25 million 
under the approved baseline. NNSA is committed to encouraging 
competition and increasing the universe of qualified contractors by 
streamlining its major acquisition processes. NNSA will continue to 
focus on delivering timely, best-value acquisition solutions for all of 
its programs and projects, using a tailored approach to contract 
structures and incentives that is appropriate for the special missions 
and risks at each site. NNSA's Office of Acquisition and Project 
Management (APM) is leading continued improvement in contract and 
project management practices and NNSA's effort to institute rigorous 
analyses of alternatives; provide clear lines of authority and 
accountability for program and project managers; improve cost and 
schedule performance; and ensure Federal Project Directors and 
Contracting Officers with the appropriate skill mix and professional 
certifications are managing NNSA's work.
                               conclusion
    NNSA's diverse missions are crucial to the security of the United 
States, the defense of its allies and partners, and global stability 
writ large. The U.S. nuclear deterrent has been the cornerstone of 
America's national security since the beginning of the nuclear age, and 
NNSA has unique responsibilities to ensure its continued safety, 
security, reliability, and effectiveness. Likewise, NNSA's nuclear 
nonproliferation and nuclear counterterrorism activities are essential 
to promoting the peaceful use of nuclear energy and preventing 
malicious use of nuclear and radiological materials around the world. 
Finally, NNSA's support to the U.S. Navy allows the United States to 
defend its interests abroad and protect the world's commercial shipping 
lanes. Each of these critical missions depends upon NNSA's 
capabilities, facilities, infrastructure, and world-class workforce.

    Senator Fischer. Thank you, General.
    Ms. Cange, please. Welcome.

  STATEMENT OF SUSAN M. CANGE, ACTING ASSISTANT SECRETARY OF 
   ENERGY FOR ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY

    Ms. Cange. Thank you, and good afternoon, Chairwoman 
Fischer, Ranking Member Donnelly, and members of the 
subcommittee. I'm pleased to be here today to represent the 
Department of Energy's Office of Environmental Management and 
to discuss the important work we have recently accomplished, as 
well as what we plan to achieve under the President's fiscal 
year 2018 budget request.
    The total budget request for the EM [Environmental 
Management] program is $6.5 billion, and, of that, $5.5 billion 
is for defense environmental cleanup activities.
    Before discussing our request, I'd like to provide a brief 
update on the recent incident at the Hanford site. As you know, 
on May 9th, there was a partial collapse of one tunnel near the 
Purex facility. The tunnel has been used since the 1950s to 
store contaminated equipment. Based on extensive monitoring, 
there has been no release of radiological contamination and no 
workers were injured.
    Workers have filled in the collapsed section with soil and 
placed a cover over the tunnel. We're continuing to ensure that 
our workers and the public are protected, and we are working 
closely with the State of Washington for a more permanent 
solution.
    We take this event very seriously and are looking closely 
at lessons learned. Maintaining and improving aging 
infrastructure is a priority for the EM program, and this 
incident emphasizes the need to continue to focus on these 
efforts.
    With regard to recent accomplishments, we continue to 
demonstrate our ability to make significant progress through 
achievements like resuming shipments of transuranic waste to 
the Waste Isolation Pilot Plant, or WIPP; completing the 
exhumation and packaging of 65,000 cubic meters of buried waste 
at Idaho; and completing removal of all of the waste from the 
618-10 burial grounds at the Hanford site.
    Our fiscal year 2018 budget request will enable us to build 
on this momentum. The request allows EM to continue to make 
progress in addressing radioactive tank waste, as well as 
continue other important work such as deactivation and 
decommissioning; soil and groundwater remediation; and 
management and disposition of special nuclear materials, spent 
nuclear fuel, and transuranic and solid waste.
    Our request also includes funding to support the National 
Nuclear Security Administration by tackling some of their 
higher priority excess facilities in Oak Ridge and at the 
Lawrence Livermore National Laboratory.
    In particular, the fiscal year 2018 request supports 
continued waste emplacement activities at WIPP. At the Savannah 
River site, the request supports the commissioning and start-up 
of the Salt Waste Processing Facility. At Hanford, the budget 
request supports continued site remediation along the river 
corridor; and it supports beginning to treat low-activity tank 
waste by 2023.
    In closing, I'm honored to be here today representing the 
Office of Environmental Management. We're committed to 
achieving our missions safely and successfully. I'd like to 
thank you for this opportunity and would be pleased to answer 
any questions, as time permits.
    [The prepared statement of Ms. Cange follows:]

                  Prepared Statement by Susan M. Cange
    Good afternoon Chairwoman Fischer, Ranking Member Donnelly, and 
Members of the Subcommittee. I am pleased to be here today to represent 
the Department of Energy's (DOE) Office of Environmental Management 
(EM). At DOE, the safety of our workforce, the communities and tribal 
Nations that surround our sites, and the environment is the Secretary's 
highest priority. I would like to provide you with an overview of the 
EM program, key accomplishments during the past year and planned 
accomplishments under the President's $6,508,335,000 fiscal year (FY) 
2018 budget request.
                       overview of the em mission
    EM supports the Department of Energy's priorities to meet the 
challenges leading the cleanup of legacy waste resulting from the 
Nation's Manhattan Project and Cold War efforts. The EM program was 
established in 1989 and is responsible for the cleanup of millions of 
gallons of liquid radioactive waste, thousands of tons of spent nuclear 
fuel and special nuclear material, disposition of about two million 
cubic meters of transuranic and mixed/low-level waste, vast quantities 
of contaminated soil and water, and deactivation and decommissioning of 
thousands of excess facilities. This environmental cleanup 
responsibility results from five decades of nuclear weapons development 
and production and Government-sponsored nuclear energy research and 
development. It involves some of the most dangerous materials known to 
man.
    Since 1989, the EM footprint has been reduced significantly, as 
cleanup activities have been completed at 91 sites in 30 states. For 
example, the Fernald site in Ohio and the Rocky Flats site in Colorado, 
both of which once housed large industrial complexes, are now wildlife 
refuges that are also available for recreational use. At the Hanford 
Site in Washington State, the bulk of the cleanup along the Columbia 
River corridor has been completed including: six reactors cocooned, 502 
facilities demolished, 1,201 waste sites remediated, and 16 million 
tons of waste removed. At the Oak Ridge site in Tennessee, we have 
completed the decommissioning of five gaseous diffusion uranium 
enrichment processing facilities--the first time such an accomplishment 
has been achieved in the world. At the Idaho National Laboratory, we 
have decommissioned and demolished more than two million square feet of 
excess facilities, and removed all EM special nuclear material (e.g., 
highly enriched uranium) from the state. At the Savannah River Site, we 
have vitrified about half of the tank waste, by producing more than 
4,100 canisters of glass, we have also permanently closed 8 of 51 high 
level waste tanks, and successfully decontaminated and decommissioned 
approximately 290 facilities, including in-situ decommissioning of two 
former production reactors.
    Today, EM is responsible for the remaining cleanup at 16 sites in 
11 states. There is less than 300 square miles remaining to be cleaned 
up across the EM complex and progress continues. However, as many of us 
know, the remaining cleanup work presents some of our greatest 
challenges.
                  em cleanup objectives and priorities
    EM's first priority is worker safety and we continue to pursue 
cleanup objectives with that in mind. EM will continue to discharge its 
responsibilities by conducting cleanup within a ``Safe Performance of 
Work'' culture that integrates environmental, safety, and health 
requirements and controls into all work activities. Taking many 
variables into account, such as risk reduction and compliance 
agreements, EM has the following priorities:

    <bullet>  Radioactive tank waste stabilization, treatment, and 
disposal
    <bullet>  Spent nuclear fuel storage, receipt, and disposition
    <bullet>  Special nuclear material consolidation, stabilization, 
and disposition
    <bullet>  Transuranic and mixed/low-level waste disposition
    <bullet>  Soil and groundwater remediation
    <bullet>  Excess facilities deactivation and decommissioning

    In particular, the fiscal year 2018 budget request will allow EM 
to:

    <bullet>  Continue important cleanup activities at all of our sites 
in a safe and deliberate manner that ensures protection of our workers, 
the public and the environment
    <bullet>  Continue waste emplacement at the Waste Isolation Pilot 
Plant, including increasing the number of shipments
    <bullet>  Continue construction of the Low Activity Waste Facility, 
Analytical Laboratory, Effluent Management Facility, and supporting 
facilities at the Hanford site
    <bullet>  Complete commissioning and startup of the Salt Waste 
Processing Facility at the Savannah River Site
    <bullet>  Continue with commissioning and start-up activities for 
the Integrated Waste Treatment Unit at Idaho
    <bullet>  Complete design and begin construction of the Mercury 
Treatment Facility at Oak Ridge

    Before discussing recent and near-term accomplishments, I want to 
provide a brief update on the recent incident at the Hanford Site that 
pertains to a partial collapse of one tunnel near the Plutonium Uranium 
Extraction Plant, also known as the PUREX facility. The tunnel, which 
has not been in operation for decades, has been used since the 1950s to 
store contaminated equipment from the PUREX operations. On May 9, as a 
part of our surveillance program, workers discovered that a 20 by 20-
foot section of the tunnels had collapsed. Based on extensive 
radiological monitoring, including monitoring performed by the State of 
Washington's Department of Health, there has been no release of 
radiological contamination from the incident, and no workers were 
injured or exposed to radiological material as a result.
    Workers have since filled in the collapsed section with soil and 
have placed a cover over the length of the tunnel. We are working 
closely with the state of Washington on longer-term actions which are 
under development. We take this event seriously, we will look closely 
at lessons learned from this event that may apply to other EM 
facilities. We are continuing to minimize the potential of a 
radiological release and ensure that our workers and the public are 
protected. We are committed to working with the State of Washington for 
a more permanent solution that focuses on maintaining the structural 
integrity of the tunnel and that permanently addresses the waste.
                key recent and near-term accomplishments
    I would now like to take this opportunity to highlight a number of 
EM's most recent accomplishments. Recently, the Waste Isolation Pilot 
Plant (WIPP) received its first shipments of transuranic (TRU) waste 
since it re-opened in January 2017. The shipments from the Idaho 
National Laboratory, Savannah River Site, and Waste Control Specialists 
in Texas were an important milestone for WIPP and for sites that stored 
TRU waste since WIPP ceased operations in February 2014. Shipments from 
Oak Ridge and Los Alamos National Laboratory are expected later this 
year. WIPP is currently receiving three shipments a week, and is 
expected to ramp up to four shipments a week by the end of 2017. This 
year, WIPP anticipates receipt of approximately 130 shipments of waste 
for emplacement in the underground.
    EM is continuing to make steady and substantial cleanup progress 
across the complex. At the Savannah River Site, construction of the 
Salt Waste Processing Facility is complete. Once in operation, it will 
significantly accelerate EM's ability to treat tank waste at SRS. At 
Hanford, demolition of the Plutonium Finishing Plant, once one of the 
most dangerous buildings in the DOE complex, is now underway and is 
scheduled for completion later this year. This winter, workers at 
Idaho's Advanced Mixed Waste Treatment Facility completed a15-year 
effort to retrieve, characterize, treat and package more than 65,000 
cubic meters of TRU waste (plutonium-contaminated waste boxes, drums, 
and dirt) to ready it for shipment to WIPP.
           highlights of the fiscal year 2018 budget request
    The fiscal year 2018 budget request for EM is the largest request 
in ten years and includes $5,537,186,000 for defense environmental 
cleanup activities, of which $225,000,000 would be used to address 
excess facilities to support modernization of the nuclear security 
enterprise. The Department's Excess Contaminated Facilities Working 
Group analyzed and developed options for how DOE may prioritize and 
address the numerous contaminated excess facilities owned by the 
various DOE program offices. The fiscal year 2018 budget request 
implements a targeted effort to accelerate deactivation and 
decommissioning (D&D) of specific high-risk facilities at the Y-12 
National Security Complex and the Lawrence Livermore National 
Laboratory not currently in the Environmental Management programs' 
inventory to achieve substantial risk reduction within four years.
    The request will allow EM to maintain a safe and secure posture 
across the complex, while continuing compliance activities. In fiscal 
year 2018, we expect to continue to make significant progress in 
addressing radioactive tank waste at EM sites, as well as to continue 
our D&D activities and our soil and groundwater remediation activities. 
In addition, we will continue to manage and disposition special nuclear 
materials, spent nuclear fuel and transuranic and solid waste.
    At WIPP, the fiscal year 2018 request supports continued waste 
emplacement and ramps up receipt of TRU waste shipments. It also 
supports the completion of design work and begins construction of the 
new ventilation system and exhaust shaft.
    At the Savannah River Site, the fiscal year 2018 request supports 
the commissioning and startup of the Salt Waste Processing Facility, 
and the operation of the Defense Waste Processing Facility to produce 
60 to 70 canisters of vitrified high-level waste. In addition, the 
request initiates the design of the Emergency Operations Center 
replacement project and supports the safe and secure operation of the H 
Canyon/ HB-Line for the purpose of processing aluminum-clad spent 
nuclear fuel and down-blending EM-owned plutonium. These processing 
activities will, ensure the availability of space in K- and L-Areas for 
the future receipt of excess research nuclear material that has been 
removed from civilian sites in foreign countries. These removals 
provide for safe, secure storage of this material.
    At Hanford, EM is working aggressively to complete and commission 
treatment facilities to safely immobilize tank waste for disposition. 
The Office of River Protection's fiscal year 2018 budget request 
represents planned efforts for continued progress required by the Tri-
Party Agreement and 2016 Amended Consent Order. The request is designed 
to maintain safe operations for the tank farms; achieve progress in 
meeting regulatory commitments; support the development and maintenance 
of infrastructure necessary to enable waste treatment operations; 
continue construction at the Waste Treatment and Immobilization Plant's 
(WTP) Low-Activity Waste Facility, Effluent Management Facility, 
Balance of Facilities, and Analytical Laboratory to support treatment 
of tank waste by 2023; and resolve significant technical issues with 
the WTP Pretreatment facility.
    Ongoing Hanford cleanup efforts will continue at the Richland 
Operations Office. The fiscal year 2018 budget request supports waste 
site remediation activities along the River Corridor and operations 
necessary to provide monitoring of the 324 Building; continues 
groundwater remediation and continues progress on the K West Basin 
sludge removal project.
    At the Idaho National Laboratory, the fiscal year 2018 request 
supports buried waste retrieval activities and work necessary to 
commission and startup the Integrated Waste Treatment Unit. Once this 
facility is in operation, it will treat the approximately 900,000 
gallons of radioactive sodium bearing waste. The request also supports 
repackaging and the characterization of contact-handled transuranic 
waste at the Advanced Mixed Waste Treatment Project.
    At Oak Ridge, the request supports continued demolition of the 
remaining facilities and site restoration at the East Tennessee 
Technology Park, as well as completion of the design and initiation of 
early site preparations for the Mercury Treatment Facility at the Y-12 
National Security Complex. Additionally, the budget supports 
preparation of Building 2026 at the Oak Ridge National Laboratory to 
support processing of uranium-233 materials.
    With some of the most challenging cleanup work still remaining in 
the EM program, we understand the importance of technology development 
in reducing lifecycle costs and enhancing our effectiveness. To help 
address many of the technical challenges involved with high-risk 
cleanup activities, the fiscal year 2018 request of $25,000,000 for 
Innovation and Technology Development projects to tackle our greatest 
challenges with remediation of Technetium-99, Mercury, Cesium-137 and 
Strontium-80, and the integration of advanced tooling and robotics for 
enhanced worker safety and productivity.
          budget authority and planned accomplishments by site

                         Office of River Protection, WashingtonP (dollars in thousands)
----------------------------------------------------------------------------------------------------------------
                Fiscal Year 2017 Enacted                                 Fiscal Year 2018 Request
----------------------------------------------------------------------------------------------------------------
                                        $1,499,965                                               $1,504,311
----------------------------------------------------------------------------------------------------------------

Key Accomplishments Planned for Fiscal Year 2018
    <bullet>  Continues construction and commissioning activities for 
the Direct Feed Low Activity Waste approach at the Waste Treatment and 
Immobilization Plant, and Low Activity Waste Pretreatment System
    <bullet>  Maintains tank farms in a safe and compliant manner
    <bullet>  Conducts Single-Shell/Double-Shell Tank Integrity 
assessments
    <bullet>  Supports single-shell tank retrieval activities and 
continues work to address tank vapor safety concerns.
      

                           Savannah River Site, South CarolinaP (dollars in thousands)
----------------------------------------------------------------------------------------------------------------
                Fiscal Year 2017 Enacted                                 Fiscal Year 2018 Request
----------------------------------------------------------------------------------------------------------------
                                        $1,369,429                                               $1,447,591
----------------------------------------------------------------------------------------------------------------

Key Accomplishments Planned for Fiscal Year 2018
    <bullet>  Completes Salt Waste Processing Facility commissioning 
and startup in late 2018
    <bullet>  Brings the Defense Waste Processing Facility back online 
to continue vitrifying high-level waste
    <bullet>  Initiates Saltstone Disposal Unit #7 design and initiate 
long-lead procurement for cell construction
    <bullet>  Down-blends EM-owned (non-MOXable) surplus non-pit 
plutonium for disposal at Waste Isolation Pilot Plant
    <bullet>  Processes aluminum clad spent nuclear fuel
      

                            Carlsbad Field Office, New MexicoP (dollars in thousands)
----------------------------------------------------------------------------------------------------------------
                Fiscal Year 2017 Enacted                                 Fiscal Year 2018 Request
----------------------------------------------------------------------------------------------------------------
                                          $324,720                                                 $323,041
----------------------------------------------------------------------------------------------------------------

Key Accomplishments Planned for Fiscal Year 2018
    <bullet>  Continues waste emplacement and ramps up receipt of TRU 
waste shipments
    <bullet>  Completes design and begins construction on the new 
ventilation system and exhaust shaft
      

                       Los Alamos National Laboratory, New MexicoP (dollars in thousands)
----------------------------------------------------------------------------------------------------------------
                Fiscal Year 2017 Enacted                                 Fiscal Year 2018 Request
----------------------------------------------------------------------------------------------------------------
                                          $194,000                                                 $191,629
----------------------------------------------------------------------------------------------------------------

Key Accomplishments Planned for Fiscal Year 2018
    <bullet>  Continues chromium plume investigation
    <bullet>  Completes town site cleanup of solid waste management 
units from the 1940s and 1950s production sites
      

                            Idaho National Laboratory, IdahoP (dollars in thousands)
----------------------------------------------------------------------------------------------------------------
                Fiscal Year 2017 Enacted                                 Fiscal Year 2018 Request
----------------------------------------------------------------------------------------------------------------
                                          $382,088                                              $350,226\1\
----------------------------------------------------------------------------------------------------------------
\1\ The amount reflects Defense Environmental Cleanup portion, the total Idaho National Laboratory Fiscal Year
  2018 Request is $359,226,000.

Key Accomplishments Planned for Fiscal Year 2018
    <bullet>  Continues with the deliberate commissioning and start-up 
of the Integrated Waste Treatment Unit to treat liquid radioactive 
sodium bearing waste
    <bullet>  Continues buried waste retrieval activities
    <bullet>  Supports repackaging and the characterization of contact-
handled transuranic waste at the Advanced Mixed Waste Treatment Project
    <bullet>  Treats and disposes mixed low-level and low-level waste 
offsite
    <bullet>  Maintains all dry spent nuclear fuel storage facilities
      

                                Oak Ridge Site, TennesseeP (dollars in thousands)
----------------------------------------------------------------------------------------------------------------
                Fiscal Year 2017 Enacted                                 Fiscal Year 2018 Request
----------------------------------------------------------------------------------------------------------------
                                          $278,719                                              $225,205\2\
----------------------------------------------------------------------------------------------------------------
\2\ The amount reflects Defense Environmental Cleanup portion, the total Oak Ridge Fiscal Year 2018 Request is
  $390,205,000.

Key Accomplishments Planned for Fiscal Year 2018
    <bullet>  Completes design and begins construction of the Mercury 
Treatment Facility
    <bullet>  Continues capital asset project to support processing U-
233 materials
    <bullet>  Supports transuranic waste characterization and shipments 
to WIPP
      

                         Richland Operations Office, Washington  (dollars in thousands)
----------------------------------------------------------------------------------------------------------------
                Fiscal Year 2017 Enacted                                 Fiscal Year 2018 Request
----------------------------------------------------------------------------------------------------------------
                                          $913,936                                              $798,192\3\
----------------------------------------------------------------------------------------------------------------
\3\ The amount reflects Defense Environmental Cleanup portion, the total Richland Fiscal Year 2018 Request is
  $800,422,000.

Key Accomplishments Planned for Fiscal Year 2018
    <bullet>  Continues K Basin sludge removal and supports operations 
and maintenance of K West Basin
    <bullet>  Supports safe storage of nearly 2,000 cesium and 
strontium capsules in the Waste Encapsulation and Storage Facility, and 
continues project planning for dry storage options for the capsules
    <bullet>  Continues integration of site-wide groundwater and vadose 
zone cleanup activities, groundwater monitoring, operations, 
maintenance, and necessary modifications of existing remediation 
systems
    <bullet>  Continues soil and waste site remediation along River 
Corridor
      

                          Nevada National Security Site, Nevada  (dollars in thousands)
----------------------------------------------------------------------------------------------------------------
                Fiscal Year 2017 Enacted                                 Fiscal Year 2018 Request
----------------------------------------------------------------------------------------------------------------
                                           $62,176                                                  $60,136
----------------------------------------------------------------------------------------------------------------

Key Accomplishments Planned for Fiscal Year 2018
    <bullet>  Completes characterization activities for six 
contaminated soil sites
    <bullet>  Completes closure activities for one soil corrective 
action site
    <bullet>  Supports cleanup activities across the DOE complex by 
providing disposal capacity and services for up to 1.2 million cubic 
feet of low-level and mixed low-level radioactive waste
                               conclusion
    Madam Chairwoman Fischer, Ranking Member Donnelly, and Members of 
the Subcommittee, I am honored to be here today representing the over 
20,000 men and women that carry out the Office of Environmental 
Management mission. Our request will enable us to continue to make 
progress with our mission and to realize a significant set of 
accomplishments across the EM program. We are committed to achieving 
our mission and will continue to apply innovative environmental cleanup 
strategies to complete work safely and efficiently, thereby 
demonstrating value to the American taxpayers. All of this work will, 
first and foremost, be done safely, within a framework of best business 
practices. I am pleased to answer any questions you may have.

    Senator Fischer. Thank you very much.
    Admiral Caldwell, welcome, sir.

   STATEMENT OF ADMIRAL JAMES F. CALDWELL, JR., USN, DEPUTY 
  ADMINISTRATOR FOR NAVAL REACTORS, NATIONAL NUCLEAR SECURITY 
                         ADMINISTRATION

    Admiral Caldwell. Thank you, Chairwoman Fischer and Ranking 
Member Donnelly, and distinguished members of this 
subcommittee. Thank you for the opportunity to testify before 
you today. This is my second appearance before this 
subcommittee, and I am grateful for the tremendous support that 
the subcommittee has shown Naval Reactors. Your support is 
essential to our program.
    Since I last testified before this subcommittee, U.S. 
nuclear-powered warships, which include 10 aircraft carriers, 
14 ballistic missile submarines, 57 attack submarines, and 4 
guided missile submarines, have steamed over 2 million miles in 
support of national security missions. We have 101 reactors 
across our program that operated safely and effectively for 
another year. This is a true testament to the sailors who 
operate these propulsion systems and the technical base that 
supports them.
    Nuclear power is a key enabler to the success of our 
Nation's Navy, both in the missions it supports and the 
capability advantage that it affords over adversaries. Nuclear-
powered submarines and aircraft carriers make up over 45 
percent of the Navy's major combatants, and as we move forward 
it is vital to our national security to continue to build and 
improve upon these incredible assets.
    Last year marked the start of an ongoing program that 
delivers two Virginia-class submarines annually. Recently, the 
Navy commissioned the attack submarine Illinois, completed 
initial C trials on PCU Washington, and christened the Colorado 
and the Indiana. Just this last month we completed C trials on 
the Ford, the Nation's newest aircraft carrier.
    Having witnessed Ford's propulsion plant testing firsthand, 
I am happy to report that in terms of propulsion capability, 
Ford met the high speed of our Nimitz-class carriers while 
delivering major increases in electrical power generation and 
core energy with half of the manning in the reactor department.
    Nuclear power continues to play an important role in our 
military strategic deterrent mission. Our ballistic missile 
submarine force achieved over 60 years of peacekeeping through 
continuous at-sea strategic deterrence. This milestone occurs 
as the Nation is preparing to recapitalize the ballistic 
missile submarine force through the procurement of the 
Columbia-class ballistic missile submarine. That will enable 
undersea deterrence through the year 2080.
    Over the past year our technical base of scientists, 
engineers, and logisticians were vital to the continued 
operation of the Navy's nuclear fleet. This core team directly 
supports the Navy's ability to maintain a forward-deployed 
carrier, 3 battle group deployments last year, 33 submarine 
deployments, and 32 strategic ballistic missile deterrent 
patrols.
    Our progress in mandatory oversight of the safe operation 
of the fleet is only possible through the support of this 
subcommittee. Naval Reactors funding request for fiscal year 
2018 allows us to continue this important work. The funding 
request is for $1.48 billion. That's approximately a 4 percent 
increase over the fiscal year 2017 enacted funding level. This 
request enables us to deliver tomorrow's fleet while 
recapitalizing critical program facilities and infrastructure, 
while performing research and development, and funding 3 
national priority projects, which are the continued design of 
the new propulsion plant for the Columbia SSBN, which will 
feature a life-of-core reactor and electric drive; refueling a 
research and training reactor in New York to facilitate the 
Columbia-class reactor manufacturing development efforts, which 
will also provide 20 more years of training fleet operators; 
and building a new spent fuel handling facility in Idaho that 
will facilitate long-term, reliable processing and packaging of 
naval spent nuclear fuel.
    The budget request supported by sustained and predictable 
funding levels also permits Naval Reactors to support today's 
operational fleet by recruiting and retaining talented 
engineers, technicians, and scientists that make up the 
technical base. This technical base includes world-class 
laboratory and reactor facilities and allows me to support 
maintenance and modernization investments that are critical to 
the fleet.
    Madam Chairwoman, our fiscal year 2018 budget request is 
part of a closely coordinated Department of Navy and Department 
of Energy budget that supports both my responsibility to 
regulate the safe and effective operation of the nuclear fleet, 
and Naval Reactors roles in both departments to support the 
security of our Nation and our future security. We will 
accomplish this with industry partners while maintaining high 
standards for safety and environmental stewardship.
    Again, thank you for your longstanding support, and I look 
forward to discussing my program with you.
    [The prepared statement of Admiral Caldwell follows:]

            Prepared Statement by Admiral James F. Caldwell
    Since USS Nautilus (SSN 571) first signaled ``Underway on nuclear 
power'' in 1955, our nuclear powered ships have made extraordinary 
contributions to our national defense. From the start of the Cold War 
to today's multi-threat environment, our nuclear navy ensures continued 
dominance of American seapower. Over 45 percent of the Navy's major 
combatants are nuclear powered (10 aircraft carriers, 14 ballistic 
missile submarines, 57 attack submarines, and 4 guided missile 
submarines) capitalizing on the mobility, flexibility, and endurance of 
nuclear power that enables the Navy to meet its global mission.
    Over the past year, the Navy, with Naval Reactors support, deployed 
33 submarines and conducted 32 strategic deterrent patrols. In 
addition, at any given time, there were always at least 56 of 75 
submarines deployed or ready to deploy within a few days. Our carriers, 
USS John C. Stennis (CVN 74), USS Harry S. Truman (CVN 75), and USS 
Dwight D. Eisenhower (CVN 79), completed successful deployments, and 
the USS Ronald Reagan (CVN 76) stood ready as the forward-deployed 
carrier in Japan. We also saw the christening of the attack submarines 
PCU Colorado (SSN 788) and PCU Indiana (SSN 789), our fifteenth and 
sixteenth Virginia-class submarines. We have also added another attack 
submarine to our force by commissioning USS Illinois (SSN 786), and 
we've completed initial sea trials for the Navy's newest submarine USS 
Washington (SSN 787). Last, as a testament to the ability of our design 
and technical base, USS Helena (SSN 725) made submarine history by 
being the first submarine to travel 1 million nautical miles on a 
single reactor core.
    Recently, I participated in sea-trials on the first Ford-class 
aircraft carrier, the Gerald R. Ford (CVN 78). This ship has the first 
new design aircraft carrier propulsion plant in 40 years, and I'm happy 
to report that in terms of propulsion capability, Ford met the high 
speed of our Nimitz-class ships and delivered major increases in 
electrical power and core energy with half the manning in the reactor 
department. While we have worked through several challenges testing and 
operating the first-of-class propulsion and electrical generation and 
distribution system on the ship, the fact that these problems were 
safely and efficiently resolved is a testament to the technical skills 
and hard work of the nuclear shipbuilding design and industrial base, 
as well as the skilled sailors operating this equipment. This historic 
milestone represents the culmination of almost 20 years of dedicated 
and sustained effort by Naval Reactors and its field activities, our 
Department of Energy laboratories, nuclear industrial base suppliers, 
the Navy design team, and the nuclear shipbuilders.
    In addition to supporting these nuclear powered combatants, Naval 
Reactors has safely maintained and operated two nuclear powered land-
based prototypes--both over 39 years old--to conduct research, 
development, and training, as well as two Moored Training Ships--both 
over 53 years old--the oldest operating pressurized water reactors in 
the world. These operational reactors provide highly qualified 
operators to the nuclear fleet, and today our nuclear fleet is fully 
manned.
    The strong support of this subcommittee last year enabled safe 
operation of the fleet, Naval Reactors mandatory oversight, and 
continued progress on key projects. Naval Reactors' budget request for 
fiscal year (FY) 2018 is $1.48 billion, an increase of 60 million 
dollars, or 4 percent, over the fiscal year 2017 enacted funding level. 
In addition to supporting today's operational fleet, the requested 
funding will enable Naval Reactors to deliver tomorrow's fleet by 
continuing funding for three national priority projects and recruiting 
and retaining a unique, highly skilled work force committed to the Navy 
and the nation. The projects are:

    <bullet>  Continuing to design the new propulsion plant for the 
Columbia-class ballistic missile submarine, which will feature a life-
of-ship core and electric drive;
    <bullet>  Refueling a research and training reactor in New York, to 
facilitate Columbia-class reactor development efforts and provide 20 
more years of live reactor based training for the fleet operators; and
    <bullet>  Building a new Spent Fuel Handling Facility in Idaho that 
will facilitate long term, reliable processing and packaging of spent 
nuclear fuel from aircraft carriers and submarines.

    We are at our peak in design efforts supporting the new propulsion 
plant for the Columbia-class SSBN--the Navy's number one acquisition 
priority. Providing unparalleled stealth, endurance, and mobility, our 
ballistic missile submarine force has delivered more than 60 years of 
continuous at-sea deterrence, and it continues to be the most 
survivable leg of the nuclear triad. Columbia-class SSBN activity this 
year includes reactor plant design and component development to support 
procurement of long lead reactor plant components in fiscal year 2019. 
The funding requested ensures we maintain progress with this plan and 
alignment with the Navy as the program moves toward construction start 
in fiscal year 2021.
    Supporting both the Columbia-class effort and the Program's 
training needs, the fiscal year 2018 budget request supports the land-
based prototype refueling overhaul at the Kesselring Site in upstate 
New York. In fiscal year 2018, Naval Reactors continues the core 
manufacturing work needed for the refueling overhaul, which retires 
manufacturing risk for the life-of-ship core for Columbia-class. 
Further, plant service-life engineering design will be largely 
completed in fiscal year 2018 to ensure that the land-based prototype 
overhaul, performed concurrently with refueling, supports 20 additional 
years of Naval Reactors' commitment to research, development, and 
training in upstate New York.
    The Naval Reactors fiscal year 2018 Budget Request also contains 
funds to continue the Spent Fuel Handling Recapitalization Project. 
Congressional support in fiscal year 2016 and fiscal year 2017 for this 
much needed project has enabled progress on site preparations, long 
lead material procurements starting this fiscal year, and approval of 
the National Environmental Policy Act Environmental Impact Statement 
Record of Decision. In addition to starting site preparation and long 
lead material procurements, we are using the $100 million received in 
fiscal year 2017 to finalize key facility and equipment requirements 
and advance facility design to support establishing the Performance 
Baseline and authorizing the start of construction in fiscal year 2018. 
Continued Congressional support will ensure that the facility in Idaho 
is ready to receive spent nuclear fuel from aircraft carriers in fiscal 
year 2024 and be fully operational by 2025.
    In addition to our three main priority projects, Naval Reactors 
also maintains a high-performing technical base to execute nuclear 
reactor technology research and development that guarantees our Navy 
remains technologically ahead of adversaries, as well as the necessary 
equipment, construction, maintenance, and modernization of critical 
infrastructure and facilities. By employing an efficient and effective 
technical base, the teams of talented and dedicated people at our four 
Program sites--the Bettis Atomic Power Laboratory in Pittsburgh, the 
Knolls Atomic Power Laboratory and Kesselring Site in greater Albany, 
and the Naval Reactors Facility in Idaho--can perform the research and 
development, analysis, engineering, and testing needed to support 
today's fleet at sea and develop more capable nuclear-powered warships. 
Our labs perform the technical evaluations that enable Naval Reactors 
to thoroughly assess approximately 4,000 emergent issues annually and 
deliver timely responses that ensure nuclear safety and maximize 
operational flexibility. This technical base supports more than 17,500 
nuclear-trained Navy sailors, who safely maintain and operate the 101 
nuclear propulsion plants in the fleet 24 hours per day, 365 days per 
year around the globe.
    At the requested funding level, Naval Reactors can safely maintain 
and oversee the nuclear-powered fleet. Naval Reactors is committed to 
executing our projects on time and on budget, and continuing the drive 
for the safest and most cost effective way to support the nuclear 
fleet. I respectfully urge your support for aligning funding 
allocations with the fiscal year 2018 Budget Request.

    Senator Fischer. Thank you, Admiral.
    Director Trimble, welcome.

STATEMENT OF DAVID C. TRIMBLE, DIRECTOR, NATURAL RESOURCES AND 
         ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Trimble. Thank you, Chairman Fischer, Ranking Member 
Donnelly, and members of the subcommittee. My testimony today 
will address the affordability of NNSA's nuclear modernization 
programs, the growing cost of DOE's environmental liabilities, 
DOE's efforts to improve its management of contracts and 
projects, and assessing performance in the non-proliferation 
program.
    NNSA faces challenges with the affordability of its nuclear 
modernization programs. In our review of the fiscal year 2017 
SSMP [Stockpile Stewardship and Management Plan], we found 
misalignment between NNSA's modernization plans and projected 
budgetary resources, which could make it difficult for NNSA to 
afford its planned portfolio of modernization programs.
    We identified two areas of misalignment. First, NNSA's 
estimates of program costs exceeded the projected budgetary 
resources included in the President's planned near- and long-
term modernization budgets. For example, we found that to stay 
within five-year budget limits, NNSA continues to push work out 
beyond the FYNSP [Future Year Nuclear Security Plan], something 
it has repeatedly done in the past. Such ``bow waves'' of 
increased future budget needs often occur when agencies are 
undertaking more program than their resources can support.
    Long-term modernization budgets also show a shortfall, with 
program costs of about $3 billion more than the projected 
budgets.
    Second, the cost of three LAPS [Logistics, Accountability, 
Planning and Scheduling]--the B61, W80, and W88--could be about 
$4 billion higher than estimated. Moreover, projected budgets 
for some programs are not always sufficient to cover even the 
low end of projected costs.
    Addressing the affordability challenges facing the 
modernization effort is complicated by DOE's growing 
environmental liabilities, which defense up-budgets will also 
need to fund. This year we added the Federal Government's 
environmental liabilities to our high-risk list. Notably, DOE 
is responsible for $372 of the $450 billion Federal total. 
Further, over the past six years, EM has spent about $35 
billion on cleanup, while its liabilities have grown by $90 
billion in the same time period. Also of concern is that these 
liability estimates do not include all future cleanup 
responsibilities.
    We and others have found that DOE has not consistently 
taken a risk-informed approach to decision-making for 
environmental cleanup. Our recent work has identified 
opportunities where DOE may be able to save tens of billions of 
dollars such as by taking a risk-informed approach to treating 
a portion of the low-activity waste at the Hanford site.
    Regarding DOE contract and project management, which has 
been on GAO's [Government Accountability Office] high-risk list 
for several decades, DOE has taken several important steps, 
including requiring the development of cost estimates in 
accordance with best practices, creating new oversight 
structures, and ensuring that major projects, designs, and 
technologies are sufficiently mature before construction.
    Significant work remains. First, DOE still lacks reliable 
enterprise-wide cost information. Without this information, 
meaningful cost analyses across programs, contractors, and 
sites are not possible. NNSA needs to develop a comprehensive 
plan to address this issue.
    Second, DOE has not established a policy on program 
management or a training program for program managers. Program 
management can help ensure that a group of related projects and 
activities are managed in a coordinated way to obtain benefits 
not available for managing them individually.
    Third, DOE's acquisition planning for major contracts could 
be improved. While DOE has since revised its guidance, in our 
last report we found that it had not considered an acquisition 
alternative beyond continuing its longstanding M&O [Management 
and Operating] approach in 16 of the 22 cases we examined. By 
not considering alternative structures, DOE could not be sure 
that it had selected the most effective form of contracts for 
billions in annual spending.
    Fourth, DOE has not consistently applied its recent reforms 
to its largest legacy cleanup project at the Hanford site. In 
light of longstanding challenges with the WTP [Waste Treatment 
Plant] and the billions of dollars yet to be spent, DOE should 
ensure that its improved controls are applied to its largest 
and most troubled project.
    Finally, DOE's efforts to ensure contractors maintain an 
environment for workers to raise concerns without fear of 
reprisals has not been sufficient. As we reported, management 
must foster a culture in which workers are encouraged to 
identify risks and use their expertise to proactively mitigate 
them.
    Lastly, regarding non-proliferation, DNN [Defense Nuclear 
Nonproliferation] faces challenges with assessing the 
performance of some of its programs. We found that DNN's R&D 
[Research and Development] results were not being tracked 
consistently to help evaluate the success of that program. In 
addition, we found that DOE did not have measureable goals 
supporting its plans and efforts to deploy and support 
detection equipment overseas.
    Also related to non-proliferation, let me note that we have 
ongoing work for this committee related to MOX [Mixed Oxide 
Fuel Fabrication Facility] and WIPP.
    Thank you, and I'd be happy to answer any questions you may 
have.
    [The prepared statement of Mr. Trimble follows:]
    
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Senator Fischer. Thank you, Director.
    We will begin the first round of questioning, 7-minute 
rounds, please.
    General Klotz, I appreciate the work that NNSA has done in 
tandem with Los Alamos to repurpose existing lab space and take 
initial steps to rebuild our pit production capacity. However, 
last year you testified before this subcommittee that 
additional capacity would be required and that the NNSA was 
conducting an analysis of alternatives to determine the 
Department's future plutonium strategy.
    Can you tell me what the status is of that AOA [Analysis of 
Alternatives], please?
    Secretary Klotz. Yes, ma'am. The AOA is still underway. We 
expect that it will be completed in the summer timeframe.
    Senator Fischer. Are there any additional studies that are 
going to be required, or do you expect the AOA to select a way 
forward and to allow us to move out on this?
    Secretary Klotz. I expect the AOA will inform us as the way 
to go forward. Now, the AOAs themselves are not necessarily 
dispositive in terms of what the final outcome will be. They're 
designed to inform the decision-makers within NNSA and within 
the Department and the Congress as to what the various options 
are and what the various advantages and disadvantages of a 
particular option are.
    Senator Fischer. At this point, do you believe that that 
will be enough, that the AOA is going to be able to present 
options and that we're going to be able to move forward, or do 
you think there will be other studies required?
    Secretary Klotz. Well, we will do other--as part of the 
process which Director Trimble, in fact, outlined, in several 
parts of it, we do analysis of alternatives, we do independent 
cost estimates, we examine the particular risks of the various 
ways forward. The first step in that process is to do an 
analysis of alternatives to know the places that we can go.
    I'm glad you raised this because as a Nation we no longer 
have the capability to manufacture plutonium pits for our 
Nation's nuclear weapons stockpile, and the Congress has given 
us clear direction to rebuild that capability, and we are on 
track to be able to. In fact, this year we have already 
fabricated, Los Alamos has fabricated some development pits at 
Los Alamos. With this budget, if it's approved by the Congress, 
we'll fabricate 4 additional developmental pits, working our 
way towards the ability to do 10 pits in 2024, and then growing 
up to eventually get to the point where we'll be able to 
demonstrate the capacity to do 80 pits a year.
    We can only do 30, we think, at the current facilities, 
which, as you rightly pointed out, we're repurposing Plutonium 
Facility 4, PF4, and in the radiation laboratory. We're going 
to need additional capacity, additional floor space to get from 
about the 30 level up to the 80 level. So that's why we're 
pursuing this analysis of alternatives to educate and inform 
us, inform decision-makers on the best option for achieving 
that capability.
    Senator Fischer. So as we look at the budget request that 
this subcommittee and the full committee is going to be 
receiving, will that give us that capacity to be able to reach 
that goal of 80, or are we going to have to address that in the 
future? Is it included in the budget request here, or are we 
going to be having this conversation again in the future?
    Secretary Klotz. Well, we'll be having this conversation 
again in the future because our budget request for fiscal year 
2018 is to pay for the program in fiscal year 2018. We do not 
have----
    Senator Fischer. Not the facilities.
    Secretary Klotz. Well, the facilities, but also all the 
other things we need to do with our plutonium sustainment 
operations at Los Alamos and elsewhere. You will not see in 
this budget the FYNSP numbers in great fidelity beyond this 
particular fiscal year request, and the reason for that, quite 
simply, is that with the new administration we are in the 
process of conducting a nuclear posture review, and the results 
of that nuclear posture review I think will be very important 
for what we have to fund and where the priorities will be in 
the years ahead.
    Senator Fischer. Are we looking at any funding wedges that 
have been built into this budget request to execute the path 
forward that's going to be determined by the AOA?
    Secretary Klotz. I don't know that there are any wedges in 
there. I think the number that we have given you for fiscal 
year 2018 is what we need to cover the cost of that. I think 
last year we did have some wedges in there to indicate to the 
Congress that there would have to be some spending in that 
particular area. Remember, we don't baseline a program until we 
have gone through this very methodical process that Director 
Trimble laid out. So we're not at that point where we have the 
fidelity of numbers to say what it's going to be 2 years from 
now, 4 years from now, 5 years from now.
    Senator Fischer. So this wasn't a decision made by the OMB 
[Office of Management and Budget] or by the NNSA. It's just 
that you haven't reached that point yet where you can put it 
in?
    Secretary Klotz. That's right. We have not reached that 
point on this particular aspect of the plutonium strategy.
    Senator Fischer. Okay. What does that mean about your 
request for the additional funding as we move through this 
process beyond the years, the out-years of this budget? Will 
that come to us later?
    Secretary Klotz. It will. I think it will come in the 
fiscal year 2019 budget's mission, which we are already in the 
process of working.
    Senator Fischer. Have you factored that in? Are you looking 
to factor that in already for the 2019 budget?
    Secretary Klotz. Yes, absolutely. Again----
    Senator Fischer. Is that why you're not asking for it now?
    Secretary Klotz. Well, again, we're asking----
    Senator Fischer. I just want to know if you're asking for 
what you need, or if you are being overly conservative.
    Secretary Klotz. We're asking for what we need in fiscal 
year 2018, and what we need beyond will be factored in as we 
build the fiscal year 2019 budget, informed by the 
deliberations and the results that take place in the nuclear 
posture review.
    Senator Fischer. Okay. Thank you, sir.
    Senator Donnelly?
    Senator Donnelly. Thank you, Madam Chair.
    Administrator Klotz, Naval Service Warfare Center in 
Indiana works with Sandia and others on ensuring the quality 
and reliability of radiation-hardened microelectronics in our 
strategic systems. With the progressive off-shoring of U.S. 
manufacturing capabilities, it's an issue of growing importance 
for both strategic and conventional military systems.
    The microelectronics facility at Sandia is due for 
replacement over the next 10 years. What actions are being 
taken to start this process, and what options are you looking 
at to make sure we take care of everything?
    Secretary Klotz. Thank you. I think you've laid the problem 
statement out very well, Senator. We have a specialized need 
within the nuclear security enterprise for a particular type of 
microelectronics. These have to be what we call radiation 
hardened, and there are different types of radiation hardened. 
The radiation hardening you might need for a space system is 
different than the radiation hardening you need for a nuclear 
weapons system given the types of threats that it might 
encounter from what we call the stockpile-to-target sequence.
    You're right, there has been a lot of off-shoring, not only 
off-shoring of microelectronic production but also foreign 
ownership of that. So when we're dealing with microelectronics 
for nuclear weapons systems, they have to be absolutely 
trusted.
    We have relied upon the silicon fabrication facility at 
Sandia for a number of years to provide a lot of our capability 
in this area. As you indicated, there are two things that are 
going on. One is what the rest of industry is doing in terms of 
the size of the equipment that they use, in terms of 
production. We've gone from 6-inch wafers--that's what we make 
now. The rest of industry is already at 12-inch silicon wafers. 
So we're in the process now of doing a revitalization of the 
Sandia silicon fabrication facility to allow us to work with 8-
inch wafers, which will hold us over until we go to the next 
level. Then we believe that in 2025 we're going to need to be 
in the process of recapitalizing the capability to do 
radiation-hardened microelectronics for ourselves.
    There is currently an analysis of alternatives which is 
getting very, very close to being finished. I believe the 
initial results are already in the building. Now, let me just 
say there's a lot of talk about whole-of-government approaches 
and partnering. Frank Klotz's own personal opinion is we are a 
niche market or a niche customer as far as this particular 
market is concerned, and our needs are relatively small and may 
not necessarily be the needs for the commercial or other 
government agencies. So we're going to have to approach this 
with making sure that our priority of having the types of 
microelectronics that we need for our purposes are met with 
whatever alternative we come up with.
    Senator Donnelly. Well, as a niche market, who do you get 
to service that market? Do you ensure that it's secure in the 
United States? How do you ensure the security of it, and are we 
best off serving the niche market ourselves?
    Secretary Klotz. Well, I'm not going to pre-judge the 
outcome of the analysis of alternatives. I will tell you 
personally I agree with the statement that you just made. This 
will have to be, in our view, one that is manufactured in the 
United States where we can be very, very clear where these 
materials have come from.
    Now, without getting into too many details, there are ways 
in which you can buy things from the front end and make sure on 
the back end that you have done the type of engineering that's 
necessary to enhance your confidence in the material itself. 
There are other approaches that we're working on in our 
laboratories and our production facilities to be able to 
assess, for want of a better word, the trustworthiness of a 
particular part. I think we would have to discuss that in a 
different setting to get into the details of that.
    This is a great, great concern of ours, and I suspect as 
well for the entire Department of Defense and the rest of the 
national security agencies in this country, where the sources 
of not only microelectronics but other key components that we 
use in the course of conducting our business are made and 
manufactured, given the amount of material that in the 
commercial world comes from overseas or from companies that 
overseas entities have a major equity share in.
    Senator Donnelly. Thank you.
    Ms. Cange, I want to hear from you on the collapse of the 
tunnel at Hanford that stored contaminated equipment. The 
tunnel was first constructed in 1956. Referencing wooden beams 
used on two sides of the tunnel, the most recent structural 
integrity study conducted in 1991 recommended that, and I 
quote, ``If a decision for final disposition is not made by the 
year 2001, the structural integrity again should be reviewed in 
light of any available information, including further tests on 
wood preservation that may have been completed at that time.''
    First, did the Department conduct any further structural 
integrity reviews after 2001? Will you be conducting an 
analysis of the structural integrity of the tunnel at any point 
in the near future?
    Ms. Cange. To answer the first part of your question, the 
Department has not done any structural integrity tests since 
2001 of the Purex tunnel. However, we have recently received an 
administrative order from the State of Washington in response 
to the collapse, and one of the requirements is that we do 
perform a structural integrity study and submit it to the 
state. That study is due by July 1st of this year, and so we 
are undergoing that study, as well as really focusing on what 
measures we're going to take to ensure protection looking into 
the future and coming up with a longer-term and permanent 
solution to the tunnel and the materials in the tunnel.
    Senator Donnelly. Thank you.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator.
    Senator Sullivan?
    Senator Sullivan. Thank you, Madam Chair.
    Senator Fischer. I would remind the Senator that we have a 
vote. So when you're finished, we're going to adjourn until 
after the second vote is completed. Thank you.
    Senator Sullivan. I wanted to ask about the Iran nuclear 
deal and to what degree you were involved in not only the 
negotiation but the compliance report. So, under the parameters 
of that agreement, Iran is restricted to 130 metric tons of 
heavy water. However, in 2016 the IAEA [International Atomic 
Energy Agency] reported that Iran had, in fact, surpassed that 
threshold twice.
    Madam Chair, I ask unanimous consent for the record that 
this is an article entitled, ``U.N. Agency IAEA Reports Iran 
Has Again Violated Terms of the Nuclear Deal.''
    Senator Fischer. Without objection.
    [The information referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Senator Sullivan. So, were you familiar with that violation 
that the IAEA had cited in 2016, Mr. Klotz?
    Secretary Klotz. Yes, sir.
    Senator Sullivan. Do you agree with that assessment, that 
that was a violation, from the IAEA?
    Secretary Klotz. I agree with the IAEA's assessment.
    Senator Sullivan. So were you asked, when Secretary 
Tillerson recently sent a letter to Congress certifying that 
Iran was in compliance with the agreement, with the Iran 
nuclear agreement--how do you square those two issues? 
Obviously, they were in violation last year. Were you asked to 
comment on the Tillerson letter to the Congress?
    Secretary Klotz. Let me answer it this way, Senator. The 
State Department clearly has the lead on all actions associated 
with the Joint Comprehensive Plan of Action or the Iran deal. 
The role of the Department of Energy and the National Nuclear 
Security Administration is to be able to draw upon the 
scientific and technical know-how and knowledge that's resident 
within our national laboratories, all 17 DOE national 
laboratories.
    Senator Sullivan. Like heavy water issues.
    Secretary Klotz. Yes, sir.
    Senator Sullivan. I'm sure the members of your organization 
are much more expert on that than State Department diplomats.
    Secretary Klotz. Yes. There's another area where we are 
involved, and I think it's worth pointing out, and that is the 
support which NNSA in particular in our laboratories, again, 
and our production facilities provide to the International 
Atomic Energy Agency, whose headquarters is in Vienna. We help 
them develop a lot of the technology which they use to assess 
not only what's going on in Iran but with all other partners to 
the Nuclear Non-Proliferation Treaty who are subject to 
safeguards, inspections, and compliance by the IAEA. We help 
them write their technical manuals on safety, on security, on 
peaceful use of nuclear weapons. We also, quite frankly, 
provide a lot of the talent either by sending people over there 
for short periods of time or actually detailing people to the 
International Atomic Energy Agency.
    Senator Sullivan. Let me ask--I hate to interrupt, but let 
me ask just a basic question. Given your expertise, given that 
you agreed with the IAEA just a few months ago that Iran was 
actually in violation of the agreement, how do we get to the 
point that just a few months later we're now saying that Iran 
is in compliance with the agreement? Do you have a sense of 
that? Did they ship the heavy water out? Did they try to cure 
this violation? I mean, it's very confusing to those of us who 
try to follow this agreement and think it has a lot of flaws.
    Secretary Klotz. Well, in the specific case of the heavy 
water, again, treading on the State Department's area of 
responsibility----
    Senator Sullivan. Again, you're much more of an expert on 
heavy water than they are.
    Secretary Klotz. In the area of heavy water, what they did 
is they shipped out--to get to the actual day on which the 
agreement was formally recognized as being implemented, they 
shipped out heavy water, and as they approached the limit that 
you mentioned----
    Senator Sullivan. One-hundred and thirty metric tons.
    General Klotz.--they also shipped that out. I would have to 
get back to what we know----
    Senator Sullivan. How about you get back to us on that?
    Secretary Klotz. Yes.
    Senator Sullivan. Because it sounds like, you know, a 
couple of months ago you and the IAEA were in agreement that 
there was a violation, and somehow we get to the point last--I 
don't know, Secretary Tillerson sent this letter three weeks 
ago--that they're no longer in it. It's confusing to a lot of 
us. Would you, for the record, like to----
    Secretary Klotz. Sure.
    Senator Sullivan. Maybe in conjunction with the State 
Department?
    Secretary Klotz. I'd be happy to undertake that. Yes, 
Senator.
    Senator Sullivan. Let me ask another question, a very 
different question, and I think again, Mr. Under Secretary, I 
think you're the point person on this. You know, the counter-
WMD [Weapons of Mass Distruction] mission, which is a really 
important one, doesn't get a lot of discussion. The lead for 
that recently moved from STRATCOM [Strategic Command] to SOCOM 
[Special Operations Command], and we had the SOCOM commander 
testify here recently. You talk about the whole-of-government 
approach. Again, I think having your expertise and your 
officials who know a lot about the technical aspects of this is 
very important.
    Are you plugged into that mission at all? If so, how?
    Secretary Klotz. Absolutely. We worked very, very closely 
before, when it was under U.S. Strategic Command, and now that 
it's under SOCOM, we have a full-time liaison officer--civilian 
serving in Tampa. I had a chance to meet with the deputy 
commander of SOCOM not long ago. We participate in a number of 
training exercises. We participate in a number of tabletop 
command-post exercises, and we train--without going into too 
many details, we train a lot of their people, if they ever got 
themselves into a situation where they were confronting a 
radiological or a nuclear incident, how to carry out their 
duties.
    Senator Sullivan. Great. That's very reassuring to hear 
that you're involved.
    The final question. Admiral Caldwell, your responsibilities 
are over something that's incredibly important, a very strong 
record, by the way, over decades, in terms of the nuclear Navy. 
How do you maintain that excellence? How do you maintain the 
discipline to continue to have that strong record, and what 
keeps you up at night when you're thinking about your mission?
    Admiral Caldwell. Thanks for the question, sir. We do have 
a tremendous record. I think that the support of this 
subcommittee and the funding, the stable funding that we've 
received is essential to our ability to do that. We hire 
tremendous folks to work in my organization, and the technical 
base that is supported by our funding--that's our scientists, 
technologists, and engineers--is essential to my ability to 
oversee and ensure the safe, effective operation of nuclear 
propulsion plants.
    Part of our success, a strong part of our success is the 
culture that Admiral Rickover instilled in the program that we 
still talk about today, this culture of excellence, the self-
critical nature, the stinging into the details, the ownership. 
These are just some of the tenets that make us successful.
    What keeps me up at night is continuing that record of 
excellence. Right now I'm laser-focused on executing the three 
major programs that are funded by this subcommittee. That's a 
lot of work to keep that going. I also am laser-focused on 
ensuring that the operating fleet is still operated to the high 
standards to meet what the Navy needs and also preserve this 
great record of performance.
    Senator Sullivan. Great. Thank you.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator Sullivan.
    The committee will stand in recess until we are able to 
reconvene after the next vote. Thank you.
    [Recess.]
    Senator Fischer. Thank you all for your patience. The 
committee hearing will reconvene at this point. Thank you.
    I would ask, next in line is Senator Heinrich.
    Senator Heinrich. Thank you, Chairwoman Fischer. I want to 
actually thank the Chair and the Ranking Member for bringing up 
with General Klotz the incredible importance of investing in 
the plutonium capability and the trusted microelectronics at 
the Mesa facility, and I would just add to that the importance, 
not only from a physical investment point of view but the 
incredible importance of the intellectual capacity that we have 
at those two facilities.
    General Klotz, you mentioned the potential for talk of the 
whole-of-government approach, and I would just, with my 2 
cents, proceed cautiously, because first and foremost we need 
to make sure we get this right for NNSA's requirements and 
needs, and those can be very different from other U.S. 
agencies.
    Ms. Cange, I wanted to ask you, I was really pleased to be 
at the WIPP facility in January when waste disposal operations 
were re-started. Going forward, what are some of the key 
milestones and the timeline for restoration for full operation 
at the WIPP facility?
    Ms. Cange. Thank you. We, too, were very excited with the 
resumption of activities and operations at WIPP. As you may 
know, we started shipping waste from the generator sites to 
WIPP for disposal beginning in April of this year, and when we 
first started we were limited to two shipments per week. We 
have shipped waste from Idaho, from Savannah River, and also 
from Waste Control Specialist facility in Texas, and we are now 
up to three shipments per week.
    We will be adding shipments from the Oak Ridge site, and 
also the Los Alamos site, later this year. So there are plans 
underway to increase the number of generator sites sending the 
waste, and we do plan to get up to four shipments per week by 
the end of 2017.
    Of course, one of our challenges with being able to resume 
full operations or the level of operations prior to the 
shutdown is the ventilation system. As I'm sure you know, we 
have an important capital asset project underway for the 
installation of a new ventilation system and an exhaust shaft. 
We are at the 90 percent design review stage for those new 
facilities, and our current plan is to complete construction 
and have the facilities operational in the 2021 timeframe. It's 
at that point that we will be able to resume full operations 
and go back to what we were, which was approximately 17 
shipments per week.
    Senator Heinrich. Great. So, Ms. Cange, in addition to the 
operating funds for WIPP and, as you mentioned, the investments 
and the construction of the new exhaust shaft and the 
ventilation system, one of my concerns is that WIPP is 
reporting a backlog of about $25 million in fiscal year 2018 
for really critical upgrades for key fire safety systems, for 
instrumentation, for infrastructure.
    Your budget request of $323 million for fiscal year 2018 is 
certainly below what I think WIPP needs at this point, and I 
just want you to know that I'll be working to increase the 
funding for WIPP when we mark up the fiscal year 2018 NDAA.
    General Klotz, I have a question for you that relates to 
recruiting, and we've talked a fair amount about some of the 
impediments that we have in recruiting at our NNSA labs. Both 
Sandia and Los Alamos labs are actively recruiting new 
employees to replace a growing rate of staff retirements, and 
one of the barriers to hiring these employees that I hear about 
is the long timeframe that it takes to obtain security 
clearances for new hires. Some of these backlogs, the backlogs 
for clearances at each lab, is up to 1,000 new hires and time 
delays of sometimes over a year.
    Do you have any suggestions on what we can do to reduce 
that backlog at this point?
    Secretary Klotz. Thank you, Senator. I, too, share your 
frustration on that, and it is an enormous impediment in terms 
of hiring people, or once you hire them actually putting them 
to work for the tasks that you've hired them to do. I'm sad to 
report that it's not getting any faster in terms of the normal 
processing of security clearances. At least that's been our 
experience.
    Now, there are a number of things we are doing. We are 
trying to lean very far forward in the granting of interim 
clearances for those people who have in their background check, 
the background check doesn't indicate anything that would 
ultimately be untoward as far as the award, the granting of a 
security clearance.
    The other thing I've seen going on at both our national 
laboratories and our production plants, which I commend them 
on, is going ahead and bringing people on and then starting the 
process of doing work that is unclassified. For instance, I was 
at Kansas City plant not long ago where they had sort of a 
basic course on how you do soldering and putting together the 
various types of components which they produce there at Kansas 
City, but doing it in an unclassified setting, so that when 
their clearances come through they're able to move over. As you 
well know, Senator, at our laboratories, including Sandia and 
Los Alamos, one of the things that we do is we bring in a lot 
of postdocs and interns, other people that we want to work 
there, put them to work on unclassified projects, a lot of them 
funded by research and development funds, and then as they get 
their clearances they can move over to jobs that require those 
clearances.
    Senator Heinrich. Would you agree that LDRD [Laboratory 
Directed Research and Development] is an absolutely critical 
component to be able to recruit the quality of applicants that 
we need, especially given some of the older infrastructure, the 
competition with Silicon Valley and other issues, and the 
remoteness of some of these sites, to the ability to get the 
best-of-the-best into these national labs?
    Secretary Klotz. Absolutely, and I appreciate your personal 
support in stressing the importance of LDRD over these past few 
years. It's an extraordinarily important way in which to 
recruit the best and brightest out of our graduate school 
programs to the laboratories and to give them some challenging 
science work to do, work that they can publish because it's 
unclassified for the most part, and then allow them to build up 
their credibility among their peers.
    It also, by the way, has resulted in some fairly important 
scientific and engineering outcomes which do have some direct 
correlation to the work that we do either in the nuclear 
weapons enterprise or for the other customers that the labs 
have, whether it's other government agencies or whether it's 
technology which can be transferred to the commercial sector.
    Senator Heinrich. Madam Chair, I apologize for going over 
my time.
    Senator Fischer. Thank you, Senator.
    Senator Peters?
    Senator Peters. Thank you, Madam Chair.
    To our witnesses here today, I appreciate your testimony a 
great deal. Thank you for taking the time to be here.
    It's my belief that the continued improvement of nuclear 
detection technology is an often overlooked component of the 
international non-proliferation regime. The United States and 
our allies, particularly at the International Atomic Energy 
Agency, of course used radiation detectors, seismographs and 
many other technologies to ensure that countries are abiding by 
their commitments under treaties, such as the Nonproliferation 
Treaty, and are not secretly building a nuclear weapon.
    The Iran nuclear deal depends in part on the application of 
this technology, such as devices that can measure and transmit 
in real time the enrichment level of uranium and centrifuges or 
detectors that can identify nuclear isotopes in particles about 
one-tenth of the width of a hair, which is amazing. I believe 
that it's critical to develop next-generation non-proliferation 
technology to sustain international norms.
    This is especially critical during the years afforded by 
the Iran nuclear deal so that when some of its components 
expire, the world standard for non-proliferation can be raised, 
hopefully during these next few years.
    The NNSA's defense nuclear non-proliferation research and 
development program supports research programs to develop this 
next generation of nuclear non-proliferation technology, and a 
prime example that I'm very proud of is research conducted by 
the Consortium for Verification Technology, which is based at 
the University of Michigan, which includes universities and 
national laboratories from across the Nation.
    So, General, in your view, how important is new nuclear 
detection technology for future non-proliferation efforts?
    Secretary Klotz. Thank you, Senator, for that strong 
endorsement of a very, very important line of work that we do 
within the National Nuclear Security Administration. Dave 
Huizenga is here, who is the Acting Deputy Administrator for 
Defense Nuclear Nonproliferation. I'm sure he was glad to hear 
that as well.
    We work on a number of different fronts to improve the 
detection capability for both the U.S. customers, as well as 
our international partners, and it's not just in the NNSA labs. 
It's also in the academic institutions, as you so rightly point 
out, as well as the other Department of Energy labs.
    So some of the things we're doing is we're looking at 
developing fast-growing large crystals that are an important 
part of detectors, pushing the limits of chemistry in the 
process of doing that. We're also looking to make detection 
equipment less expensive and less bulky and cumbersome so that 
inspectors, whether they're U.S. inspectors or IAEA inspectors, 
will be able to carry more with them to detect various 
radiation sources.
    Senator Peters. Well, the Iran nuclear deal is providing--
well, it's now less than 15 years when many of the requirements 
disappear. Where do you see this technology going in the next 
15 years? What can we expect as far as advancements that can 
help us in hopefully continuing to contain any kind of nuclear 
program there, and how will you contribute to this effort, or 
how will the organization contribute to the effort?
    Secretary Klotz. Well, we'll continue to push the edge of 
the envelope as far as detection capability is concerned. You 
already mentioned one of the major contributions that the 
National Nuclear Security enterprise and our lab enterprise was 
able to produce. We actually refer to it as the online 
enrichment monitor, the OLEM, which can fit around a pipe 
without cutting into the pipe and measure the enrichment of the 
uranium gas that's actually flowing through it. That was a huge 
development and one that we passed on to the International 
Atomic Energy Agency for their use.
    As more Nations express interest in and pursue commercial 
nuclear power as a means of meeting their energy goals for the 
future, the demands placed upon the IAEA to be able to carry 
out its safeguard and safety mission is only going to increase. 
I think we'll have a lot of work ahead of us to make sure they 
have not only the diagnostic tools they need to do this but 
also the protocols that they follow in forcing compliance with 
the safeguard agreements under the Nuclear Nonproliferation 
Treaty.
    Senator Peters. In addition to my service here on the Armed 
Services Committee, I'm also a member of the Homeland Security 
Committee, and the Department of Homeland Security also is 
engaged in this research effort, and it also has a number of 
programs related to it.
    General Klotz, as well as Mr. Trimble, could you perhaps 
talk a little bit about whether or not there is overlap between 
what you're doing, what the Department of Homeland Security is 
doing, and what sort of coordination is going on between these 
entities?
    Secretary Klotz. We are working very, very closely 
together, both at sort of the working group level, the action 
officer level, particularly on areas related to nuclear 
detection and also responding to a nuclear or radiological 
event that might take place here in the United States.
    In terms of duplication, I personally don't think there is 
much. We made some decisions in the past where we decided, for 
instance, various capabilities would reside within the 
Department of Homeland Security and various things would 
continue to reside in the Department of Energy. Again, we also 
work together through a thing known as the Mission Executive 
Council, which meets at my level as well as my counterparts in 
the Department of Homeland Security and other government 
agencies to work out those kinds of lines of business that we 
have.
    Senator Peters. Director Trimble?
    Mr. Trimble. In regards to the research and development 
programs, that's not an area that we've dived into in terms of 
the overall duplication.
    Senator Peters. Great. Thank you for your testimony. I 
appreciate it.
    Senator Fischer. Thank you.
    Senator Warren?
    Senator Warren. Thank you, Madam Chair.
    Thank you all for being here today.
    Despite our differences, which are many, Russia and the 
United States both want to prevent the spread of nuclear 
weapons, and we've had some real success on that front in the 
last 30 years. After the fall of the Soviet Union we worked 
together to remove nuclear material from Central and Eastern 
Europe, and over time we have down-blended over 500 tons of 
highly enriched uranium from Soviet-era nuclear weapons.
    That's changed. In 2014, the Russians terminated much of 
our bilateral nuclear security cooperation. In 2016, they 
refused to attend the 2016 Nuclear Security Summit, and later 
in 2016 they pulled out of a 16-year-old agreement to destroy 
34 tons of plutonium, which is enough to make about 17,000 
nuclear weapons.
    General Klotz, in light of shrinking United States-Russia 
cooperation, what is NNSA's strategy to ensure that Russia's 
large nuclear complex and stockpiles of nuclear material 
remains secure? What's the plan now?
    Secretary Klotz. I think, Senator, you've laid it out very 
well, the history of this, with the Nunn-Lugar and the other 
work that DOE did separate from Nunn-Lugar. I happen to have 
been serving in Moscow from 1999 to 2001 in our embassy there 
and saw firsthand the work that was being done by both 
Department of Defense and Department of Energy in helping 
secure Russian nuclear facilities, doing work to get control of 
all the materials there, and that was very, very productive 
work. We established a lot of good working relationships at the 
technical level, scientist to scientist, engineer to engineer. 
It did come to a halt, and it came to a halt I think for two 
reasons.
    One, the Russians felt that, given the turnaround in their 
economic situation, that they no longer needed to be in a 
donor-recipient relationship as far as aid to help secure their 
nuclear facilities. Then, of course, there were all the 
differences in our relationship that have developed as a result 
of the invasion of Crimea, the annexation of Crimea, and so on.
    So, the way in which we continue to cooperate is we are not 
doing work inside Russia other than cleaning up a couple of 
contracts that had already been in place. We are prohibited by 
statute from entering into any new contracts with Russia, 
assuming they even want to at this stage, which they don't. So 
we're left with working with the Russians, and we continue to 
work with the Russians on what we would refer to as third-party 
efforts; for instance, repatriating Russian-origin fuel from 
other countries back to Russia. We have just recently done that 
with Russian-origin highly enriched uranium in Kazakhstan.
    So we're looking for opportunities to do that. I would 
suggest if there ever is a change in our relationship at the 
higher political level, it strikes us that this is a natural 
place for cooperation to develop, resume and develop, because 
what we are talking about, again, as I said earlier, scientist 
to scientist, technician to technician.
    Senator Warren. Right.
    Secretary Klotz. Largely divorced from the larger, higher 
policy issues.
    Senator Warren. That's very worrisome, where we stand right 
now.
    Let me ask you another part of this. Since the 1990s, the 
U.S. has spent billions of dollars to build nuclear 
infrastructure on Russian territory for things like training 
centers and sensors and nuclear safeguards and other 
technology. Now that Russia is not cooperating in these areas 
that we talked about, how is NNSA verifying that Russia is 
maintaining this infrastructure, and how do we make sure that 
this investment is not wasted?
    Secretary Klotz. That's a very good question, and I 
probably will need to get back to you on the details. When we 
were actively engaged in cooperation with Russia on nuclear 
security within Russian borders, our people traveled there 
quite extensively to do the same sort of oversight we do here 
in the United States with our laboratories and production 
facilities to make sure that the contracts and the assistance 
we were providing was being used for the purpose for which it 
was intended.
    Senator Warren. You know, the way I keep looking at this, 
we have a lot of problems, obviously, with Russia, and we need 
a very strong response to their interference in Ukraine, what 
they're doing in Syria, the attack on democratic electoral 
systems here in the United States and around the globe, but we 
don't have to agree on everything to agree that nuclear 
proliferation is bad and that we want to work together to stop 
it. So I appreciate your efforts on this.
    If I can, in my remaining time, I have one other question I 
want to ask you about. Among your other responsibilities, 
General Klotz, you also oversee some of the world's most 
powerful supercomputers, including the three national ones 
here--Los Alamos, Sandia, and Lawrence Livermore. We use these 
powerful supercomputers for models and simulations, obviously 
for our nuclear weapons stockpile, but we also use them for 
physics research and climate change and biological systems and 
weather forecasting. They're important for lots of things, and 
this has always been an area of national excellence for the 
United States.
    In recent years, however, China seems to be out-pacing us. 
Currently, China has the number-one and number-two most 
powerful supercomputers in the world.
    So, General Klotz, in the little time I have left, can I 
just ask you to say something about is the United States losing 
ground in supercomputing; and if so, should we be concerned 
about that?
    Secretary Klotz. Senator, I think we should be concerned 
about it, but not just to have the fastest, best computer, 
although I'm a very competitive person, so that appeals to me.
    Senator Warren. Good.
    Secretary Klotz. We need to develop the computing 
capabilities in order to meet the requirements we have to do 
the modeling simulation that you talked about to maintain a 
stockpile that is safe, secure, and effective.
    If you'll indulge me for just a minute--I realize time is 
running out. Indulge me just for a minute. The advances in 
high-performance computing in the United States were pioneered 
by the Atomic Energy Commission and the Manhattan Project, 
working with academic institutions and industry across the 
United States, because we've always had this demand for the 
ability to process large amounts of data, and we continue to 
advance the frontiers. We just put in a new computer at Los 
Alamos, Trinity. Next year we'll put in a new computing 
platform at Lawrence Livermore National Laboratory called 
Sierra, and we are jointly embarked upon what we refer to as an 
exo-scale computing initiative with DOE's Office of Science to 
get us to the level of exo-scale, which is 10-to-the-18th, a 
quintillion flops of capability to do the 3D [3-Dimensional] 
high-fidelity simulations we need to do in the future.
    So in NNSA alone we have, basically, last year in the 
omnibus we had $95 million going to develop the process, and 
we're asking for $158 million in the next. So that shows you, I 
think, the commitment in the Department of Energy, the 
commitment of NNSA to advance our capabilities in this 
particular area. This money is not going to buy the platform. 
Industry will buy the platform. We have to make sure that 
whatever industry develops, we will be able to run the kind of 
codes that we need to on the architecture they have, whether 
it's for the weapons program or the other lines of research, 
weather and biological, that you rightly pointed to.
    Senator Warren. Thank you very much. I'm glad to hear that 
this is very much a priority for you. I'm a strong supporter of 
investments in this area. They will pay dividends for the 
future, not only for our nuclear enterprise but for all of our 
scientific research. So please count on me as an ally on this.
    Secretary Klotz. Thank you, Senator.
    Senator Warren. Thank you.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator.
    If I could follow up a little bit with Senator Warren's 
questioning about Russia, you made the comment, General, that 
we are not actively engaged within Russia's borders right now. 
Can you tell me if Russia is cooperating with your efforts to 
secure Russian material in foreign countries?
    Secretary Klotz. Yes.
    Senator Fischer. Russia's argument at the time, in 2014, 
was that it didn't need the U.S. assistance to secure the 
material. You referenced that their economy had turned around 
and they felt that way. What's your assessment of that claim?
    Secretary Klotz. I do think--my personal assessment of that 
claim is they have, in fact, improved significantly in terms of 
security of both military and domestic radiation and sources of 
nuclear material. We continue to worry, and I would add that 
there are still things that could be done. We would probably 
have to discuss the specifics of that elsewhere and the basis 
of our worry. All countries, including the United States, need 
to continue to focus on safety and security of these special 
materials. It's a journey, it's not a destination, and there is 
a lot of work that needs to be done everywhere, including 
inside Russia.
    Senator Fischer. So in a classified setting we need to 
discuss----
    Secretary Klotz. Yes, yes.
    Senator Fischer.--since cooperation ceased, where they are 
on that.
    Secretary Klotz. Yes, ma'am.
    Senator Fischer. Thank you.
    Also, back to my first line of questioning. When we look 
across the list on NNSA's construction projects, it looks like 
the plutonium project at Los Alamos is the only one that 
Congress appropriates at the sub-project level. You referenced 
that. Do you believe that that's helpful or hurtful?
    Secretary Klotz. Our druthers, our preference would be that 
we be appropriated not at the sub-project level, and let me 
tell you why. For instance, with the uranium processing 
facility, you appropriated at the level of the uranium 
processing facility. We have a number of sub-projects under 
that. What that does is it gives us the flexibility that if we 
achieve some savings, which we have in the uranium processing 
facility sub-projects, we can move that money to other areas of 
the overall project that need that funding at that particular 
time. Now, within the CMRR [Chemistry and Metallurgy Research 
Replacement] program, we would essentially, if we found that we 
had saved some money in some area or we had a higher priority 
in another area, we would have to come to the four committees 
to ask for reprogramming. With all the work that those 
committee staff have to do, it just takes time to get that 
through, and we may be late or we may be pushing some work to 
the right that will drive up cost.
    I think there's ample opportunity on the part of committee 
staff and for members to exercise oversight. We send up the 
project data sheets. We come up and routinely brief staff and 
members on the work that we're doing there. We put out a 
strategic stockpile management plan every year, and we have 
these budgets, including the congressional justifications that 
go in there that tell you exactly what we're doing, almost in 
real time.
    Senator Fischer. Thank you, General.
    Senator Donnelly?
    Senator Donnelly. Thank you, Madam Chair.
    Admiral Caldwell, I understand the electric drive for the 
Ohio replacement is behind schedule, as we had talked about. 
Can you explain what happened and what's being done to get us 
squared away, and the impact it will have on your integration 
to the Ohio replacement submarine?
    Admiral Caldwell. Yes, sir. In February of this year, we 
discovered that we had a manufacturing error on a pre-
production motor. It's a prototypical motor. That prototypical 
motor is designed to go into a test facility with other pre-
production components to prove out the integration of those 
components, and then what we learn there will go into the final 
production motor that will go onto the first ship.
    What we discovered was that the prime contractor's vendor 
did not properly flow down some requirements for the motor, and 
as a result some portions of the motor were not properly 
insulated. The impact is that we will have to extend our test 
program. The subcontractor is going to make this right. They're 
going to tear down the motor and rebuild it with the proper 
insulation. They're also procuring a second pre-production 
motor that will give us two paths to get to our integrated 
testing.
    That all said, we built plenty of margin into the schedule 
because there's so much riding on getting electric drive 
correct. Even with this 9-month extension of our integrated 
testing, we will still meet the required in-yard date for the 
final production motor.
    Additionally, we've taken action to ensure that the design 
specifications are flowing to the prime and subcontractor and 
sub-tier vendor appropriately, and there's been an increase in 
oversight at all levels.
    I'd also like to make sure that I point out that the money 
to support this effort is on the DON [Department of Navy] side 
of my budget and not the DOE side of the budget.
    To reiterate, we are still able to meet our required in-
yard date for the final production motor.
    Senator Donnelly. Thank you.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator Donnelly.
    I would like to thank all the members of the panel for 
being here today. We always appreciate the information that you 
provide to us.
    If any members have any written questions for you, I would 
ask that you respond in a timely manner.
    With that, I will adjourn the subcommittee. We are 
adjourned.
    [Whereupon, at 4:13 p.m., the subcommittee was adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Deb Fischer
               deferred maintenance and excess facilities
    1. Senator Fischer. Secretary Klotz, with an increased emphasis and 
funding for deferred maintenance and disposition of excess facilities 
on NNSA sites, by what process will NNSA determine which projects are 
performed through existing Management & Operations contracts, and which 
projects will be transferred to the Office of Environmental Management?
    Secretary Klotz. Deferred maintenance reduction is paid for by the 
DOE Program (e.g., NNSA) that owns the facility. Record of facility 
ownership is documented in the DOE Facility Information Management 
System (FIMS). Similarly, the disposition of non-process contaminated 
facilities is funded by the DOE Program that owns the facility.
    However, the deactivation and decommissioning of process 
contaminated facilities is the responsibility of DOE's Office of 
Environmental Management (EM). Therefore, the determination of which 
excess facilities are addressed by the DOE/EM is based on whether or 
not the facility is process contaminated. This distinction of 
responsibilities for the disposition of process-contaminated facilities 
was reinforced in the reports accompanying fiscal year (FY) 2006 Energy 
and Water Development appropriations bills, which provided direction 
that environmental cleanup activities remain with DOE/EM. Additional 
information on this process can be found in the December 2016 report to 
Congress on the Plan for Deactivation and Decommissioning of 
Nonoperational Defense Nuclear Facilities. NNSA must have agreement and 
acceptance from EM before any process contaminated buildings can be 
transferred.
    The DOE/EM request includes $225 million for a targeted effort to 
accelerate deactivation and decommissioning (D&D) of specific high-risk 
facilities at the Y-12 National Security Complex and the Lawrence 
Livermore National Laboratory not currently in the EM programs' 
inventory to achieve substantial risk reduction within four years. This 
effort supports modernization of the nuclear security enterprise. Below 
is a list of the NNSA Y-12 and Lawrence Livermore facilities that are 
part of this effort in rough priority order by site.

    Y-12 National Security Complex
    <bullet>  Alpha-4 Building 9201-4 COLEX Process Equipment
    <bullet>  Beta-4 Classified Tool Storage Facility Building 9720-24
    <bullet>  Critical Experiment Facility Building 9213

    Lawrence Livermore National Laboratory
    <bullet>  Pool Type Reactor Building 280
    <bullet>  MARS E-Beam Facility Building 175
    <bullet>  Heavy Elements Facility Building 251
                               __________
              Questions Submitted by Senator Joe Donnelly
            implementation of augustine meis recommendations
    2. Senator Donnelly. Secretary Klotz, the National Academies of 
Science and Public Administration are reviewing the recommendations 
from the various governance studies that have taken place over the last 
four years to ensure not only are they implemented but they make a 
difference. Can you explain how you are ensuring these recommendation 
are not only implemented but revisiting them to make sure they are 
having the effect they were intended?
    Secretary Klotz. NNSA is working closely with the joint 
Implementation Assessment Panel from the National Academies of Sciences 
(NAS) and National Academy of Public Administration (NAPA) to track the 
progress and effectiveness of the steps it has taken to follow the 
recommendations made in the various governance studies. NNSA has 
adopted the DOE Office of Science model to develop more rigorous and 
dependable Contractor Assurance Systems (CAS) to improve its governance 
and oversight of field operations at its laboratories, sites, and 
plants. As a part of this new approach, NNSA will conduct its first 
site peer review in July.
    As recommended by NAS and NAPA in their 2017 report, Tracking and 
Assessing Governance and Management Reform, NNSA has defined an 
effective mission-focused operating model as the vision for 
implementing the changes. NNSA is currently working with its management 
and operating contractors to develop meaningful metrics to identify, 
measure, and track the effectiveness of those changes.
 replacement of the spent fuel handling facility at the idaho national 
                               laboratory
    3. Senator Donnelly. Admiral Caldwell, what is the status of the 
replacement for the spent fuel handling facility at the Idaho National 
Laboratory? When do you expect it to operational? How much will it 
cost?
    Admiral Caldwell. With the funding provided by Congress in fiscal 
year (FY) 2017, the Spent Fuel Handling Recapitalization Project is 
finalizing major facility design requirements and the facility's 
design. Additionally, in fiscal year 2017, Naval Reactors has commenced 
long lead material procurements for the Project and will begin site 
preparation activities at the Naval Reactors Facility on the Idaho 
National Laboratory. The first phase of construction will start as 
early as the fourth quarter of fiscal year 2018, pending approval of 
critical decision 3 and the results of the geotechnical engineering 
investigation of the basalt. This is consistent with the Project's 
schedule and will deliver the fully executed capability in fiscal year 
2025 at a total project cost of $1.65 billion.
                      waste isolation pilot plant
    4. Senator Donnelly. Ms. Cange, the Waste Isolation Pilot Plant is 
now starting to accept waste from DOE sites. What is the status of 
replacing the ventilation system from the accident and how much will it 
cost? When do you expect full operations of the site?
    Ms. Cange. The current ventilation system permits continued and 
increasing emplacement rates of waste. A new Safety Significant 
Confinement Ventilation system is necessary to increase emplacement 
rates and allow simultaneous mining activities. The new Safety 
Significant Confinement Ventilation System along with a new exhaust 
shaft are in the design phase with start of construction expected in 
fiscal year 2018 and operation expected in the 2021 timeframe, subject 
to the completion of the National Environmental Policy Act process. The 
preliminary cost range for the Safety Significant Confinement 
Ventilation System is estimated to be $189 to $280 million and the new 
exhaust shaft is estimated to be $81 to $118 million.
    Simultaneous mining and waste emplacement activities are expected 
to occur once the new ventilation system becomes operational in the 
2021 timeframe.
                   plutonium operations at los alamos
    5. Senator Donnelly. Mr. Trimble, you most recently reported on the 
status of the plutonium operations at Los Alamos National Laboratory. 
What are your observations of this effort relative to achieving pit 
manufacturing of 30, 60 and eventually 80 pts per year?
    Mr. Trimble. NNSA's Fiscal Year 2017 Stockpile Stewardship and 
Management Plan (SSMP) stated that the agency will increase its 
capability to produce new pits over time to support life extension 
programs: 10 pits per year in 2024, 30 pits per year in 2026, and 50 to 
80 pits per year by 2030. According to NNSA, the agency needs plutonium 
analysis equipment, and the space to house the equipment, to support 
its planned pit production rates. Providing this plutonium analysis 
capability is the goal of the ongoing Chemistry and Metallurgy Research 
Replacement (CMRR) project (construction project number 04-D-125). We 
reported in August 2016 that the CMRR project, as approved in 2014, may 
not provide enough analysis capacity to support a 10 pits-per-year pit 
production rate (GAO-16-585). To increase its plutonium analysis 
capacity, NNSA approved a restructuring of the CMRR project in November 
2015 that added a new subproject to upgrade the Radiological Laboratory 
Utility Office Building (RLUOB) from a radiological facility to a 
Hazard Category 3 nuclear facility. We reported that NNSA's contractor 
found that upgrading the RLUOB, if combined with other successful 
efforts, would likely support a 30 pits-per-year production rate, and 
possibly 80 pits per year under a best case scenario. Further, in 
response to one recommendation in GAO-16-585, NNSA stated that it would 
perform an analysis to estimate a pit production capacity range that 
the CMRR project will support, to be completed by September 30, 2017.
    Since August 2016, NNSA's estimated completion date for the CMRR 
project has slipped, raising some questions about the agency's ability 
to meet the pit production timeframes laid out in the 2017 SSMP. 
Specifically, NNSA stated in its fiscal year 2018 budget request that 
the agency has moved back its forecasted end date for the CMRR project 
by 2 years, from 2024 to 2026. The budget request also stated that the 
2026 end date is a preliminary estimate, in part, because the new 
subproject to upgrade the RLUOB is still in design, and NNSA estimated 
it will not approve that subproject's schedule baseline at critical 
decision (CD) 2 until 2022.
    According to NNSA, the other key component of meeting the agency's 
pit production goals is the Plutonium Modular Approach project, for 
which the agency approved the mission need (CD0) in November 2015. We 
also found in GAO-16-585 that it is unclear whether this project will 
help meet plutonium analysis needs--if CMRR cannot provide sufficient 
capacity to support 50 to 80 pits-per-year--because NNSA did not 
specify in its mission need documentation whether providing such 
analysis capacity is a requirement of that project. NNSA officials told 
us in June 2017 that the project's Analysis of Alternatives was 
ongoing, with completion later in 2017.
               low activity waste remediation at hanford
    6. Senator Donnelly. Ms. Cange, what are the Department's 
observations on the findings of the GAO relative to using grouting for 
the next 60 percent of the low activity waste at Hanford and what 
actions would the Department have to undertake with the State of 
Washington to determine if it is feasible to implement?
    Ms. Cange. As you know, in early May 2017, GAO issued the subject 
report following a 2-year review of Hanford's management of the lower 
activity portion of its tank waste. The report compared treatment and 
disposal methods used for other tank wastes at Savannah River Site, 
Idaho National Laboratory, and West Valley Demonstration Project. GAO 
made two recommendations in its report. DOE agreed with these 
recommendations:

    <bullet>  DOE should provide updated information on the 
effectiveness of alternate treatment and disposal methods, and
    <bullet>  DOE should have an independent entity evaluate 
alternative treatment and disposal options and life-cycle costs of 
those options.

    The Department is currently responding to these GAO recommendations 
through studies conducted as required by fiscal year (FY) 2017 National 
Defense Authorization Act (NDAA), Section 3134. The fiscal year 2017 
NDAA requires the Department to enter into an arrangement with a 
federally-funded research and development center (FFRDC) to conduct 
analysis of approaches for treating a portion of low activity waste at 
Hanford that is intended for supplemental treatment, and to 
specifically consider the use of grouting technologies, among other 
options. The NDAA also requires the National Academies of Science, 
Engineering and Medicine to conduct a concurrent review of the analysis 
conducted by the FFRDC. The required analysis is co-led by Savannah 
River National Laboratory and Pacific Northwest National Laboratory. A 
concurrent peer review is also underway by the National Academies of 
Sciences, Engineering and Medicine.
    The Department has in the past performed numerous studies related 
to alternative treatment technologies for Hanford's low activity tank 
waste, including studies of grout. These alternative treatment 
technologies are identified and their potential environmental impacts 
are analyzed in the Tank Closure and Waste Management Environmental 
Impact Statement for the Hanford Site, Richland Washington (DOE/EIS-
0391). The Department does not have a preferred alternative at this 
time regarding supplemental treatment for LAW and believes it 
beneficial to study further the potential cost, safety and 
environmental performance of wasteforms produced by supplemental 
treatment technologies. This year the Department funded laboratory-
scale research aimed at evaluating the feasibility of grouting low 
activity waste using actual tank waste as opposed to simulants which 
had been used in the past. The Department is also supporting laboratory 
scale research examining how glass loading could be increased to treat 
additional low activity waste in WTP during its operating lifetime. In 
addition, analysis of the capabilities of the onsite low level waste 
disposal facility to retain radionuclides, called a Performance 
Assessment, will assist the Department in assessing the potential of 
using these alternative treatment technologies.

    7. Senator Donnelly. Mr. Trimble, you recently released a report on 
grouting the next 60 percent of the low activity waste at Hanford that 
is not scheduled to be vitrified. Can you tell the committee how much 
money this would save? What actions would the Department of Energy have 
to do with the State of Washington to determine if this recommendation 
is feasible?
    Mr. Trimble. In May 2017, we reported on DOE's efforts to treat the 
low-activity portion of the tank waste at the Hanford Site. DOE 
currently plans to treat up to one-half of the low-activity waste (LAW) 
at Hanford with a process called vitrification, which immobilizes the 
waste in glass. However, at the Savannah River Site, DOE is grouting 
the site's LAW; grout is a process that immobilizes waste in a 
concrete-like mixture. We found that the best available information 
indicates that DOE's estimated costs to grout LAW at the Savannah River 
Site are substantially lower than its estimated costs to vitrify LAW at 
Hanford, and DOE may be able to save tens of billions of dollars by 
reconsidering its waste treatment approach for a portion of the LAW at 
Hanford.
    DOE should work with the state of Washington to ensure that any 
action it takes with respect to low-activity waste is carried out 
consistently with the Tri-Party Agreement and the state's Dangerous 
Waste Management Permit, including seeking such amendments as the 
parties may agree are necessary and consistent with law.
                     high explosives manufacturing
    8. Senator Donnelly. Mr. Trimble, the NNSA has a large effort in 
remanufacturing high explosives for the life extension programs. What 
issues do you think at this time are important from an oversight 
perspective?
    Mr. Trimble. NNSA's March 2016 Stockpile Stewardship and Management 
Plan (Plan) notes that high explosive (HE) production, storage, and 
research and development and test and evaluation are critical nuclear 
security enterprise capabilities. These activities are conducted at a 
number of NNSA sites. HE is an important part of the W88 alt 370 and 
the W80-4 life extension program (LEP). To support these efforts, NNSA 
recently constructed a new HE pressing facility at its Pantex Plant in 
Amarillo, Texas to supply War Reserve HE.
    We have not reviewed NNSA's HE operations in detail. However, 
Senate Report 115-125, accompanying S. 1519, the Senate version of the 
National Defense Authorization Act for Fiscal Year 2018, includes a 
provision for us to review NNSA's HE capability. More specifically, the 
report directs us to:

    (1)  identify all Department of Energy (DOE) and NNSA HE R&D and 
production capabilities specific to nuclear weapons, the justification 
for these sites, and what is known about the costs to maintain them;
    (2)  examine DOE's projected requirements for HE capabilities to 
support the stockpile and work for others;
    (3)  compare these requirements to current capabilities to identify 
any gaps or duplication in these capabilities; and
    (4)  assess how NNSA plans for its HE capability and the extent to 
which it manages this capability as a strategic material.

    The report directs us to provide congressional defense committees a 
briefing within 270 days of the enactment of the bill with a full 
report to follow. We anticipate starting this work in calendar year 
2017.
                                round 4
    9. Senator Donnelly. Secretary Klotz, the microelectronics facility 
at Sandia is due for replacement over the next ten years. It produces 
unique chips for nuclear weapons in radiation environments that are not 
duplicated anywhere else. What actions are you taking to start this 
process and what options are you looking at?
    Secretary Klotz. Currently we are conducting the Trusted 
Microsystems Capability (TMC) Analysis of Alternatives (AOA), which is 
scheduled to be completed in fiscal year (FY) 2017. This AOA evaluates 
the cost and effectiveness of different options for fabricating trusted 
radiation-hardened microelectronics for NNSA needs. In fiscal year 
2018, we will complete the conceptual design, preliminary hazard 
analysis, and integrated safety management plan as required for the 
selected alternative. NNSA will ensure sufficient overlap between the 
Sandia National Laboratories facility closure and implementation of the 
chosen alternative to guarantee that future production needs are met.

    10. Senator Donnelly. Admiral Caldwell, you are refueling the S8G 
reactor at the Knolls Atomic Power Laboratory with Ohio replacement 
fuel. What is the status of the refueling operation? How much will it 
cost and when will it be completed?
    Admiral Caldwell. The S8G Prototype Refueling Overhaul is set to 
begin execution in fiscal year (FY) 2018. This availability will refuel 
the reactor core, and complete needed maintenance and modernization of 
components and systems to support the next, approximately, 20 years of 
operation. Currently, Naval Reactors (NR) is completing construction of 
the Radiological Work and Storage Building, which will provide the 
radiological work and laydown space for the industrial subcontractor, 
and shipping refueling equipment from the shipyards to the Kesselring 
Site in upstate New York. The lead maintenance activity for the 
overhaul, Newport News Shipbuilding, has begun planning the work and 
identifying approximately 300 tradesmen required for execution. In 
parallel, NR is manufacturing the Technology Demonstration Core (TDC), 
which will use the alternate core materials necessary to support the 
life-of-ship reactor core for the Columbia-class submarine. 
Manufacturing and inserting the TDC core into the S8G Prototype will 
reduce the manufacturing risk for the Columbia-class and provide 
operational data that will inform the operating parameters for the 
Columbia-class ships. The refueling overhaul will be complete in fiscal 
year 2020 and the prototype will be available for research and 
development efforts as well as student training in fiscal year 2021. 
The total cost of the availability is $1.57 billion.

    11. Senator Donnelly. Ms. Cange, you grout low activity waste at 
the Savannah River Site. How do you store the grout and where will it 
be permanently disposed? How does thus differ from Hanford?
    Ms. Cange. The grout is disposed of on-site in above ground 
concrete storage vaults (Salt Waste Disposal Units).
    A March 12, 2016, court order and modification to an existing 
Consent Decree between DOE and the State of Washington sets a deadline 
of December 31, 2023 to complete hot commissioning of the Low Activity 
Waste (LAW) Facility and begin treating the waste. The vitrified low 
activity waste will be disposed of onsite in the low level waste 
Integrated Disposal Facility. Because the duration of processing this 
waste is expected to surpass the design life of the LAW Facility, a 
decision regarding a supplemental treatment capability is anticipated 
in the future. DOE has, in the past, looked at various options for the 
supplemental treatment capability (referred to as Supplemental LAW), 
including grout, and a study of this subject is currently underway as 
required by the fiscal year 2017 National Defense Authorization Act.

    12. Senator Donnelly. Mr. Trimble, lithium is an important 
component of the life extension programs for the warheads. You 
conducted an analysis of the lithium operations at the NNSA, what are 
you observations?
    Mr. Trimble. NNSA halted certain aspects of its lithium production 
operation--conducted at its Y-12 site--in May 2013 due to the condition 
of the site's 72-year old lithium production facility. In response to 
concerns that usable lithium could run out without additional actions, 
NNSA developed a strategy that proposed a new lithium production 
facility by 2025 and identified ``bridging'' actions needed to meet 
demand through 2025. In July 2015, we reported on the challenges and 
limitations in NNSA's lithium production strategy (GAO-15-525). 
Notably, we reported that:

    (1)  NNSA may not have a sufficient supply of lithium material for 
defense program requirements. According to NNSA officials, increases in 
demand will exhaust the supply of currently qualified lithium--lithium 
approved for use in weapon systems in refurbishment--by 2018 without 
additional actions.
    (2)  The existing lithium production facility and equipment at 
NNSA's Y-12 National Security Complex in Tennessee are at risk of 
catastrophic failure. In March 2014, for example, a 300-pound slab of 
concrete fell from the ceiling into an active work area.
    (3)  Key elements of NNSA's lithium production strategy are based 
on the assumption that the Lithium Production Capability facility will 
be designed and constructed from 2016 to 2023 and ready for use by 
2025. However, fiscal constraints could cause delays in the 
construction of a new lithium production facility.

    NNSA identified various actions it could take to mitigate these 
challenges--including procuring lithium from outside sources , 
outsourcing certain aspects of the lithium production process, and 
accelerating the design and construction of the Lithium Production 
Capability facility--but these actions were in early stages of 
development.
    Since our July 2015 report, the timeframes for the design and 
construction of the new facility appear to have slipped--making it 
unlikely that accelerated timeframes could be used to mitigate the 
challenges identified in 2015. We reported in July 2015 that NNSA's 
lithium strategy was premised on facility design beginning in 2016 but 
NNSA's fiscal year 2017 budget request indicated that NNSA would 
request funds in fiscal year 2019 to start new lithium production 
facility design activities. In addition, according to NNSA's fiscal 
year 2017 Stockpile Stewardship and Management Plan (SSMP), new lithium 
production capability was planned to be in place around 2028; not 2025 
as previously planned. NNSA's fiscal year 2018 budget does not request 
funding for construction of the lithium production facility; however, 
it identified a total of approximately $161 million in construction 
funds to be requested over the fiscal year 2019 to 2022 time period, 
and approximately $552 million in total funding needs for the project 
in the outyears beyond fiscal year 2022. Until new lithium production 
capability is in place, according to NNSA's fiscal year 2017 SSMP, the 
agency will continue with its ``bridging'' strategy to ensure safe 
operations in the current lithium production facility and sustain 
capabilities and material supplies at Y-12.
                          additional questions
    13. Senator Donnelly. Secretary Klotz, what is the status of the 
cruise missile W80-4 life extension program and are there any issues we 
should be concerned with?
    Secretary Klotz. The W80-4 life extension program is on-track and 
progressing as expected. The program is currently in the Feasibility 
Study and Design Options Phase (6.2) of nuclear weapons refurbishment 
activities (defined as the Phase 6.X acquisition process), formally 
authorized by the Nuclear Weapons Council in July 2015. We anticipate 
Phase 6.2 will conclude in fiscal year 2017, with immediate entry into 
the Design Definition and Cost Study Phase (6.2A) as planned in fiscal 
year 2018.
    A focus area for NNSA is to ensure alignment with the Air Force's 
development activities and schedules for the Long Range Standoff (LRSO) 
cruise missile as they execute their respective Design Development 
efforts. After the Air Force awards the LRSO contracts for Technical 
Maturation and Risk Reduction (TMRR), scheduled for later this year, 
NNSA will begin a joint process to align program schedules through a 
series of Technical Interchange Meetings with the Air Force Program 
Office and the two missile contractors. The goal of this effort will be 
to align NNSA design development efforts in Development Engineering, 
Phase 6.3, with the contractor missile design during the Department of 
Defense's TMRR phase such that the program has gained sufficient 
confidence through joint testing to commence Production Engineering, 
Phase 6.4.

    14. Senator Donnelly. Secretary Klotz, what is the status of the 
W88 life extension program and the replacement of the high explosives?
    Secretary Klotz. The W88 Alteration (Alt) 370 remains on schedule, 
with a first production unit (FPU) scheduled for December 2019. The 
program accelerated activities for the Conventional High Explosive 
(CHE) refresh to align with the original Alt 370 scope. Full alignment 
was achieved when the program received authorization to transition into 
Phase 6.4 Production Engineering in February 2017. This authorization 
came after the completion of the Development-Engineering Phase, the 
combined System Baseline Design Review (March 2016), the Department of 
Defense design review (September 2016), and the System Pre-production 
Engineering Gate (January 2017). The CHE refresh scope will not delay 
the W88 Alt 370 FPU.
                    the nuclear security enterprise
    15. Senator Donnelly. Secretary Klotz, NNSA's SSMPs from fiscal 
year 2014 through fiscal year 2017 have shown sharp increases beyond 
the agency's out-year budget estimates (its Future-Year National 
Security Program budget or FYNSP). For example, the W80-4 program's 
low-range cost estimate for fiscal year 2017 exceeds the budget 
estimate by about $26.9 million. Budget estimates for some 
modernization programs for fiscal years 2018 through 2021 are more than 
$5 billion below the funding levels NNSA has identified needing. If 
funding needs are not met, will NNSA have to defer some modernization 
work? How would this affect the agency's overall modernization 
schedule? What actions is NNSA taking to mitigate the impact of 
schedule delays?
    Secretary Klotz. NNSA's Future Years Nuclear Security Program 
annual programming process allocates available resources based on 
funding priorities while maintaining a careful balance between near-
term and long-term needs of the stockpile and the nuclear security 
enterprise supporting the stockpile. Should resource constraints 
prevent appropriation of the Administration's full funding request, 
NNSA will analyze the short and long-term needs and assume risk in 
programs where possible, using techniques and strategies to mitigate 
these risks. While this could involve deferring planned modernization 
activities or shifts to planned program schedules, these decisions are 
carefully coordinated to ensure national security needs continue to be 
met. One example of actions to mitigate impacts include the conduct of 
detailed Analysis of Alternatives in order to explore the feasibility 
of alternative investment strategies that can meet enterprise needs 
while conserving valuable resources.

    16. Senator Donnelly. Secretary Klotz, over the last several years, 
NNSA has appointed strategic material managers to oversee the 
capabilities to continue to produce such materials. Many studies of the 
nuclear security enterprise have found that overlapping and poorly 
defined functions and authorities have fostered inefficient procedures 
and cultures within DOE and NNSA. What impact have the strategic 
material managers NNSA appointed to oversee sustainment of the 
capabilities needed for these materials had on the sustainment efforts? 
NNSA had planned to appoint a lithium manager; has one been appointed?
    Secretary Klotz. NNSA established strategic material managers in 
2014 to integrate, oversee, plan, and execute material strategies. Each 
strategic material manager is the executive accountable to the NNSA 
Administrator for ensuring the mission-related capabilities and 
capacities are available to customers. The strategic material managers 
provide written biweekly reports and quarterly briefings directly to 
the Administrator and other senior leaders. NNSA clearly defines the 
roles and responsibilities for these managers and establishes their 
authorities in the new NNSA Business Operating Procedure (BOP) 06.07, 
issued in January 2017. The strategic material managers have been 
successful in developing and managing their overall mission strategy, 
mission requirements, and technology development activities.
    Strategic material managers have been designated for uranium, 
plutonium, tritium, and domestic uranium enrichment capabilities. NNSA 
is determining how best to establish additional strategic material 
managers for lithium and possibly other materials.

    17. Senator Donnelly. Secretary Klotz, in 2014, NNSA established 
the Office of Cost Estimating and Program Evaluation (CEPE) to provide 
the Administrator with independent, data driven analysis. CEPE can best 
support NNSA program and project management when cost data is freely 
shared throughout the nuclear security enterprise and with the related 
offices within the Defense Department. However, there have been 
instances of program offices refusing to share data with properly 
cleared counterparts in other offices. What is your position on data 
sharing among program offices? How can NNSA move toward greater data 
sharing to help program offices better analyze information and 
negotiate contracts?
    Secretary Klotz. NNSA uses and shares data across the nuclear 
security enterprise (NSE) as a critical element to continue to improve 
program management and performance for Planning, Programming, the 
Budgeting and Evaluation process, Independent Cost Estimates, Analysis 
of Alternatives, and various analyses to support mission needs.
    NNSA, as part of a disciplined and integrated processes, continues 
to institutionalize program and project management. Data driven program 
and project management analyses and decisions are critical to NNSA's 
efforts to further improve quality management and performance.
    NNSA is also continuing efforts to work with the management and 
operating (M&O) contractors to improve and integrate cost and indirect 
structures with program and project management tools. NNSA has made 
progress on data visibility and consistency in the development of a 
common financial reporting system to improve and integrate financial 
management and cost visibility across the NSE. These collaborative 
efforts between NNSA and its M&Os build on the foundation of data 
sharing for defined requirements in accomplishing mission and mission 
support work.
    There are two examples of NNSA's Office of Cost Estimating and 
Program Evaluation's use of programmatic data for analysis include the 
following Reports to Congress.

    1.  Report to Congress, ``Cost Estimating and Program Evaluation 
Activities and Major Atomic Energy Defense Acquisition Program 
Status,'' (May 1, 2015).
    2.  Report to Congress, ``Cost Estimating and Program Evaluation 
Fiscal Year 2015,'' (November 14, 2016).

                        nuclear nonproliferation
    18. Senator Donnelly. Secretary Klotz, in September 2015, GAO 
reported that GTRI (now part of M3) spent $5 million in reactor 
conversion activities worldwide, out of the $559.5 million in funding 
from fiscal years 2009 through 2013 to support international conversion 
activities. Progress on such activities has stalled since 2013. How has 
M3 used funding appropriated for conversion activities since 2005?
    Secretary Klotz. M3 has used all the $559.5 million appropriated 
for conversion activities between fiscal years (FY) 2009 and 2013 to 
convert domestic and international research reactors and isotope 
production processes from Highly Enriched Uranium (HEU) to Low Enriched 
Uranium (LEU) fuel and targets, and to accelerate the establishment of 
a domestic, commercial supply of the critical medical radioisotope 
molybdenum-99. The $5 million figure cited by the Government 
Accountability Office (GAO) refers only to funds that were appropriated 
and costed between fiscal year 2009 and 2013 on foreign research 
reactors that were converted. Due to the long timeframes (5 to 10 
years) in reactor conversion projects, most of the funds to support the 
25 conversions during fiscal year 2009 and 2013 were appropriated prior 
to 2009 and, therefore, not reported to the GAO. Since fiscal year 
2013, NNSA's Office of Material Management and Minimization has 
converted or verified the shutdown of 15 HEU research reactors and 
isotope production facilities, with much of the funding coming from 
appropriations received during the fiscal year 2009 to fiscal year 2013 
that were also not reflected in the GAO report.

    19. Senator Donnelly. Secretary Klotz, what is NNSA's strategy for 
engaging ``hard case'' countries with vulnerable or poorly secured 
nuclear materials, and what is the evidence or what are the prospects 
that these efforts are having or may result in significant nuclear 
security improvements in those countries?
    Secretary Klotz. Where possible, NNSA engages bilaterally with 
countries with vulnerable nuclear materials to discuss best practices 
and provide technical guidance on securing these materials. For 
countries where bilateral interactions are not possible, NNSA works 
through multilateral organizations, such as the International Atomic 
Energy Agency (IAEA) to encourage these ``hard cases'' to meet their 
obligations to secure their material in accordance with IAEA 
recommendations which have increased standards in recent years. Over 
the past two decades working with its international partners, NNSA has 
eliminated more than 6,200 kilograms of nuclear material, including all 
highly enriched uranium from 31 countries and Taiwan; provided upgrades 
to 221 buildings with weapons-usable nuclear material in the Former 
Soviet Union; equipped more than 600 sites around the world with 
radiation detection systems to combat nuclear and radiological 
terrorism, and; recapitalized the IAEA's ability to safeguard nuclear 
material around the world. Because of the importance of securing 
nuclear materials, NNSA will remain flexible and adjust its approach to 
ensure that nuclear materials that could be used for a nuclear weapon 
do not fall into the hands of terrorists.
                       whistleblower protections
    20. Senator Donnelly. Secretary Klotz and Ms. Cange, in 2016, GAO 
reported on DOE's insufficient whistleblower protections. DOE has taken 
limited or no action to hold contactors accountable for creating a 
chilled work environment. DOE officials provided GAO with examples 
where (1) little or nothing was done in response to intimidation of 
contractor employees who report safety and other concerns; (2) a 
subcontractor was terminated after reporting safety concerns; and (3) a 
contractor employee was terminated allegedly because she cooperated 
with GAO. What actions has DOE taken to improve whistleblower 
protections and hold contractors accountable for intimidating and 
retaliating against whistleblowers?
    Secretary Klotz. The Department is strongly committed to a 
workplace where all workers are free to raise concerns without fear of 
retaliation. In particular, contractors are statutorily and 
contractually bound not to retaliate against employees for protected 
whistleblower conduct. DOE takes concerns of retaliation very 
seriously. To further the commitment to whistleblower protection, the 
Department recently issued a final rule, which became effective in 
March 2017, clarifying that the Department may issue civil penalties 
against certain contractors and subcontractors for instances of 
whistleblower retaliation that concern nuclear safety. Among other 
things, the Department requires its contractors to inform contractor 
employees of their right to file a formal complaint pursuant to 
applicable regulations. The Department has also:

    <bullet>  Increased the awareness of a healthy safety culture, to 
include training more than 2,000 Federal and contractor managers in 
leadership for a safety conscious work environment.
    <bullet>  Promptly investigates claims of retaliation as well as 
the allegations that may have prompted the complaint of retaliation;
    <bullet>  Communicates/reinforces expectations of establishing and 
maintaining a positive safety culture and Safety Conscious Work 
Environment (SCWE), and the need to foster an environment of trust, a 
questioning attitude and receptiveness to raising issues.
    <bullet>  Periodically evaluates using standard industry survey 
instruments the organizational climate at its sites.

    A number of venues and processes have been established for 
contractor and subcontractor employees to raise concerns or escalate 
issues if they perceive a lack of concern or action from their own 
management or by DOE responsible officials. Furthermore, several 
mechanisms exist for contractor and subcontractor employees to pursue 
claims that they have been retaliated against for raising concerns 
before, depending on the circumstances, the Department, the 
Department's Office of the Inspector General, or the Department of 
Labor.
    Ms. Cange. The Department is strongly committed to a workplace 
where all workers are free to raise concerns without fear of 
retaliation. In particular, contractors are statutorily and 
contractually bound not to retaliate against employees for protected 
whistleblower conduct. DOE takes concerns of retaliation very 
seriously. To further the commitment to whistleblower protection, the 
Department recently issued a final rule, which became effective in 
March 2017, clarifying that the Department may issue civil penalties 
against certain contractors and subcontractors for instances of 
whistleblower retaliation that concern nuclear safety. Among other 
things, the Department requires its contractors to inform contractor 
employees of their right to file a formal complaint pursuant to 
applicable regulations. The Department has also:

    <bullet>  Increased the awareness of a healthy safety culture, to 
include training more than 2,000 Federal and contractor managers in 
leadership for a safety conscious work environment.
    <bullet>  Promptly investigates claims of retaliation as well as 
the allegations that may have prompted the complaint of retaliation;
    <bullet>  Communicates/reinforces expectations of establishing and 
maintaining a positive safety culture and Safety Conscious Work 
Environment (SCWE), and the need to foster an environment of trust, a 
questioning attitude and receptiveness to raising issues.
    <bullet>  Periodically evaluates using standard industry survey 
instruments the organizational climate at its sites.

    A number of venues and processes have been established for 
contractor and subcontractor employees to raise concerns or escalate 
issues if they perceive a lack of concern or action from their own 
management or by DOE responsible officials. Furthermore, several 
mechanisms exist for contractor and subcontractor employees to pursue 
claims that they have been retaliated against for raising concerns 
before, depending on the circumstances, the Department, the 
Department's Office of the Inspector General, or the Department of 
Labor.
                        environmental management
    21. Senator Donnelly. Ms. Cange, in the 2016 NDAA, Congress 
required DOE to obtain an owner's agent to assist in overseeing the WTP 
contractor. What is the status of DOE's acquisition of an owner's agent 
for oversight of the WTP contractor?
    Ms. Cange. On September 30, 2015, the Department selected Parsons 
Government Services, Inc. as the Owner's Representative.

    22. Senator Donnelly. Ms. Cange, how does EM plan to handle the 
remaining waste drums not yet disposed of at WIPP that share contents 
similar to the one that caused the contamination at WIPP?
    Ms. Cange. These drums are located at the Los Alamos National 
Laboratory and the Waste Control Specialists' facility in Texas. At Los 
Alamos, treatment recently began on the drums containing a mix of 
nitrate salts and organic stabilizer like the one that ruptured at 
WIPP. Treatment on the drums is expected to be finished in fiscal year 
2017. For the drums stored at the Waste Control Specialists, LLC, 
facility, we are conducting a feasibility study to identify the best 
options to treat and eventually dispose of those drums at WIPP.

    23. Senator Donnelly. Ms. Cange, the investigations that followed 
the February 2014 fire and radiological release accidents at WIPP 
reported 122 judgements of need to DOE to address deficiencies in 
safety practices that contributed to the accidents. To what extent have 
DOE and its WIPP management and operations contractor completed 
corrective actions to address the judgments and evaluated the 
effectiveness of those actions?
    Ms. Cange. The Accident Investigation Board Reports on the fire and 
radiological release events at WIPP in 2014 resulted in 122 judgments 
of needs that prompted corrective actions by DOE, the M&O contractor, 
Nuclear Waste Partnership, LLC (NWP), and Los Alamos National 
Laboratory (LANL). The Carlsbad Field Office and the NWP were assigned 
241 corrective actions. Of these, 234 actions were completed prior to 
re-starting waste emplacement activities at WIPP. The remaining 7 
actions were to be completed after re-start. These actions included 
additional training and qualifications for staff, and the performance 
of effectiveness reviews. The estimated completion date for these 
remaining corrective actions is the end of 2017.

    24. Senator Donnelly. Ms. Cange, DOE is exploring construction of 
an above-ground storage facility for temporary onsite storage of 
transuranic waste at WIPP. To what extent has DOE discussed the above-
ground storage concept with the New Mexico environmental regulators 
responsible for permitting the storage facility? To what extent has DOE 
identified the cost and schedule estimates for completing the storage 
facility?
    Ms. Cange. In September 2016, a permit modification request was 
submitted to the New Mexico Environment Department for an above-ground 
storage facility for temporary on-site storage of transuranic waste at 
WIPP. The facility will be a concrete storage pad with capacity to 
store 408 containers (136 shipments) of contact-handled transuranic 
waste. DOE and the WIPP Management and Operations Contractor, Nuclear 
Waste Partnership, LLC held two public meetings in Santa Fe and 
Carlsbad on October 25 and October 27, 2016, respectively to discuss 
this temporary storage facility. Construction of the storage pad is 
estimated to cost less than $10 million and to be operational in the 
2019 timeframe, subject to the completion of the National Environmental 
Policy Act process.

    25. Senator Donnelly. Ms. Cange, has DOE sought to reclaim damages 
from the contractors for their actions that contributed to the 
accidents at WIPP? What is DOE's estimate of the costs of these 
accidents? What is the total fee that has been withheld and fines 
imposed on the contractors as a result of the accidents?
    Ms. Cange. The Department estimates the cost for recovery and 
resumption of waste emplacement operations at WIPP at approximately 
$246 million. This included activities such as facility program 
enhancements, revision of the Documented Safety Analysis, underground 
habitability and operations, facility upgrades, etc. This does not 
include activities funded in the base program, e.g., environmental 
compliance, Resource Conservation and Recovery Act activities, 
administrative programs, or the capital asset project line items (e.g., 
cost of new ventilation systems). The estimated WIPP recovery cost of 
$246 million does not cover the cost for WIPP-related provisions in the 
Settlement Agreement reached with the New Mexico Environment Department 
in 2016.
    The Department held the WIPP and Los Alamos National Laboratory 
(LANL) contractors accountable for actions that contributed to the fire 
and the radiological events at WIPP by issuing violations against each 
contractor for deficiencies in their programs and by withholding fee. 
For fiscal year 2014, of a possible award fee of $63.4 million, Los 
Alamos National Security, LLC (LANS) received $6.2 million. The 
Department also initiated steps to separate LANL's programmatic mission 
from the legacy cleanup effort by establishing a dedicated EM LANL 
field office, and by initiating a procurement for a new LANL cleanup 
contract.
    EM also held Nuclear Waste Partnership (NWP) accountable for 
performance under its contract for WIPP by significantly reducing the 
total fee available to the company in accordance with the contract. NWP 
collected less than approximately 7 percent of the available $8.2 
million in fee in fiscal year 2014. In addition to significantly 
reducing available fee, DOE issued an interim Contractor Performance 
Assessment Report to ensure that the lapses in contractor performance 
related to the fire and release incidents were made part of the 
contractor's permanent performance record in the federal past 
performance rating system. EM also required NWP to provide and 
implement a corrective action plan to improve oversight, bolster the 
safety culture, upgrade equipment and adjust operations to address 
factors that contributed to the accidents. In addition, EM redefined 
NWP's performance objectives to include safety as a primary performance 
goal. With the significant changes to the Design Safety Analysis and 
Technical Safety Requirements combined with additional ventilation and 
nuclear safety requirements for the underground, DOE determined that 
the fiscal year 15 and 16 work scope for WIPP was to recover and reopen 
the facility. Fee bearing work was identified within this work scope 
and developed on an annual basis in accordance with the contract.
                               __________
             Questions Submitted by Senator Martin Heinrich
                         microlab pilot program
    26. Senator Heinrich. Secretary Klotz, section 3120 of the NDAA for 
fiscal year 2016 established a microlab pilot program to help stimulate 
open collaboration for universities and businesses with the NNSA labs 
and the commercialization of lab-developed technologies. Sandia 
National Laboratories has proposed a new Center for Collaboration and 
Commercialization (C3), with Phase I to be located in downtown 
Albuquerque. Is NNSA supportive of the C3 and what is the current 
status and timeline for the project?
    Secretary Klotz. NNSA is supportive of this effort. Phase I of the 
Preliminary Real Estate Plan (PREP) for the Center for Collaboration 
and Commercialization Node in downtown Albuquerque was approved by DOE/
NNSA, through the Sandia Field Office, on June 5, 2017. A Request for 
Quotations will be submitted with the intention of moving into a leased 
space (of approximately 1000 square feet) by the end of the year. The 
plan for Phase II, pending approval and Congressional funding, is to 
lease approximately 20,000 square feet near the Sandia Science and 
Technology Park sometime between fiscal year 2018 and 2019.
                                  ldrd
    27. Senator Heinrich. Secretary Klotz, section 3119 of the fiscal 
year 2017 NDAA established a pilot program to eliminate overhead costs 
on spending for Laboratory Directed Research and Development at the 
NNSA labs. Will the pilot program be implemented at the start of fiscal 
year 2018 as required?
    Secretary Klotz. Yes, the NNSA laboratories will implement the 
pilot program to remove general and administrative (G&A) costs from the 
Laboratory Directed Research and Development (LDRD) program at the 
start of fiscal year 2018. NNSA continues to meet with NNSA laboratory 
Chief Financial Officers to discuss pilot program implementation prior 
to issuing annual forward pricing guidance in June 2017, along with 
working with respective LDRD leads through the NNSA LDRD Working Group.
             albuquerque complex on kirtland air force base
    28. Senator Heinrich. Secretary Klotz, I appreciate your joining me 
last year to tour the 1950s-era office buildings housing about 1,100 
federal employees at the Albuquerque Complex on Kirtland Air Force 
Base. The building doesn't meet basic safety requirements and will be 
replaced with a new facility on Eubank Boulevard designed to LEED Gold 
standard. I'm pleased to see the budget request for the project is $98 
million for fiscal year 2018. What is the current status of the project 
and when do you expect construction to begin?
    Secretary Klotz. NNSA is committed to transforming the Cold War 
nuclear weapons complex into a 21st Century enterprise. One key 
component of NNSA's enterprise is the Albuquerque Complex, which has 
become too old, too costly, and is in an entirely unsatisfactory state 
for NNSA's highly skilled workforce.
    The Albuquerque Complex Project will replace the existing complex 
with a single new building that meets sustainable building 
requirements. The modern facility will house the workforce who support 
a broad range of NNSA programmatic capabilities necessary for both 
current and future NNSA missions. This new building will provide 
modern, safe, and reliable infrastructure that improves the safety and 
working environment for approximately 1,200 site employees. The project 
will be executed via a firm-fixed-price contract with USACE. It will be 
structured as two sub-projects: one for construction of the new 
facility and one for D&D of the old Albuquerque Complex.
    In August 2015, NNSA completed an Analysis of Alternatives (AOA), 
and the Alternative Selection and Cost range (CD-1) was approved in 
February 2016. The DOE Office of Project Management and Oversight 
Assessment performed an Independent Cost Estimate (ICE) in September 
fiscal year 2016 resulting in a total project cost (TPC) range of $199 
million to $247 million. The project reached 60 percent design maturity 
in May 2017 and is currently on track to request combined approval of 
the Performance Baseline and Start of Construction (CD-2/3) in the 
second quarter of fiscal year (FY) 2018. Construction is projected to 
be completed in the first quarter of fiscal year 2022.
                               __________
            Questions Submitted by Senator Elizabeth Warren
        sustaining nuclear security infrastructure within russia
    29. Senator Warren. Secretary Klotz, since the 1990s, the United 
States has spent billions of dollars to build nuclear infrastructure on 
Russian territory--for things like training centers, sensors, nuclear 
safeguards, and other technology. Now that Russia is unwilling to 
cooperate on many bilateral proliferation activities, how is NNSA 
verifying that Russia is maintaining this infrastructure? Does NNSA 
have a strategy to ensure that this investment is not wasted?
    Secretary Klotz. NNSA's security upgrades and assistance to secure 
Russia's nuclear infrastructure were provided under the Cooperative 
Threat Reduction umbrella agreement which allowed assurance visits for 
three years after the completion of the upgrades. The assurance period 
for a great deal of the assistance expired even before the Russian 
decision to discontinue the joint work. However, NNSA's cooperation 
with Russia always included a strong sustainability component that 
focused on ensuring that the Russians had the technical capability and 
financial resources to maintain the upgraded nuclear security 
infrastructure. Despite this effort, NNSA remains concerned over the 
long-term sustainability of NNSA's investments. Now that NNSA no longer 
has direct access to Russian facilities to verify the status of NNSA-
provided upgrades, NNSA is attempting to remain engaged with Russian 
counterparts wherever possible through mutually-beneficial and cost-
shared technical exchanges at bilateral and multilateral fora.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        WEDNESDAY, JUNE 7, 2017

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

         NUCLEAR ACQUISITION PROGRAMS AND THE NUCLEAR DOCTRINE

    The subcommittee met, pursuant to notice, at 2:32 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Deb 
Fischer (chairman of the subcommittee) presiding.
    Present: Senators Fischer, Cotton, Sullivan, Sasse, 
Donnelly, Heinrich, Warren, and Peters.

            OPENING STATEMENT OF SENATOR DEB FISCHER

    Senator Fischer. Good afternoon. The hearing will come to 
order. The subcommittee meets today to receive testimony on 
nuclear doctrine, strategy, and acquisition programs of the 
Department of Defense. This will be our final hearing in this 
subcommittee before the full committee conducts its markup of 
the fiscal year 2018 National Defense Authorization Act later 
this month.
    I would like to express my thanks to Senator Donnelly and 
to the staff for the hard work that they have done. This has 
been a bipartisan effort based on the firm commitment both 
sides share in sustaining and modernizing our nuclear forces. 
On this committee, there is a strong bipartisan support for 
nuclear modernization based on the obvious wisdom of not 
letting our systems age to the point of unilateral disarmament.
    As President Obama stated in his 2009 speech in Prague: 
Make no mistake, as long as nuclear weapons exist, the United 
States will maintain a safe, secure, and effective arsenal to 
deter any adversary, and guarantee that defense to our allies.
    I believe most of the members of this body agree with that 
statement, and understand that maintaining a capability, 
particularly one that has been allowed to age the way our 
nuclear deterrent has, does require modernization. In that 
regard, I am pleased to see the Department's request for the 
upcoming fiscal year make the necessary investments in our 
nuclear forces.
    We look forward to hearing from our witnesses in greater 
detail about the fiscal year 2018 budget request and where this 
budget does accept risk. The Department has also recently begun 
a new Nuclear Posture Review, which I hope will take into 
account all the changes in the security environment and plan 
for the future of our nuclear forces accordingly.
    Dr. Soofer, I am sure that we will hear from you on this 
subject.
    I thank the witnesses in advance for their testimony today 
and for their work on this important mission. There is nothing 
more important than maintaining the security, reliability, and 
effectiveness of our nuclear weapons.
    With that, I recognize the ranking member, Senator 
Donnelly, for any opening remarks that he would like to make.
    Senator Donnelly?

               STATEMENT OF SENATOR JOE DONNELLY

    Senator Donnelly. Thank you, Madam Chair. I want to thank 
our witnesses for testifying today. It is good to see so many 
familiar faces.
    I want to start by pushing back on a quote from a former 
Obama administration official that ran yesterday in a New York 
Times article. This individual called into question a 
bipartisan consensus we built on nuclear modernization over the 
past several years. From where I sit, that cannot be more 
wrong. We built a great partnership on this committee, and I am 
confident it will continue going forward.
    Mr. Soofer, you have years of experience serving this 
committee in working with members on both sides of the aisle on 
these critical issues. I hope you agree with my assessment on 
the strength of our working relationship. Welcome back. I look 
forward to your testimony, and I am glad the Department is 
putting your talents to good use on the upcoming Nuclear 
Posture Review.
    General Rand and Admiral Benedict, thank you for your 
service and leadership. You are both well-known to this 
subcommittee, and we hold your capabilities and professionalism 
in the highest regard.
    Mr. MacStravic, I am looking forward to a productive 
relationship with your office. I want to be sure that, as you 
reorganize the DOD [Department of Defense] Acquisition 
Organization, that the Assistant Secretary for Nuclear, 
Chemical, and Biological Defense Programs is kept intact. This 
office is critical to maintaining effective oversight of our 
weapons programs, especially as we confront the nuclear 
modernization bow wave.
    As we face an increasingly complex global nuclear 
environment, I think Secretary Carter was absolutely right when 
he called our nuclear deterrent the bedrock of our national 
defense. I look forward to today's hearing as an opportunity to 
hear about the successes and the challenges faced by the 
Department and how we can best support your efforts, strengthen 
our deterrent, and protect our beloved country.
    Thank you again.
    Senator Fischer. Thank you, Senator Donnelly.
    With that, I would open the hearing for the opening 
statements from our panel, and would remind each of you that 
your full statements will be included in the record.
    General Rand, if you would begin, please?

  STATEMENT OF GENERAL ROBIN RAND, USAF, COMMANDER, AIR FORCE 
                     GLOBAL STRIKE COMMAND

    General Rand. Chairman Fischer, Ranking Member Donnelly, 
and distinguished members of the subcommittee, thank you very 
much for allowing me to appear before you today to represent 
the men and women of Air Force Global Strike Command. I 
testified several times before this subcommittee, and I am 
looking forward to speaking about the progress and the changes 
that have taken place in Air Force Global Strike since our last 
meeting.
    My priorities for the command remain the same. They are 
mission, airmen, and families. We exist to serve the Nation by 
providing strategic deterrence and global strike in a world 
that is continually changing and challenging the status quo.
    Modernization of the nuclear force is mandatory. Fiscal 
constraints, while posing planning challenges, do not alter the 
national security landscape or the intent of competitors and 
adversaries, nor do they diminish the enduring value of long-
range strategic forces to our Nation. If we are to maintain or, 
in some instances, regain the strategic lead we have on our 
potential adversaries, we cannot delay this modernization.
    Madam Chairman and subcommittee members, I want to thank 
you for your dedication to our great Nation and the opportunity 
to appear before you to highlight the need for modernization in 
efforts across Air Force Global Strike Command. I look forward 
to your questions.
    [The prepared statement of General Rand follows:]

                Prepared Statement by General Robin Rand
                              introduction
    Chairman Fischer, Ranking Member Donnelly, and distinguished 
Members of the Committee, thank you for allowing me to come before the 
committee and represent the over 34,000 Air Force Global Strike Command 
(AFGSC) Total Force Airmen. It is an honor to be here today, and I look 
forward to updating you on what the command has accomplished and where 
we are going.
                air force global strike command mission
    As you know, the command focuses on the stewardship and operation 
of two legs of our nation's nuclear Triad and the Air Force's nuclear 
command, control, and communications capabilities while simultaneously 
accomplishing the conventional global strike mission. As long as 
nuclear weapons exist, the United States must deter attacks and 
maintain strategic stability, and at AFGSC, we're especially focused on 
today's evolving world and tomorrow's emerging threats.
    The command's top priority is to ensure our nuclear arsenal is 
safe, secure, effective and lethal. This priority underlies every 
nuclear-related activity in AFGSC, and we must never fail in the 
special trust and confidence the American people have bestowed on our 
nuclear warriors. To that end, our nation's leaders must continue to 
support and advocate for the sustainment and modernization of these 
weapon systems.
    Our bomber and Intercontinental Ballistic Missile (ICBM) forces, 
and our nuclear command, control, and communications systems defend our 
national interests, assure our allies and partners, and deter potential 
adversaries; should deterrence fail, we stand ready to defeat our 
adversaries through the persistent application of combat power.
                 air force global strike command forces
Intercontinental Ballistic Missile Forces
    Twentieth Air Force (20 AF), one of two Numbered Air Forces in 
AFGSC, is responsible for the Minuteman III (MMIII) ICBM, UH-1N 
helicopter forces, and the Kirtland Underground Munitions Maintenance 
and Storage Complex at Kirtland Air Force Base, New Mexico. The 450 
dispersed and hardened launch facilities (LFs), controlled and 
maintained by AFGSC Airmen every single day, preserve strategic 
stability by providing the Nation a credible, responsive deterrent, 
which presents adversaries a nearly insurmountable obstacle of numbers 
should they consider a disarming attack on the United States.
  Minuteman III
    We continue to sustain and modernize the Minuteman III ICBM and its 
command, control, and communications systems and support equipment. We 
continue moving forward on the $62 million FYDP Transporter Erector 
(TE) Replacement Program (TERP) and the $76 million FYDP Payload 
Transporter (PT) Replacement (PTR) to modernize our existing fleet of 
large missile maintenance vehicles. We currently expect TERP and PTR to 
begin production in fiscal year 2018.
    We are also equipping ICBM launch control centers (LCC) with 
modernized communications systems that will improve and replace aging 
and obsolete systems. The LCC Block Upgrade, expected to begin full 
deployment in 2019, is a $70 million modification effort that replaces 
multiple LCC components to include a modern data storage replacement 
for floppy disks and new Voice Control Panels to provide higher 
fidelity voice communications. We continue to push forward on improving 
Remote Visual Assessment at our remote launch facilities, a significant 
security upgrade, to improve situational awareness and security. We 
expect this $40 million program to begin deployment in fiscal year 
2019.
    We conducted four reliable MMIII flight tests in Fiscal Year 2016 
that, along with two Simulated Electronic Launch tests in the 
operational environment, demonstrated the operational credibility of 
the nuclear deterrent force and the AF's commitment to sustaining that 
capability. Four operational flight tests are currently funded in 
fiscal year 2017 ($39 million), satisfying both United States Strategic 
Command (USSTRATCOM) and National Nuclear Security Administration 
(NNSA) requirements. We have already conducted three tests; the last is 
scheduled for
August.
    We are nearing completion of our efforts to remove 50 ICBM boosters 
from their LFs as part of our effort to meet New START Treaty limits. 
The LFs are spread across all three ICBM wings and will remain fully 
operational and capable of receiving boosters, if needed. The final 
booster is expected to be removed in early June 2017.
  Ground Based Strategic Deterrent
    The Minuteman weapon system was fielded nearly 60 years ago, yet 
has remained a cornerstone deterrence platform. ICBMs are the sole 
weapon system capable of rapid global response and impose a time-proven 
and unpalatable cost to attack by peer, near-peer and aspiring nuclear 
nations. The current system, the Minuteman III, suffers from age out, 
asset depletion, and numerous performance shortfalls. Simply put, it 
will not meet critical mission performance requirements or force 
commitments by 2030.
    To meet these requirements, we're successfully moving forward on 
developing the Ground Based Strategic Deterrent (GBSD). OSD/AT&L 
approved the GBSD Acquisition Strategy in July of last year, and 
Milestone A was achieved on 23 August 2016. The GBSD is fully funded, 
$5.6 billion fiscal year 2018-22, and in source selection with an 
expected on-time contract award (up to two offerors) in 4QFY17, 
initiating a three year acquisition risk reduction activity. When 
complete, a second cost-reducing, competitive source selection will 
identify a single provider and initiate material development efforts 
beginning in the 2020 timeframe.
    Additionally, we remain engaged with our Navy partners and have 
identified promising areas for intelligent commonality between GBSD 
systems and future Navy weapons, and we are collaborating with the NNSA 
to develop a W-78 warhead life extension program for our aging nuclear 
assets, starting in 2020. The replacement warhead, Interoperable 
Warhead 1 (IW1) is planned to deploy with GBSD; however, due to system 
age-out, attrition, and commitment requirements, the first priority is 
to modernize the necessary facilities, replace the missile, and sustain 
and maintain command and control (C2) systems.
  UH-1N
    AFGSC is the lead command for the Air Force's fleet of 62 UH-1N 
helicopters. The majority of these aircraft support two critical 
national missions. The UH-1N provides vital support in the security of 
our ICBM fields and critical Continuity of Operations and transport 
missions in the National Capitol Region. Additionally, they support Air 
Force survival training with rescue operations. Further, they 
participate in the Defense Support of Civil Authorities program and are 
frequently called upon to conduct search and rescue activities for 
missing or injured civilians.
  UH-1N Follow On
    In order to continue supporting these critical national missions 
and fully comply with DOD and USSTRATCOM requirements, the Air Force 
has committed $2 billion fiscal year 2018-2022 to replacing the UH-1N 
fleet, as the platform falls short of missile field operational needs--
notably speed, range, endurance, payload, and survivability. The Air 
Force is pursuing a full-and-open competition to procure 84 replacement 
helicopters. We plan to release the final request for proposal in 
summer 2017, with contract award in fiscal year 2018.
Bomber Forces
    Eighth Air Force is responsible for the B-52H Stratofortress (B-52) 
bomber, the B-2A Spirit (B-2) bomber, and the B-1B Lancer (B-1) bomber. 
Bombers provide decision makers the ability to demonstrate resolve 
through generation, dispersal, or deployment.
  Global Assurance and Deterrence
    To assure our allies and partners, and to increase regional 
stability, AFGSC provides bomber forces arrayed across the globe to 
provide flexible, responsive options to combatant commanders. The 
deployments in support of the United States Central Command area of 
responsibility (AOR) and the Continuous Bomber Presence (CBP) in the 
United States Pacific Command (USPACOM) AOR send a strong signal to our 
allies of our commitment to their regions. Additionally, AFGSC provides 
bomber forces to support United States Southern Command's (USSOUTHCOM) 
Joint-Interagency Task Force-South (JIATF-S), United States European 
Command (USEUCOM), and United States Africa Command (USAFRICOM) through 
the Joint Staff's Global Force Management (GFM) process and Bomber 
Assurance and Deterrence (BAAD)-ordered deployments and missions. These 
opportunities enhance our support to our allies and display our resolve 
to our adversaries. The core of AFGSC assurance and deterrence is our 
unwavering commitment to United States Strategic Command (USSTRATCOM) 
and our nuclear deterrence operations (NDO). AFGSC must balance global 
force posturing with our NDO mission, while not jeopardizing readiness 
and fleet health. Arraying bomber forces globally, to increase 
strategic flexibility and respond to a changing global security 
environment, while doing no harm to our NDO mission, will further 
enhance our assurance to allies and partners and posture our forces in 
such a manner where our adversaries will take notice.
  B-1
    The B-1 is a highly versatile, multi-mission weapon system that 
carries the largest payload of both guided and unguided weapons in the 
Air Force inventory. It can rapidly deliver large quantities of 
precision and non-precision weapons in support of combatant commanders 
around the globe.
    The B-1 will be in demand for at least two more decades and 
avionics and recent weapon upgrades are critical for it to remain a 
viable combatant commander tool. The Integrated Battle Station (IBS)/
Software Block-16 (SB-16) upgrade, the largest ever B-1 modification 
($210 million fiscal year 2018-2022), includes an upgraded Central 
Integrated Test System (CITS), Fully Integrated Data Link (FIDL), 
Vertical Situation Display Upgrade (VSDU), and a simulator upgrade. 
This marks a fantastic capability upgrade, and the associated cockpit 
upgrades provide the crew with a much more flexible, integrated 
cockpit.
  B-52
    The B-52 may be the most universally recognized symbol of American 
airpower . . . its contributions to our national security through the 
Cold War, Vietnam, Desert Storm, Allied Force, Iraqi Freedom, Enduring 
Freedom and now Operation Inherent Resolve are well documented. The B-
52 is able to deliver the widest variety of nuclear and conventional 
weapons.
    I anticipate the B-52 will remain a key element of our bomber force 
until at least 2050; it is paramount that we continue to invest 
resources into this aircraft now to keep it viable in both conventional 
and nuclear mission areas for the next 30 to 40 years. Our B-52s are 
still using 1960s radar technology with the last major radar upgrade 
done in the early 1980s. Currently, the mean time between failure rates 
on the B-52 radar is 46 flight hours. The current radar on the B-52 
will be even less effective in the future threat environment, and 
without an improved radar system, there will be increased degradation 
in mission effectiveness. In order to remedy this, the $500 million 
FYDP B-52 Radar Modernization Program is approaching the conclusion of 
its Capability Development Document phase and will enter the program 
pre-Milestone B.
    Today we have 21 of the B-52s converted to the CONECT 
configuration. This modification moves the B-52 into the digital age 
for the first time. This on-board LAN will allow the crew to share a 
common battlespace picture. This modification is installed on every 
aircraft going through their regular program depot maintenance cycle.
    The 1760 Internal Weapons Bay Upgrade increases B-52 smart weapons 
capacity by 67 percent. This capability reached its IOC milestone in 
May 2016 and will be adding Joint Air-to-Surface Standoff Missile 
(JASSM) and Joint Air-to-Surface Standoff Missile-Extended Range 
(JASSM-ER) capability in late summer 2017.
    Communications remain the cornerstone of our strike capability. The 
ability to launch bombers and retask / retarget them while enroute to 
the fight is a powerful force multiplier. We will be adding a critical 
communications node to enhance the operational picture with Link-16 
integrating the aircraft into the warfighter's efforts. Currently, the 
B-52 is the only Combat Air Forces platform without Link-16. 
Additionally, we are exploring options to re-engine the B-52 to make it 
more fuel efficient and cost effective.
    Finally, I want to point out that we have converted 29 operational 
and 12 stored B-52 aircraft to conventional-only configurations. These 
conversions were undertaken as a part of the U.S.'s New START 
obligations.
  B-2
    For nearly 25 years, our B-2s have provided the Nation with an 
assured penetrating bomber capability. The B-2's ability to penetrate 
enemy defenses, holding any target at risk with a variety of nuclear 
and conventional weapons, has provided deterrence against our enemies 
and stability for our allies.
    We are starting the most aggressive modernization period in the 
history of the B-2. This effort is addressing a Nuclear Command and 
Control need, bringing Very Low Frequency (VLF) and Extremely High 
Frequency (EHF) Satellite communications capability to the aircraft. 
Additionally, with the proliferation of Anti-Access Area Denial (A2/AD) 
threats, we are ensuring the B-2's ability to penetrate enemy defenses 
is maintained with the Defensive Management System Modernization 
program. Finally, the B-2 is upgrading to carry the B61-12 nuclear 
gravity weapon. This upgrade is critical to ensuring the bomber leg of 
the nuclear triad remains a visible deterrent to those who wish us 
harm.
    Small fleet dynamics continue to challenge our sustainment efforts 
primarily due to vanishing vendors and diminishing sources of supply. 
We are striving to maintain the proper balance of fleet modernization 
and sustainment while maintaining combat readiness. Lessons learned 
from the difficulty sustaining and modernizing the B-2's small-fleet 
should be considered when determining the purchase size of future 
acquisitions such as the B-21.
  B-21
    Technology gaps between the U.S. and potential adversaries are 
closing. The B-21 will support the nuclear Triad by providing an 
advanced and flexible deterrent capability, with the ability to 
penetrate modern and future air defenses. Further, the B-21 will 
provide flexibility across a wide range of joint military operations 
using long range, large and mixed payloads, and survivability. The B-21 
program will extend American air dominance against next generation 
capabilities and advanced air defense environments.
    The B-21 is designed to have an open architecture, which enables it 
to integrate new technology and respond to future threats. The B-21 is 
fully funded in the fiscal year 2018 budget submission, and an initial 
capability is projected for the mid-2020s.
    As the B-21 is developed and goes into production, the Air Force is 
also preparing for future basing and the required facilities on those 
bases. While the B-21 will bring new construction and facility 
renovation costs, we believe the current bomber bases are best suited 
to absorb the new mission. Simply put, the current bomber bases were 
custom built to support and sustain bomber operations. In many cases, 
they already have the environmental framework and airspace agreements 
in place. Additionally, the current bomber bases also have the 
infrastructure and missions for maintenance, munitions storage, 
security, simulators, base operating support network, off-base 
community support, and many of the other areas required for bomber 
operations. New bases may require more construction, infrastructure, 
and investment dollars. While preparing for future B-21 basing, our 
primary focus will be providing safe, secure, and effective bomber 
operations in a cost-efficient manner.
  Air Launched Cruise Missile
    The AGM-86B Air Launched Cruise Missile (ALCM) is an air-to-ground, 
winged, subsonic nuclear missile delivered by the B-52. Fielded in the 
1980s, the ALCM is over 30 years old, well beyond its life expectancy 
and is involved in its third life extension program. While the ALCM 
remains effective today, we must replace it due to its aging 
subsystems, the shrinking stockpile of operational missiles (553), and 
advances in enemy defenses. We plan to invest $162 million in fiscal 
year 2018-2022 to continue life-extension programs including critical 
telemetry, encryption, and flight termination components until our 
Long-Range Stand-Off (LRSO) weapon reaches operational capability in 
2030.
  Conventional Air Launched Cruise Missile
    The AGM-86C, Conventional Air Launched Cruise Missile (CALCM) is a 
conventional variant to the ALCM. It's only employment platform is the 
B-52 and unlike the ALCM, CALCM has not received any life-extension 
programs to maintain reliability or viability against enemy defenses. 
Current NDAA language has prevented the service from removing this 
aging and obsolete weapon system from operational use pending the 
development, testing, and initial fielding of a LRSO conventional 
variant. The conventional long range stand-off capability currently 
resides in JASSM-ER and is a more survivable weapon system with low 
observable characteristics. JASSM-ER is capable of employment from the 
B-52, B-1, or B-2. It is prudent that when our bomber force continues 
to make advancements in capability, that we divest ourselves of CALCM 
and focus our training and maintenance resources towards the use of 
more capable weapons which hold our adversaries at risk.
  Long Range Stand-Off Missile
    The AF dedicated $2.7 billion fiscal year 2018-2022 for the LRSO to 
replace the aging ALCM. The ALCM has significant capability gaps that 
will only worsen through the next decade. The LRSO will be a reliable, 
long-ranging, and survivable weapon system and an absolutely essential 
element of the nuclear triad. It will be flexible, and will be 
compatible with B-52 and B-21 platforms. The LRSO missile will ensure 
the bomber force continues to hold high value targets at risk in an 
evolving threat environment, including targets deep within an area 
denied environment. I cannot overemphasize this point: B-21 and B-52 
without LRSO greatly reduces our ability to hold adversaries at risk, 
increases risk to our aircraft and aircrew, and negatively impacts our 
ability to execute the mission. Additionally, we are synchronizing our 
efforts with NNSA to fully integrate the W80-4 warhead with LRSO. This 
weapon will retain nuclear penetrating cruise missile capabilities 
through 2060. To meet operational, testing, and logistics requirements, 
the Air Force plans to acquire approximately 1,000 LRSO cruise missile 
bodies. This quantity will provide spares and supply sufficient non-
nuclear missile bodies throughout ongoing flight and ground testing. 
The number of nuclear-armed LRSO cruise missiles (i.e., mated to a 
nuclear warhead) is expected to be equivalent to the current ALCM 
nuclear force. Milestone A for LRSO was declared in July 2016.
  B61
    The B61 family of gravity nuclear weapons support the airborne leg 
of the Triad and is the primary weapon supporting our NATO allies under 
extended deterrence. The B61-12 is currently undergoing a Life 
Extension Program (LEP) and will result in a smaller stockpile, reduced 
special nuclear material in the inventory, improved B61 surety, and 
reduced lifecycle costs by consolidating four weapon versions into one. 
The B61-12 life-extension includes the addition of a digital weapons 
interface and a guided tail kit assembly. AFGSC is the lead command for 
the $630 million fiscal year 2018-2022 B61-12 Tail Kit Assembly 
program, which is needed to meet USSTRATCOM requirements on the B-2. 
The B61-12 Tail Kit Assembly program is in Engineering and 
Manufacturing Development Phase 1 and is synchronized with NNSA 
efforts. The Tail Kit Assembly design and production processes are on 
schedule and within budget to meet the planned Fiscal Year 2020 First 
Production Unit date, and support the lead time required for the 
inclusion of the Department of Energy (DoE) warhead service-life 
extension completion date of March 2020. This joint DOD and DoE 
endeavor allows for continued attainment of our strategic requirements 
and regional commitments.
  GBU-57
    AFGSC assumed responsibility as the lead MAJCOM for the GBU-57 
Massive Ordnance Penetrator (MOP) in the Summer of 2015. The MOP is a 
30,000-pound guided conventional bomb designed to defeat hardened and 
deeply buried targets and is exclusively employed from the B-2. It has 
received several upgrades and enhancements based on warfighter 
requirements. AFGSC, USCENTCOM, and the Air Force Life Cycle Management 
Center Program Office are currently conducting two more enhancements to 
increase weapon effectiveness.
                                security
    Nuclear security is a key function of the command's mission, and a 
major AFGSC security initiative continues to be new Weapon Storage 
Facilities (WSF). These new facilities will consolidate nuclear 
maintenance, inspection, and storage into a single modern and secure 
facility, replacing deficient 1960s-era Weapon Storage Areas. 
Additionally, this initiative eliminates security, design, and safety 
deficiencies and improves our maintenance processes. We have put 
forward a $1.9 billion program to meet requirements for a safe, secure, 
and effective nuclear arsenal.
              nuclear command, control, and communications
    Air Force Nuclear Command, Control and Communications (NC3) systems 
connect the President to his senior advisors and to the nuclear forces. 
The ability to receive presidential orders and convert those orders 
into actionable directives is both critical to performing the nuclear 
mission and foundational to an effective and credible strategic 
deterrent. AFGSC is the Air Force's lead command for National 
Leadership Command Capabilities (NLCC)/NC3 which establishes one focal 
point for the weapon system.
    AFGSC has taken its charge of sustaining and modernizing the NC3 
weapon system seriously. In fact, through the Nuclear Enterprise Review 
process and a cross-MAJCOM internal Air Force study, we identified 
multiple areas that have atrophied through decades of low 
prioritization. To remedy the deterioration, we have advocated for 
funds specifically for NC3, including $16 million to improve long-haul 
communications, $8 million in telephony upgrades, and $2 million in 
radio upgrades. Additionally, AFGSC stood up the USAF NC3 Center in 
April 2017. The NC3 Center oversees interoperability, standardization, 
and configuration control of the USAF's NC3 weapon system, and will 
plan and program for NC3 investment, sustainment, and operations. In 
standing up the Center, Air Force NC3 finally speaks with a singular 
voice.
    AFGSC has continued to make gains in efforts to modernize our 
communications and cyberspace infrastructure by leveraging technology, 
making our forces more capable and effective. In our ICBM fields, some 
of the copper cabling that transports voice and data between the main 
base and the Missile Alert Facilities (MAFs) rely on 1960s technology 
and equipment. We have undertaken a major modernization initiative to 
replace old cabling with modern technology that will realize over a 15-
fold increase in data capability and improve missile field command and 
control with unclassified and classified networking, wireless 
networking, and secure digital voice to the MAFs. These are important 
upgrades, but they still do not replace the buried copper nuclear 
command and control lines.
    When AFGSC was named lead command for NC3, we added the E-4B to our 
list of aircraft. The E-4B Nightwatch serves as the National Airborne 
Operations Center and is a key component of the National Military 
Command System for the President, the Secretary of Defense, and the 
Joint Chiefs of Staff. In case of national emergency or destruction of 
ground command and control centers, the aircraft provides a highly 
survivable command, control and communications center to direct U.S. 
Forces, execute emergency war orders and coordinate actions by civil 
authorities.
                       nuclear enterprise review
    In 2014, the DOD Nuclear Enterprise Review (NER), along with 
internal Air Force assessments, served as a catalyst for major 
improvements within the Air Force nuclear enterprise. Since 2014, the 
Air Force has applied deliberate and sustained focus towards addressing 
the identified shortfalls. Our ongoing efforts--spanning the full-range 
of personnel, management, oversight, mission performance, training, 
testing, and investment issues--continue to produce tangible and 
lasting improvements. As this committee is well aware, the Air Force 
and AFGSC have undertaken monumental shifts to support our number one 
priority, the nuclear enterprise. Our Airmen continue to see increased 
emphasis on their mission requirements. They see mid-career leaders 
mentoring those younger than them, educating them on the importance of 
their missions. They see their most senior leaders in the 
Administration, in the Department, and here in Congress acting on their 
behalf.
    However, we are not done. Since the NER, we have accomplished 
bottom-up reviews of our bomber forces, airborne launch operations, and 
the headquarters itself. Most recently, we created a Human Weapon 
System Team. All of our major weapon systems have teams which monitor 
the health and sustainment of the program. We were lacking this kind of 
approach for the most important weapon system we have . . . our airmen! 
We continue to cultivate a culture that embraces innovation, change, 
diversity, while fostering an environment of dignity and respect. In 
order to gauge our progress on improvement, I established an 
Independent Strategic Assessment Group earlier this year. This group, 
led by established former leaders of the DOD, is providing me with 
critical feedback on how we are taking care of our Airmen, how we are 
structured, and how we can expertly accomplish our deterrence mission. 
This is a resource I will continue to use in the future as the command 
evolves.
                               priorities
    My priorities remain the same and are relatively simple. They guide 
every decision I make. They are Mission, Airmen, and Families . . . 
rooted in our AF Core Values and reinforced by our rich heritage. We 
exist to serve the Nation by providing strategic deterrence and global 
strike. However, without our great Airmen, we could never hope to be as 
successful as we are. When I visit our units, I am always humbled by 
the dedication of our Global Strike warriors and their unfailing drive 
to do their best. I truly believe that while we recruit Airmen, we 
retain families. We cannot forget the loved ones who stay behind while 
our Airmen deploy, whether it is overseas or to a missile field. We 
recognize that no matter the job an Airman is doing, we must never lose 
sight of the families who support them. This is why I have asked my 
leadership at all levels to focus on making tangible and lasting 
improvements in supporting our Airmen and families. We have always made 
family a top priority, but now we're deliberately focusing on 
initiatives to care for our Airmen and their families. We are improving 
the quality and capacity of dormitories across the command and 
strengthening involvement and engagement with local School Liaison 
Officers through annual training and regular encounters. We have also 
looked at how we care for our families and have engaged the Defense 
Health Agency to enhance the reimbursement rates for Applied Behavioral 
Analysis Therapy and the Exceptional Family Member Program. We have 
recognized the sacrifices spouses make when they are required to change 
duty stations and realize the high rates of under and unemployment. To 
address this area, we are utilizing military spouse preference hiring 
authorities, and are also working with Headquarters Air Force on 
reciprocity agreements to transfer accreditations and licensures (e.g. 
medical, education) for spouses in these situations to assist in 
employment opportunities. These efforts ensure that we take special 
care of our great Airmen and their families.
                               conclusion
    Thank you for your continued support of Air Force Global Strike 
Command and our strategic deterrence and global strike missions. Fiscal 
constraints, while posing planning challenges, do not alter the 
national security landscape or the intent of competitors and potential 
adversaries; nor do they diminish the enduring value of long range, 
strategic forces to our nation. The technology and capability gaps 
between our Nation and its adversaries are closing dangerously fast . . 
. and in some cases, have closed completely.
    Although we account for less than one percent of the DOD budget, 
AFGSC forces represent two-thirds of the nation's nuclear Triad and 
oversee approximately 75 percent of the nation's NC3 systems. These 
forces play a critical role in ensuring U.S. national security, while 
also providing joint commanders rapid global combat airpower. AFGSC 
will continue to seek innovative, cost-saving measures to ensure our 
weapon systems are operating as efficiently and effectively as 
possible. Modernization, however, is mandatory. AFGSC is operating a 
bomber force averaging over 40 years of age; operating ICBMs with 1960s 
infrastructure; and utilizing 1960s era weapon storage areas. We cannot 
afford to delay modernization initiatives. The best way to avoid 
unthinkable conflict is to deter and be prepared to fight with modern 
and reliable forces. To do otherwise, by delaying modernization once 
more, invites strategic instability, potential miscalculation, and the 
risk of devastating escalation. We stand at a pivotal point in history 
where the American people and our allies are counting on congressional 
action to fund our nuclear enterprise modernization efforts. Thank you 
for your ongoing support of the nuclear enterprise.

    Senator Fischer. Thank you, sir.
    Mr. MacStravic, please?

  STATEMENT OF JAMES A. MacSTRAVIC, PERFORMING THE DUTIES OF 
  UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY AND 
                           LOGISTICS

    Mr. MacStravic. Chairwoman Fischer, Ranking Member 
Donnelly, thank you for the opportunity to testify on the 
fiscal year 2018 budget request for nuclear forces. I am 
pleased to join General Rand, Dr. Soofer, and Vice Admiral 
Benedict to discuss the Department of Defense's number one 
mission: maintaining and modernizing a safe, secure, and 
effective nuclear deterrent.
    In my current role, I am responsible for advising the 
Secretary of Defense and the Deputy Secretary of Defense on all 
matters concerning acquisition of technology and logistics, 
including the acquisition and sustainment of our Nation's 
nuclear forces. I oversee systems acquisition for the nuclear 
enterprise, lead the Department's efforts to acquire the 
strategic nuclear weapons delivery and command-and-control 
systems required to meet the operational needs of our Armed 
Forces, and serve as the chairman of the Nuclear Weapons 
Council.
    The Nuclear Weapons Council is a joint DOD and Department 
of Energy/NNSA [National Nuclear Security Agency] council 
established to facilitate cooperation and coordination, reach 
consensus, and institute priorities between the two departments 
as they fulfill their responsibilities for U.S. nuclear weapons 
stockpile management.
    In January, the President directed the DOD to conduct a 
comprehensive review of the roles of nuclear weapons in our 
national security, our strategy to fulfill those roles, and the 
capability requirements to implement that strategy. The Office 
of the Secretary of Defense and the joint staff are currently 
leading the Nuclear Posture Review [NPR], and my office is 
fully engaged.
    The NPR will look at all elements of U.S. nuclear forces, 
policy, and posture to ensure that our nuclear deterrent is 
modern, robust, flexible, resilient, ready, and appropriately 
tailored to meet 21st Century threats.
    The Department appreciates Congress' support in ensuring 
the credibility and reliability of our nuclear deterrent in an 
increasingly complicated and challenging world, and it is 
essential that Congress continue the support for the 
President's fiscal year 2018 budget request for nuclear 
deterrence forces.
    This budget request demonstrates DOD's commitment to 
strengthening and modernizing an aging nuclear triad. It is 
very much appreciated that Congress recognizes and supports the 
challenges facing our nuclear enterprise. Our systems are well 
past their intended service lives, and we risk losing 
operational capability, reliability, and effectiveness.
    Delaying modernization and warhead life-extension efforts 
would degrade the effectiveness of these systems and would put 
at risk the fundamental objective of these systems: nuclear 
deterrence.
    As our delivery systems and warheads reach their limits for 
sustainability, our choice is not between keeping or updating 
our forces. Rather, our choice is between modernizing those 
forces or watching a slow and unacceptable degradation in our 
ability to deter adversaries who represent existential threats 
to our Nation. Because all of our systems require modernization 
at the same time, we need continued support from Congress to 
ensure adequate, consistent funding for these programs.
    As the DOD moves forward with recapitalization of all three 
legs of the nuclear triad, and investment in the resilience of 
the NC3 [Nuclear Command, Control, and Communications] 
architecture, the total cost to sustain the existing force and 
field a modernized replacement is projected to range from 
approximately 3 percent to 6 percent of total defense spending 
annually. This projection includes the total cost of the 
strategic delivery systems that have a nuclear-only mission, a 
portion of the cost of the B-21 bomber, which will have both 
conventional and nuclear roles, but no longer includes nuclear 
warhead life extension efforts that are funded by DOE 
[Deparment of Energy] and NNSA.
    Again, we appreciate that Congress has recognized the 
severity of this problem and is taking steps to ensure adequate 
resources are made available for continuing these critical 
modernization
efforts.
    I want to take this opportunity to thank the committee for 
its support of the budget in fiscal year 2017. I look forward 
to your continuing support in fiscal year 2018.
    Thank you again for the opportunity to testify. I am happy 
to answer any questions you may have.
    [The prepared statement of Mr. MacStravic follows:]

               Prepared Statement by Mr. James MacStravic
    Chairman Fischer, Ranking Member Donnelly, and distinguished 
members of the Subcommittee, thank you for the opportunity to testify 
today on the fiscal year (FY) 2018 budget request for nuclear forces. I 
am pleased to join General Rand, DASD Soofer, and Vice Admiral Benedict 
to discuss the Department of Defense's (DOD's) number one mission: 
maintaining and modernizing a safe, secure, and effective nuclear 
deterrent.
    In my current role, I am responsible for advising the Secretary of 
Defense and the Deputy Secretary of Defense on all matters concerning 
acquisition, technology and logistics, including the acquisition and 
sustainment of our nation's nuclear forces. I oversee systems 
acquisition for the nuclear enterprise, lead the Department's efforts 
to acquire the strategic nuclear weapons delivery and command and 
control systems required to meet the operational needs of our Armed 
Forces, and serve as Chairman of the Nuclear Weapons Council (NWC). The 
NWC is a joint DOD and Department of Energy (DOE)/National Nuclear 
Security Administration (NNSA) council established to facilitate 
cooperation and coordination, reach consensus, and institute priorities 
between the two departments as they fulfill their responsibilities for 
U.S. nuclear weapons stockpile management.
    In January, the President directed the DOD to conduct a 
comprehensive review of the roles of nuclear weapons in our national 
security, our strategy to fulfill those roles and the capability 
requirements to implement that strategy. The Office of the Secretary of 
Defense and the Joint Staff are currently leading the Nuclear Posture 
Review (NPR), and my office is fully engaged. The NPR will look at all 
elements of U.S. nuclear forces, policy, and posture to ensure that our 
nuclear deterrent is modern, robust, flexible, resilient, ready, and 
appropriately tailored to deter 21st Century threats.
    The Department appreciates Congress' support in ensuring the 
credibility and reliability of our nuclear deterrent in an increasingly 
complicated and challenging world, and it is essential that Congress 
continue this support for the President's fiscal year 2018 budget 
request for nuclear deterrence forces. This budget request demonstrates 
DOD's commitment to strengthening and modernizing an aging Nuclear 
Triad. Today, I will summarize the DOD and NWC perspectives on, and 
priorities for, nuclear weapon delivery systems modernization and 
replacement, warhead life-extension, stockpile sustainment, nuclear 
command, control and communication (NC3), and the challenges we face 
today and tomorrow to ensure a safe, secure, and effective nuclear 
enterprise.
    It is very much appreciated that Congress recognizes and supports 
the challenges facing our nuclear enterprise. Our systems are well past 
their intended service lives and we risk losing operational capability, 
reliability and effectiveness. Delaying modernization and warhead life-
extension efforts would degrade the effectiveness of these systems and 
would put at risk the fundamental objective of these systems--nuclear 
deterrence. As our delivery systems and warheads reach their limits for 
sustainability, our choice is not between keeping or updating the 
current forces. Rather, our choice is between modernizing those forces 
or watching a slow and unacceptable degradation in our ability to deter 
adversaries who present existential threats to our nation. Because all 
of our systems require modernization at the same time, we need 
continued support from Congress to ensure adequate, consistent funding 
for these programs. As the DOD moves forward with re-capitalization of 
all three legs of the nuclear Triad and investment in the resilience of 
the NC3 architecture, the total cost to sustain the existing force and 
field a modernized replacement is projected to range from approximately 
3 percent to 6 percent of total defense spending annually. This 
projection includes the total cost of the strategic delivery systems 
that have a nuclear-only mission, a portion of the cost of the B-21 
bomber, which will have both conventional and nuclear roles, but no 
longer includes nuclear warhead life extension efforts that are funded 
by DOE/NNSA. Again, we appreciate that Congress has recognized the 
severity of this problem and is taking steps to ensure adequate 
resources are made available for continuing these critical 
modernization efforts.
             nuclear systems sustainment and modernization
    It is imperative that system modernization and sustainment efforts 
continue, or we run the risk of creating critical capability gaps as 
legacy systems reach the end of sustainability--negatively affecting 
the credibility of the Nation's strategic deterrent. Almost all of the 
platforms and delivery systems that comprise the nuclear Triad have 
already been extended decades beyond their original expected service 
lives. With the current replacement schedule, there is no remaining 
margin between legacy system age-out and the planned fielding of modern 
replacements.
    The DOD fiscal year 2018 budget request is consistent with these 
plans. Enacting it will ensure that current nuclear delivery systems 
can be sustained and that modernization and replacement programs 
preclude gaps in capability. However, these programs will require 
increased investment over current levels for much of the next 20 years.
    The Department remains committed to sustaining current nuclear 
Triad capabilities and will ensure they continue to meet warfighter 
requirements throughout the transition to modernized delivery systems. 
The Air Force maintains a detailed plan to execute sustainment 
activities for the Minuteman III (MMIII) weapon system until the 
recently initiated Ground-Based Strategic Deterrent (GBSD) system is 
fielded and operational. Meanwhile, the Air Force is executing a series 
of four planned life extension programs (LEPs) for the Air-launched 
Cruise Missile (ALCM) to ensure the system remains operational and 
effective until replaced by the Long Range Standoff (LRSO) cruise 
missile in 2030. Further, Air Force continues to maintain the viability 
of the U.S. strategic bomber force through a series of upgrades to the 
B-2A and B-52H that will ensure continued survivability and 
compatibility with modern weaponry. It is imperative that these and 
other legacy systems remain safe, secure and effective until replaced 
by modernized deterrent systems.
    Beyond sustaining current systems, DOD is implementing a robust 
plan to recapitalize our strategic nuclear deterrent including 
ballistic missile submarines, ICBMs, submarine-launched ballistic 
missiles (SLBMs), ALCMs, nuclear-capable heavy bombers, dual-capable 
aircraft (DCA), and our NC3 system. Specifically, the fiscal year 2018 
budget request continues to fund: the Columbia-class submarine program 
and Trident II (D5) missile Life-Extension; the GBSD; development of 
the B-21 Bomber; development of LRSO; the B61-12 gravity bomb LEP tail 
kit; and comprehensive upgrades to NC3.

    <bullet>  I approved initiation of detailed design and construction 
of the Columbia-class ballistic missile submarine program with a 
Milestone B decision in January 2017. The program requires adequate 
resources and a stable, predictable funding profile to ensure that 
construction starts in fiscal year 2021. There is no margin left in the 
replacement schedule if the Department is to meet the first patrol need 
date in fiscal year 2031. Any resource or funding shortfalls could 
delay the delivery of the Columbia-class submarines and place the most 
survivable leg of the Nation's nuclear Triad at risk. Fiscal year 2018 
investment funding: $1,870 million.
    <bullet>  GBSD will be fielded as the MMIII ICBM reaches its end of 
life. The program achieved Milestone A in August 2016 and entered into 
the Technology Maturation and Risk Reduction (TMRR) Phase. The Air 
Force is conducting source selection and anticipates awarding contracts 
to two vendors in the 4th quarter of fiscal year 2017. The fiscal year 
2018 President's Budget fully funds the GBSD: that funding must also 
remain stable if the program is to remain on schedule. Delays to the 
GBSD schedule will result in capability gaps as the Minuteman III ages. 
Fiscal year 2018 investment funding: $216 million.
    <bullet>  The Air Force's fiscal year 2018 budget request includes 
funding for the B-21 bomber and will continue the development of a 
long-range, highly survivable platform that will provide a visible and 
flexible nuclear deterrent capability. Nuclear enterprise-related 
funding is only a small portion of the overall B-21 bomber program. The 
total fiscal year 2018 investment budget request for the entire B21 
program is $2,004 million.
    <bullet>  The LRSO cruise missile will replace the aging ALCM and 
will improve the flexibility and survivability of the air leg of the 
Triad. It will have improved penetration capabilities against advanced 
Integrated Air Defense Systems and in GPS-denied environments from 
significant standoff ranges. The program successfully achieved 
Milestone A in July 2016, is currently in TMRR, and anticipates 
awarding contracts to up to two vendors in the 4th quarter of fiscal 
year 2017. The first LRSO missile will be delivered in 2026 and the 
program will meet Initial Operational Capability by 2030. fiscal year 
2018 investment funding: $451 million.
    <bullet>  The B61-12 LEP tail kit program is part of the overall 
B61 LEP. The B61 LEP will provide the strategic weapons for the 
airborne leg of the nuclear triad that are carried on the B-2 and will 
be carried on the B-21. The B61 LEP will also provide the nuclear 
gravity bomb for North Atlantic Treaty Organization (NATO) dual-capable 
aircraft. DOE/NNSA and the Air Force are jointly executing the effort 
to refurbish the B61 with the First Production Unit (FPU) scheduled in 
2020. The Air Force portion of the LEP will provide the development, 
acquisition and delivery of a guided tail kit assembly and all up round 
technical integration, system qualification and fielding. Fiscal year 
2018 investment funding (B61-12 LEP Tail kit only): $180 million.
    <bullet>  The fiscal year 2018 budget continues funding the F-35 
program, which includes integration of a nuclear delivery capability 
for the F-35A. The F-35A DCA will maintain a critical capability that 
is needed for non-strategic nuclear missions in support of the Nation's 
extended deterrence and assurance commitments, especially to our 
Allies. Fiscal year 2018 investment funding (F-35A DCA funding only): 
$35 million.
                        dod stockpile activities
    The Department is ensuring that the U.S. nuclear stockpile is 
modern, robust, flexible, resilient, ready, and appropriately tailored 
to deter 21st Century threats. We continue to follow the NWC's 
stockpile strategy, which currently includes development of three 
interoperable nuclear explosive packages for ballistic missiles and two 
air-delivered warheads. The Interoperable Warhead 1 will be the first 
of three ballistic missile warheads under this strategy, and a full 
feasibility study is planned for completion in the early 2020s.
    The NWC remains fully committed to ensuring the viability of each 
of the three legs of the nuclear Triad and revitalizing the nuclear 
enterprise. Under the guidance of DOE/NNSA, several weapon systems LEPs 
are underway to support the Nation's long-term deterrent capabilities. 
The SLBM-based W76-1 warhead and the B61-12 bomb for the air-delivery 
systems are the most urgent warhead life-extension needs in our 
stockpile, and the fiscal year 2018 President's budget request fully 
funds these LEPs. The W76-1 LEP is on schedule to complete production 
in fiscal year 2019. The fiscal year 2018 budget also funds sustainment 
of the SLBM-based W88 warhead through the W88 Alt 370, which was 
authorized to begin production engineering in February 2017 to replace 
the aging arming, fuzing, and firing system and refresh the 
conventional high explosive. That program is on schedule to achieve a 
December 2019 FPU. The LRSO warhead LEP, designated as the W80-4, is in 
the Feasibility Study and Design Options development phase. The W80-4 
warhead LEP and LRSO cruise missile acquisition communities continue to 
collaborate and align their concurrent development efforts, with the 
W80-4 FPU planned for 2025 to support a first missile delivery in 2026.
    The greatest challenge facing the NWC is to secure the necessary 
resources for three critical areas to allow continued certification and 
ensure our nuclear weapons remain safe, secure, and effective: (1) 
sustaining and life-extending our stockpile in concert with the 
modernization of associated delivery systems; (2) sustaining and 
modernizing our aging nuclear stockpile enterprise infrastructure; and 
(3) preserving stockpile science and engineering expertise and 
capabilities. Our nuclear enterprise infrastructure challenges include 
addressing aged, end-of-life facilities maintenance, recapitalization, 
and replacement. The NWC focuses specifically on the plutonium, 
uranium, and tritium capabilities needed to support the current and 
future nuclear weapons stockpile. The Department reinforces DOE/NNSA's 
need for responsive and productive plutonium and uranium capabilities, 
as well as the ability to produce tritium to meet planned stockpile 
needs. It is imperative that Congress support the full nuclear-related 
budget requests of both Departments to ensure national security 
requirements continue to be met.
                                  nc3
    Our nuclear deterrent must be appropriately tailored to deter 21st 
Century threats, and the NC3 system must have similar attributes. The 
nuclear security environment has changed markedly in the decades since 
the Cold War. The risk is increasing that non-nuclear states and 
terrorists, especially those at odds with the United States and its 
allies and partners, will acquire nuclear weapons and the means to 
deliver them. Potential adversaries are pursuing both traditional and 
asymmetric means to threaten U.S. nuclear capabilities and U.S. 
interests. Aggressive behavior by states like Iran and North Korea 
threatens regional stability and challenges United States ability to 
assure allies and partners through extended deterrence.
    We will continue to modernize our NC3 systems to take advantage of 
our areas of technological superiority. The NC3 system must remain 
strong and resilient to convince adversaries that any attempt to 
disrupt the President's ability to command our nuclear forces would be 
futile. Data supporting the NC3 mission must be accessible through all 
attack phases. Flexible information services will help meet the 
communications demands of a geographically dispersed infrastructure to 
ensure data remains accessible. This allows a relatively smooth 
transition of duties should the crisis force the devolution of 
operations to alternate locations. Persistent analysis and adaptation 
will assure links between surviving command centers, networks, and 
forces even during and after a large-scale nuclear attack on the 
Homeland.
    The NC3 system must be ready, tailored, and flexible to enable 
deterrence and nuclear response across a wide range of conditions and 
scenarios, calibrated against specific actors, and adaptable to meet 
evolving threats and sudden upsets. Deterrence and nuclear response 
operations may occur in a wide range of scenarios that vary in 
likelihood and consequence of occurrence. The NC3 system must function 
to deter nuclear threats ranging from limited use against our allies to 
existential threats to our Homeland. Components may also adapt to 
support U.S. policy regarding non-nuclear strategic challenges.
    The cost to modernize the NC3 system is included in the DOD nuclear 
recapitalization costs. Fiscal year 2018 investment funding: $447 
million.
                               conclusion
    Nuclear deterrence remains DOD's highest priority, and the 
President's budget request for fiscal year 2018 reflects the 
Administration's emphasis on the maintaining a viable and effective 
nuclear enterprise. Across the FYDP we are making investments in 
modernization and sustainment across the nuclear enterprise, 
investments which are critical to ensure the continued safety, 
security, and effectiveness of our nuclear deterrent as well as the 
long-term health of the force that supports our nuclear Triad. The 
President's fiscal year 2018 budget request supports the Nation's 
nuclear deterrent strategy. It includes $14 billion for nuclear force 
sustainment and operations and $5 billion for associated 
recapitalization programs. As the bedrock of our national security, our 
Nation must remain committed to fully funding the re-capitalization of 
our nuclear forces. The President's fiscal year 2018 budget request 
demonstrates the Administration's commitment to the sustainment of our 
deployed legacy nuclear forces and development of modern replacements. 
These efforts will ensure our nuclear deterrence forces remain an 
effective foundational element of our strategy for deterring strategic 
attacks against the U.S, and our Allies and for reducing the risk of 
large-scale war. I want to take this opportunity to thank the committee 
for its support of the budget in fiscal year 2017. I look forward to 
your continuing support in fiscal year 2018. I am happy to answer any 
questions you may have.

    Senator Fischer. Thank you, sir.
    Next, Dr. Soofer, welcome back. It is good to see you.

    STATEMENT OF ROBERT M. SOOFER, Ph.D., DEPUTY ASSISTANT 
  SECRETARY OF DEFENSE FOR NUCLEAR AND MISSILE DEFENSE POLICY

    Dr. Soofer. Thank you. Chairwoman Fischer, Ranking Member 
Donnelly, distinguished members of the committee, thank you for 
the opportunity to testify on the President's fiscal year 2018 
budget request for nuclear forces. Thank you for your kind 
words.
    The President directed the Department of Defense to conduct 
a comprehensive Nuclear Posture Review, and we expect to 
complete it by the end of this calendar year. I will not 
prejudge the outcome of the NPR but will outline some of the 
challenges and the questions that we face.
    For decades, U.S. nuclear forces have provided the ultimate 
deterrent against nuclear attacks on the United States and our 
allies. Nuclear weapons remain a foundational element of U.S. 
strategy for deterring strategic attacks and large-scale war, 
and for assuring U.S. allies.
    Effective deterrence requires a deliberate strategy and 
forces that are structured and postured to support that 
strategy within the existing security environment. Strategy, 
forces, and posture must also be flexible enough to maintain 
stability while adjusting to both the gradual and rapid 
technological and geopolitical changes. Recent years have, 
indeed, brought changes that the U.S. policy must address.
    Russia has undertaken aggressive actions against its 
neighbors that threaten the United States and its allies. It 
has elevated strategies of nuclear first use. It is violating 
the landmark Intermediate-Range Nuclear Forces Treaty, and it 
is modernizing a large and diverse non-strategic nuclear 
weapons force.
    In the Asia-Pacific, China's increased assertiveness 
suggests a desire to dominate the region. China continues to 
modernize its rogue mobile and silo-based nuclear missile 
systems, as well as its ballistic missile submarine weapons 
system.
    North Korea's leadership has demonstrated a willingness to 
accept economic countermeasures and international isolation in 
order to advance its nuclear capability and develop ballistic 
missiles able to strike the U.S. Homeland, as well as our 
allies in the region.
    New threats are emerging from nonnuclear strategic 
capabilities, most of which are not constrained by treaties or 
agreements. Technological advancements mean that proliferators 
might seek weapons of mass destruction development paths that 
are different from the ones that we are accustomed to detecting 
and countering.
    As we conduct the NPR, Secretary Mattis has directed that 
we continue with the existing program of record for 
recapitalizing our aging nuclear forces. After decades of 
deferred modernization, replacement programs must proceed 
without further delay, if we are to retain existing deterrent 
capabilities.
    The critical mission of ensuring an effective nuclear 
deterrent is the highest priority mission of the Department of 
Defense, and one it shares with the Department of Energy and 
the Congress. We look forward to continuing to work together in 
faithfully and responsibly fulfilling this mission.
    Thank you again for the opportunity to testify. I look 
forward to your questions.
    [The prepared statement of Dr. Soofer follows:]

                Prepared Statement by Dr. Robert Soofer
    Chairwoman Fischer, Ranking Member Donnelly, and distinguished 
Members of the Committee, thank you for the opportunity to testify on 
the President's Fiscal Year (FY) 2018 Budget Request for Nuclear Forces 
and Atomic Energy Defense Activities.
           historical deterrence role of u.s. nuclear weapons
    For decades, U.S. nuclear forces have provided the ultimate 
deterrent against nuclear attacks on the United States and our allies. 
During the Cold War, nuclear forces also played a key role in deterring 
the threat of massive conventional attack in Europe and elsewhere. 
Since the end of the Cold War, nuclear weapons have remained a 
foundational element of U.S. strategy for deterring strategic attacks 
and large-scale war, and for assuring U.S. allies, even as the United 
States worked to reduce the role and salience of nuclear weapons 
worldwide. It is apparent that, unfortunately, some nations have not 
followed our lead in reducing the role of nuclear weapons, and have, in 
some cases, deliberately elevated and expanded the prominence of 
nuclear weapons in their strategies.
                         nuclear posture review
    The President directed the Department of Defense (DOD) to conduct a 
comprehensive review of our nuclear weapons policy. Not surprisingly, 
an enduring deterrence role for U.S. nuclear forces is explicit in the 
President's direction. The Nuclear Posture Review (NPR) will look at 
all elements of U.S. nuclear forces and posture to ensure that our 
nuclear deterrent is modern, robust, flexible, resilient, ready, and 
appropriately tailored to deter 21st Century threats. The NPR is 
underway, and we expect to complete it by the end of this calendar 
year.
    The NPR is led by the Office of the Under Secretary of Defense for 
Policy (OUSD(P)) and the Joint Staff, in direct consultation with the 
Department of Energy's (DOE) National Nuclear Security Administration 
(NNSA) and the Department of State. OUSD(P) and Joint Staff leadership 
are working closely with representatives from the Military Departments, 
Combatant Commands, and across DOD components. We are also consulting 
with key allies and partners, other U.S. Government departments and 
agencies, and appropriate congressional committees.
    The 2017 NPR is following a structured and deliberate process to 
meet the President's direction. That process begins with reviewing and 
assessing changes in the strategic environment since the last NPR, 
which was conducted in 2009. We must then determine the roles of 
nuclear weapons in U.S. national security strategy, develop strategies 
to fulfill those roles, and assess the capabilities needed to implement 
U.S. nuclear strategy.
    I will not prejudge the outcome of the NPR, but will outline some 
of the challenges and questions we must consider.
           continuity and change in the security environment
    Maintaining effective nuclear deterrence is an absolute imperative, 
and it is the highest priority mission of the DOD. Effective deterrence 
requires a deliberate strategy for how to deter and how to communicate 
messages of resolve and restraint to potential adversaries, and it 
requires forces that are structured and postured to support that 
strategy within the existing security environment. Strategy, forces, 
and posture must also be flexible enough to maintain stability while 
adjusting to both gradual and rapid technological and geopolitical 
changes.
    The 2017 NPR must consider elements of both continuity and change 
in the international security environment. There is continuity in the 
reality that we live in a world with potential adversaries armed with 
nuclear weapons. Nuclear weapons in the hands of potential adversaries 
pose the only clear existential threat to the United States, and, 
likewise, threaten our allies. Russia remains our only near peer in 
terms of arsenal size, though China also fields a substantial nuclear 
force. Both Russia and China are actively engaged in extensive programs 
to modernize their nuclear forces, and are well positioned to retain 
them for the foreseeable future. Knowledge about nuclear, chemical, and 
biological weapons is widespread, and, therefore, we cannot rule out 
the possibility of further proliferation of weapons of mass destruction 
(WMD). Finally, there is an element of continuity in the ever-present 
possibility of impending change, which can appear as a gradual 
evolution or as rapid upsets.
    Recent years have indeed brought changes to the security 
environment that United States nuclear policy must address. Russia has 
undertaken aggressive actions against its neighbors and threatened the 
United States and its NATO Allies--including nuclear threats. It has 
elevated strategies of nuclear first use in its strategic thinking and 
military exercises, is modernizing a large and diverse non-strategic 
nuclear weapons force, and is violating the landmark Intermediate-Range 
Nuclear Forces (INF) Treaty.
    Resolving Russia's INF Treaty violation is a top priority for this 
Administration. This Administration has been clear with Russia that the 
status quo is unacceptable and that the United States must therefore 
consider concrete steps that will deny Russia any significant military 
advantage from this violation. While our strong preference is for 
Russia to return to compliance with the Treaty, the United States is 
prepared to hold Russia accountable and take steps to change Russia's 
calculus. This is not only to mitigate against the new threats 
presented by the missiles, but also to ensure arms control agreements 
remain credible in the future.
    Russia presents a significant set of challenges, but is only one 
element of an increasingly complex global strategic environment. In the 
Asia-Pacific region, China's increased assertiveness suggests a desire 
to dominate that region. North Korea's leadership has demonstrated a 
willingness to accept economic countermeasures and international 
isolation in order to advance its nuclear capability and develop 
ballistic missiles able to strike the United States Homeland as well 
our allies in the region. The United States remains committed to 
ensuring that Iran never acquires a nuclear weapon. As the 
Administration conducts its policy review of the Joint Comprehensive 
Plan of Action (JCPOA), we will continue to meet our commitments under 
the deal. Iran continues its ballistic missile program, which is 
outside of the JCPOA.
    Across the globe, new threats are emerging from non-nuclear 
strategic capabilities, most of which are not constrained by treaties 
or other agreements. These include conventional ballistic missiles, 
offensive capabilities within the space and cyber domains, and the 
potential for hypersonic weapons armed with non-nuclear as well as 
nuclear munitions. Technological advancements mean that future 
proliferators might seek and find WMD development paths that are 
different from those we are used to detecting and countering. Finally, 
existing nuclear weapon States might pursue new means for delivering 
nuclear weapons, and for defeating U.S. nuclear forces through active 
defenses or counterforce attacks.
  nuclear forces and posture for implementing u.s. deterrence strategy
    It is against this backdrop that the President directed DOD to 
ensure that the U.S. nuclear deterrent is modern, robust, flexible, 
resilient, ready, and appropriately tailored to deter 21st Century 
threats. Each of these characteristics contributes to the effectiveness 
of our deterrence strategy. Modern nuclear forces would incorporate 
21st Century technology, whereas the current U.S. arsenal relies on 
aging technology that, in some cases, dates back more than half a 
century. A robust deterrent is strong and able to convince a range of 
potential adversaries with varying perceptions and values that the 
risks in attacking the United States or its allies far outweigh any 
expected benefits. A resilient deterrent is stable, such that plausible 
changes in adversary strategy, forces, and posture would not create or 
expose vulnerability in our ability to deter attack. A ready deterrent 
is postured to enable rapid response across a wide range of conditions 
and scenarios, thereby further enhancing stability. A tailored 
deterrent is one that is calibrated to the specific actors and 
conditions we see today and would expect to see in the near-term, and a 
flexible deterrent is one that can be adapted further to meet evolving 
threats and sudden upsets.
    Prior reviews across multiple Administrations determined that the 
surest way to maintain stable and effective nuclear deterrence is to 
sustain a full triad of land-based intercontinental ballistic missiles 
(ICBMs), ballistic-missile submarines (SSBNs), and strategic bombers, 
together with dual-capable fighter aircraft (DCA) equipped to employ 
nonstrategic nuclear weapons. Each leg of the triad provides unique and 
complementary capabilities that, together, enable and protect the 
credibility, flexibility, and survivability of the U.S. deterrent. Each 
leg also provides a hedge against technical problems or changes in the 
security environment.
    As we conduct the NPR, Secretary Mattis has directed that we 
continue with the existing Program of Record for recapitalizing our 
aging strategic triad; dual-capable aircraft; Nuclear Command, Control, 
and Communications (NC3) systems; and supporting infrastructure. After 
decades of deferred modernization following the end of the Cold War, 
most of our current systems are well past their planned service lives. 
Replacement and modernization programs for strategic delivery and NC3 
systems must proceed without further delay if we are to retain existing 
deterrent capabilities. Similarly, significant delays in delivering a 
nuclear capability for the F-35 aircraft would create gaps in the 
ability of the United States and its NATO Allies to support U.S. and 
Alliance nuclear posture. Nuclear warhead life extension programs 
(LEPs), together with supporting stewardship activities and 
infrastructure modernization, must also continue apace to ensure the 
continued effectiveness of U.S. deterrent forces.
    DOD will continue to coordinate with DOE's National Nuclear 
Security Administration (NNSA) to ensure that programs for warheads and 
delivery systems are integrated and well aligned. Close and effective 
coordination between the Departments is one key measure of the overall 
health of the nuclear enterprise. Maintaining that health also requires 
stable and adequate funding for both DOD and DOE/NNSA.
                    cost of nuclear recapitalization
    The nuclear enterprise is affordable if nuclear deterrence is 
prioritized appropriately. During the coming period of increased 
recapitalization spending, nuclear forces will remain a small fraction 
of the DOD budget--with annual funding levels that are projected to 
range from approximately 3 percent to 6 percent of total defense 
spending. This includes spending to sustain and operate the existing 
force--currently about $12 to $14 billion per year--as well as 
recapitalization spending to develop and field modernized replacements.
    DOD expects nuclear recapitalization costs to total approximately 
$230-$290 billion spread over more than two decades, from fiscal year 
2018 to fiscal year 2040, in constant fiscal year 2018 dollars. This 
projection includes the total cost of strategic delivery systems that 
have a nuclear-only mission, and a portion of the cost of the B-21 
bomber, which will have both conventional and nuclear roles. The 
fraction of the B-21 cost DOD apportions to the nuclear mission is 
consistent with the historical cost of delivering nuclear capability to 
a strategic aircraft. The DOD projection for total recapitalization 
cost also includes modernizing NC3 systems.
    Previous DOD projections of $350 to $450 billion for nuclear 
recapitalization included the full cost of the B-21 bomber, even though 
the planned size of the bomber force is determined entirely by its 
conventional mission. The previous projections also included DOD 
outyear planning funds that were reallocated in each budget request to 
DOE/NNSA to support nuclear warhead LEPs and other stockpile 
activities. Beginning in fiscal year 2018, these funds will be 
accounted for in NNSA budget requests rather than in DOD's. Finally, 
the updated total of $230 to $290 billion also reflects program 
progress that has been made in fiscal year 2017 and refinements in cost 
projections for individual programs.
    Public mischaracterizations of non-DOD reports have in some cases 
created confusion about nuclear recapitalization costs. This is 
particularly true for studies that included in their estimates nuclear 
force sustainment and operations in addition to recapitalization, but 
are often characterized as projecting costs for recapitalization alone. 
For example, the Congressional Budget Office (CBO) released a report in 
February 2017 that projected $400 billion for the full cost of U.S. 
nuclear forces over the next 10 years. In addition to the DOD 
recapitalization programs that I outlined a moment ago, the CBO 
estimate includes force sustainment and operations; all NNSA weapons 
activities, including warhead LEPs and infrastructure; and a projected 
cost growth of 16 percent.
    In making these long-term cost projections, there are always 
legitimate questions about what to include, what timeframe to cover, 
and what level of uncertainty is reasonable to expect. DOD is committed 
to taking a responsible approach to budgeting for nuclear force 
sustainment and recapitalization. We believe that the President's 
budget request for the current fiscal year and the five-year Future 
Years Defense Plan (FYDP) provides the most reliable assessment of 
these costs.
             president's budget request for nuclear forces
    The President's Budget Request (PBR) for fiscal year 2018 and the 
FYDP provide for sustainment and operation of our existing nuclear 
forces, and fully fund the DOD nuclear recapitalization Program of 
Record. Future budget submissions will reflect any policy and program 
adjustments resulting from the NPR.
    The portion of the PBR dedicated towards the DOD nuclear enterprise 
for fiscal year 2018 is $19 billion, which includes $14 billion for 
nuclear force sustainment and operations and $5 billion for associated 
recapitalization programs. It funds the Columbia-class SSBN to replace 
the current Ohio-class SSBN; the Ground-Based Strategic Deterrent 
(GBSD) to replace the Minuteman III ICBM; the B-21 nextgeneration 
penetrating bomber; the Long-Range Standoff (LRSO) cruise missile to 
replace the AGM-86B Air-Launched Cruise Missile (ALCM); the DOD portion 
of the B61-12 nuclear gravity bomb, which will consolidate and replace 
several existing gravity bomb variants; and modernized NC3 systems. 
Over the FYDP, the fiscal year 2018 PBR funds nuclear recapitalization 
programs at a total of $43 billion.
    The PBR for fiscal year 2018 incrementally funds the first 
Columbia-class SSBN, which requires average ship construction funding 
of about $5 billion per year from fiscal year fiscal year 2021 to 
fiscal year 2025. It funds the GBSD Program at $0.2 billion in fiscal 
year 2018, increasing to $2.5 billion in fiscal year 2022. It also 
fully funds the B-21 bomber at an average of $2.7 billion per year in 
the FYDP, a portion of which is attributed to nuclear modernization, 
and the LRSO at an average of $0.5 billion per year. The President's 
fiscal year 2018 budget adds more than $3 billion across the FYDP, 
relative to the previous year's request, to continue implementing 
recommendations from the 2014 Nuclear Enterprise Reviews for improving 
the health of the DOD nuclear enterprise. This includes $2.8 billion in 
increased funding for the ICBM and sea-based deterrent programs, and 
about $500 million for the program to replace ICBM security 
helicopters.
    These investments demonstrate the President's commitment to nuclear 
deterrence and national defense. The critical mission of ensuring an 
effective nuclear deterrent is one that the Department of Defense 
shares with the DOE/NNSA and the Congress. We look forward to 
continuing to work together in faithfully and responsibly fulfilling 
this mission, and we look forward to congressional and allied input as 
we conduct the NPR. Thank you, again, for the opportunity to testify. I 
look forward to your questions.

    Senator Fischer. Thank you very much.
    Admiral Benedict, welcome.

  STATEMENT OF VICE ADMIRAL TERRY J. BENEDICT, USN, DIRECTOR, 
                   STRATEGIC SYSTEMS PROGRAMS

    Admiral Benedict. Thank you. Chairman Fischer, Ranking 
Member Donnelly, distinguished members of the committee, thank 
you for the opportunity to testify today representing the men 
and the women of your Navy's Strategic Systems Programs. Your 
continued support of our defense mission is appreciated, and 
everyone thanks you.
    My written statement, which I respectfully request be 
submitted for the record, addresses my top priorities in 
detail. I would like to briefly address the long-term 
sustainment of the sea-based leg of the triad.
    While our current life extension efforts will sustain the 
D5 system until the 2040s, the Navy is already beginning to 
evaluate options to maintain a credible and effective strategic 
weapons system to the end of the Columbia-class service life in 
the 2080s.
    I remain strongly committed to the concept of intelligent 
commonality and the sharing of information with the United 
States Air Force as a method to reduce cost and risk.
    At SSP [Strategic Systems Programs], we will continue to 
look long-term and across the spectrum, from our work force and 
infrastructure to our industrial partners and our sister 
services and to our geographic footprint in order to maintain 
our demonstrated performance.
    Thank you for the opportunity to testify today about the 
sea-based leg of the triad and the vital role it plays in our 
national security. At this time, I am pleased to answer your 
questions.
    [The prepared statement of Admiral Benedict follows:]

           Prepared Statement by Vice Admiral Terry Benedict
                              introduction
    Chairman Fischer, Ranking Member Donnelly, distinguished Members of 
the subcommittee, thank you for this opportunity to discuss the sea-
based leg of the triad. It is an honor to testify before you this 
morning representing the Navy's Strategic Systems Programs (SSP).
    The nation's nuclear triad of intercontinental ballistic missiles, 
strategic bombers, and submarine launched ballistic missiles is 
essential to our ability to deter warfare with major adversaries and 
assure our allies. The Navy provides the most survivable leg of the 
triad with our ballistic missile submarines (SSBNs) and the Trident II 
(D5) strategic weapon system (SWS). Submarine launched ballistic 
missiles (SLBMs) are responsible for a significant majority of the 
nation's operationally deployed nuclear warheads. The Chief of Naval 
Operations (CNO) states that sea-based strategic deterrence is the 
Navy's number one priority. In order to execute this mission, we must 
sustain all elements of the undersea leg of the triad including the 
submarine, the propulsion system, and the SWS.
    SSP's mission is to design, develop, produce, support, and ensure 
the safety of our Navy's sea-based strategic deterrent, the Trident II 
(D5) SWS. The men and women of SSP and our industry partners remain 
dedicated to supporting the mission of our Sailors on strategic 
deterrent patrol and our Marines, Sailors, and Coast Guardsmen who 
stand watch, ensuring the security of the weapons we are entrusted with 
by this nation.
    Sustaining the sea-based strategic deterrent capability is a vital 
national requirement today and into the foreseeable future. Our fiscal 
year 2018 budget request provides the required funding to support the 
program of record for the Trident II (D5) SWS. To sustain this 
capability, I am focusing on my top priorities: Safety and Security; 
the Trident II (D5) SWS Life Extension Program; the Columbia-class 
Program; the Solid Rocket Motor Industrial Base; the Navy Nuclear 
Deterrence Mission Oversight responsibility; and collaboration with the 
Air Force.
                          safety and security
    The first priority, and the most important, is the safety and 
security of the Navy's nuclear weapons. Accordingly, Navy leadership 
delegated and defined SSP's role as the program manager and technical 
authority for the Navy's nuclear weapons.
    At its most basic level, this priority is the physical security of 
one of our nation's most valuable assets. Our Marines and Navy Masters 
at Arms provide an effective and integrated elite security force at our 
two Strategic Weapons Facilities and Waterfront Restricted Areas in 
Kings Bay, Georgia, and Bangor, Washington. U.S. Coast Guard Maritime 
Force Protection Units have been commissioned at both facilities to 
protect our submarines. Together, the Navy, Marine Corps, and Coast 
Guard team form the foundation of our security program, while 
headquarters staff ensures that nuclear weapons-capable activities 
comply with safety and security standards.
    The Navy maintains a culture of self-assessment in order to ensure 
safety and security. This is accomplished through biennial assessments, 
periodic technical evaluations, formal inspections, and continuous on-
site monitoring and reporting at the Strategic Weapons Facilities. The 
Department of the Navy completed its most recent biennial self-
assessment in 2016. The department's self-assessment efforts have shown 
a continued focus on compliance and improvement in the oversight of our 
execution of the Navy Nuclear Deterrence Mission (NNDM). We also strive 
to maintain a culture of excellence to achieve the highest standards of 
performance and integrity for personnel supporting the strategic 
deterrent mission and continue to focus on the custody and 
accountability of the assets entrusted to the Navy. SSP's number one 
priority is to maintain a safe and secure strategic deterrent.
                       d5 life extension program
    The next priority is SSP's life extension effort to ensure the 
Trident II (D5) SWS remains an effective and reliable sea-based 
deterrent.
    The Trident II (D5) SWS has been deployed on our Ohio-class 
ballistic missile submarines for 27 years and is planned for a service 
life of more than 50 years. This is well beyond its original design 
life of 25 years and more than double the historical service life of 
any previous sea-based strategic deterrent system. As a result, SSP is 
extending the life of the Trident II (D5) SWS to match the Ohio-class 
submarine service life and to serve as the initial payload for the 
Columbia-class SSBN. This is being accomplished through an update to 
all the Trident II (D5) SWS subsystems: launcher, navigation, fire 
control, guidance, missile, and reentry. Our flight hardware--missile 
and guidance--life extension efforts are designed to meet the same 
form, fit, and function of the original system to keep the deployed 
system as one homogeneous population, control costs, and sustain the 
demonstrated performance of the system.
    The Navy's D5 life extension program remains on track. In February, 
the first two D5 life-extended missiles were outloaded onto the USS 
Maryland (SSBN 738). This was a significant programmatic achievement 
and represents the first step to convert the entire Fleet to life 
extended missiles over the coming years.
    We also reached another milestone in our program earlier this year. 
In February, we conducted the last Follow-On Commander Evaluation Test 
(FCET) of the legacy Trident II (D5) missile, involving the flight test 
of four missiles. The FCET program was established to obtain and 
monitor, under representative tactical conditions, valid operational 
reliability, accuracy, and other performance planning factors. We 
started the D5 FCET program nearly 25 years ago and now have young 
engineers supporting the program who were born after the FCET program 
began. We will begin the Commander Evaluation Test (CET) program next 
year to measure the performance and ability of the life-extended 
missile to meet demonstrated requirements.
    Another major step to ensure the continued sustainment of our SWS 
is the SSP Shipboard Integration (SSI) Program, which manages 
obsolescence and modernizes SWS shipboard systems through the use of 
open architecture design and commercial off-the-shelf hardware and 
software. The SSI Program includes refreshes of shipboard electronics 
hardware and software upgrades, which will extend service life, enable 
more efficient and affordable future maintenance of the SWS, and ensure 
we continue to provide the highest level of nuclear weapons safety and 
security for our deployed SSBNs while meeting STRATCOM requirements. 
Thirty installations were completed in 2016; six have been completed so 
far this year with an additional fifteen planned.
    The Navy also works in partnership with the Department of Energy's 
National Nuclear Security Administration to sustain our reentry 
systems. The Trident II (D5) is capable of carrying two types of 
warheads, the W76 and the W88. Both warheads are being refurbished. The 
W76 life extension program is approximately 80 percent complete, and 
the W88 major alteration program remains on track to support a first 
production unit in calendar year 2019.
    The Trident II (D5) SWS continues to demonstrate itself as a 
credible deterrent and exceeds operational system requirements 
established more than 30 years ago. Our life extension efforts will 
sustain a credible strategic weapon system until the 2040s. The Navy is 
also beginning to evaluate options to maintain a credible and effective 
strategic weapon system to the end of the Columbia-class SSBN service 
life in the 2080s. SSP has a history of more than 60 years of 
developing, producing, and supporting strategic weapon systems to 
support the undersea leg of the triad. We have optimized our SWS and 
applied lessons learned from six generations of missiles and will 
continue to do so until the 2080s.
                         columbia-class program
    The Navy's highest priority acquisition program is the Columbia-
class Program, which replaces the existing Ohio-class submarines. The 
continued assurance of our sea-based strategic deterrent requires a 
credible SWS, as well as the development of the next class of ballistic 
missile submarines. The Navy is taking the necessary steps to ensure 
the Columbia SSBN is designed, built, delivered, and tested on time 
with the right capabilities at an affordable cost.
    To lower development costs and leverage the proven reliability of 
the Trident II (D5) SWS, the Columbia SSBN will enter service with the 
life-extended Trident II (D5) SWS. These D5 LE missiles will be shared 
with the Ohio-class submarines until their retirement. Maintaining one 
SWS during the transition to the Columbia-class is beneficial from a 
cost, performance, and risk reduction standpoint.
    A critical component of the Columbia-class program is the 
development of a Common Missile Compartment (CMC). The U.S. and the UK, 
one of our closest allies, have maintained a shared commitment to 
nuclear deterrence through the Polaris Sales Agreement since April 
1963. Today, the Trident II (D5) SWS is shared with the UK. Like the 
U.S. Navy, the UK is recapitalizing her four Vanguard-class submarines 
with the Dreadnought-class. We developed a CMC that will support 
production in both U.S. and UK build yards. The CMC will allow the life 
extended Trident II (D5) missile to be deployed on the Columbia and the 
UK Dreadnought-class SSBNs.
    In 2015, we began construction of missile tubes to support building 
the U.S. prototype Quad-pack module, the Strategic Weapons System--
Ashore (SWS Ashore) test site, and the UK's first SSBN. The joint CMC 
effort is shifting from design to construction. Any delay to the CMC 
effort has the potential to impact the UK's ability to maintain a 
continuous at sea deterrent posture.
    To manage and mitigate technical risk to both the U.S. and UK 
programs, SSP is leading the development of the SWS Ashore integration 
test site at Cape Canaveral, Florida. This is a joint effort with the 
Navy and the State of Florida investing in the redevelopment of a 
Polaris site to conduct integration testing and verification for 
Columbia and UK Dreadnought programs. We reached a programmatic 
milestone in April when test bay one reached initial operating 
capability.
    To mitigate the risk in the restart of launcher system production, 
SSP developed a surface launch test facility at the Naval Air Warfare 
Center Weapons Division, China Lake, California. This facility will 
prove that the launcher industrial base can replicate the performance 
of the Ohio-class Trident II (D5) launcher system. To do so, we will 
launch the refurbished Trident II (D5) test shapes originally used in 
the 1980s starting later in June.
    The Ohio-class will start to decommission in the late 2020s and the 
Columbia-class must be ready to start patrol in fiscal year 2031 to 
maintain a minimum operational force of 10 SSBNs. The Navy has already 
extended the Ohio-class service life from 30 years to 42 years and 
there is no engineering margin left. Recapitalizing our ballistic 
missile submarines is a significant investment and something that 
happens every other generation, making it critically important that we 
do it right. Any delay has the potential to impact not only our ability 
to meet our operational
requirements but also the UK's ability to maintain a continuous at sea 
deterrent
posture.
                   solid rocket motor industrial base
    The defense and aerospace industrial base--in particular the solid 
rocket motor industry and its sub-tier supplier base--is another 
important priority. I remain concerned with the state of the solid 
rocket motor manufacturers as well as their suppliers of critical 
constituents. While the Navy is maintaining a continuous production 
capability of rocket motors, the demand from both NASA and the Air 
Force has precipitously declined. This decline has resulted in higher 
costs for the Navy and has put an entire specialized industry at risk 
of extinction. To allow this puts our national security at risk. Though 
future Air Force modernization will provide some relief beginning in 
the mid-2020s, the Navy cannot shoulder these costs in the interim, nor 
can our Nation afford to lose this capability. While the efforts of our 
industry partners and others have created short-term cost relief, the 
long-term support of the solid rocket motor industry, including its 
sub-tier supplier base, and maintenance of critical skills remains an 
issue that must be addressed. At SSP, we will continue to work with our 
industry partners, DOD, senior NASA leadership, Air Force, and Congress 
to do everything we can to ensure this vital national security industry 
asset is preserved.
            navy nuclear deterrence oversight responsibility
    As a result of the Nuclear Enterprise Review, the Navy implemented 
a centralized oversight authority for nuclear force readiness. As the 
Director of Strategic Systems Programs, I have accountability, 
responsibility, and authority to serve as the single Flag Officer to 
monitor performance and conduct end-to-end assessments of the Navy 
Nuclear Deterrence Mission (NNDM) elements and report issues to the 
Navy Nuclear Deterrence Mission Oversight Council and the CNO. As the 
NNDM regulatory lead, I am tasked with developing, coordinating, and 
implementing policies approved by the CNO; and conducting end-to-end 
assessments of the Navy's nuclear weapons and nuclear weapons systems 
and personnel, including Nuclear Command, Control, and Communications 
(NC3), for safe, reliable, and effective execution of the NNDM. In 
October 2016, I submitted the first annual end-to-end assessment report 
to the CNO, and I assessed that the NNDM execution was effective and 
sustainable with some areas for improvement.
                    collaboration with the air force
    The final priority is strategic collaboration between the Services. 
The Navy and the Air Force are both addressing the challenges of 
sustaining aging strategic weapon systems and are collaboratively 
working to ensure these capabilities are retained in the long-term to 
meet mission requirements. Many of the industries and required 
engineering skills sets are unique to strategic systems.
    In March 2016, a joint Air Force/Navy team assessed opportunities 
for commonality between the Ground Based Strategic Deterrent (GBSD) and 
the Trident II (D5) program. The team identified commonality candidate 
areas for GBSD. The use of these candidates offers significant 
potential benefits in terms of reducing costs and technical and 
schedule risks to the GBSD and SLBM programs. Commonality will provide 
the Navy and Air Force opportunities to eliminate redundant efforts, 
leverage economies of scale, and sustain shared critical skills and 
capabilities needed by securing the industrial base. We anticipate 
industry will incorporate commonality into their GBSD proposals. Navy 
also will collaborate to leverage GBSD investments for future SLBM 
recapitalization.
    Each leg of the triad provides unique attributes. Furthermore, a 
sustained and ready triad provides an effective hedge, allowing the 
Nation to shift to another leg, if necessary, due to unforeseen 
technical problems or vulnerabilities. For this reason, the Department 
is focused on cooperative efforts that maintain affordability and 
reduce risk to both services, while retaining essential diversity where 
needed to ensure a credible and reliable deterrent.
                               conclusion
    SSP ensures a safe, secure, and effective strategic deterrent and 
focuses on the custody and accountability of the nuclear assets 
entrusted to the Navy. Our nation's sea-based deterrent has been a 
critical component of our national security since the 1950s and must 
continue to assure our allies and deter potential adversaries well into 
the future. I am privileged to represent this unique organization as we 
work to serve the best interests of our great nation. I thank the 
committee for the opportunity to speak with you about the sea-based leg 
of the triad and the vital role it plays in our national security.

    Senator Fischer. My thanks to all of the panel for your 
opening statements.
    General Rand, some observers have suggested extending the 
life of the current Minuteman system as a cheaper alternative 
to fielding the GBSD [Ground-Based Strategic Deterrent]. 
Putting aside the technical and operational reasons why the 
GBSD is necessary, would SLEPing [Shelf-Life Extension Program] 
Minuteman-III actually be cheaper for us?
    General Rand. Ma'am, the short answer is no. Our analysis 
is, over the 50-year lifespan of GBSD, it will be $159 billion, 
and the SLEP of the current Minuteman-III during that same 
period would be $160.3 billion. It is a $1.1 billion 
difference.
    So just simply from financial, there is no benefit there.
    Senator Fischer. Okay. Let's address some other reasons 
then, beyond the cost. Why can't the current system be extended 
past that 2036 date? Why do you believe that?
    General Rand. Very good question. Thank you for the 
opportunity.
    I have boiled down deterrence. To me, it has to have three 
elements to it. To deter the weapon that you use, you need to 
be reliable. The weapons that you use need to be able to be 
survivable and get to the target they are intended for and 
destroy the target. Three, there has to be will.
    In both cases with our current Minuteman-III, reliability 
and survivability is becoming increasingly difficult to do. If 
we were to continue with the Minuteman-III, we would have to 
replace the missile. There are attrition problems that we will 
have with the booster, with missile guidance in the post-
booster vehicle that will require us to replace the missile.
    So if we came up with 21st Century technology for a missile 
that we are replacing, and we are going to use 1970s and 1980s 
technology for command and control of that, it will be very 
technically difficult to do, and it will be very expensive to 
do.
    So those are the simple reasons. This is a wonderful system 
that has now reached its retirement.
    Senator Fischer. We have to look to the future on what is 
going to keep us safe, correct?
    General Rand. Yes, ma'am. Again, as I said, the enemy gets 
a vote in the survivability piece. We own the reliability 
piece. Our airmen will move mountains to make sure the 
Minuteman-III is reliable. But it is, will the weapon get to 
its intended target? That gap is closing with each passing 
year, because the enemy's capabilities are improving.
    Senator Fischer. Thank you, sir.
    Dr. Soofer, opponents of the modernization program laid out 
by President Obama, they often criticize it as propagating Cold 
War-era thinking, and they point specifically to his decision 
to retain the triad as evidence of this.
    General Selva, who is the Vice Chair of the Joint Chiefs, 
responded to this argument earlier this year in testimony 
before the House Armed Services Committee, and he noted that 
the triad had been examined by the Joint Staff three times in 
the last 5 years, and each evaluation resulted in the same 
conclusion, that we need to retain the triad.
    Can you speak to this notion that our nuclear forces are 
based on outdated requirements? Isn't it true that, across-the-
board, the size, composition, posture, and the policies 
relating to our nuclear forces have been updated continuously 
by each administration?
    Dr. Soofer. Thank you, Senator. You are absolutely right.
    This is what the previous administration had found. We are 
in the process of reevaluating that as well in our Nuclear 
Posture Review. But I think it is safe to say that the triad 
will remain the basis of our policies going forward.
    We have at least three fundamental roles for nuclear 
weapons that have endured since the days of the Cold War and 
the post-Cold War period, and that is to deter nuclear attack, 
to help deter large-scale aggression, and to assure our allies. 
To do that, we have relied on a triad of forces to provide the 
flexibility to do that and also to ensure survivability against 
potential changes in the geopolitical environment or 
technology, or the adversary being able to, say, be able to 
take out one leg of the triad or two legs of the triad. If you 
have three legs, it becomes much more difficult for them to 
even imagine launching a first strike against U.S. Forces.
    Senator Fischer. For your personal opinion, do you believe 
we are on the right path with regards to geopolitical changes 
that we are seeing in the world right now?
    Dr. Soofer. We have already begun the analysis in the 
Nuclear Posture Review, and we started out with a look at the 
strategic environment. What has changed since 2010? The 
differences are vast.
    Just to begin with, Russia becoming a great power 
adversary. The other conclusion that we are quickly coming to 
is that, despite the fact that Republican and Democratic 
presidents since the end of the Cold War have been trying to 
reduce reliance on nuclear weapons, other countries are going 
in the other direction. Russia, China, North Korea, other 
countries are increasing reliance on nuclear weapons. So we 
have to take that into account in the way we evaluate our 
future nuclear requirements.
    Senator Fischer. As we look at the modernization program 
that we have in place, which we have been told is on schedule, 
is that enough?
    Dr. Soofer. Senator, honestly, I do not know. This is the
purpose of the Nuclear Posture Review, and we want to take a 
look at all these new developments. I think you have been in 
some of the classified hearings with General Hyten and others, 
and you have seen what the Russians are doing in the way of 
novel nuclear weapons systems. You have seen the expansion of 
Chinese
capabilities.
    We have to take a good, hard look and determine whether the 
current program of record is sufficient or whether changes need 
to be made. I just cannot prejudge that at this time.
    Senator Fischer. Thank you.
    Senator Donnelly?
    Senator Donnelly. Thank you, Madam Chair.
    I want to start by addressing an issue that I think is too 
often overlooked and may be reaching a critical point as we 
move forward with our nuclear modernization efforts. That would 
be the availability of affordable U.S.-manufactured, high-
reliability, radiation-hardened microelectronics. This industry 
has increasingly moved offshore, and we are coming to a point 
where that may pose a real problem for the Department.
    Admiral Benedict, you have worked extensively with the 
Honeywell facility to conduct a long-term buy of their 
strategic radiation-hardened microelectronics for your D5 Life 
Extension Program. Now that your program is completing its 
procurements from
Honeywell, my understanding is there will be a gap before 
future DOD programs will require these unique trusted parts. 
That adds serious risk to the viability of this critical 
capability.
    What I am wondering is, can you tell the subcommittee, from 
your viewpoint, how serious an issue this is, Admiral?
    Admiral Benedict. Thank you, sir.
    I believe it is a very serious issue. As we did the D5 Life 
Extension, we went to extreme measures within the program to 
try to optimize the infrastructure that existed within the 
United States at that time, to the point where we combined the 
requirements from the guidance subsystems as well as the 
requirements from the missile subsystems, both of which are 
required to meet nuclear radiation-hardened levels versus 
sunbelt or space-hardened, which are much lower in comparison.
    We did that, and then we went to a life of type buy in the 
shortest period that we could fiscally afford within the 
program, in order to optimize the infrastructure that existed 
today. We drew extensively from the experience and expertise 
and talent pool that exists at Crane, as part of the Naval 
Surface Warfare Center, to optimize that.
    Then in support of the Air Force, as they started their 
GBSD competition, we provided the United States Air Force the 
entire radiation-hardened electronics database that we built 
through the Navy's life-extension effort as a means to 
jumpstart that effort within the Air Force and cost avoid the 
Air Force's efforts to reconstitute that from scratch.
    So we stand with you in your concern. Again, there is a 
lull here for a period of years until the Air Force comes 
through their GBSD down-select and ultimate award, at which 
point they will need to draw from that type of capability. The 
question will be, what will be left?
    Senator Donnelly. Mr. MacStravic, I would love to hear what 
you have to say.
    Mr. MacStravic. So----
    Senator Donnelly. Okay, is there more?
    Mr. MacStravic. There is more. So, sir, you are talking 
about a systemic problem. Access to secure, trusted, and 
radiation-hardened microelectronics is a critical requirement 
for both the Department of Defense and the Department of 
Energy. The fiscal year 2018 President's Budget has a down 
payment on making sure that the Nation has an assured supply of 
advanced electronics, fostering a next generation of both 
strategic and nonstrategic weapons.
    I believe it is going to take a rather long time for us to 
ensure that we have a robust infrastructure. But we are paying 
particular attention to both near-term shortfalls in the 
availability of components and the long-term availability of 
the core technologies we are going to need to be able to 
dominate this war space.
    Senator Donnelly. Admiral Benedict and General Rand, I know 
you are both well-aware of the work that Naval Surface Warfare 
Center Crane is doing with both SSP and the Air Force to adapt 
the successful parts program developed for the Trident Life 
Extension to support the acquisition of GBSD.
    I look at the role Crane is playing, and I look at the 
problem we may face with Honeywell. It seems clear that, if we 
are going to be undertaking all of these nuclear modernization 
efforts, all of which have unique requirements for radiation-
hardened, high-reliability parts, we should probably be 
coordinating our acquisition strategy across programs to try to 
smooth the requirements from program to program and sustain 
critical capabilities in the services and industrial base.
    Mr. Soofer, Mr. MacStravic, what are your views on this, on 
the more commonality, the more opportunities as we coordinate 
our acquisition strategy, the more chance we have to sustain 
these capabilities?
    Dr. Soofer?
    Dr. Soofer. Senator, this would just be my personal view. 
Again, we will be evaluating this in the context of the Nuclear 
Posture Review.
    So commonality can be helpful if it saves money, but if you 
have too much commonality and something goes wrong with a 
common part, then you are opening yourself to a potential 
vulnerability.
    Senator Donnelly. How about the coordination of acquisition 
strategy, so that we can maintain some of these critical 
locations?
    Dr. Soofer. May I turn that over to the acquisition expert?
    Senator Donnelly. Sure.
    Mr. MacStravic. So the short answer is yes. In fact, we are 
doing that.
    The acquisition strategy for GBSD is predicated on a wide 
raft of information that was available, provided by SSP, and 
informed all potential offers on opportunities, technological 
as well as material, for enhancing commonality, reducing cost, 
improving performance.
    Once the Air Force has received the proposals and made an 
award, my office will be conducting, and conducts annually, a 
critical industrial base assessment, to determine whether or 
not the design--and remember, all we are rewarding with GBSD is 
a design--is going to cause additional stress or additional 
opportunities for critical suppliers at the second and third 
tier, which is where these components would be performed.
    So in addition to making sure that there is mutually 
conforming acquisition strategies, my office ensures that 
acquisition execution does not accidentally create gaps in 
capability or systems.
    Senator Donnelly. General, I was going to ask you the same, 
but I am almost out of time, so I want to ask you something 
else.
    I understand you are planning a longer life for the B-52, 
perhaps out to 2050. What is your view on the need to modernize 
the engines, if we are going to do that?
    General Rand. Thank you, Senator.
    I think it is one of my top priorities that I would like to 
pursue with the Department of the Air Force, and that I am. 
There are many benefits to this, strategic and tactical and 
operational level. The biggest one is we will have a 30 percent 
efficiency and increased time on station.
    That would reduce significantly our requirement for 
tankers, and they could be used by other airplanes that needed 
the tankers. Also, if we reused the engines today, typically 
have a lifespan of 40, 50 years where you can mount them and 
not take them off the wing again. That would reduce our 
manpower requirements that we spend quite a bit of time in the 
sustainment of the engines. As faithful as the TF33 engine has 
been, it takes a lot of people and a lot of maintenance to keep 
it airworthy.
    I think that, for those reasons, and the fact that we are 
going to be flying the B-52 out to 2050, I think there is a lot 
of value in assessing this.
    Senator Donnelly. Thank you.
    Thank you, Madam Chair.
    Senator Fischer. Senator Peters?
    Senator Peters. Thank you, Madam Chair, for holding this 
hearing.
    To our witnesses, thank you for your testimony this 
afternoon. We certainly do appreciate it.
    Dr. Soofer, I would like to ask about the Ballistic Missile 
Defense Review, in particular, and the environmental impact 
statements that are being conducted by the Missile Defense 
Agency.
    My understanding is that the environmental impact statement 
is very far along in the process, if it has not already been 
completed, which it may have, and it was due to be released 
last year, actually. However, Deputy Secretary Work informed 
the Armed Services Committee that because the topic of a 
potential future interceptor site will be addressed in the 
review, the Department will hold off on making a designation of 
a preferred site for a continental U.S. interceptor site.
    As you know, the EIS [Environmental Impact Statement] was 
required in the fiscal year 2013 NDAA, so if a decision is made 
to move forward with the interceptor site, the initial 
environmental review is already complete. I believe the 
findings of that EIS would be very helpful and very useful in 
informing the review about the potential cost of environmental 
mitigation on those sites.
    Could you explain to me, please, why the EIS for the 
interceptor site cannot be released until the review is 
completed?
    Dr. Soofer. Senator, I do not know why it cannot be 
released. I will take that back for action.
    You are correct. It has been completed. You are also 
correct that it is going to be factored into the Ballistic 
Missile Defense Review to see whether we even need an East 
Coast missile defense site.
    But if I can get back to you, sir, I will find out why it 
cannot be released. Or, if it can be released, get it to you as 
soon as possible.
    Senator Peters. I would appreciate that, if you could do 
that. I appreciate that it is going to be considered in the 
overall review in the assessment.
    If I take that a step further, will the assessment utilize 
the findings on a potential site, in looking at a potential 
site that may be the lowest cost or the least impacted, that 
that will be a significant factor in which site is selected?
    Dr. Soofer. Senator, I think at the level of the BMDR 
[Ballistic Missile Defense Review], we will ask the question of 
whether we need an East Coast site, how many interceptors we 
might need. But the determination of where that site would be 
may not be considered at the level of the Ballistic Missile 
Defense Review.
    Senator Peters. Right. So that would be at the next level 
then, as you are evaluating specific sites.
    Dr. Soofer. Exactly right.
    Senator Peters. It is part of the broader review, so 
obviously, it is a critical component of the overall decision 
that will be made both as a general policy and then specific to 
sites.
    Dr. Soofer. Yes, sir.
    Senator Peters. I am also very concerned about the Russian 
deployment of an intermediate-range, nuclear-capable missile 
that is clearly in violation of the INF [Intermediate Nuclear 
Forces] Treaty. My question to you as well, Dr. Soofer, is, 
what concrete steps has the administration taken so far to 
react or to deal with this violation of the treaty? Do you 
believe that they are sufficient to deny Russia a military 
advantage that they gained from the deployment of these 
intermediate-range missiles?
    Dr. Soofer. Thank you, Senator.
    The administration has concluded that the current situation 
is not sustainable. It is a violation, and we need to do 
something about it.
    The National Security Council is reviewing steps to place 
more meaningful pressure on Moscow, both in terms of diplomatic 
and military measures to return them to compliance.
    Meanwhile, the Department of Defense is reviewing military 
response options and framing this violation, this capability, 
again, in the context of the Nuclear Posture Review.
    What does it mean? Why is Russia doing this? So, for 
instance, we know that Russia already has air-launch cruise 
missiles and sea-launch cruise missiles that can range similar 
targets in Europe. So the question is, why go forward? What is 
the military capability that Moscow derives from this? We come 
to the conclusion that there must be some military capability 
that outweighs the political repercussions of actually 
violating the INF Treaty.
    So for Russia, this has a meaningful military capability, 
and we need to assess what that is and how to address it.
    Senator Peters. Well, so we should be expecting some 
concrete steps under what sort of timeline do you think?
    Dr. Soofer. Senator, I do not have a timeline for you, to 
be honest with you.
    Senator Peters. But do you think it is important to do it 
sooner rather than later?
    Dr. Soofer. I believe it is. Yes, sir.
    Senator Peters. It is a priority now, as far as being under 
review?
    Dr. Soofer. It is a priority. It is definitely a priority. 
The National Security Council, as I said, has already begun the 
process. They are well into the process, I should say.
    Senator Peters. Because I think it is important. I agree. 
It is my belief, too, that sooner is better.
    Dr. Soofer. Yes, sir.
    Senator Peters. We have concern with our allies now who are 
wondering where the United States posture will be, not just on 
nuclear deterrence but where we are on defense of Europe as 
well. Taking some concrete actions would be very important.
    I guess that leads to my final point and my concern with 
how NATO allies, in particular, see the United States. 
Certainly, Secretary Mattis has been very clear, I think, in 
U.S. support of our NATO allies. He has also been very clear 
that we need to have strong allies, that you cannot be a power 
without having a lot of good friends around you as well.
    That is why it was disturbing that President Trump did not 
reaffirm the U.S. commitment to article 5 of the NATO Treaty. 
In fact, the reports say he basically took it out of his 
statement when it was put in there, so he made a conscious 
effort not to mention that, which I think was unnerving to many 
people in Europe.
    So, Dr. Soofer, last question, while I know you were not 
directly involved in any of that, but maybe you can comment. 
What role should the United States alliances play in our 
nuclear posture? Wouldn't you agree that it is just as 
important to reassure our allies as it is to deter our 
adversaries?
    Dr. Soofer. Absolutely, Senator. As I pointed out, the 
fundamental roles for nuclear weapons are to deter our 
adversaries and assure our allies. U.S. nuclear capabilities, 
dual-use capabilities in Europe, are a fundamental element of 
our extended deterrent that reassures our allies, and we will 
continue to do so. The Secretary of Defense has made that 
clear.
    Senator Peters. Thank you so much. I appreciate it.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator.
    Senator Sullivan?
    Senator Sullivan. Thank you, Madam Chair.
    Gentlemen, thank you for your testimony here.
    I just want to align myself with Senator Peters' comments 
on allies. I mean, we are an ally-rich Nation. Most of our 
adversaries and potential adversaries are ally-poor. It is 
probably the most important strategic advantage we have as a 
Nation, and we should be doing everything to deepen our 
alliances and expand them. I know a number of us have had 
discussions with General Mattis, Secretary Tillerson. So I know 
the Chairman of the Joint Chiefs feels that way.
    So I couldn't agree more. We have to do more to support our 
allies and expand. We have great opportunities, great 
opportunities, to expand alliances in Asia, in the Middle East. 
I think it is something you see strong, strong bipartisan 
support on. I commend Senator Peters for his statement on that.
    I also want to talk about missile defense.
    Dr. Soofer, I am glad that you are there. I know your 
background. I know how much experience you have on the issue. 
You may have seen, 2 weeks ago, a number of us, including 
Senator Peters and I, introduced a comprehensive Advancing 
America's Missile Defense Act.
    Before I want to ask a couple questions about some of the 
elements of that, can you give the committee here a sense of 
the increased threat that we are seeing right now with regard 
to North Korea? There has been plenty of open committee 
testimony, unclassified, saying it is no longer a matter of if 
but when North Korea is going to have the capability to have an 
intercontinental ballistic nuclear missile that can range not 
just Alaska and Hawaii but Detroit and New York and Chicago and 
L.A. [Los Angeles].
    Give us a sense of how you are reviewing that threat. I 
know you cannot talk about timelines, but I think it is safe to 
say our intel community has consistently underestimated what 
they are doing, particularly with all his testing. Can any of 
you give us a sense just how real that is?
    Dr. Soofer. Senator, thank you.
    I would just repeat what the intelligence community has 
said. North Korea is poised to conduct its first ICBM 
[Intercontinental Ballistic Missile] flight test in 2017. I 
think that----
    Senator Sullivan. They have already launched a satellite, 
so they have the ability to fire an ICBM, essentially. Isn't 
that correct?
    Dr. Soofer. Exactly.
    Senator Sullivan. So all they are missing is the reentry 
vehicle for a nuke, in terms of the capability?
    Dr. Soofer. Their most recent tests demonstrated a 
capability to--I think they have made further progress in their 
ability to develop reentry vehicles, in their last tests.
    Senator Sullivan. That is another troubling development.
    Dr. Soofer. So, again, we are going to have to factor all 
this into the Ballistic Missile Defense Review. But in addition 
to what you have seen in the open press, the classified 
information I think is even more dire. I mean, there is no 
question about it.
    So the question for us, as we conduct a Ballistic Missile 
Defense Review is, what does it all mean? What can we do? What 
are the potential options for addressing the threat?
    Senator Sullivan. Our goal is to make sure that, you know, 
the Members of the Senate who are on the bill that we 
introduced 2 weeks ago, is to make sure that, whoever is in the 
White House, has the kind of strategic time that, if and when 
he has this capability, we can announce to North Korea, look, 
you try to shoot one or two or three. You know, you want to go 
out in a blaze of glory? We will shoot that down. We have the 
99 percent capability.
    I know we do not want to get into numbers. Do we have the 
99 percent capability right now to shoot down a rogue missile 
from North Korea? If you do not feel comfortable answering in 
this setting, you do not need to.
    Dr. Soofer. Senator, I think that we have a measure of 
protection today against the North Korean threat.
    Senator Sullivan. But don't you think we can always enhance 
it, given that the threat is increased?
    Dr. Soofer. The pace of the threat is advancing faster than 
I think was considered when we did the first Ballistic Missile 
Defense Review back in 2010.
    Senator Sullivan. So some of the key elements of the bill 
that we introduced are more GBIs [Ground-Based Interceptors], 
more advancing in terms of the acceleration of multiple kill 
vehicles on top of those GBIs, and an integrated, layered 
sensor system that would make sure that all of our different 
theater THAAD [Terminal High-Altitude Area Defense], theater 
Aegis, Homeland back here in America is integrated where we 
have an unblinking eye with regard to sensors, not only ground-
based but in space.
    Do you support those three pillars of how we are looking at 
missile defense, in your personal opinion? I know you are doing 
a review, but you are also someone who has a lot of knowledge 
on this issue.
    Dr. Soofer. Senator, I do support those, personally. I 
think it is based on an approach that was outlined by the 
previous administration. It enjoys support here in the 
Congress. I think it makes eminent sense.
    So the only question now is, based on how we understand the 
projected threat, whether that is enough.
    Senator Sullivan. As I am sure you are aware, we cut 
missile defense, the MDA [Missile Defense Agency] funding, by 
almost 50 percent since 2006. Do you think the current budget 
proposed by the President does enough to start to reverse that 
trend, again, given the threat levels?
    Dr. Soofer. Senator, I support the President's budget.
    Senator Sullivan. Good answer. I am sure you had to answer 
it that way.
    I do not think it does enough, so I think we need to do 
more.
    Let me ask one final question, and it goes back to Senator 
Peters. As we are thinking about missile defense, we have 
THAAD. We have Aegis in the Asia-Pacific. The President talked 
about maybe a THAAD in Saudi Arabia.
    Can you give us a sense--and, again, I know this is what 
Senator Peters asked, but I think it is a really important 
question. How do we start to incorporate thinking of protecting 
our Homeland?
    The President talks about America first. I think we need 
America first on missile defense.
    But protecting our Homeland in a way that integrates the 
usefulness and the knowledge we have from our allies, for 
example, the Israelis, as you know, in the NDAA every year, we 
have been very supportive of Iron Dome. But in some ways, they 
have technology and they have advanced in ways that could 
probably help us.
    How do we need to look at integrating our alliances with 
protecting not only our allies but protecting our Homeland with 
our allies?
    Dr. Soofer. Senator, that is a key issue for the Ballistic 
Missile Defense Review. That is exactly what we are going to be 
looking at.
    I think everything that you have proposed makes great 
sense. We have to do that. We also have to ask the question of 
whether the allies could do more, as well, on their own to 
provide protection.
    So all of these factors will be weighed. I hope we can 
continue a dialogue on this as we move forward on the Ballistic 
Missile Defense Review to get your views and other Senators as 
well.
    Senator Sullivan. Great. Thank you, and congratulations on 
your new position. I am glad you are in that position.
    Dr. Soofer. Thank you.
    Senator Sullivan. Thank you.
    Senator Fischer. Thank you, Senator.
    Senator Warren?
    Senator Warren. Thank you, Madam Chair.
    Thank you to our witnesses for being here today. I want to 
ask some questions about the Nuclear Command, Control and 
Communication system, the NC3. I know it is actually 62 
separate systems that involve everything from radios on the 
ground to systems operating on Air Force One. I also know that 
NC3 is critical to making sure that the President can 
communicate with commanders even if the United States is under 
nuclear attack.
    So, obviously, security and resiliency are key components 
here.
    So, General Rand, as the head of Air Force Global Strike 
Command, you are the one who is in charge on this. How would 
you describe the age and health of the NC3 system today?
    General Rand. Ma'am, the system was allowed to atrophy or 
did atrophy over the last 25 years. There is no denying that. 
We have owned up to that, I think, as a Nation. The first thing 
you have to do is admit that. Then you have to identify--and, 
as you mentioned, there is actually 107 subsystems of which the 
Air Force maintains 62 of those, of which is 70 percent of the 
NC3 budget.
    So the first thing we did is we started this journey a 
little over 2 years ago of, what is NC3? We have identified in 
a very thorough way the systems. Then we analyzed the health of 
each of those systems, and that is ongoing. Some of them are 
obsolete. They need to be replaced. Some need to be upgraded.
    We are doing those things. But we did not get here 
overnight, and we will not fix NC3 overnight. But we are on a 
good path. So I would tell you, where we are today--and, 
ironically, I just had what we call an NLCC [National 
Leadership Command Capability] NC3 Council that I chair with my 
fellow four-star major command commanders yesterday, and we are 
at least now able to identify and have a healthy discussion 
about what we need to do to fix some of these things. We would 
not have been able to do that 2 years ago.
    There are good things on the horizon. We are about to close 
the deal on getting the presidential national voice capability, 
conferencing capability. Long overdue. We are getting very 
close to the family of beyond line of sight. It is called FAB-T 
[Family of Advanced Beyond Line-of-Sight Terminals] terminal, 
along with the force element terminal that will go on our 
bombers and tankers. That will give it an increased receive 
capability of getting messages, approaching anything to do with 
nuclear escalation.
    These are some very meaningful things. We are standardizing 
across our command posts in our operations centers the ground-
based terminals and radios for us to use. It is called Global 
Ascent.
    So there are many things that we are moving out on and 
making improvements on. So we are in a far better place than we 
were. I will assure you this has the top-level attention in the 
Department of Defense.
    Senator Warren. Good. So when General Hyten says this is a 
top priority for me, you are all on board for that.
    General Rand. Ma'am, I could not have told you what NC3 was 
2 years ago. Now I dream about it.
    Senator Warren. Okay. The dreams are getting better, right?
    General Rand. Periodically now, we brief AT&L [Acquisition, 
Technology, and Logistics] and the Vice Chairman, and those go 
directly to the Deputy SECDEF [Deputy Secretary of Defense] and 
SECDEF [Secretary of Defense]. This is a priority with the 
Office of Secretary of Defense.
    Senator Warren. Can I ask a question on that? Priority, I 
am very glad to hear this and hear the changes that you are 
making. I want to ask a slightly different question about 
urgency.
    Given the age of the systems involved and how crucial they 
are to everything we do, do you have much margin for error in 
this process?
    General Rand. Ma'am, I would tell you that we use the term 
``just in time.'' I will tell you, it should be called ``late 
to need.''
    Senator Warren. Yes.
    General Rand. In the nuclear enterprise, this is one 
element of it that we have allowed things to get to the point 
where we do not have the margin of error.
    Senator Warren. Okay. All right.
    General Rand. That is why I am here. That is why this 
modernization effort is so important, because any SLEP we have 
had has been eroded.
    Senator Warren. It is at least helpful to know, as you say. 
If we do not know it, we cannot change it. You have to come to 
us and let us know how we can be helpful.
    I want to ask a question from a little different angle, 
too. You are the primary customer for NC3. You set the 
requirements. I know you are staffed up now to do this. But Air 
Force Materiel Command is responsible for actually acquiring 
the systems to meet your requirements.
    So when General Hyten was here recently, he said that he 
was concerned about staffing gaps on the acquisition side of 
the NC3 program.
    General Rand. Yes, ma'am.
    Senator Warren. So let me ask you, General Rand, what is 
the Air Force doing in this budget to address the acquisition 
challenges associated with NC3?
    General Rand. Thank you for that. I am in very close 
cahoots with my dear friend Ellen Pawlikowski, who is the 
Commander of Air Force Materiel Command.
    Yesterday, at our council meeting, two issues came up, the 
funding for the FAB-T FET it is called, that Force Element 
Terminal, and for the programs that we have, many of the 
programs, is to make sure that we have the people who can 
manage those programs from cradle to grave. We are going to the 
Air Force to discuss now how we can get the manning where those 
gaps exist.
    But we have come a long way, again, in the last year. Now 
the civilian hiring freeze slowed us down a little bit, but we 
have reprieve from that. I have been able to bring in an 
additional 235 people to Air Force Global Strike.
    Senator Warren. Two hundred thirty-five.
    General Rand. Yes, ma'am. We stood up, 1 April, we stood up 
the NC3 center at Air Force Global Strike and Ellen, we are 
working--and for the first time, we have in NC3 program manager 
at Hanscom Air Force Base in Boston. We have identified what 
she needs.
    We need to do a full court press to try to get an 
additional 50 to 60 people to help with the nuke weapons center 
and the NC3 portfolio. There are a variety of programs that we 
need to man up, and we are going to do it.
    Senator Warren. Good. I appreciate the work that you are 
doing.
    I am out of time now, but I am going to send some questions 
for the record to Mr. MacStravic just about your role in 
helping out on this.
    I am glad you are making this a real priority, and I 
understand the urgency. If we can be helpful, I hope you will 
let us know.
    General Rand. Thank you very much.
    Senator Warren. It is important.
    General Rand. I appreciate your support.
    Senator Warren. Thank you. You bet. Thank you.
    Thank you, Madam Chair.
    Senator Fischer. Thank you.
    Senator Cotton?
    Senator Cotton. Thank you, gentlemen. Thank you for your 
testimony today.
    General Rand, in Congress, we often talk about ballistic 
missile defenses from the threats we face of rogue nations like 
North Korea, for instance, but our adversaries are not sleeping 
on this potential technology. They, too, would like to develop 
ballistic missile defenses. How can we ensure that our reentry 
vehicle system remains survivable against any emerging threats 
by our adversaries?
    General Rand. Sir, we need to develop emerging 
technologies. That is why I am a huge proponent for GBSD.
    Before you came in, I had mentioned that there are two 
aspects to deterrence: reliability, which we own, and the 
weapon survivability, which the enemy gets a vote in. We need 
to do some things that we will not be able to do with existing 
systems to ensure that the weapon will get to its intended 
target with the intended effect that we have.
    That is the essence of why we need GBSD. So what we need to 
do is to pursue this acquisition strategy and stay true to 
course and field this capability by the time we need, which is 
2030. Because that is when I see this big closure of the 
technology gap that we have had the benefit of having for many 
decades that is getting smaller and smaller. If we do not do 
something, that gap will close.
    Senator Cotton. You say there are things we need to do, and 
we need to complete this acquisition strategy. Could you be 
more specific about that?
    General Rand. Yes, sir. We are on track. Right now, we are 
going to down select to two companies to go for GBSD this 
summer to go into the TMRR, the Technological Maturity Risk 
Reduction. This is the process.
    In 3 years, then we will down select to the company. We are 
on track with the strategy.
    Any specifics, if I may, sir, to talk about what those 
emerging technologies are, I would like to take into a closed 
session about what we would need to the guidance system, to the 
warhead, et cetera.
    Senator Cotton. So the specifics that would ensure our 
reentry vehicles are survivable in the GBSD world as compared 
to today's world you would like to discuss in a classified 
setting.
    General Rand. I would need to do that, yes, sir.
    Senator Cotton. I understand.
    Since we are on GBSD, though, I understand that one option 
under consideration is moving operations into an integrated 
command center, so you just have one building on base that host 
missile crews, maintainers, and security forces. That would 
mean instead of having 15 crews on alert in a missile field, 
you would have 6, 7, or 8 on alert.
    This concept is a direct result of the RFP [Request for 
Proposal] mandating a reduction in operations and sustainment 
costs. No doubt, the missiliers would appreciate not having the 
2-hour drive out to launch control centers. I know that we have 
to look for places to trim costs in this budgetary environment.
    But the large number of command centers and launch 
facilities in the three missile fields are, in fact, a real 
irritant to enemy planners. I am concerned that this setup 
might give adversaries one target instead of multiple targets, 
freeing up some of their forces to strike other militarily 
significant targets or even target American cities.
    So could you please elaborate on how you can reduce on-
alert missile field crews without reducing missile field 
resiliency?
    General Rand. Yes, sir. I think that is a fair question. I 
think that these would be moderate improvements, and that would 
not take away from complicating the enemies' targeting. There 
would still be a lot of launch facilities they would have to be 
accountable for, and I think that we would still give them a 
targeting problem.
    We are mandated by the New START [New Strategic Arms 
Reduction Treaty] Treaty right now. I am happy to report that 
we have completed that. We still have 450 launch facilities 
that the enemy has to be accounted for.
    Senator Cotton. Thank you.
    Dr. Soofer, congratulations on your new position.
    Dr. Soofer. Thank you.
    Senator Cotton. Our committee's loss is the country's gain.
    I would like to talk briefly about satellite doctrine. 
Decades ago, we had satellites that were, oftentimes, single-
mission satellites. There was an understanding that, if a 
sensor was nuclear-designated, that the United States might 
take it as a precursor to a nuclear strike, if there was any 
effort to impair or destroy that satellite.
    Obviously, one trend in space today is multi-mission 
platforms. How would that trend in satellite technology affect 
our doctrine as it relates to any effort to disable or destroy 
American satellites?
    Dr. Soofer. Sir, space is actually not in my portfolio.
    Senator Cotton. But you are very smart on nuclear doctrine, 
and I think nuclear doctrine is.
    Dr. Soofer. One of the key things we will be looking at in 
the Nuclear Posture Review is potential vulnerabilities to the 
U.S. nuclear deterrent. So we will be examining that very 
issue.
    So if the adversary can blind our indications and warning 
to an attack, that is a big deal. One way they would do that, 
of course, is through satellites. If our satellites are 
vulnerable, we have to figure out some way to compensate for 
that.
    Deaggregating, spreading assets around, makes a lot of 
sense. There are other ways of doing it. I remember many years 
ago, we had a concept called Operationally Responsive Space, 
where we had small satellites in the barn that, if our main 
satellites were taken out, we could immediately launch new 
capabilities.
    So I think all of these points will be addressed as part of 
a broader National Defense Strategy. But the key point about 
vulnerability of indications and warning will be something that 
we will look at carefully in the Nuclear Posture Review.
    Senator Cotton. I think as part of that review, you do need 
to consider the doctrinal implications. In a world in which a 
satellite sensor is nuclear-only, it is only designed to detect 
nuclear launches of our adversaries, it is a reasonable 
understanding for a nation-state to say a strike on that 
satellite will be treated as an early warning of a first strike 
against our territory.
    If, in an evolving space environment, satellites carry not 
only nuclear sensors but say GPS [Global Positioning System] 
positioning packages or communication packages, our adversaries 
might rightly say you can no longer treat that as an early 
indicator of a nuclear strike, if we are going to be in a 
conventional environment and treat that as a communications or 
GPS positioning package. It is just something that I think we 
need clarity on, as space technology has evolved.
    Thank you.
    Senator Fischer. Thank you, Senator Cotton.
    Senator Heinrich?
    Senator Heinrich. I will just start, for the record, and 
mention that ORS [Operationally Responsive Space] is doing 
quite well. I think, this year, their budget actually reflects 
the direction and trend that we have all seen coming for quite 
some time, and I am excited about that progress.
    I want to start with General Rand and Admiral Benedict.
    Like Senator Donnelly, I continue to be very interested in 
the ensured supply of domestic, trusted microelectronics. The 
Air Force and the Navy are pursuing separate refurbishments of 
fusing systems for the W88 and the W87, which includes 
partnering with Sandia National Labs. Sandia's portion of the 
work for Navy and Air Force includes designing, qualifying, and 
manufacturing critical strategic radiation-hard microsystems 
for both of those, the 88 and the 87.
    How important is strategic radiation-hard capability to the 
U.S. deterrent, and to both the Air Force and the Navy, 
consequently?
    Admiral Benedict. So in the program that we refer to as the 
Alt 370, which is the new arming, fusing, and firing circuit 
for the W88, we were directed, the Navy and the Air Force, to 
work that program jointly. The Navy has the lead in support of 
that effort.
    That has proven to be, I would say, the example, I think, 
when General Rand and I talk about commonality and interservice 
support. I think the Alt 370, that fuse effort, is this sort of 
model that I look to.
    We have made accommodations within our reentry body, as has 
the Air Force, in order to develop sort of a tiered approach. 
So there are components within that device that are absolutely 
common and will be utilized exactly in the Air Force program. 
There are components in there that are adaptable based on the 
fact that our reentry body flies on a Trident. Their reentry 
body will fly on a Minuteman or a GBSD. Then there are unique 
based on the two missiles.
    In doing so, we were able to, I would say, assist the Air 
Force in cost-avoiding a significant amount of money. What it 
did is it allowed both services as well as Sandia to optimize 
the talent pools and grow those over time.
    So I applaud and I am 100 percent on board. That program is 
on schedule for a December 19 IFI in the United States Navy, 
and all the work has been transferred to the Air Force in 
support of their fuse program, sir.
    Senator Heinrich. Given that the MESA [Microsystems and 
Engineering Sciences Applications] facility there at Sandia is 
soon going to reach the end of its service life, what are your 
thoughts on how to make sure we maintain that niche capability 
of both research and production of rad-hard trusted 
electronics?
    Admiral Benedict. Yes, sir. I believe that within the Navy 
and the Air Force, there are four unique, specific technologies 
that, if the United States Navy or the United States Air Force 
is not in design, development, or production, then industry, in 
and of themselves, will be incapable or have no economic 
incentive to sustain, one of them being solid rocket motors at 
the strategic grade, at both the Navy and the Air Force. The 
other one is radiation-hardened electronics to the levels that 
we need, which are far above sun radiation. The other one is 
reentry body materials, and the specific unique aspects of 
those. Then the fourth one is our guidance requirements for 
both ICBMs and SLBMs [Submarine-Launched Ballistic Missiles].
    So I can remember back to the day when there were 
congressionally mandated technology application programs, which 
ran at a certain level. They were generated, directed by 
Congress, so that the Navy and the Air Force could sustain 
those capabilities as well as grow the personnel talent in 
order to implement in the future.
    Over time, those have basically waned to zero. So I think 
those are absolutely necessary attributes. Today, what we are 
doing is working collaboratively, the Navy and the Air Force, 
to try to, through commonality, share some of those 
requirements.
    But they are on the edge of extinction. If we find 
ourselves in a period, as we do now, the Navy coming out of D5 
LE [life extension], a period of time before GBSD ramps up, the 
Nation, not the Navy or the Air Force, but the Nation, I 
believe, is at risk.
    Senator Heinrich. General?
    General Rand. I do not have anything to add. I agree with 
Admiral Benedict completely on that.
    Senator Heinrich. It sounds like we need a MESA 2.0.
    But moving to another related issue, General Rand, I wanted 
to ask you, it is my understanding that, last year, Kirtland 
Air Force Base actually became a Global Strike Command base.
    How is that transition going? What are you doing to 
integrate the base into your command?
    General Rand. Yes, sir. Thank you.
    Senator Heinrich. Bring us up to speed on that, if you 
could.
    General Rand. Really, really proud to have Kirtland in the 
command. It made all the sense in the world. I would tell you 
the transition is over. It was very seamless.
    Senator Heinrich. Great.
    General Rand. It was a snap the chalk line, and we did it. 
Eric Froehlich and his wife just got the O'Malley Award for the 
best wing commander and spouse in the Air Force. Great 
leadership matters.
    But it made sense, if I may, because if Air Force Global 
Strike is designated the lead command for all things nuclear in 
the United States Air Force, there is so much at Kirtland. It 
made all the sense in the world to include the Underground 
Munitions Maintenance and Storage Complex, Sandia labs, the 
Nuclear Weapons Center, the Safety Center, all the things that 
we do.
    So this has just been an outstanding opportunity for us to 
kind of share best practices on all the things that we do.
    Senator Heinrich. Great. I am glad to hear that.
    Assistant Secretary Soofer and General Rand, for that 
matter, New START is set to expire in 2021. What are we doing 
to prepare for that? Is the U.S. seeking to extend the treaty? 
If either the Russians or the United States decided to pull out 
of it, what would be the consequences for strategic stability? 
What would we potentially lose in terms of defense and 
intelligence benefits?
    General Rand. If I may, first, and then I will defer to Dr. 
Soofer to give the policy part, for me, it was the compliance 
piece. I am happy to report that we are in compliance with what 
we were required to do with our bombers and our ICBMs.
    As of 2 June, we are 3 months ahead of STRATCOM's 
[Strategic Command] request date. It was February 2018, I 
think, that we had to meet the New START, and we are complete. 
So compliance, the United States Air Force is in full 
compliance with New START.
    I will defer to you.
    Dr. Soofer. Admiral Benedict, why don't you----
    Admiral Benedict. Sir, if I may, we have completed our 
conversion on the New START Treaty on 13 of the 14 boats. The 
remaining boat will be done next month. It has departed the 
shipyard, so it just has been one of access. So we will 
complete next month, well in advance of General Rand's 
acknowledgment of the February 2018 requirement.
    Senator Heinrich. Great.
    Dr. Soofer?
    Dr. Soofer. Senator, I believe the Secretary of Defense has 
confirmed the importance of the New START Treaty. The National 
Security Council is conducting a review of our arms control 
policies and our treaties, and they will take into account New 
START as well. We are looking at the INF Treaty, so that will 
all be weighed in.
    But in terms of how we assess the New START Treaty, this is 
the way I look at it. It is not so much what is in treaty but 
what is not in the treaty that may present the problem that we 
are going to look at in the Nuclear Posture Review.
    So the New START Treaty did not address a whole host of 
nonstrategic nuclear weapons, and it is those categories of 
weapons that are on the rise. So we have to understand what the 
implications are of that for nuclear posture.
    So I would just say that there is a broader issue than just 
whether or not to stay within the New START Treaty. Even if you 
stay in the New START Treaty, there may be strategic 
implications.
    Senator Fischer. Thank you, Senator.
    We do have some time, so I would like to do second round. 
Let's set it at a 4-minute round, please.
    General Rand, in your prepared testimony, you state that 
lessons learned from the difficulty sustaining and modernizing 
that B-2 small fleet should be considered when determining the 
purchase size of future acquisitions such as the B-21.
    Could you elaborate on that, please?
    General Rand. Yes, ma'am. I mean, obviously, the first 
thing is to meet combatant commander requirements. So the 
reason that I have established what I consider to be a minimum 
of 100 B-21s has everything to do with being able to meet the 
requirements that the combatant commanders have established for 
us.
    But we have to learn from the painful experience of the B-
2. That program was going to be well over 100. It got slimmed 
down, and it eventually ended up at 21. It became very 
expensive, and now, as we find, very difficult to maintain a 
small fleet. As it is now 25 years old, and there are so few of 
them, we are having trouble with subcontractors, parts, the 
supply chain.
    These are just things that you do not have to deal with 
when you have a larger fleet. But, again, the size of the fleet 
is not going to be based just on that. It is really to meet 
requirements.
    Senator Fischer. But it is a good lesson.
    General Rand. It is a very good lesson.
    So two things would happen, ma'am. If we did not get the 
minimum of 100, I would not be meeting critical combatant 
commander requirements, and it would be another nightmare to 
maintain. We would have to keep other bomber fleets that I 
think have lost their utility longer than what they are 
intended for.
    Senator Fischer. Thank you, sir.
    Admiral Benedict, can you talk about the proposal to 
relocate operations that are currently performed at the Naval 
Industrial Reserve Ordnance Plant to Colorado and Florida, and 
specifically the cost savings that this would achieve?
    Admiral Benedict. Yes, ma'am.
    You are referring to Lockheed's decision and our support of 
that decision to move the Fleet Ballistic Missile Program out 
of Sunnyvale, California, and relocate approximately 650 
individuals to their Lockheed facility in Denver, Colorado, and 
down to the Space Coast of Florida. We fully support that and 
endorse that effort by Lockheed Martin.
    What that will entail is about 300 design engineers moving 
from Sunnyvale, California, to Denver, and about 350 
individuals that do operational support in the program office 
moving down to the Space Coast of Florida.
    We currently have about 700 Lockheed Martin employees in 
the Space Coast. So our footprint for Lockheed Martin, which is 
my prime missile contractor in Florida, will be well over 1,000 
individuals.
    If you go to Sunnyvale, California, where Lockheed is, at 
one time, it was a sprawling campus. It is now literally a much 
smaller campus surrounded by Google, Facebook, Yahoo, Juniper. 
You can go on and on and on, and the ability to attract talent 
at a rate that I can afford, both I and Lockheed recognized, 
was not a sustainable program until 2084.
    So I applaud completely the decision by Lockheed to take 
this time and invest the amount of analysis that they have done 
in order to make the move at this point in the program before 
we start back up with a potential follow-on missile to the 
Trident II D5. So we are fully on board, ma'am.
    Senator Fischer. Thank you.
    You and I have had discussions about the Columbia-class 
submarine and the production schedule that we are looking at 
there, that there really is no margin for delays in that 
schedule if we are going to have them on watch in 2031. That is 
only 14 years from now. This is DOD's second-largest 
acquisition program, so I certainly hope nothing goes wrong as 
we are moving forward.
    As we look at the history, though, when it comes to 
acquisition at DOD, sometimes that would suggest that 
contingency planning is a must. So can you discuss what steps, 
if any, are being taken to mitigate potential delays in that 
Columbia-class program?
    Admiral Benedict. Yes, ma'am.
    We have spent an appropriate amount of time under close 
scrutiny of Mr. Stackley when he was the Assistant Secretary of 
the Navy, and he remains personally and professionally invested 
in this program as the Acting Secretary.
    Throughout the development of the program, we took steps to 
mitigate risk. I will give you a couple, at least on my side--
the strategic weapons system.
    We authorized the development and formulation of what we 
call the Strategic Weapons Systems Ashore facility down in 
Space Coast Florida at the Naval Ordnance Test Unit. That 
facility is up, and half of this facility is certified. The 
other half is on track to be certified.
    What that will allow us to do is prove all the shipyard-
integrated test programs, which will expedite the acceptance of 
the platforms as they move through not only Electric Boat but 
also the U.K. [United Kingdom] shipyard over in Barrow-in-
Furness in the United Kingdom.
    So that is a major risk reduction. The other major risk 
reduction is the facility that we built at China Lake, 
California, at the Naval Air Warfare Center. That is where we 
will certify the ability to get back into production of our 
launch tubes.
    We have been out of production of launch tubes for about 25 
years. Many, many of the materials have changed. Our glues, our 
adhesives, the materials that are absolutely paramount to a 
successful launch underwater, which you had the opportunity to 
witness, of a missile the size of a Trident. So we will use 
that facility to certify the design. Then we will go into 
production there.
    On the shipboard side, Naval Reactors has their own program 
that they are operating out of Philadelphia, Pennsylvania, to 
ensure that their components are tested well in advance and 
certified to move toward the platform itself.
    Then with Electric Boat, in concert with the United 
Kingdom, we have a first article test program where we will 
build early and jointly to ensure that the design is valid and 
that the design can be produced not only on schedule but, most 
importantly, on cost as we move forward.
    So all these things are moving in parallel, and then they 
all converge starting in, essentially, 2021, so that we can put 
the boat in the water in 2028, and be on patrol in 2031.
    Yes, ma'am.
    Senator Fischer. Thank you, sir.
    Senator Donnelly?
    Senator Donnelly. Thank you, Madam Chair.
    Dr. Soofer, when we look at the cost of our nuclear 
deterrent as a percentage of the defense budget, what is the 
cost of our nuclear forces now versus the cost during the peak 
years of the modernization effort?
    Dr. Soofer. Thank you, Senator.
    Actually, I have a chart here, if we could hand them out. 
This is a chart that may look familiar to you. We have used it 
in the past in the committee.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    If you look at the box in the lower right-hand corner, this 
is all the new stuff that we need to buy, the triad, the 
nuclear command and control.
    If you look at the peak there, it is about 6.5 percent of 
the defense budget. If we did not do the recapitalization, we 
would still be spending about 3 percent.
    So today, we spend about 3 percent of the defense budget on 
all of our nuclear enterprise. That is to operate it, to 
sustain it, and to maintain it. The additional increment for 
the modernization, the recapitalization, would be probably 
another 3 percent, 3.5 percent.
    Senator Donnelly. Okay.
    Another question I wanted to ask you about, obviously, this 
situation with North Korea is difficult. It is tense.
    Dr. Soofer, what are your thoughts on how to best reassure 
our allies in South Korea while effectively deterring North 
Korea, especially given the increasing sophistication of the 
program?
    Dr. Soofer. Thank you, Senator. It is a multifaceted 
approach.
    So the Secretary of Defense visiting South Korea is one way 
of assuring them. We have bombers that overfly South Korea to 
send a message. We take their senior military officials to 
visit certain U.S. nuclear capabilities. We hold dialogues with 
their military and with their Ministry of Foreign Affairs twice 
a year, once in their country and once in the United States, to 
talk about U.S. nuclear strategy, to try to explain some of our 
capabilities.
    So it is a combination of the messaging and the actual 
capabilities that we show them that hopefully reassures them.
    Senator Donnelly. My last question is, Admiral Benedict, I 
was wondering, what are the main risks that you are concerned 
about with the construction of the launch tubes for the 
Columbia-class? I know you talked a little bit about changing 
materials from before and all these kinds of things. What are 
the things that keep you concerned?
    Admiral Benedict. I think, first and foremost, is the fact 
that we have been out of production of launch tubes for 
approximately 25 years. It is a fairly significant production 
run. It is 240 launch tubes for both the U.S. and the United 
Kingdom.
    Obviously, a lot has changed in those 25 years, 
specifically the environmental aspects that we are now required 
within the United States and specifically in the State of 
California. We produce our launch tubes in Sunnyvale, 
California, at Northrop Grumman.
    So as we do that, the original design called for some very 
unique adhesives, glues, materials, which if we could find 
them, which we can't, we would probably have a hard time 
incorporating them into the current design. So we have had to 
replicate or, in many cases, supplement different materials.
    Again, as you had the opportunity to ride the boat and 
watch the launch of a Trident, it is a very simplistic looking 
launch tube, but it is a very complicated design to keep that 
pressure underneath that missile as we eject it in a steam 
bubble. That whole launch tube has to sustain that shock and 
that impulse while the missile travels through it.
    So that is what keeps me up. Then, of course, the other 
thing is the work force. There is no work force that built the 
last launch tube. We have to create a work force.
    Senator Donnelly. Let me ask you one more.
    Admiral Benedict. Yes, sir.
    Senator Donnelly. That would be, have you reviewed any 
other locations within the Navy inventory to host all or some 
of the Sunnyvale jobs?
    Admiral Benedict. We have. Again, part of our acquisition 
strategy is that we hold the prime accountable to make the most 
economic decision. We are appropriately facilitized within 
Northrop Grumman in Sunnyvale, California, which is where we 
built every launch tube, in terms of tooling and facilities, to 
start that production line there.
    Just as we made the decision to move out of Sunnyvale, 
California, with Lockheed Martin, I have raised that same 
question with every one of my industrial partners thinking 
long-term toward 2084.
    Senator Donnelly. For Lockheed Martin, too?
    Admiral Benedict. Yes, sir.
    So I would say that Northrop has made the decision that, 
given the infrastructure and the investment that they have 
there, that is the most economic place to produce this run. But 
I know that they are looking at options after the production 
run would end on where they should locate.
    Senator Donnelly. Has Lockheed looked at other options than 
the Space Coast and Colorado?
    Admiral Benedict. Well, Lockheed looked at those and made 
that decision, so Lockheed FBM [Fleet Ballistic Missile] is out 
of Sunnyvale. Now, there remains THAAD and other programs. 
Satellite programs will remain in Sunnyvale.
    The only program moving completely out of Sunnyvale, 
California, for Lockheed Martin is the Fleet Ballistic Missile 
Program. Northrop also produces a significant amount of 
material for PEO Submarines and Naval Reactors. So turbines and 
gears, all that material is produced in the same factory that I 
produce the launch tubes.
    So there is a sufficient throughput through that factory to 
justify the launch tube production in that facility.
    Senator Donnelly. Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator Donnelly.
    I am going to ask another question, if you want to follow 
up again, too, then.
    We are having a lot of fun here today. So thank you.
    General Rand, I just want to point out something in your 
written testimony that you said. ``I cannot overemphasize this 
point: B-21 and B-52 without LRSO [Long-Range Standoff Missile] 
greatly reduces our ability to hold adversaries at risk, 
increases risk to our aircraft and aircrew, and negatively 
impacts our ability to execute the mission.''
    Would you like to comment on that?
    General Rand. Ma'am, I do not know how I can make it any 
clearer. I stand by those words.
    Senator Fischer. You would be supportive of us moving 
forward on that, correct?
    General Rand. Absolutely.
    Senator Fischer. Thank you, sir.
    General Rand. Again, the only comment--to me, it is just 
critical and fundamental that we have long-range standoff, with 
or without a B-21.
    The current long-range standoff nuclear weapon we have, the 
ALCM, Air Launch Cruise Missile, is 37 years old today. It will 
hit 40 by 2020. By the time we replace it in 2030, it will be a 
50-year-old weapons system.
    For the same reason I talked to Senator Cotton about the 
importance of being able to replace GBSD, if we want the weapon 
to hit its intended target, we have to modernize it.
    Senator Fischer. Thank you, sir.
    Senator Donnelly, do you have anything to add?
    Senator Donnelly. I just want to thank the witnesses for 
being here today. Thank you.
    Senator Fischer. I would thank you all for being here 
today. We always appreciate the information that you provide to 
us.
    If you do receive written questions from any members, I 
would ask that you answer those and return them promptly.
    Senator Fischer. Thank you again for your attendance.
    We are adjourned.
    [Whereupon, at 3:54 p.m., the subcommittee was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Joe Donnelly
                          b-52 life extension
    1. Senator Donnelly. General Rand, my understanding is the B-52 
electronics warfare suite is 1980's technology, have you considered 
upgrading it since it still must come into firing range for any 
standoff weapon and our adversaries are increasingly using advanced 
strike systems?
    General Rand. The B-52 defensive systems are optimized against 
1970s era threat systems and place the B-52 at risk while accomplishing 
current OPLAN taskings. Air Force Global Strike Command is currently 
conducting studies to determine an affordable path for the Electronic 
Warfare modernization efforts the B-52 requires to remain relevant in 
the modern battlespace.

    2. Senator Donnelly. General Rand, how serious is the shortfall 
with the survivable communications for the B-52 whether it is MILSTAR 
or its Very Long Frequency system? What actions are being taken to 
maintain or upgrade these systems?
    General Rand. [Deleted.]
                     ``3+2'' warhead life extension
    3. Senator Donnelly. Mr. MacStravic, is the Nuclear Weapons Council 
(NWC) ``3+2 Strategy'' still considered to be viable? Will the NWC re-
evaluate 3+2 and other approaches to stockpile sustainment following 
the Nuclear Posture Review (NPR)? Should 3+2 Strategy be placed on hold 
pending the NPR?
    Mr. MacStravic. The Nuclear Weapons Council's (NWC) long-term 
strategy for the nuclear weapons stockpile is the 3+2 Strategy, with 
three types of interoperable nuclear explosive packages for use in 
submarine-launched and intercontinental ballistic missiles, and two 
types of air-delivered warheads. It is premature to prejudge any 
outcome of the Nuclear Posture Review (NPR). The 3+2 Strategy should 
not be placed on hold pending completion of the NPR. The Department of 
Defense (DoD) strongly supports full funding for the Department of 
Energy's (DOE) nuclear weapons programs. The NPR will examine all 
elements of U.S. nuclear forces and posture to ensure that our nuclear 
deterrent is modern, robust, flexible, resilient, ready, and 
appropriately tailored to deter 21st Century threats. The NWC will 
carefully consider the results of the NPR, and the DoD and DOE will 
work closely with Congress should any changes to the current program of 
record be recommended.
  assistant secretary of defense for nuclear, chemical and biological 
                      defense programs, asd (ncb)
    4. Senator Donnelly. Mr. MacStravic, the upcoming modernization bow 
wave will rely heavily on the roles of the ASD (NCB) and the Nuclear 
Weapons Council in particular.
    As you re-organize the Department's acquisition arm are you 
ensuring the Assistant Secretary of Defense for Nuclear, Chemical and 
Biological Weapons is intact and can perform its duties?
    Mr. MacStravic. The Secretary of Defense and the Deputy Secretary 
of Defense are executing the required re-organization of the Office of 
the Under Secretary of defense for Acquisition, Technology and 
Logistics. We are committed to ensuring that future nuclear 
modernization efforts are fully supported and appropriately managed.
                               __________
            Questions Submitted by Senator Elizabeth Warren
                      oversight of nc3 acquisition
    5. Senator Warren. Mr. MacStravic, the Nuclear Command, Control, 
and Communication system (NC3) is critical to ensuring communication if 
the United States is under a nuclear attack, but it requires 
significant modernization. General Rand testified that there is little 
to no slack in the acquisition schedule, and said that the Air Force 
was coordinating with AT&L. What is the role of AT&L in ensuring that 
this program stays on schedule as the existing NC3 system wears out?
    Mr. MacStravic. USD(AT&L) co-chairs the congressionally-mandated 
Council on Oversight of the National Leadership C3 System (Council). 
The Council is responsible for oversight of, advocacy for, and 
prioritization of resources for NC3. The NC3 system is a complex 
system-of-systems that demands synchronization of many programs and 
projects to deliver modernized capabilities as quickly as possible, 
while continuing to satisfy current needs. The Council, and by 
extension the USD(AT&L) monitors the status of the existing system, the 
modernization efforts, and the NC3 end-to-end interface modernization. 
In addition, by law the Council must notify congressional defense 
committees if an authorization or appropriations bill provides 
insufficient funds for NC3 modernization. USD(AT&L) also chairs the 
Defense Acquisition Board and is the Milestone Decision Authority (MDA) 
for selected NC3 modernization programs. As the Defense Acquisition 
Executive, USD(AT&L) oversees the performance of the Defense 
Acquisition System. In these roles, USD(AT&L) ensures that programs, 
including NC3 modernization programs, stay on schedule. Since the Air 
Force is responsible for approximately 75 percent of the NC3 budget, 
this often means coordinating with the Air Force Service Acquisition 
Executive, Program Executive Officers, and Program Managers to address 
issues that affect their programs.

    6. Senator Warren. General Rand, you testified that General 
Pawlikowski, Commander of Air Force Materiel Command, requires 
additional billets in the NC3 program executive office in order to 
ensure the NC3 acquisition stays on schedule. Given the priority placed 
on the NC3 program, how and when does the Air Force intend to resource 
those billets?
    General Rand. As the Air Force Lead for Nuclear Command, Control 
and Communication (NC3), Air Force Global Strike Command will support 
all valid requirements to ensure the NC3 program executive office is 
properly sourced to ensure acquisitions stay on schedule. To that end, 
any validated need put forth by General Pawlikowski or any of our 
mission partners during the Fiscal Year 2019 Program Objective 
Memorandum (POM) or any subsequent POM submissions, I will personally 
advocate for ensuring it remains a high priority to the Air Force 
corporate structure.

    7. Senator Warren. General Rand, you testified that the Air Force 
completed a comprehensive review of each NC3 sub-system to assess its 
health and prioritize modernization efforts. Please provide the results 
of that review to the committee.
    General Rand. Air Force Global Strike Command has taken action on 
many fronts to maintain in integrated, synchronized and responsive 
operational capability across the Air Force Nuclear Enterprise, 
including Nuclear Command, Control and Communications (NC3). The 
Secretary and Chief of Staff of the Air Force signed a memo in August 
of 2015 designating Global Strike Command as lead command for Air Force 
National Leadership Command Capability (NLCC)/NC3. The memo also 
established a Program Executive Officer for Air Force-owned portions of 
NC3 and directly-related elements of NLCC. This memo also drove the Air 
Force to establish the Aif Force NC3 Center, a brick and mortar 
facility at Barksdale Air Force Base housing 236 NC3 professionals 
focused organize, train and equip matters for NC3 in support of U.S. 
Strategic Command. This same memo also designated NC3 systems as a 
weapon system with the Air Force Nuclear Weapons Center as NC3 material 
manager. Following these designations, Air Force Material Command 
Commander formally tasked Air Force Nuclear Weapons Center Commander to 
provide direct support to Global Strike Command and directed a three 
phased NC3 Health Assessment to begin the process of normalizing the 
Air Force NC3 Weapon System. The results of this assessment has been 
the foundation for many changes and reforms to the NC3 enterprise. The 
2015 Health Assessment used a systems level approach to determine the 
overall status of the NC3 Weapons System. It looked across the 
enterprise and reported well over 600 actionable items binned into five 
categories. Operational and Maintenance Reporting of specific system 
health, Formal NC3 Training, Manning across the NC3 enterprise, 
Electromagnetic Pulse Protection and Technical Order deficiencies. Many 
of these 600 assessment action items have been resolved or have become 
obsolete based on the NC3 Weapon System developments over the past 
three years. Global Strike Command continues to take action on findings 
of the report, some of which will take time to fix. Overall, Global 
Strike Command and its NC3 Center use the results of the health 
assessment to guide actions for improvements in policy, planning, 
programming, and sustainment areas as applicable to the NC3 Weapon 
System.

                                 <all>
</pre></body></html>
